No.
IN THE

Supreme Court of the United States
DEUTSCHE BANK TRUST COMPANY AMERICAS, ET AL.,
Petitioners,
v.
ROBERT R. MCCORMICK FOUNDATION, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Second Circuit
PETITION APPENDIX
JAY TEITELBAUM
Teitelbaum Law
Group, LLC
1 Barker Avenue
White Plains, NY 10601
(914) 437-7670
jteitelbaum@tblawllp.com
Counsel for the Retirees

July 6, 2020

LAWRENCE S. ROBBINS
Counsel of Record
ROY T. ENGLERT, JR.
ALAN E. UNTEREINER
JOSHUA S. BOLIAN
MEGAN D. BROWDER
Robbins, Russell, Englert,
Orseck, Untereiner &
Sauber LLP
2000 K Street, N.W.
Washington, DC 20006
(202) 775-4500
lrobbins@robbinsrussell.com
Counsel for the Noteholders

i
TABLE OF CONTENTS
APPENDIX A: Opinion of the United States
Court of Appeals for the Second Circuit
(December 19, 2019) .................................................. 1a
APPENDIX B: Order of the United States
Court of Appeals for the Second Circuit
Recalling the Mandate (May 15, 2018)................... 69a
APPENDIX C: Statement of Justices Kennedy
and Thomas (April 3, 2018) .................................... 74a
APPENDIX D: Opinion of the United States
Court of Appeals for the Second Circuit
(March 29, 2016)...................................................... 75a
APPENDIX E: Memorandum and Order of the
United States District Court for the Southern
District of New York (September 23, 2013) ......... 128a
APPENDIX F: Order of the United States
Court of Appeals for the Second Circuit
Denying Rehearing (February 6, 2020) ................ 159a
APPENDIX G: 11 U.S.C. § 544 ............................. 161a
APPENDIX H: 11 U.S.C. § 548............................. 163a
APPENDIX I: List of Petitioners .......................... 169a
APPENDIX J: List of Respondents ...................... 173a
APPENDIX K: Related Cases ............................... 296a

1a
APPENDIX A
13-3992-cv(L)
In re: Tribune Company Fraudulent Conveyance
Litigation
In the United States Court of Appeals For the
Second Circuit
________________________
August Term, 2014
Nos. 13-3992-cv; 13-3875-cv; 13-4178-cv; 13-4196-cv
IN RE: TRIBUNE COMPANY FRAUDULENT
CONVEYANCE LITIGATION
NOTE HOLDERS, Deutsche Bank Trust Company
Americas, Law Debenture Trust Company of New
York, Wilmington Trust Company, INDIVIDUAL
RETIREES, William A. Niese, on behalf of a putative
class of Tribune Company retirees,
Plaintiffs-Appellants-Cross-Appellees,
MARK S. KIRSCHNER, as Litigation Trustee for the
Tribune Litigation Trust,
Plaintiff,
TENDERING PHONES HOLDERS, Citadel Equity
Fund Ltd., Camden Asset Management LLP and
certain of their affiliates,

2a
Plaintiffs-Intervenors,
v.
LARGE
PRIVATE
BENEFICIAL
OWNERS,
FINANCIAL
INSTITUTION
HOLDERS,
FINANCIAL INSTITUTION CONDUITS, Merrill
Lynch, Pierce, Fenner & Smith, Inc., on behalf of a
putative class of former Tribune Company
shareholders, PENSION FUNDS, including public,
private, and Taft Hartley Funds, INDIVIDUAL
BENEFICIAL OWNERS, Mario J. Gabelli, on behalf
of a putative class of former Tribune Company
shareholders, MUTUAL FUNDS, AT-LARGE,
ESTATE OF KAREN BABCOCK, PHILLIP S.
BABCOCK, DOUGLAS BABCOCK, DEFENDANTS
LISTED ON EXHIBIT B,
Defendants-Appellees-Cross-Appellants,
CURRENT AND FORMER DIRECTORS AND
OFFICERS, Betsy D. Holden, Christopher Reyes,
Dudley S. Taft, Enrique Hernandez, Jr., Miles D.
White, Robert S. Morrison, William A. Osborn, Harry
Amsden, Stephen D. Carver, Dennis J. FitzSimons,
Robert Gremillion, Donald C. Grenesko, David Dean
Hiller, Timothy J. Landon, Thomas D. Leach, Luis E.
Le, Mark Hianik, Irving Quimby, Crane Kenney,
Chandler Bigelow, Daniel Kazan, Timothy Knight,
Thomas Finke, SAM ZELL AND AFFILIATED
ENTITIES,
EGI-TRB,
LLC,
Equity
Group
Investments, LLC, Sam Investment Trust, Samuel
Zell, Tower CH, LLC, Tower DC, LLC, Tower DL,
LLC, Tower EH, LLC, Tower Gr, LARGE

3a
SHAREHOLDERS, Chandler Trusts and their
representatives, FINANCIAL ADVISORS, Valuation
Research Corporation, Duff & Phelps, LLC, Morgan
Stanley & Co. Inc. and Morgan Stanley Capital
Services, Inc., GreatBanc Trust Company, Citigroup
Global Markets, Inc., CA PUBLIC EMPLOYEE
RETIREMENT SYSTEM, CALPERS, UNIVERSITY
OF CA REGENTS, T. ROWE PRICE ASSOCIATES,
INC., MORGAN KEEGAN & COMPANY, INC.,
NTCA, DIOCESE OF TRENTON-PENSION FUND,
FIRST
ENERGY
SERVICE
COMPANY,
MARYLAND
STATE
RETIREMENT
AND
PENSION SYSTEM, T BANK LCV QP, T BANKLCV-PT, JAPAN POST INSURANCE, CO., LTD.,
SERVANTS OF RELIEF FOR INCURABLE
CANCER (AKA DOMINICAN SISTERS OF
HAWTHORNE), NEW LIFE INTERNATIONAL,
NEW
LIFE
INTERNATIONAL
TRUST,
SALVATION ARMY, SOUTHERN TERRITORIAL
HEADQUARTERS, CITY OF PHILADELPHIA
EMPLOYEES, OHIO CARPENTERS’ MIDCAP
(AKA OHIO CARPENTERS’ PENSION FUND),
TILDEN H. EDWARDS, JR., MALLOY AND
EVANS, INC., BEDFORD OAK PARTNERS, LP,
DUFF AND PHELPS LLC, DURHAM J. MONSMA,
CERTAIN TAG-ALONG DEFENDANTS, MICHAEL
S. MEADOWS, WIRTZ CORPORATION,
Defendants.
________________________
Appeal from the United States District Court
for the Southern District of New York

4a
No. 1:11-md-02296
________________________
ARGUED: NOVEMBER 5, 2014
DECIDED: MARCH 29, 2016
AMENDED: DECEMBER 19, 2019
________________________
Before: WINTER, DRONEY, Circuit Judges, and
HELLERSTEIN, District Judge.*
________________________
Appeal from a dismissal by the United States
District Court for the Southern District of New York
(Richard J. Sullivan, Judge), of state law,
constructive fraudulent conveyance claims brought
by creditors’ representatives against the Chapter 11
debtor’s former shareholders, who were cashed out in
an LBO. The district court held that plaintiffs lacked
statutory standing under the Bankruptcy Code. We
hold that appellants have statutory standing but
affirm on the ground that appellants’ claims are
preempted by Section 546(e) of that Code.

*

Judge Alvin K. Hellerstein, of the Southern District of New
York, sitting by designation.

5a
___________________________________
ROY T. ENGLERT, JR. (Lawrence
S. Robbins, Ariel N. Lavinbuk,
Daniel N. Lerman, Shai D.
Bronshtein,
Robbins,
Russell,
Englert, Orseck, Untereiner &
Sauber LLP, Washington, DC,
Pratik A. Shah, James E. Tysse,
Z.W. Julius Chen, Akin Gump
Strauss Hauer & Feld LLP,
Washington, DC, David M. Zensky,
Mitchell
Hurley,
Deborah
J.
Newman, Akin Gump Strauss
Hauer & Feld LLP, New York, NY,
Robert J. Lack & Hal Neier,
Friedman Kaplan Seiler & Adelman
LLP, New York, NY, Daniel M.
Scott & Kevin M. Magnuson,
Kelley, Wolter & Scott, P.A.,
Minneapolis, MN, David S. Rosner
& Sheron Korpus, Kasowitz Benson
Torres & Friedman LLP, New York,
NY, Joseph Aronauer, Aronauer Re
& Yudell, LLP, New York, NY, on
the
brief),
Robbins,
Russell,
Englert, Orseck, Untereiner &
Sauber LLP, Washington, DC, for
Plaintiffs-Appellants-CrossAppellees Note Holders.
Jay Teitelbaum, Teitelbaum &
Baskin LLP, White Plains, NY, for
Plaintiffs-Appellants-Cross-

6a
Appellees Individual Retirees.
Joel A. Feuer & Oscar Garza,
Gibson, Dunn & Crutcher LLP, Los
Angeles, CA, David C. Bohan &
John P. Sieger, Katten Muchin
Rosenman LLP, Chicago, IL, for
Defendants-Appellees-CrossAppellants Large Private Beneficial
Owners.
PHILIP D. ANKER (Alan E.
Schoenfeld, Adriel I. Cepeda
Derieux, Pablo G. Kapusta, Wilmer
Cutler Pickering Hale and Dorr
LLP, New York, NY, Sabin Willett
& Michael C. D’Agnostino, Bingham
McCutchen LLP, Boston, MA, Joel
W. Millar, Washington, DC, on the
brief), Wilmer Cutler Pickering
Hale and Dorr LLP, New York, NY,
for
Defendants-Appellees-CrossAppellants Financial Institution
Holders.
Elliot Moskowitz, Davis Polk &
Wardwell LLP, New York, NY,
Daniel L. Cantor, O’Melveny &
Myers LLP, New York, NY, Gregg
M. Mashberg & Stephen L. Ratner,
Proskauer Rose LLP, New York,
NY,
for
Defendants-AppelleesCross-Appellants
Financial
Institution Conduits.

7a
DOUGLAS
HALLWARDDRIEMEIER, Ropes & Gray LLP,
Washington, DC, D. Ross Martin,
Ropes & Gray LLP, New York, NY,
Matthew L. Fornshell, Ice Miller
LLP,
Columbus,
OH,
for
Defendants-Appellees-CrossAppellants Pension Funds.
Andrew J. Entwistle, Entwistle &
Cappucci, LLP, New York, NY,
David N. Dunn, Potter Stewart, Jr.
Law Offices, Brattleboro, VT, Mark
A. Neubauer, Steptoe & Johnson
LLP, Los Angeles, CA, for
Defendants-Appellees-CrossAppellants Individual Beneficial
Owners.
Michael S. Doluisio & Alexander
Bilus, Dechert LLP, Philadelphia,
PA, Steven R. Schoenfeld, Robinson
& Cole LLP, New York, NY, for
Defendants-Appellees-CrossAppellants Mutual Funds.
Alan J. Stone & Andrew M.
LeBlanc, Milbank, Tweed, Hadley
& McCloy LLP, New York, NY, for
Defendant-Appellee-CrossAppellant At-Large.
Gary
Stein,
Momborquette,

David
William

K.
H.

8a
Gussman, Jr., Schulte Roth & Zabel
LLP,
New
York,
NY,
for
Defendants-Appellees-CrossAppellants Defendants
Listed on Exhibit B.
Kevin Carroll, Securities Industry
and Financial Markets Association,
Washington, DC, Holly K. Kulka,
NYSE Euronext, New York, NY,
Marshall H. Fishman, Timothy P.
Harkness,
David
Y.
Livshiz,
Freshfields Bruckhaus Deringer US
LLP, New York, NY, for Amici
Curiae Securities Industry and
Financial Markets Association,
International
Swaps
and
Derivatives Association, Inc., and
the NYSE Euronext.
Michael A. Conley, John W. Avery,
Tracey A. Hardin, Benjamin M.
Vetter, Securities and Exchange
Commission, Washington, DC, for
Amicus Curiae Securities and
Exchange Commission.
WINTER and DRONEY, Circuit Judges:
Representatives of certain unsecured creditors of
the Chapter 11 debtor Tribune Company appeal from
Judge Sullivan’s grant of a motion to dismiss their
state law, constructive fraudulent conveyance claims
brought against Tribune’s former shareholders.

9a
Appellants seek to recover an amount sufficient to
satisfy Tribune’s debts to them by avoiding
(recovering) payments by Tribune to shareholders
that purchased all of its stock. The payments
occurred in a transaction commonly called a
leveraged buyout (“LBO”),1 soon after which Tribune
went into Chapter 11 bankruptcy. Appellants appeal
the district court’s dismissal for lack of statutory
standing, and appellees cross-appeal from the
district court’s rejection of their argument that
appellants’ claims are preempted.2
We address two issues: (i) whether appellants are
barred by the Bankruptcy Code’s automatic stay
provision from bringing state law, constructive
fraudulent conveyance claims while avoidance
proceedings against the same transfers brought by a
party exercising the powers of a bankruptcy trustee
on an intentional fraud theory are ongoing; and (ii) if
not, whether the creditors’ state law, constructive
fraudulent conveyance claims are preempted by
Bankruptcy Code Section 546(e).
On issue (i), we hold that appellants are not
barred by the Code’s automatic stay because they
1

In a typical LBO, a target company is acquired with a
significant portion of the purchase price being paid through a
loan secured by the target company’s assets.

2

Because the issue has no effect on our disposition of this
matter, we do not pause to consider whether a cross-appeal was
necessary for appellees to raise the preemption issues in this
court, but, for convenience purposes, we sometimes refer to
those issues by the term crossappeal.

10a
have been freed from its restrictions by orders of the
bankruptcy court and by the debtors’ confirmed
reorganization plan. On issue (ii), the subject of
appellees’ cross-appeal, we hold that appellants’
claims are preempted by Section 546(e).
That
Section shields certain transactions from a
bankruptcy trustee’s avoidance powers, including,
inter alia, transfers by or to a financial institution in
connection with a securities contract, except through
an intentional fraudulent conveyance claim.3
We therefore affirm.
BACKGROUND
a) The LBO
Tribune Media Company (formerly known as
“Tribune Company”) is a multimedia corporation
that, in 2007, faced deteriorating financial prospects.
Appellee Samuel Zell, a billionaire investor, proposed
to acquire Tribune through an LBO.
In
consummating the LBO, Tribune borrowed over $11
billion secured by its assets. The $11 billion plus,
combined with Zell’s $315 million equity
contribution, was used to refinance some of Tribune’s
pre-existing bank debt and to cash out Tribune’s
3

As discussed infra, after we previously issued an opinion in
this appeal, In re Tribune Co. Fraudulent Conveyance Litig.
(“Tribune I”), 818 F.3d 98 (2d Cir. 2016), the Supreme Court
clarified the test for determining whether a transaction falls
within Section 546(e), see Merit Mgmt. Grp., LP v. FTI
Consulting, Inc., 138 S. Ct. 883 (2018), causing us to recall the
mandate and issue this amended opinion.

11a
shareholders for over $8 billion at a premium price -above its trading range -- per share.
It is undisputed that Tribune transferred the over
$8 billion to a “securities clearing agency” or other
“financial institution,” as those terms are used in
Section 546(e), acting as intermediaries in the LBO
transaction.4 Those intermediaries in turn paid the
funds to the shareholders in exchange for their
shares that were then returned to Tribune.
Appellants seek to satisfy Tribune’s debts to them by
avoiding Tribune’s payments to the shareholders.
Appellants do not seek money from the
intermediaries. See Note 15, infra.
b) Bankruptcy Proceedings
On December 8, 2008, with debt and contingent
liabilities exceeding its assets by more than $3
billion, Tribune and nearly all of its subsidiaries filed
for bankruptcy under Chapter 11 in the District of
Delaware. A trustee was not appointed, and Tribune
and its affiliates continued to operate the businesses
as debtors in possession. See 11 U.S.C. § 1107(a)
(“Subject to any limitations on a trustee . . . a debtor
in possession shall have all the rights . . ., and
powers, and shall perform all the functions and
duties . . . of a trustee . . . .”). In discussing the
powers of a bankruptcy trustee that can be exercised
by a trustee or parties designated by a bankruptcy
4

Appellees contend that, with respect to the LBO transaction,
Tribune also qualified as a “financial institution,” but
appellants disagree. We describe the facts relevant to that
dispute infra.

12a
court, we shall refer to the trustee or such parties as
the “trustee et al.”
The bankruptcy court appointed an Official
Committee of Unsecured Creditors (the “Committee”)
to represent the interests of unsecured creditors. In
November 2010, alleging that the LBO-related
payments
constituted
intentional
fraudulent
conveyances, the Committee commenced an action
under Code Section 548(a)(1)(A) against the cashed
out Tribune shareholders, various officers, directors,
financial advisors, Zell, and others alleged to have
benefitted from the LBO. An intentional fraudulent
conveyance is defined as one in which there was
“actual intent to hinder, delay, or defraud” a creditor.
11 U.S.C. § 548(a)(1)(A).
In June 2011, two subsets of unsecured creditors
filed state law, constructive fraudulent conveyance
claims in various federal and state courts. The
plaintiffs, the appellants before us, were: (i) the
Retiree Appellants, former Tribune employees who
hold claims for unpaid retirement benefits and
(ii) the Noteholder Appellants, the successor
indenture trustees for Tribune’s pre-LBO senior
notes and subordinated debentures. A constructive
fraudulent conveyance is, generally speaking, a
transfer for less than reasonably equivalent value
made when the debtor was insolvent or was rendered
so by the transfer. See Picard v. Fairfield Greenwich
Ltd., 762 F.3d 199, 208-09 (2d Cir. 2014).
Before bringing these actions, appellants moved
the bankruptcy court for an order stating that: (i)
after the expiration of the two-year statute of
limitations period during which the Committee was

13a
authorized to bring avoidance actions under 11
U.S.C. § 546(a), eligible creditors had regained the
right to prosecute their creditor state law claims; and
(ii) the automatic stay imposed by Code Section
362(a) was lifted solely to permit the immediate
filing of their complaint. In support of that motion,
the Committee argued that, under Section 546(a),
the “state law constructive fraudulent conveyance
transfer claims ha[d] reverted to individual
creditors” and that the “creditors should consider
taking appropriate actions to preserve those claims.”
Statement of the Official Committee of Unsecured
Creditors in Supp. of Mot. at 3, In re Tribune Co., No
08-13141 (KJC) (Bankr. D. Del. Mar. 17, 2011).
In April 2011, the bankruptcy court lifted the
Code’s automatic stay with regard to appellants’
actions.
The court reasoned that because the
Committee had elected not to bring the constructive
fraudulent conveyance actions within the two-year
limitations period following the bankruptcy petition
imposed by Section 544, fully discussed infra, the
unsecured creditors “regained the right, if any, to
prosecute [such claims].” J. App’x at 373. Therefore,
the court lifted the Section 362(a) automatic stay “to
permit the filing of any complaint by or on behalf of
creditors on account of such Creditor [state law
fraudulent conveyance] Claims.” Id. The court
clarified, however, that it was not resolving the
issues of whether the individual creditors had
statutory standing to bring such claims or whether
such claims were preempted by Section 546(e).
On March 15, 2012, the bankruptcy court set an
expiration date of June 1, 2012 for the remaining

14a
limited stay on the state law, fraudulent conveyance
claims. In July 2012, the bankruptcy court ordered
confirmation of the proposed Tribune reorganization
plan. The plan terminated the Committee and
transferred responsibility for prosecuting the
intentional fraudulent conveyance action to an entity
called the Litigation Trust. The confirmed plan also
provided that the Retiree and Noteholder Appellants
could pursue “any and all LBO-Related Causes of
Action arising under state fraudulent conveyance
law,” except for the federal intentional fraudulent
conveyance and other LBO-related claims pursued
by the Litigation Trust. J. App’x at 643. Under the
plan, the Retiree and Noteholder Appellants
recovered approximately 33 cents on each dollar of
debt. The plan was scheduled to take effect on
December 31, 2012, the date on which Tribune
emerged from bankruptcy.
c) District Court Proceedings
Appellants’ various state law, fraudulent
conveyance complaints alleged that the LBO
payments, made through financial intermediaries as
noted above, were for more than the reasonable
value of the shares and made when Tribune was in
distressed financial condition.
Therefore, the
complaints concluded, the payments were avoidable
by creditors under the laws of various states. These
actions were later consolidated with the Litigation
Trust’s ongoing federal intentional fraud claims in a
multi-district litigation proceeding that was
transferred to the Southern District of New York. In
re: Tribune Co. Fraudulent Conveyance Litig., 831 F.
Supp. 2d 1371 (J.P.M.L. 2011).

15a
After consolidation, the Tribune shareholders
moved to dismiss appellants’ claims. The district
court granted the motion on the ground that the
Bankruptcy Code’s automatic stay provision deprived
appellants of statutory standing to pursue their
claims so long as the Litigation Trustee was
pursuing the avoidance of the same transfers, albeit
under a different legal theory. In re Tribune Co.
Fraudulent Conveyance Litig., 499 B.R. 310, 325
(S.D.N.Y. 2013). The court held that the bankruptcy
court had only “conditionally lifted the stay.” Id. at
314.
The district court rejected appellees’ preemption
argument based on Section 546(e). That Section bars
a trustee et al. from exercising its avoidance powers
under Section 544 to avoid certain transactions
including, inter alia, transfers “by or to . . . a
financial institution . . . in connection with a
securities contract,” except through an intentional
fraudulent conveyance claim. 11 U.S.C. § 546(e).
The district court held that Section 546(e) did not bar
appellants’ actions because: (i) Section 546(e)’s
prohibition on avoiding the designated transfers
applied only to a bankruptcy trustee et al., id. at 31516; and (ii) Congress had declined to extend Section
546(e) to state law, fraudulent conveyance claims
brought by creditors, id. at 318.
d) Appellate Proceedings
Appellants appealed the dismissal for lack of
statutory standing, and appellees cross-appealed the
rejection of their argument that appellants’ claims
are preempted. In a prior opinion, In re Tribune Co.

16a
Fraudulent Conveyance Litig. (“Tribune I”), 818 F.3d
98 (2d Cir. 2016), we affirmed the dismissal of
appellants’ claims on the ground that Section 546(e)
preempts “fraudulent conveyance actions brought by
creditors whose claims are [] subject to Section
546(e).” Id. at 118, 123-24. At the time, it was the
law in this Circuit, under In re Quebecor World
(USA) Inc. (“Quebecor”), 719 F.3d 94, 100 (2d Cir.
2013), that the payments at issue fell within Section
546(e) because entities covered by Section 546(e) had
served as intermediaries. See Tribune I, 818 F.3d at
120 (“Section 546(e)’s language clearly covers
payments, such as those at issue here, by commercial
firms to financial intermediaries to purchase shares
from the firm’s shareholders.”).
Appellants petitioned for rehearing en banc,
which was denied, and we issued the mandate.
Appellants then petitioned for certiorari, presenting
the following question, among others: “Whether the
Second Circuit correctly held . . . that a fraudulent
transfer is exempt . . . under 11 U.S.C. § 546(e) when
a financial institution acts as a mere conduit for
fraudulently transferred property.” Petition for a
Writ of Certiorari, Deutsche Bank Trust Co. Ams. v.
Robert R. McCormick Found., No. 16-317 (U.S. Sept.
9, 2016), 2016 WL 4761722, at *1.
While that petition was pending, the Supreme
Court in Merit Mgmt. Grp., LP v. FTI Consulting,
Inc., 138 S. Ct. 883 (2018), rejected Quebecor’s
interpretation of Section 546(e)’s scope, holding that
Section 546(e) does “not protect transfers in which
financial institutions served as mere conduits.” Merit
Mgmt., 138 at 892. The question presented in Merit

17a
Mgmt. was whether, “in the context of a transfer that
was executed via one or more transactions,” such as
a transfer from Party A to Party D that included
Parties B and C as intermediaries, the relevant
transfer for purposes of Section 546(e) is the
overarching transfer from Party A to Party D or “any
component part[] of the overarching transfer,” such
as the transfer from Party B to Party C. Id. at 888.
The Court concluded, based on the “plain meaning”
of Section 546(e), that the relevant transfer is the
overarching transfer, and therefore abrogated the
relevant portion of Quebecor. Id. at 888, 897; see
also id. at 892 n.6 (identifying Quebecor as one of the
decisions in conflict with its holding).
Soon thereafter, Justices Kennedy and Thomas
issued a statement suggesting that this Court might
wish to recall its mandate or provide other relief in
light of Merit Mgmt. See Statement of Justice
Kennedy and Justice Thomas Respecting the
Petition for Certiorari, Deutsche Bank Trust Co.
Ams., No. 16-317 (Apr. 3, 2018), 2018 WL 1600841.
Appellants subsequently filed a motion to recall the
mandate, and we recalled the mandate in
anticipation of further panel review.
We have since agreed on changes to our prior
opinion, which are reflected in this amended opinion.
Upon the filing of this amended opinion, the original
opinion is vacated. See, e.g., Brown v. City of
Oneonta, New York, 221 F.3d 329, 336 (2d Cir.
2000), amending and superseding 195 F.3d 111 (2d
Cir. 1999).

18a
DISCUSSION
We review de novo the district court’s grant of
appellees’ motion to dismiss. See Mary Jo C. v. N.Y.
State & Local Ret. Sys., 707 F.3d 144, 151 (2d Cir.
2013). The relevant facts being undisputed for
purposes of this proceeding, only issues of law are
before us.5
a) Statutory Standing to Bring the Claims
We first address the district court’s dismissal of
appellants’ claims on the ground that they lacked
standing to bring them because of Section 362(a)(1).6
5

Appellants argue that one of the issues we address infra -whether Tribune’s payments to shareholders remain subject to
Section 546(e) following Merit Mgmt. -- requires resolving two
factual disputes “never before tested in this case,” thus
precluding a determination as a matter of law and necessitating
a remand to the district court. Appellants’ Reply in Support of
Motion to Recall the Mandate at 9-11. Neither of the disputes
identified by appellants is factual in nature, however.
Appellants first contend that certain documents cited by
appellees do not suffice to establish that Computershare Trust
Company, N.A. was Tribune’s “agent” in connection with the
LBO payments. But that argument does not present a factual
dispute about the content or accuracy of those documents;
instead, it only challenges the legal significance of the
documents, raising a pure question of law. Second, appellants
argue that a contract to redeem shares is not a “securities
contract” within the meaning of 11 U.S.C. § 101(22)(A). But
that argument, too, is plainly legal. Thus, there are no factual
disputes precluding our consideration of whether Tribune’s
payments to shareholders remain subject to Section 546(e)
following Merit Mgmt., and a remand is unnecessary.
6

The term “standing” has been used to describe issues arising
in bankruptcy proceedings when individual creditors sue to

19a
In re Tribune, 499 B.R. at 325. When a bankruptcy
action is filed, any “action or proceeding against the
debtor” is automatically stayed by Section 362(a).
The purpose of the stay is “to protect creditors as
well as the debtor,” Ostano Commerzanstalt v.
Telewide Sys., Inc., 790 F.2d 206, 207 (2d Cir. 1986)
(per curiam), by avoiding wasteful, duplicative,
individual actions by creditors seeking individual
recoveries from the debtor’s estate, and by ensuring
an equitable distribution of the debtor’s estate. See
In re McMullen, 386 F.3d 320, 324 (1st Cir. 2004)
(noting that Section 362(a)(1), among other things,
“safeguard[s] the debtor estate from piecemeal
dissipation . . . ensur[ing] that the assets remain
within the exclusive jurisdiction of the bankruptcy
court pending their orderly and equitable
distribution among the creditors”). Although
fraudulent conveyance actions are against third
parties rather than a debtor, there is caselaw,
discussed infra, stating that the automatic stay

recover funds from third parties to satisfy amounts owed to
them by the debtor, and that action is defended on the ground
that the recovery seeks funds that are recoverable under the
Code only by a representative of all creditors. St. Paul Fire &
Marine Ins. Co. v. PepsiCo, Inc., 884 F.2d 688, 696-97 (2d Cir.
1989), disapproved of on other grounds by In re Miller, 197 B.R.
810 (W.D.N.C. 1996). The use of the term “standing” is based on
the suing creditors’ need to demonstrate an injury other than
one redressable under the Code only by the trustee et al. Id. at
704.

20a
applies to such actions.7 See In re Colonial Realty
Co., 980 F.2d 125, 131 (2d Cir. 1992).
The district court ruled that Section 362’s
automatic stay provision deprived appellants of
statutory standing to bring their claims because the
Litigation Trustee was still pursuing an intentional
fraudulent conveyance action challenging the same
transfers under Section 548(a)(1)(A). In re Tribune,
499 B.R. at 322-23. We disagree. The Bankruptcy
Code empowers a bankruptcy court to release parties
from the automatic stay “for cause” shown. In re
Bogdanovich, 292 F.3d 104, 110 (2d Cir. 2002)
(quoting 11 U.S.C. § 362(d)(1)). Once a creditor
obtains “a grant of relief from the automatic stay”
under Section 362(d), it may “press its claims outside
of the bankruptcy proceeding.” St. Paul Fire &
Marine Ins. Co. v. PepsiCo, Inc., 884 F.2d 688, 702
(2d Cir. 1989), disapproved of on other grounds by In
re Miller, 197 B.R. 810 (W.D.N.C. 1996).
In the present matter, the bankruptcy court
granted appellants relief from the automatic stay on
three occasions. On April 25, 2011, the bankruptcy
court granted appellants relief “to permit the filing of
any complaint by or on behalf of creditors on account
of such Creditor [state law fraudulent conveyance]
Claims.” J. App’x at 373. A second order, entered on
June 28, 2011, clarified that “neither the automatic
stay of [Section 362] nor the provisions of the
[original lift-stay order]” barred the parties in the

7

The implications of applying the automatic stay to fraudulent
conveyance actions are discussed infra.

21a
state law actions from consolidating and
coordinating these actions. J. App’x at 376. And the
bankruptcy court’s third order, entered on March 15,
2012, set an expiration date of June 1, 2012, for the
“stay imposed on the state law constructive
fraudulent conveyance actions.” J. App’x at 521.
None of the Tribune shareholders filed objections to
these orders.
Finally, the reorganization plan, confirmed by the
bankruptcy court and in all pertinent respects an
order of that court, expressly allowed appellants to
pursue “any and all LBO-Related Causes of Action
arising under state fraudulent conveyance law.” J.
App’x at 643. Section 5.8.2 of the plan provided that
“nothing in this Plan shall or is intended to impair”
the rights of creditors to attempt to pursue
disclaimed state law avoidance claims. J. App’x at
695.
Thus, under both the bankruptcy court’s orders
and the confirmed reorganization plan, if appellants
had actionable state law, constructive fraudulent
conveyance claims, assertion of those claims was no
longer subject to Section 362’s automatic stay. See,
e.g., In re Heating Oil Partners, LP, 422 F. App’x 15,
18 (2d Cir. 2011) (holding that the automatic stay
terminates at discharge); United States v. White, 466
F.3d 1241, 1244 (11th Cir. 2006) (similarly
recognizing that the automatic stay terminates when
“a discharge is granted”).
For the foregoing reasons, we hold that
appellants’ claims are not barred by Section 362.

22a
b) Section 546(e) and Preemption
We turn now to the issue raised by the crossappeal: whether appellants’ claims are preempted
because they conflict with Code Section 546(e).
1. The Scope of Section 546(e)
The threshold question in our preemption inquiry
is whether, in the aftermath of Merit Mgmt., 138
S. Ct. 883, Tribune’s payments to the shareholders
remain subject to Section 546(e). As discussed above,
it was previously the law in this Circuit that the
payments were subject to Section 546(e) because
entities covered by Section 546(e) had served as
intermediaries. See Tribune I, 818 F.3d at 120;
Quebecor, 719 F.3d at 100. Now, however, the
parties agree that Merit Mgmt. “forecloses” that
basis for finding the payments covered by Section
546(e). Appellees’ Opposition to Appellants’ Motion
to Recall the Mandate at 16; see also Merit Mgmt.,
138 S. Ct. at 892 (holding that Section 546(e) does
“not protect transfers in which financial institutions
served as mere conduits”). Accordingly, we must
determine whether there is an alternative basis for
finding that the payments are covered. For the
reasons that follow, we find that such a basis exists.
(i) Tribune is a Covered Entity
Under Merit Mgmt., the payments at issue can be
subject to Section 546(e) only if (1) Tribune, which
made the payments, was a covered entity; or (2) the
shareholders, who ultimately received the payments,
were covered entities. See Merit Mgmt., 138 S. Ct. at
893 (“[T]he relevant transfer for purposes of the

23a
§ 546(e) safe-harbor inquiry is the overarching
transfer[.]”).
According to appellees, that
requirement is satisfied because appellants’
complaints, transaction documents that are integral
to those complaints, and materials subject to judicial
notice establish that Tribune was a “financial
institution” for the purposes of Section 546(e).8 See
Appellees’ Opposition to Appellants’ Motion to Recall
the Mandate at 16-20. Tribune was a “financial
institution,” appellees maintain, because it was a
“customer” of Computershare Trust Company, N.A.
(“Computershare”), and Computershare was its
agent in the LBO transaction. Id. at 17-18. We
agree with appellees that Tribune was a “financial
institution” and therefore a covered entity.
Section 546(e) provides in relevant part that “the
trustee may not avoid . . . a transfer made by or to
(or for the benefit of) a . . . financial institution, . . . in
connection with a securities contract, as defined in
section 741(7),” except through an intentional
fraudulent conveyance claim. 11 U.S.C. § 546(e).
Section 101(22) of the Code defines “financial
institution,” to include, inter alia, “an entity that is a
commercial or savings bank, . . . trust company, . . .
and, when any such . . . entity is acting as agent or
custodian for a customer (whether or not a
‘customer’, as defined in section 741) in connection

8

Appellees also argue that Tribune was a covered entity
because it was a “financial participant,” and that the
shareholders were likewise covered entities. Having agreed
with appellees that Tribune was a “financial institution,” we do
not reach either of appellees’ alternative arguments.

24a
with a securities contract (as defined in section 741)
such customer.”9 11 U.S.C. § 101(22)(A) (emphasis
added).
Here, Tribune retained Computershare to act as
“Depositary” in connection with the LBO tender
offer. See Tribune Offer to Purchase at 13, 113, In re
Tribune Co., No. 08-13141 (KJC) (Bankr. D. Del.
Aug. 20, 2010), ECF Nos. 5437-5, 5437-6.
Computershare is a “financial institution” for the
purposes of Section 546(e) because it is a trust
company and a bank. See Office of the Comptroller
of the Currency, Trust Banks Active as of November
30,
2019,
at
https://www.occ.treas.gov/topics/charters-andlicensing/financial-institution-lists/trust-byname.pdf; Office of the Comptroller of the Currency,
National Banks Active as of November 30, 2019, at
https://www.occ.treas.gov/topics/charters-andlicensing/financial-institution-lists/national-byname.pdf.
Therefore, Tribune was likewise a
“financial institution” with respect to the LBO
payments if it was Computershare’s “customer,” and
Computershare was acting as its agent. See 11
U.S.C. § 101(22)(A).
9

As the Court noted in Merit Mgmt., “[t]he parties [t]here d[id]
not contend that either the debtor or petitioner in th[at] case
qualified as a ‘financial institution’ by virtue of its status as a
‘customer’ under § 101(22)(A). Petitioner Merit Management
Group, LP, discussed th[at] definition only in footnotes and did
not argue that it somehow dictate[d] the outcome in th[e] case.”
Merit Mgmt., 138 S. Ct. at 890 n.2. The Court “therefore d[id]
not address what impact, if any, § 101(22)(A) would have in the
application of the § 546(e) safe harbor.” Id.

25a
In its role as Depositary, Computershare
performed multiple services for Tribune.
First,
Computershare received and held Tribune’s deposit
of the aggregate purchase price for the shares. See
Examiner’s Report, Vol. 1, at 206, In re Tribune Co.,
No. 08-13141 (KJC) (Bankr. D. Del. Aug. 3, 2010),
ECF No. 5247.
Then, Computershare received
tendered shares, retained them on Tribune’s behalf,
and paid the tendering shareholders. Id.; see also
Tribune Offer to Purchase at 81, In re Tribune Co.,
No. 08-13141 (KJC) (Bankr. D. Del. Aug. 20, 2010),
ECF Nos. 5437-5, 5437-6.
Given these facts, we conclude that Tribune was
Computershare’s “customer” with respect to the LBO
payments.
Although Section 741 of the Code
provides a specialized definition of “customer” for
certain purposes, see 11 U.S.C. § 741(2), the relevant
section for these purposes, Section 101(22), plainly
states that its definition of “customer” is not limited
by Section 741’s definition, see 11 U.S.C. § 101(22)(A)
(defining “financial institution” to include certain
entities when such entities are “acting as agent . . .
for a customer (whether or not a ‘customer,’ as
defined in section 741)”). Moreover, Section 101(22)
does not provide any alternative specialized
definition. Thus, we must give the term its “ordinary
meaning.”10 Ransom v. FIA Card Servs., N.A., 562
10

Appellants suggest that we should apply the specialized
definition of “customer” given in Section 761(9), see Appellants’
Reply in Support of Motion to Recall the Mandate at 10-11,
which appears in a subchapter dealing with commodity broker
liquidations. See 11 U.S.C. § 761(9). Section 761(9)’s definition,
unlike the definition of “customer” from Section 741(2), is not

26a
U.S. 61, 69 (2011). We have previously recognized
that the “core” ordinary definition of “customer” is
“someone who buys goods or services.” UBS Fin.
Servs., Inc. v. W. Virginia Univ. Hosps., Inc., 660
F.3d 643, 650 (2d Cir. 2011) (citing multiple
dictionary definitions).
Black’s Law Dictionary,
which provides more granular definitions, defines
“customer” to include “a person . . . for whom a bank
has agreed to collect items.” Black’s Law Dictionary
(10th ed. 2014). Regardless of which definition we
apply, Tribune would qualify as Computershare’s
customer. Computershare agreed to collect items for
Tribune by receiving the tendered shares and
retaining
them,
and
Tribune
bought
Computershare’s
services
by
retaining
Computershare to act as Depositary.
explicitly disclaimed in Section 101(22). Nonetheless, we believe
it is clear that the definitions from Section 761(9) and Section
101(22) are not intended to be coextensive. First, there is no
indication in Section 101(22)’s text that Section 761(9)’s limited
definition of “customer” should apply. Moreover, Section
101(22)’s explicit disclaimer of Section 741(2)’s definition
suggests that “customer” should be given a broad meaning, so it
would be odd to hold – without any textual indication – that the
definition in Section 761(9) circumscribes Section 101(22). In
addition, other subsections of Section 101 explicitly incorporate
definitions from Section 761, including its definition of
“customer” specifically. See, e.g., 11 U.S.C. § 101(6) (“The term
‘commodity broker’ means futures commission merchant,
foreign futures commission merchant, clearing organization,
leverage transaction merchant, or commodity options dealer, as
defined in section 761 of this title, with respect to which there is
a customer, as defined in section 761 of this title.”). Thus, if
Congress had intended to import Section 761(9)’s definition into
Section 101(22), it clearly knew how (yet declined) to do so.

27a
It is likewise plain that Computershare was
Tribune’s agent. “[S]tatutes employing common-law
terms,” such as agent, “are presumed . . . ‘to
incorporate the established meaning of th[o]se
terms,’” absent a contrary indication. U.S. ex rel.
O’Donnell v. Countrywide Home Loans, Inc., 822
F.3d 650, 657 (2d Cir. 2016) (quoting Nationwide
Mut. Ins. Co. v. Darden, 503 U.S. 318, 322 (1992)).
Here, the parties have not identified any reason why
the term “agent,” for the purposes of Section 101(22),
should be given anything other than its common-law
meaning, and we have identified none. Thus, we will
apply its common-law meaning.
At common law, “[a]gency is the fiduciary
relationship that arises when one person (a
‘principal’) manifests assent to another person (an
‘agent’) that the agent shall act on the principal’s
behalf and subject to the principal’s control, and the
agent manifests assent or otherwise consents so to
act.” Restatement (Third) of Agency § 1.01 (2006);
see also Commercial Union Ins. Co. v. Alitalia
Airlines, S.p.A., 347 F.3d 448, 462 (2d Cir. 2003)
(“Establishment of [an agency] relationship requires
facts sufficient to show (1) the principal’s
manifestation of intent to grant authority to the
agent, and (2) agreement by the agent. In addition,
the principal must maintain control over key aspects
of the undertaking.”) (internal citations omitted).
Generally, “[w]hether an agency relationship exists
is a mixed question of law and fact.” Commercial
Union Ins., 347 F.3d at 462. However, the existence
of an agency relationship can be resolved “as a
matter of law” if: ”(1) the facts are undisputed; or (2)

28a
there is but one way for a reasonable jury to
interpret them.” Garanti Finansal Kiralama A.S. v.
Aqua Marine & Trading Inc., 697 F.3d 59, 71 (2d Cir.
2012).
Here, Tribune manifested its intent to grant
authority to Computershare by depositing the
aggregate purchase price for the shares with
Computershare and entrusting Computershare to
pay the tendering shareholders. Computershare, in
turn, manifested its assent by accepting the funds
and effectuating the transaction. Then, as the
transaction proceeded, Tribune maintained control
over key aspects of the undertaking. See Tribune
Offer to Purchase at 81, In re Tribune Co., No. 0813141 (KJC) (Bankr. D. Del. Aug. 20, 2010), ECF
Nos. 5437-5, 5437-6 (“For purposes of the Tender
Offer, [Tribune] will be deemed to have accepted
payment . . . shares that are properly tendered and
not properly withdrawn only when, as and if we give
oral or written notice to [Computershare] of our
acceptance of the shares for payment pursuant to the
Tender Offer . . .”). Accordingly, the undisputed facts
establish that Computershare was Tribune’s agent,11
and we conclude that Tribune was a “financial
institution” with respect to the LBO payments.
11

The decision cited by appellants, Manufacturers Hanover Tr.
Co. v. Yanakas, 7 F.3d 310 (2d Cir. 1993), see Appellants’ Reply
in Support of Motion to Recall the Mandate at 10, is inapposite.
That decision involved the application of the rule that, under
normal circumstances, a creditor-debtor relationship does not
amount to a fiduciary relationship. Manufacturers Hanover Tr.,
7 F.3d at 319. Tribune and Computershare were not in a
creditor-debtor relationship.

29a
That conclusion does not end our assessment of
whether the payments are subject to Section 546(e),
however, because we must also determine whether
all of the payments were made “in connection with a
securities contract.” See Appellees’ Opposition to
Appellants’ Motion to Recall the Mandate at 20;
Appellants’ Reply in Support of Motion to Recall the
Mandate at 10.
(ii) The Payments were Made in Connection with
a “Securities Contract”
As stated above, Section 546(e) covers transfers
“made by or to (or for the benefit of) a . . . financial
institution, . . . in connection with a securities
contract, as defined in section 741(7)[.]”12 11 U.S.C.
§ 546(e).
Appellants do not dispute that
“approximately half” of the payments were made in
connection with a securities contract because they
involved the purchase of shares. See Appellants’
Reply in Support of Motion to Recall the Mandate at
10 (acknowledging that the term “securities
contract,” for these purposes, “encompasses contracts
‘to purchase shares’”) (emphasis removed). However,
they contend that the remaining payments were not
made in connection with a securities contract
12 Section 546(e) also covers certain “settlement payments,”
which need not be “in connection with a securities contract,” see
11 U.S.C. § 546(e), but appellees’ theory is that the payments
are covered because they were transfers made in connection
with a securities contract. See Appellees’ Opposition to
Appellants’ Motion to Recall the Mandate at 20. Thus, we are
not deciding whether the payments at issue qualify as
“settlement payments” under Section 546(e).

30a
because they involved the redemption, rather than
the purchase, of shares. See id.
We disagree with appellants.
The term
“redemption,” in the securities context, means
“repurchase.” See Quebecor, 719 F.3d at 99
(“Generally, ‘to redeem is defined as to purchase
back; to regain possession by payment of a stipulated
price; to repurchase; to regain, as mortgage property,
by paying what is due; to receive back by paying the
obligation.’”) (quoting In re United Educ. Co., 153 F.
169, 171 (2d Cir. 1907)); Merriam-Webster’s
Collegiate Dictionary 1042 (11th ed. 2003) (defining
“redeem” as “to buy back” or “repurchase”). Section
741(7) defines “securities contract” capaciously to
include, inter alia, a “contract for the purchase [or]
sale . . . of a security, . . . including any repurchase
. . . transaction on any such security,” 11 U.S.C.
§ 741(7)(A)(i) (emphasis added), as well as “any other
agreement or transaction that is similar to an
agreement or transaction referred to in this
subparagraph.” 11 U.S.C. § 741(7)(A)(vii); see also In
re Bernard L. Madoff Inv. Sec. LLC, 773 F.3d 411,
417 (2d Cir. 2014) (observing that Section
741(7)“defines
‘securities
contract’
with
extraordinary breadth”). Thus, we have no trouble
concluding, based on Section 741(7)’s plain language,
that all of the payments at issue, including those
connected to the redemption of shares, were “in
connection with a securities contract.”

31a
(iii)Conclusion
For the foregoing reasons, we agree with
appellees that the payments at issue remain subject
to Section 546(e) following Merit Mgmt.
2. Conflict-Preemption Law
Under the Supremacy Clause, Article VI, Clause
2 of the Constitution, federal law prevails when it
conflicts with state law. Arizona v. United States,
132 S. Ct. 2492, 2500 (2012).
As discussed throughout this opinion, Section
546(e)’s reference to limiting avoidance by a trustee
provides appellants with a plain language argument
that only a trustee et al., and not creditors acting on
their own behalf, are barred from bringing state law,
constructive fraudulent avoidance claims. However,
as discussed infra, we believe that the language of
Section 546(e) does not necessarily have the meaning
appellants ascribe to it. Even if that meaning is one
of multiple reasonable constructions of the statutory
scheme, it would not necessarily preclude
preemption because a preemptive effect may be
inferred where it is not expressly provided.
Under the implied preemption doctrine,13 state
laws are “pre-empted to the extent of any conflict
13

We see no need for a full discussion of various modes of
analysis used to determine federal preemption, i.e., “express”
preemption, Chamber of Commerce v. Whiting, 131 S. Ct. 1968,
1977 (2011), “field” preemption, Arizona v. United States, 132
S. Ct. 2492, 2502 (2012), or even that branch of “implied”
preemption that requires a showing of “impossibility” of
complying with both state and federal law, id. at 2501. The only

32a
with a federal statute. Such a conflict occurs . . .
when [] state law stands as an obstacle to the
accomplishment and execution of the full purposes
and objectives of Congress.” Hillman v. Maretta, 133
S. Ct. 1943, 1949-50 (2013) (citations and internal
quotation marks omitted); accord In re Methyl
Tertiary Butyl Ether (MTBE) Prods. Liab. Litig., 725
F.3d 65, 97 (2d Cir. 2013) cert. denied sub nom.
Exxon Mobil Corp. v. City of New York, 134 S. Ct.
1877 (2014) (courts will find implied preemption
when “state law directly conflicts with the structure
and purpose of a federal statute”) (citation and
internal quotation marks omitted). Appellants argue
that a recognized presumption against preemption
limits the implied preemption doctrine. They argue
that Section 546(e) preempts creditors’ state law,
fraudulent conveyance claims only if the claims
would do “‘major damage’ to ‘clear and substantial’
federal interests.” Resp. & Reply Br. of Pls.Appellants-Cross-Appellees 45 (quoting Hillman, 133
S. Ct. 1943, 1950 (2013) (citation omitted)). The
presumption against inferring preemption is
premised on federalism grounds and, therefore,
weighs most heavily where the particular regulatory
area is “traditionally the domain of state law.”
Hillman, 133 S. Ct. at 1950; see also Madeira v.
Affordable Hous. Found., Inc., 469 F.3d 219, 241 (2d
Cir. 2006) (“The mere fact of ‘tension’ between
federal and state law is generally not enough to

relevant analysis in the present matter is preemption inferred
from a conflict between state law and the purposes of federal
law, as discussed in the text.

33a
establish an obstacle supporting preemption,
particularly when the state law involves the exercise
of traditional police power.”).
According to
appellants, the presumption against preemption
fully applies in the present context because
fraudulent conveyance claims are “among ‘the oldest
[purposes] within the ambit of the police power.’”
Resp. & Reply Br. of Pls.-Appellants-Cross-Appellees
36 (quoting California v. Zook, 336 U.S. 725, 734
(1949)).
Preemption is always a matter of congressional
intent, even where that intent must be inferred. See
Cipollone v. Liggett Grp., Inc., 505 U.S. 504, 516
(1992) (congressional intent is the “ultimate
touchstone of pre-emption analysis”) (quoting Malone
v. White Motor Corp., 435 U.S. 497, 504 (1978))
(internal quotation marks omitted); N.Y. SMSA Ltd.
P’ship v. Town of Clarkstown, 612 F.3d 97, 104 (2d
Cir. 2010) (“The key to the preemption inquiry is the
intent of Congress.”). As in the present matter, the
presumption against preemption usually goes to the
weight to be given to the lack of an express
statement overriding state law.
The presumption is strongest when Congress is
legislating in an area recognized as traditionally one
of state law alone. See Hillman, 133 S. Ct. at 1950
(stating that because “[t]he regulation of domestic
relations is traditionally the domain of state law . . .
[t]here is [] a presumption against pre-emption”)
(internal quotation marks and citation omitted).
However, the present context is not such an area. To
understate the proposition, the regulation of
creditors’ rights has “a history of significant federal

34a
presence.” United States v. Locke, 529 U.S. 89, 90
(2000).
Congress’s power to enact bankruptcy laws was
made explicit in the Constitution as originally
enacted, Art. 1, § 8, cl. 4, and detailed, preemptive
federal regulation of creditors’ rights has, therefore,
existed for over two centuries. Charles Jordan Tabb,
The History of the Bankruptcy Laws in the United
States, 3 Am. Bankr. Inst. L. Rev. 5, 7 (1995). Once
a party enters bankruptcy, the Bankruptcy Code
constitutes a wholesale preemption of state laws
regarding creditors’ rights. See Eastern Equip. and
Servs. Corp. v. Factory Point Nat. Bank, Bennington,
236 F.3d 117, 120 (2d Cir. 2001) (“The United States
Bankruptcy Code provides a comprehensive federal
system of penalties and protections to govern the
orderly conduct of debtors’ affairs and creditors’
rights.”); In re Miles, 430 F.3d 1083, 1091 (9th Cir.
2005) (“Congress intended the Bankruptcy Code to
create a whole scheme under federal control that
would adjust all of the rights and duties of creditors
and debtors alike . . . .”).
Consider, for example, the present proceeding.
While the issue before us is often described as
whether Section 546(e) preempts state fraudulent
conveyance laws, Resp. & Reply Br. of Pls.Appellants-Cross-Appellees
33,
that
is
a
mischaracterization. Appellants’ state law claims
were preempted when the Chapter 11 proceedings
commenced and were not dismissed. Appellants’ own
arguments posit that those claims were, at the very
least, stayed by Code Section 362. Whether, as
appellants argue, they were restored in full after two

35a
years, see 11 U.S.C. § 546(a)(1)(A), or by order of the
bankruptcy court, see 11 U.S.C. § 349(b)(3), is hotly
disputed. But if they were restored, it was by force of
federal law.
Once Tribune entered bankruptcy, the creditors’
avoidance claims were vested in the federally
appointed trustee et al. 11 U.S.C. § 544(b)(1). A
constructive fraudulent conveyance action brought
by a trustee et al. under Section 544 is a claim
arising under federal law. See In re Intelligent
Direct Mktg., 518 B.R. 579, 587 (E.D. Cal. 2014); In
re Trinsum Grp., Inc., 460 B.R. 379, 387-88 (S.D.N.Y.
2011); In re Sunbridge Capital, Inc., 454 B.R. 166,
169 n.16 (Bankr. D. Kan. 2011); In re Charys
Holding Co., Inc., 443 B.R. 628, 635-36 (Bankr. D.
Del. 2010).
Although such a claim borrows
applicable state law standards regarding avoiding
the transfer in question, see Universal Church v.
Geltzer, 463 F.3d 218, 222 n.1 (2d Cir. 2006), the
claim has its own statute of limitations, 11 U.S.C. §
546(a)(1)(A), measure of damages, see 11 U.S.C. §
550, and standards for distribution, 11 U.S.C. § 726.
A disposition of this federal law claim extinguishes
the right of creditors to bring state law, fraudulent
conveyance claims. See St. Paul Fire, 884 F.2d at
701 disapproved of on other grounds by In re Miller,
197 B.R. 810 (W.D.N.C. 1996) (noting that “creditors
are bound by the outcome of the trustee’s action”);
see also In re PWS Holding Corp., 303 F.3d 308, 31415 (3d Cir. 2002) (barring creditor’s state law,
fraudulent transfer claims after trustee released
§ 544 claims). And, if creditors are allowed by a
bankruptcy court, trustee, or, as appellants argue, by

36a
the Bankruptcy Code, to bring state law actions in
their own name, that permission is a matter of grace
granted under federal authority. The standards for
granting that permission, moreover, have everything
to do with the Bankruptcy Code’s balancing of
debtors’ and creditors’ rights, In re Coltex Loop Cent.
Three Partners, L.P., 138 F.3d 39, 44 (2d Cir. 1998),
or rights among creditors, United States v. Ron Pair
Enters, Inc., 489 U.S. 235, 248 (1989), and nothing to
do with the vindication of state police powers.
We also note here, and discuss further infra, that
the policies reflected in Section 546(e) relate to
securities markets, which are subject to extensive
federal regulation. The regulation of these markets
has existed and grown for over eighty years and
reflects very important federal concerns.
In the present matter, therefore, there is no
measurable concern about federal intrusion into
traditional state domains. Our bottom line is that
the issue before us is one of inferring congressional
intent from the Code, without significant
countervailing pressures of state law concerns.
3. The Language of Section 546(e)
Section 544(b) empowers a trustee et al. to avoid
a “transfer . . . [by] the debtor . . . voidable under
applicable law by a[n] [unsecured] creditor.” Section
548(a) also provides the trustee et al. with
independent
federal
intentional,
11
U.S.C.
§ 548(a)(1)(A),
and
constructive
fraudulent
conveyance claims, 11 U.S.C. § 548(a)(1)(B).
Section 546(e) provides in pertinent part:

37a
Notwithstanding sections 544, . . . 548(a)(1)(B) . . .
of this title, the trustee may not avoid a transfer
that is a . . . settlement payment . . . made by or
to (or for the benefit of) a . . . stockbroker,
financial institution, financial participant, or
securities clearing agency, or that is a transfer
made by or to (or for the benefit of) a . . .
stockbroker, financial institution, financial
participant, or securities clearing agency, in
connection with a securities contract . . . except
under section 548(a)(1)(A). . . .
Id. § 546(e). Section 546(e) thus expressly prohibits
trustees et al. from using their Section 544(b)
avoidance powers and (generally) Section 548
against the transfers specified in Section 546(e).
However, Section 546(e) creates an exception to that
prohibition for claims brought by trustee et al. under
Section 548(a)(1)(A) that, as noted, establishes a
federal avoidance claim to be brought by a trustee et
al. based on an intentional fraud theory.
As
discussed supra, the Litigation Trust brought a
Section 548(a)(1)(A) claim against the same transfers
challenged by appellants’ actions before us on this
appeal, which was still pending when appellants’
claims were dismissed.
The language of Section 546(e) covers all
transfers by or to covered entities that are
“settlement payment[s]” or “in connection with a
securities contract.” Transfers in which either the
transferor or transferee is not a covered entity are
clearly included in the language, so long as one of the
two is a covered entity. The Section does not
distinguish between kinds of transfers, e.g.,

38a
settlements of ordinary day-to-day trading, LBOs, or
mergers in which shareholders of one company are
involuntarily cashed out. So long as the transfer
sought to be avoided is within the language quoted
above, the Section includes avoidance proceedings in
which the covered entity would escape a damages
judgment. But see In re Lyondell Chem. Co., 503
B.R. 348, 372-73 (Bankr. S.D.N.Y. 2014), as corrected
(Jan. 16, 2014) (holding that Section 546(e) does not
include “LBO payments to stockholders at the very
end of the asset transfer chain, where the
stockholders are the ultimate beneficiaries of the
constructively fraudulent transfers, and can give the
money back to injured creditors with no damage to
anyone but themselves”).
4. Appellants’ Legal Theory
Appellants’ state law, constructive fraudulent
conveyance claims purport to be brought under
mainstream
bankruptcy
procedures
directly
mandated by the Code. However, an examination of
the Code as a whole, in contrast with an isolated
focus on the word “trustee” in Section 546(e), reveals
that appellants’ theory relies upon adhering to
statutory language only when opportune and
resolving various ambiguities in a way convenient to
that theory. Even then, their legal theory results in
anomalies and inconsistencies with parts of the
Code.
The consequence of those ambiguities,
anomalies, and conflicts is that a reader of Section
546(e), at the time of enactment, would not have
necessarily concluded that the reference only to a
trustee et al. meant that creditors may at some point
bring state law claims seeking the very relief barred

39a
to the trustee et al. by Section 546(e). Its meaning,
therefore, is not plain.
(i) Appellants’ Theory of Fraudulent Conveyance
Avoidance Proceedings
Appellants’ theory goes as follows. When a debtor
enters bankruptcy, all “legal or equitable interests of
the debtor in property,” 11 U.S.C. § 541(a)(1), vest in
the debtor’s bankruptcy estate.
This property
includes legal claims that could have been brought
by the debtor. See U.S. ex rel. Spicer v. Westbrook,
751 F.3d 354, 361-62 (5th Cir. 2014) (“The phrase ‘all
legal or equitable interests’ includes legal claims–
whether based on state or federal law.”). Therefore,
“the Trustee is conferred with the authority to
represent all creditors and the Debtor’s estate and
with the sole responsibility of bringing actions on
behalf of the Debtor’s estate to marshal assets for the
estate’s creditors.” In re Stein, 314 B.R. 306, 311
(D.N.J. 2004).
However, fraudulent conveyance
claims proceed on a theory that an insolvent debtor
may not make what are essentially gifts that deprive
creditors of assets available to pay debts. See Grupo
Mexicano de Desarrollo S.A. v. Alliance Bond Fund,
Inc., 527 U.S. 308, 322 (1999). Therefore, before a
bankruptcy takes place, fraudulent conveyance
claims belong to creditors rather than to the debtor.
As a consequence, Section 544(b)(1) provides that a
bankruptcy trustee may avoid “any transfer of an
interest of the debtor . . . that is voidable under
applicable law by a creditor holding an unsecured
claim.” 11 U.S.C. § 544(b)(1). The responsibility of
the trustee et al. is to “step into the shoes of a
creditor under state law and avoid any transfers

40a
such a creditor could have avoided.” Univ. Church v.
Geltzer, 463 F.3d 218, 222 n.1 (2d Cir. 2006).
The trustee et al., however, is subject to a statute
of limitations that requires such claims to be brought
within two years of the commencement of the
bankruptcy proceeding. See 11 U.S.C. § 546(a)(1)(A).
Appellants infer from this statute of limitations that
if the trustee et al. fails to act to enforce such claims
during that two-year period, the claims revert to
creditors who may then pursue their own state law,
fraudulent conveyance actions. Resp. & Reply Br. of
Pls.-Appellants-Cross-Appellees 1.
This position
assumes that, although the power to bring such
actions is clearly vested in the trustee et al. when the
bankruptcy proceeding begins, if the power is not
exercised, it returns in full flower to the creditors
after the bankruptcy ends or after two years.
Appellants’ theory also is that their fraudulent
conveyance claims were only stayed under Section
362(a), rather than extinguished when assumed by
the trustee on behalf of the bankrupt estate by the
trustee et al. under Section 544, and could be
asserted by them as creditors when the Section
362(a) stay was lifted.
Accordingly, appellants
argue, when the Committee did not bring
constructive fraudulent conveyance actions against
the LBO transfers by December 8, 2010, appellants
regained the right to bring their own state law
actions. See Resp. & Reply Br. of Pls.-AppellantsCross Appellees 6. Moreover, they correctly note
that Section 362’s automatic stay was, as discussed
supra, lifted. In either case -- automatically after
two years or by the bankruptcy court’s lifting of the

41a
stay -- appellants assert that the right to bring state
law actions has reverted to them.
(ii) Ambiguities, Anomalies, and Conflicts
When appellants’ arguments and their relation to
the Code are viewed, as we must view them, in their
entirety, In re Boodrow, 126 F.3d 43, 49 (2d Cir.
1997) (“The Supreme Court has thus explained . . .
‘we must not be guided by a single sentence or [part]
of a sentence [of the Code], but look to the provisions
of the whole law, and to its object and policy.’”)
(quoting Kelly v. Robinson, 479 U.S. 36, 43 (1986)),
they reveal material ambiguities, anomalies, and
outright conflicts with the purposes of Code Sections
544, 362, and 548, not to mention the outright
conflict with Section 546(e) discussed infra.
A critical step in the logic of appellants’ theory
finds no support in the language of the Code. In
particular, the inference that fraudulent conveyance
actions revert to creditors if either the two-year
statute of limitations passes without an exercise of
the trustees’ et al. powers under Section 544 or the
Section 362(a) stay is lifted by the bankruptcy court
has no basis in the Code’s language. To begin, the
language of the automatic stay provision applies only
to actions against “the debtor.” 11 U.S.C. § 362. To
be sure, there are cases barring fraudulent
conveyance actions brought by creditors before the
passing of the limitations period or lifting of the stay.
See, e.g., In re Crysen/Montenay Energy Co., 902
F.2d 1098, 1101 (2d Cir. 1990). The rationales of
these cases vary. Some rely on Section 362(a) on the
theory that the fraudulent conveyance claims are the

42a
property of the debtors’ estate.
See In re
MortgageAmerica Corp., 714 F.2d 1266, 1275-76 (5th
Cir. 1983); Matter of Fletcher, 176 B.R. 445, 452
(Bankr. W.D. Mich. 1995), rev’d and remanded on
other grounds sub nom. In re Van Orden, No. 1:95CV-79, 1995 WL 17903731 (W.D. Mich. Sept. 5,
1995). Some do not mention Section 362(a) and rely
on the need to protect trustees’ et al. powers to bring
Section 544 avoidance actions.
See In re Van
Diepen, P.A., 236 F. App’x. 498, 502-03 (11th Cir.
2007); In re Clark, 374 B.R. 874, 876 (Bankr. M.D.
Ala. 2007); In re Tessmer, 329 B.R. 776, 780 (Bankr.
M.D. Ga. 2005). All the caselaw agrees that the
trustee et al.’s powers under Section 544 are
exclusive, at least until the stay is lifted or the twoyear period expires.
Equally important is the fact that the inference of
a reversion of fraudulent conveyance claims to
creditors drawn from Section 544’s statute of
limitations is not based on the language of the Code,
which says nothing about the reversion of claims
vested in the trustee et al. by Section 544. Statutes
of limitation usually are intended to limit the
assertion of stale claims and to provide peace to
possible defendants, Converse v. Gen. Motors Corp.,
893 F.2d 513, 516 (2d Cir. 1990), and not to change
the identity of the authorized plaintiffs without some
express language to that effect. A decisive part of
appellants’ legal theory thus has no support in the
language of the Code.
Even if this gap is assumed not to exist, or can be
otherwise traversed, appellants’ theory encounters
other serious problems.
Section 544, vesting

43a
avoidance powers in the trustee et al., is intended to
simplify proceedings, reduce the costs of marshalling
the debtor’s assets, and assure an equitable
distribution among the creditors.
See In re
MortgageAmerica Corp., 714 F.2d 1266, 1275-76 (5th
Cir. 1983) (noting that “[t]he ‘strong arm’ provision of
the [Bankruptcy] Code, 11 U.S.C. § 544, allows the
bankruptcy trustee to step into the shoes of a
creditor for the purpose of asserting causes of action
under state fraudulent conveyance acts for the
benefit of all creditors, not just those who win a race
to judgment” and Section 362 helps prevent
“[a]ctions for the recovery of the debtor’s property by
individual creditors under state fraudulent
conveyance laws [that] would interfere with [the
bankruptcy] estate and with the equitable
distribution scheme dependent upon it”). However,
these purposes are hardly consistent with the
process hypothesized by appellants.
Accepting for purposes of argument appellants’
view of the applicable process, Section 362, at the
very least, prevented appellants (for a time) from
bringing their state law, fraudulent conveyance
claims, while Section 546(e) barred the Committee
from seeking to enforce or, necessarily, to settle
them. Appellants’ argument thus seems to posit that
their claims are on hold until the trustees et al.
decide whether to bring an action they are powerless
to bring or to pass on to creditors a power they do not
have. In short, it assumes that, when creditors’
avoidance claims are lodged in the trustee et al. and
are diminished in that hand by the Code, they
reemerge in undiminished form in the hands of

44a
creditors after the statute of limitations governing
actions by the trustee et al. has run or the
bankruptcy court lifts the automatic stay.
In the context of the Code, however, any such
process is a glaring anomaly. Section 548(a)(1)(A)
vests trustees with a federal claim to avoid the very
transfers attacked by appellants’ state law claims -but only on an intentional fraud theory. There is
little apparent reason to limit trustees et al. to
intentional fraud claims while not extinguishing
constructive fraud claims but rather leaving them to
be brought later by individual creditors.
In
particular, enforcement of the intentional fraud
claim is undermined if creditors can later bring state
law, constructive fraudulent conveyance claims
involving the same transfers. Any trustee would
have grave difficulty negotiating more than a
nominal settlement in the federal action if it cannot
preclude state claims attacking the same transfers
but not requiring a showing of actual fraudulent
intent. Unable to settle, a trustee et al. will be
reluctant to expend the estate’s resources on
vigorously pursuing the federal claim while awaiting
the stayed state claims to revert and to be litigated
by creditors. As happened in the present matter, the
result is that the trustee et al.’s action awaits the
pursuit of piecemeal actions by creditors. This is
precisely opposite of the intent of the Code’s
procedures. While a bankruptcy court can reduce
the delay by an early lifting of the automatic stay
with regard to constructive fraudulent conveyance
actions, that action would underline the anomaly of

45a
applying the stay to the bringing of claims that are
barred to trustees et al.
Staying ordinary state law, constructive
fraudulent conveyance claims by individual creditors
while the trustee deliberates is a rational method of
avoiding piecemeal litigation and ensuring an
equitable distribution of assets among creditors. See
MBNA Am. Bank, N.A. v. Hill, 436 F.3d 104, 108 (2d
Cir. 2006) (“The objectives of the Bankruptcy Code
. . . include . . . ‘the need to protect creditors and
reorganiz[e] debtors from piecemeal litigation . . . .’”)
(quoting Ins. Co. of N. Am. v. NGC Settlement Trust
& Asbestos Claims Mgmt. Corp., 118 F.3d 1056, 1069
(5th Cir. 1997)). However, the scheme described by
appellants does not resemble this method either in
simplicity or in the equitable treatment of creditors.
To rationalize these anomalies, appellants
speculate as to -- more accurately, imagine -- a
deliberate balancing of interests by Congress. They
argue that Congress wanted to balance the need for
certainty and finality in securities markets,
recognized in Section 546(e), against the need to
maximize creditors’ recoveries, recognized in various
other provisions. Congress did so, they argue, by
limiting only the avoidance powers of trustees et al.,
not those of individual creditors (save for the stay),
in Section 546(e) because actions by trustees et al.
are a greater threat to securities markets than are
actions by individual creditors. Resp. & Reply Br. of
Pls.-Appellants-Cross-Appellees 71. That greater
threat results from the fact that a trustee’s power of
avoidance is funded by the debtor’s estate, see 11
U.S.C. §§ 327, 330, supported by national long-arm

46a
jurisdiction, see Fed. R. Bankr. P. 7004(d),(f), and
can be used to avoid the entirety of a transfer,
Tronox Inc. v. Anadarko Petroleum Corp. (In re
Tronox Inc.), 464 B.R. 606, 615-17 (Bankr. S.D.N.Y.
2012) (citing Moore v. Bay, 284 U.S. 4 (1931)).
Creditors, in turn, have no such funding, are limited
by state jurisdictional rules, and can sue only for
their individual losses. See In re Integrated Agri,
Inc., 313 B.R. 419, 428 (Bankr. C.D. Ill. 2004).
Therefore, appellants argue that a deliberate
“balance” was struck by protecting securities
markets from trustees’ et al. actions while subjecting
them to the lesser disruption individual creditors’
actions might cause after a two-year stay. Resp. &
Reply Br. of Pls.-Appellants-Cross-Appellees 83-85.
For a court to upset this delicate balance would
constitute judicial intrusion on policy decisions
rightfully left to the Congress.
However, the balance described above is an ex
post explanation of a legal scheme that appellants
must first construct, and then justify as rational,
because it is essential to their claims. Although they
argue that the scheme was deliberately constructed
by Congress, that argument lacks any support
whatsoever in the legislative deliberations that led to
Section 546(e)’s enactment.
Moreover, appellants’ arguments understate the
number of creditors who would sue, if allowed, and
the corresponding extent of the danger to securities
markets. Creditors may assign their claims and
various methods of aggregation can lead to billions of
dollars of claims, as here.

47a
(iii)No Plain Meaning
These issues reflect ambiguities as to exactly
what is transferred to trustees et al. by Section
544(b)(1). It is clear that trustees et al. own the
debtors’ estates, which include the debtors’ property
and legal claims. See 11 U.S.C. § 541(a)(1) (Among
other things, the “estate is comprised of . . . all legal
or equitable interests of the debtor in property as of
the commencement of the case”); U.S. ex rel. Spicer
v. Westbrook, 751 F.3d 354, 361-62 (5th Cir. 2014)
(“The phrase ‘all legal or equitable interests’ includes
legal claims -- whether based on state or federal
law.”). Avoidance claims belong to creditors,
however, and whether they become the property of
the debtors’ estates is a debated, and somewhat
metaphysical, issue. The issue does have a limited
practical bearing on the present matter, however. If
the claims asserted by appellants became the
property of the debtor’s estate upon Tribune’s
bankruptcy and were thereby limited in the hands of
the Committee, their reversion in an unaltered form,
whether occurring automatically or by act of the
Committee or bankruptcy court, might seem
counterintuitive.
Appellants’ reliance on the applicability of the
automatic stay to their claims would arguably
support the “property” view. The stay is intended in
part to protect the property rights of the trustee et
al. in the debtor’s estate. Subjecting avoidance
actions by creditors to the stay has been supported
by various courts on the ground that such claims are
either the property of the debtor’s estate or have an
equivalent legal status. See In re MortgageAmerica

48a
Corp., 714 F.2d 1266, 1275-76 (5th Cir. 1983); In re
Swallen’s, Inc., 205 B.R. 879, 882 (Bankr. S.D. Ohio
1997); Matter of Fletcher, 176 B.R. 445, 452 (Bankr.
W.D. Mich. 1995).
Whether, and to what degree, fraudulent
conveyance claims become the property of a
bankrupt estate was, at the time of Section 546(e)’s
enactment, and now, anything but clear.
The
principal Supreme Court precedent held that such
claims are the property of the debtor’s estate.
Trimble v. Woodhead, 102 U.S. 647, 649 (1880). It is
a very old decision but has not been expressly
overruled. Subsequent court of appeals decisions are
bountiful in contradictory statements regarding the
property issue. Compare In re Cybergenics Corp.,
226 F.3d 237, 241, 246 (3d Cir. 2000) (stating that
“fraudulent transfer claims have long belonged to a
transferor’s creditors, whose efforts to collect their
debts have essentially been thwarted as a
consequence of the transferor’s actions” but also
noting that the debtor’s “‘assets’ and ‘property of the
estate’ have different meanings, evidenced in part by
the numerous provisions in the Bankruptcy Code
that distinguish between property of the estate and
property of the debtor, or refer to one but not the
other”), and Picard v. Fairfield Greenwich Ltd., 762
F.3d 199, 212 (2d Cir. 2014) (“Our case law is clear
that assets targeted by a fraudulent conveyance
action do not become property of the debtor’s estate
under the Bankruptcy Code until the Trustee obtains
a favorable judgment.”), with Cumberland Oil Corp.
v. Thropp, 791 F.2d 1037, 1042 (2d Cir. 1986) (noting
that causes of action alleging violation of fraudulent

49a
conveyance laws would be property of the estate),
and Nat’l Tax Credit Partners v. Havlik, 20 F.3d 705,
708-09 (7th Cir. 1994) (“[T]he right to recoup a
fraudulent conveyance, which outside of bankruptcy
may be invoked by a creditor, is property of the
estate that only a trustee or debtor in possession
may pursue once a bankruptcy is underway.”).
Use of the term “property” as a short-hand way of
suggesting exclusivity has merit, Henry E. Smith,
Property and Property Rules, 79 N.Y.U. L. Rev.
1719, 1770-74 (2004), but Section 544(b)(1) does not
expressly state whether the bundle of rights
transferred can revert. However, we need not resolve
either the “property” or the reversion issues.
Whether the statutory language has a plain meaning
turns on whether a consensus would have existed
among reasonable, contemporaneous readers as to
meaning of that language in the particular statutory
context. See Pettus v. Morgenthau, 554 F.3d 293,
297 (2d Cir. 2009) (“[W]e attempt to ascertain how a
reasonable reader would understand the statutory
text, considered as a whole.”); Engine Mfrs. Ass’n v.
S. Coast Air Quality Mgmt. Dist., 541 U.S. 246, 25253 (2004) (noting that “[s]tatutory construction must
begin with the language employed by Congress and
the assumption that the ordinary meaning of that
language accurately expresses the legislative
purpose”) (quoting Park ‘N Fly, Inc. v. Dollar Park &
Fly, Inc., 469 U.S. 189, 194 (1985)). If differing views
as to meaning were reasonable at the time of Section
546(e)’s enactment, its meaning is less than plain.
See, e.g., Rodriguez v. Cuomo, 953 F.2d 33, 39-40 (2d
Cir. 1992).

50a
Appellants’ arguments on meaning rely not only
on the reference to a trustee’s et al. powers but
equally, or more so, on a claim of settled law at the
time of Section 546(e)’s enactment that creditors’
avoidance rights not only revert to creditors but also
revert in their original breadth. However, whether
fraudulent conveyance claims revert as a matter of
law upon a trustee’s failure to act was, both at the
time Section 546(e) was passed as well as now,
unclear, as discussed supra. A contemporaneous
reader would not, therefore, necessarily have
believed it plain that Section 546(e)’s reference only
to a trustee’s et al. avoidance claim meant that
creditors could bring their own claims.14
A contemporaneous reader would also notice that
the language of the automatic stay provision does not
literally apply to appellants’ actions and that no
provision for the reversion of claims vested in the
trustee et al. by Section 544 exists. As explained
supra, having to draw an inference of reversion of
rights from that provision’s statute of limitations
might well have appeared as a leap several bridges
too far to such a reader. Indeed, the vesting of
avoidance claims in the trustee et al., the lack of
applicable language in the automatic stay provision,
and the lack of a statutory basis for reversion might
well have suggested to such a reader that Section
544’s vesting of avoidance proceedings in the trustee

14

Our task of determining how a contemporaneous reader
would have read Section 546(e) does not depend on the caselaw
of one particular circuit.

51a
et al. cut off creditors from any avoidance rights
other than a share of the proceeds in bankruptcy.
Even passing these obstacles, the structure of the
Code and the relationship of its pertinent sections
might have suggested to a contemporaneous reader
that altered rights do not revert to creditors
unaltered, or to put it another way, a trustee et al.
cannot pass on, or “allow” to revert through
passivity, a right the trustee et al. does not have. To
be sure, contemporaneous readers might have taken
other views, including those of appellants, but that is
the very definition of ambiguity.
(iv)Conclusion
We need not resolve these issues or even hold
that the lack of statutory support, ambiguities,
anomalies, or conflicts with purposes of the Code are
sufficient to support a preemption holding. They are
sufficient, however, to dispel the suggestions found
in some discussions of these issues of a clear textual
basis for appellants’ theory in the Code and an
overall consistency with congressional purpose. See
In re Lyondell Chem. Co., 503 B.R. 348, 358-59
(Bankr. S.D.N.Y. 2014) as corrected (Jan. 16, 2014);
In re: Tribune Co. Fraudulent Conveyance Litig., 499
B.R. at 315. We also need not issue a decision that
affects fraudulent conveyance actions brought by
creditors whose claims are not subject to Section
546(e). Our ensuing discussion concludes that the
purposes and history of that Section necessarily
reflect an intent to preempt the claims before us. We
turn now to the conflict between those claims and
Section 546(e).

52a
5. Conflict with Section 546(e)
As discussed supra, the meaning of Section 546(e)
with regard to appellants’ rights to bring the actions
before us is ambiguous. We must, therefore, look to
its language, legislative history, and purposes to
determine its effect. Marvel Characters, Inc. v.
Simon, 310 F.3d 280, 290 (2d Cir. 2002). Every
congressional purpose reflected in Section 546(e),
however narrow or broad, is in conflict with
appellants’ legal theory. Their claims are, therefore,
preempted.
Section 546(e) was intended to protect from
avoidance proceedings payments by and to
commodities and securities firms in the settlement of
securities transactions or the execution of securities
contracts. The method of settlement through such
entities is essential to securities markets. Payments
by and to such entities provide certainty as to each
transaction’s consummation, speed to allow parties
to adjust the transaction to market conditions,
finality with regard to investors’ stakes in firms, and
thus stability to financial markets. See H.R. Rep.
No. 97-420 (1982); H.R. Rep. No. 95-595 (1977).
Unwinding settled securities transactions by claims
such as appellants’ would seriously undermine -- a
substantial understatement -- markets in which
certainty, speed, finality, and stability are necessary
to attract capital. To allow appellants’ claims to
proceed, we would have to construe Section 546(e) as
achieving the opposite of what it was intended to
achieve.
Allowing creditors to bring claims barred by
Section 546(e) to the trustee et al. only after the

53a
trustee et al. fails to exercise powers it does not have
would increase the disruptive effect of an unwinding
by lengthening the period of uncertainty for covered
entities and investors. Indeed, the idea of preventing
a trustee from unwinding specified transactions
while allowing creditors to do so, but only later, is a
policy in a fruitless search of a logical rationale.
The narrowest purpose of Section 546(e) was to
protect other commodities and securities firms from
avoidance claims seeking to unwind a bankrupt
commodities or securities firm’s transactions that
consummated transfers between customers. See
H.R. Rep. No. 97-420, at 1 (1982) (“The commodities
and securities markets operate through a complex
system of accounts and guarantees. Because of the
structure of the clearing systems in these industries
and the sometimes volatile nature [of] the markets,
certain protections are necessary to prevent the
insolvency of one commodity or security firm from
spreading to other firms and possibl[y] threatening
the collapse of the affected market.”). It must be
emphasized that appellants’ legal theory would
clearly allow such claims to be brought (later) by
creditors of the bankrupt firm. Even the narrowest
purpose of Section 546(e) is thus at risk.
Some judicial and other discussions of these
issues avoid addressing the full effects of adopting
appellants’ arguments. See In re Lyondell Chem.
Co., 503 B.R. 348, 359-78 (Bankr. S.D.N.Y. 2014) as
corrected (Jan. 16, 2014). Such analysis always
begins by reliance on the “trustee” language, id. at
358, but then narrows the scope of the transfers
covered by Section 546(e)’s language. For example,

54a
appellants argue that the concerns of the amicus
curiae Securities and Exchange Commission
regarding the effect of the district court’s decision on
the securities markets are misplaced, because
appellants are not seeking money from the
intermediaries.15 Resp. & Reply Br. of Pls.Appellants Cross-Appellees 78-82. In doing so, they
rely upon the Lyondell opinion, which, after relying
on the “trustee” language, held that Section 546(e) is
not preemptive of state law, fraudulent conveyance
actions involving LBOs because such actions do not
implicate the purposes of Section 546(e). 503 B.R. at
372-73.
There is no little irony in putting lynchpin
reliance on the word “trustee” while ignoring the
language that follows. In any event, for the reasons
stated above, Section 546(e)’s language is broad
enough under certain circumstances to cover a
bankrupt firm’s LBO payments even where, as here,
that firm’s business was primarily commercial in
nature. 11 U.S.C. § 546(e) (limitations on avoidance
of transfers made by a “customer” of a financial
institution “in connection with a securities contract”).
A search for legislative purpose is heavily informed
by language, and analyzing all the language of a
15 Under the “Collapsing Doctrine,” “[c]ourts analyzing the
effect of LBOs have routinely analyzed them by reference to
their economic substance, ‘collapsing’ them, in many cases, to
consider the overall effect of multi-step transactions.” In re
Lyondell Chem. Co., 503 B.R. 348, 354, 379 (Bankr. S.D.N.Y.
2014) as corrected (Jan. 16, 2014). Monies passed through
intermediaries are deemed to be the property only of the
ultimate recipients, here the cashed out shareholders.

55a
provision and its relationship to the Code as a whole
is preferable to using literalness here and perceived
legislative purpose (without regard to language)
where as needed to reach particular results. See
King v. Burwell, 135 S. Ct. 2480, 2489 (2015)
(“[O]ftentimes the meaning -- or ambiguity -- of
certain words or phrases may only become evident
when placed in context. So when deciding whether
the language is plain, we must read the words in
their context and with a view to their place in the
overall statutory scheme. Our duty, after all, is to
construe statutes, not isolated provisions.”) (internal
quotation marks and citations omitted).
We do not dwell on this because we perceive no
conflict between Section 546(e)’s language and its
purpose. Section 546(e) is simply a case of Congress
perceiving a need to address a particular problem
within an important process or market and using
statutory language broader than necessary to resolve
the immediate problem. Such broad language is
intended to protect the process or market from the
entire genre of harms of which the particular
problem was only one symptom. The legislative
history of Section 546(e) clearly reveals such a
purpose. That history (confirmed by the broad
language adopted) reflects a concern over the use of
avoidance powers not only after the bankruptcy of a
commodities or securities firm, but also after a
“customer” or “other participant” in the securities
markets enters bankruptcy. See H.R. Rep. No.
97-420 (1982). To be sure, the examples used by the
Section’s proponents focused on the immediate
concern of creditors of bankrupt brokers seeking to

56a
unwind payments by the bankrupt firm to other
brokers. Id. Such actions were perceived as creating
a danger of “a ripple effect,” id., a chain of
bankruptcies among brokers disrupting the
securities market generally. From these examples,
appellants, and others, have argued that when
monetary damages are sought only from
shareholders, or an LBO is involved, the purposes of
Section 546(e) are not implicated. See Resp. & Reply
Br. of Pls.-Appellants-Cross-Appellees 79; In re
Lyondell, 503 B.R. at 358-59. Even apart from using
the oil and water mixture of applying a narrow
literalness to the word “trustee” and disregarding the
rest of the Section’s language, we disagree.
As courts have recognized, Congress’s intent to
“minimiz[e] the displacement caused in the
commodities and securities markets in the event of a
major bankruptcy affecting those industries,”
Quebecor, 719 F.3d at 100 (quoting Enron Creditors
Recovery Corp. v. Alfa, S.A.B. de C.V., 651 F.3d 329,
333 (2d Cir. 2011)), reflected a larger purpose
memorialized in the legislative history’s mention of
bankrupt “customers” or “other participant[s]” and in
the broad statutory language defining the
transactions covered. That larger purpose was to
“promot[e] finality . . . and certainty” for investors,
by limiting the circumstances, e.g., to cases of
intentional
fraud,
under
which
securities
transactions could be unwound. In re Kaiser Steel
Corp., 952 F.2d 1230, 1240 n.10 (10th Cir. 1991)
(quoting H. Rep. No. 484, 101st Cong. 2d Sess. 2
(1990), reprinted in 1990 U.S.C.C.A.N. 223, 224).

57a
The broad language used in Section 546(e)
protects transactions rather than firms, reflecting a
purpose of enhancing the efficiency of securities
markets in order to reduce the cost of capital to the
American economy. See Bankruptcy of Commodity
and Securities Brokers: Hearings Before the
Subcomm. on Monopolies and Commercial Law of
the Comm. on the Judiciary, 47th Cong. 239 (1981)
(statement of Bevis Longstreth, Commissioner, SEC)
(explaining that, without 546(e), the Bankruptcy
Code’s “preference, fraudulent transfer and stay
provisions can be interpreted to apply in harmful
and costly ways to customary methods of operation
essential to the securities industry”). As noted,
central to a highly efficient securities market are
methods of trading securities through commodities
and securities firms. Section 546(e)’s protection of
the transactions consummated through these entities
was not intended as protection of politically favored
special interests. Rather, it was sought by the SEC - and corresponding provisions by the CFTC, see
Bankruptcy Act Revision: Hearings on H.R. 31 and
H.R. 32 Before the Subcomm. on Civil &
Constitutional Rights of the H. Comm. on the
Judiciary, 94th Cong., Supp. App. Pt. 4, 2406 (1976) - in order to protect investors from the disruptive
effect of after-the-fact unwinding of securities
transactions.
A lack of protection against the unwinding of
securities transactions would create substantial
deterrents, limited only by the copious imaginations
of able lawyers, to investing in the securities market.
The effect of appellants’ legal theory would be akin to

58a
the effect of eliminating the limited liability of
investors for the debts of a corporation: a reduction of
capital available to American securities markets.
For example, all investors in public companies
would face new and substantial risks, if appellants’
theory is adopted. At the very least, each would have
to confront a higher degree of uncertainty even as to
the consummation of securities transfers. The risks
are not confined to the consummation of securities
transactions. Pension plans, mutual funds, and
similar institutional investors would find securities
markets far more risky if exposed to substantial
liabilities derived from investments in securities sold
long ago. If appellants were to prevail, a pension
plan whose position in a firm was cashed out in a
merger might have to set aside reserves in case the
surviving firm went bankrupt and triggered
avoidance actions based on a claim that the cash out
price exceeded the value of the shares. Every
economic downturn could expose such institutional
investors not only to a decline in the value of their
current portfolios but also to claims for substantial
monies received from mergers during good times.
Given the occasional volatility of economic events,
any transaction buying out shareholders would risk
being attacked as a fraudulent conveyance avoidable
by creditors if the firm faltered. Appellants’ legal
theory could even reach investors who, after voting
against a merger approved by other shareholders,
were involuntarily cashed out. Tender offers, which
almost always involve a premium above trading
price, Lynn A. Stout, Are Takeover Premiums Really
Premiums? Market Price, Fair Value, and Corporate

59a
Law, 99 Yale L.J. 1235, 1235 (1990), would imperil
cashed out shareholders if the surviving entity
encountered financial difficulties.
If appellants’ theory was adopted, individual
investors following a conservative buy-and-hold
strategy with a diversified portfolio designed to
reduce risk might well decide that such a strategy
would actually increase the risk of crushing
liabilities. Such a strategy is adopted because it
involves low costs of monitoring the prospects of
individual companies and emphasizes the offsetting
of unsystematic risks by investing in multiple firms.
See Leigh v. Engle, 858 F.2d 361, 368 (7th Cir. 1988).
Appellants’ legal theory might well require costly
and constant monitoring by investors to rid their
portfolios of investments in firms that might, under
then-current circumstances, be subject to mergers,
stock buy-backs, or tender offers (and would
otherwise be good investments).
Investing in
multiple companies, the essence of diversification,
would increase the danger of avoidance liability.
The threat to investors is not simply losing a
lawsuit. Given the costliness of defending such legal
actions and the long delay in learning their outcome,
exposing investors to even very weak lawsuits
involving millions of dollars would be a substantial
deterrent to investing in securities. The need to set
aside reserves to meet the costs of litigation -- not to
mention costs of losing -- would suck money from
capital markets.
As noted, concern has been expressed that LBOs
are different from other transactions in ways
pertinent to the Bankruptcy Code. In re Lyondell

60a
Chem. Co., 503 B.R. 348, 354, 358-59 (Bankr.
S.D.N.Y. 2014), as corrected (Jan. 16, 2014).
However, the language of Section 546(e) clearly
covers the LBO payments at issue here for the
reasons stated above.
Moreover, securities markets are heavily
regulated by state and federal governments. The
statutory supplements used in law school securities
regulation courses are thick enough to rival Kevlar
in stopping bullets. Mergers and tender offers are
among the most regulated transactions. See, e.g.,
Williams Act, 15 U.S.C.A. §§ 78m(d)-(e), 78n(d).
Much of the content of state and federal regulation is
designed to protect investors in such transactions.
Much of that content is also designed to maximize
the payout to shareholders cashed out in a merger,
see, e.g., Revlon, Inc. v. MacAndrews & Forbes
Holdings, Inc., 506 A.2d 173, 182 (Del. 1986); Unocal
Corp. v. Mesa Petroleum Co., 493 A.2d 946, 955-56
(Del. 1985), or accepting a tender offer, see Williams
Act, 15 U.S.C.A. §§ 78m(d)-(e), 78n(d). Appellants’
legal theory would allow creditors to seek to portray
that maximization as evidence supporting a crushing
liability. A legal rule substantially undermining
those goals of state and federal regulation -- again,
one akin to eliminating limited liability -- is a
systemic risk.
It is also argued that the Bankruptcy Code has
many different purposes and that Section 546(e) does
not clearly “trump[] all [the] other[s].” In re Tribune
Co. Fraudulent Conveyance Litig., 499 B.R. 310, 317
(S.D.N.Y. 2013). The pertinent -- and “trumping” -“other” purpose of the Code is said to be the

61a
maximization of assets available to creditors. Id.
Courts
customarily
accommodate
statutory
provisions in tension with one another where the
principal purpose of each is attainable by limiting
each in achieving secondary goals. See, e.g., In re
Colonial Realty Co., 980 F.2d 125, 132 (2d Cir. 1992).
However, Section 546(e) is in full conflict with the
goal of maximizing the assets available to creditors.
Its purpose is to protect a national, heavily regulated
market by limiting creditors’ rights. Conflicting
goals are not accommodated by giving value with the
right hand and taking it away with the left. Section
546(e) cannot be trumped by the Code’s goal of
maximizing the return to creditors without
thwarting the Section’s purposes.
6. Additional Considerations Regarding
Congressional Intent
We therefore conclude that Congress intended to
protect from constructive fraudulent conveyance
avoidance proceedings transfers by a debtor in
bankruptcy that fall within Section 546(e)’s terms.
As discussed supra, appellants’ theory hangs on the
ambiguous use of the word “trustee,” has no basis in
the language of the Code, leads to substantial
anomalies, ambiguities and conflicts with the Code’s
procedures,
and,
most
importantly,
is
in
irreconcilable conflict with the purposes of Section
546(e). In this regard, we do not ignore Section
544(b)(2), which prohibits avoidance of a transfer to a
charitable contribution by a trustee but also
expressly preempts state law claims by creditors. It
states: “Any claim by any person to recover a
transferred contribution described in the preceding

62a
sentence under Federal or State law in a Federal or
State
court
shall
be
preempted
by
the
commencement of the case.” 11 U.S.C. § 544(b)(2).
Appellants rely heavily upon this provision to argue
that, while Congress knew how to explicitly preempt
state law in the Bankruptcy Code, it chose not to do
so in the context of Section 546(e).
Appellants’ argument suffers from a fatal flaw,
however. In Arizona v. United States, the Supreme
Court made clear that “the existence of an express
pre-emption provisio[n] does not bar the ordinary
working of conflict preemption principles or impose a
special burden that would make it more difficult to
establish the preemption of laws falling outside the
clause.” 132 S. Ct. 2492, 2504-05 (2012) (quotation
marks and citations omitted); see also Hillman, 133
S. Ct. at 1954 (“[W]e have made clear that the
existence of a separate pre-emption provision does
not bar the ordinary working of conflict pre-emption
principles.”) (internal quotation marks and citations
omitted).
Section 544(b)(2) does not, therefore,
undermine our conclusion as to Congress’s intent.
Next, appellants argue that Congress’s failure to
amend Section 546(e) over the years that it has
existed in pertinent form reflects a congressional
intent to allow their actions to proceed. In support,
they point only to requests for an amendment by the
Chair of the CFTC and by Comex, see Bankruptcy
Act Revision: Hearings on H.R. 31 and H.R. 32
Before the Subcomm. on Civil & Constitutional
Rights of the H. Comm. on the Judiciary, 94th Cong.,
Supp. App. Pt. 4, 2406 (1976); Bankruptcy Reform
Act: Hearings on S. 2266 and H.R. 8000 Before the

63a
Subcomm. on Improvements in Judicial Machinery of
the S. Comm. on the Judiciary, 95th Cong. 1297
(1978), the enactment of Section 544(b)(2) with an
express preemption provision, and a decision in the
District of Delaware, PHP Liquidating, LLC v.
Robbins, 291 B.R. 603, 607 (D. Del. 2003), aff’d sub
nom. In re PHP Healthcare Corp., 128 F. App’x 839
(3d Cir. 2005).
To be sure, a history of relevant practice may
support an inference of congressional acquiescence.
See, e.g., Fiero v. Fin. Indus. Regulatory Auth., 660
F.3d 569, 577 (2d Cir. 2011) (noting that FINRA’s
“longstanding reliance” on enforcement mechanisms
other than fines -- and Congress’s failure to alter
FINRA’s enforcement powers -- “indicates that
FINRA is not authorized to enforce the collection of
its fines through the courts”); Am. Tel. & Tel. Co. v.
M/V Cape Fear, 967 F.2d 864, 872 (3d Cir. 1992)
(“The Supreme Court in the past has implied private
causes of action where Congress, after a ‘consensus
of opinion concerning the existence of a private cause
of action’ had developed in the federal courts, has
amended a statute without mentioning a private
remedy.”) (quoting Merrill Lynch, Pierce, Fenner &
Smith, Inc. v. Curran, 456 U.S. 353, 380 (1982)).
However, the effect or meaning of legislation is not to
be gleaned from isolated requests for more
protective, but possibly redundant, legislation. The
impact of Section 544(b)(2) is discussed immediately
above and need not be repeated here.
Finally, the failure of Congress to respond to
court decisions is of interpretive significance only
when the decisions are large in number and

64a
universally, or almost so, followed. See Merrill
Lynch, 456 U.S. at 379 (holding that congressional
amendment of the Commodity Exchange Act that
was silent on the subject of private judicial remedies
did not overturn federal court decisions routinely and
consistently [] recogniz[ing] an implied private cause
of action”) (emphasis added); see also Touche Ross &
Co. v. Redington, 442 U.S. 560, 577 n.19 (1979)
(holding that the Supreme Court’s implication of a
private right of action under § 10(b) of the Securities
and Exchange Act of 1934 was simply acquiescence
in “the 25-year-old acceptance by the lower federal
courts of an implied action”). The present decision is
far from a departure from a generally accepted
understanding. The district court decision in this
very case and the bankruptcy court decision in
Lyondell are in fact the sole extensive judicial
discussions of the issue. Indeed, our present decision
does not even constitute a split among the circuits.
As or more telling with regard to the existence of a
general understanding or a need for action, we find
no history of the use of state law, constructive
fraudulent conveyance actions to unwind settled
securities transactions, either after a bankruptcy or
in its absence.
The Constitution’s establishment of two
legislative branches that must act jointly and with
the executive’s approval was designed to render
hasty action possible only in circumstances of widely
perceived need. Congress’s failure to act must be
viewed in that context, and reliance upon an
inference of satisfaction with the status quo must at
least be based on evidence of a long-standing and

65a
recognized status quo. In the present matter, we
cannot draw the suggested inference on the basis of
the skimpy evidence submitted while the inference of
a preemptive intent is easily drawn.
7. The Relevance of Merit Mgmt. to this
Preemption Holding
Appellants finally contend that this preemption
holding “cannot be reconciled” with the Supreme
Court’s decision in Merit Mgmt. Appellants’ Motion
to Recall the Mandate at 10. Again, we disagree. As
an initial matter, the Merit Mgmt. Court was not
tasked with assessing Section 546(e)’s preemptive
force, and it did not address preemption. Instead,
the sole issue in Merit Mgmt. was whether, “in the
context of a transfer that was executed via one or
more transactions,” the relevant transfer for the
purposes of Section 546(e) was the overarching
transfer or any of its component transfers. Merit
Mgmt., 138 S. Ct. at 888. Accordingly, Merit Mgmt.
does not control our disposition of the preemption
issue.
Nor have we located anything in Merit Mgmt.’s
reasoning that contradicts our assessment of
Congress’s preemptive intent. Appellants suggest
that the Supreme Court rejected a primary premise
upon which we have relied here: that Section 546(e)
was intended to promote “‘finality’ in the securities
markets.” Appellants’ Motion to Recall the Mandate
at 10-11. The Court did no such thing, however.
Instead, it merely concluded that, to the extent the
policies animating Section 546(e) were relevant for
determining the safe harbor’s scope, those policies

66a
did not supply a basis for “deviat[ing] from the plain
meaning of the language used in § 546(e).” Merit
Mgmt., 138 S. Ct. at 897; see also id. at 888 (“The
Court concludes that the plain meaning of § 546(e)
dictates that the only relevant transfer for purposes
of the safe harbor is the [overarching] transfer that
the trustee seeks to avoid.”).
Also, the failures of the “purposivist arguments”
in Merit Mgmt., id. at 897, are not particularly
instructive here due to the distinctions between the
inquiries here and there. The Supreme Court has
repeatedly held that where, as in Merit Mgmt.,
courts are interpreting the meaning of a statutory
provision, they should not allow extrinsic evidence of
Congressional purpose to alter the plain meaning of
the statute.
See, e.g., Henson v. Santander
Consumer USA Inc., 137 S. Ct. 1718, 1725 (2017)
(“[I]t is quite mistaken to assume . . . that whatever
might appear to further the statute’s primary
objective must be the law.”) (internal quotation
marks and alterations omitted); Dodd v. United
States, 545 U.S. 353, 357 (2005) (“We must presume
that the legislature says in a statute what it means
and means in a statute what it says there.”) (internal
quotation marks and alterations omitted).
But
where, as here, we are assessing whether a statute
preempts certain claims, we have been directed to
consult evidence of Congressional purpose to
ascertain whether the statute has a preemptive
effect beyond that provided by its plain terms. See,
e.g., Altria Grp., Inc. v. Good, 555 U.S. 70, 76 (2008)
(“Congress may indicate pre-emptive intent through
a statute’s express language or through its structure

67a
and purpose. [Even where] a federal law contains an
express pre-emption clause, it does not immediately
end the inquiry because the question of the
substance and scope of Congress’ displacement of
state law still remains.”) (internal citations omitted)
(emphasis added). Thus, in light of these different
directives, it is clear that a “purposivist” argument
should carry far more weight in this case than in
Merit Mgmt.
Finally, it bears emphasizing that the other
reasons underpinning our preemption holding are
not implicated by Merit Mgmt. in any way.
Specifically, Merit Mgmt. does not contradict our
findings that appellants’ legal theory has no support
in the language of the Code; leads to substantial
anomalies and conflicts with the Code’s procedures;
and requires reading Section 546(e)’s reference to a
trustee et al. avoidance claim to mean that creditors
could bring their own claims -- a reading that is less
than plain.
For these reasons, we find that our preemption
holding is consistent with Merit Mgmt.
CONCLUSION
For the reasons stated, we affirm the dismissal of
appellants’ claims, on preemption rather than
standing grounds. We resolve no issues regarding
the rights of creditors to bring state law, fraudulent
conveyance claims not limited in the hands of a
trustee et al. by Code Section 546(e) or by similar
provisions such as Section 546(g), which was at issue
in an appeal heard in tandem with the present

68a
matter, see Whyte v. Barclays Bank PLC, 644 F.
App’x 60, 60 (2d Cir. 2016) (affirming the district
court’s dismissal of state law, fraudulent conveyance
claims limited by Section 546(g) “for substantially
the reasons stated in [Tribune I]”), cert. denied, 137
S. Ct. 2114 (2017).

69a

APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
At a Stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 15th day of
May, two thousand and eighteen.
Before:

Ralph K. Winter,
Christopher F. Droney,
Circuit Judges,
Alvin K. Hellerstein,
District Judge.*

___________________________________
IN RE: TRIBUNE COMPANY
FRAUDULENT
CONVEYANCE
LITIGATION
ORDER
NOTE HOLDERS, Deutsche Bank Docket No.
Trust Company Americas, Law
13-3992(L)
Debenture Trust Company of New
York, Wilmington Trust Company,
*

The Honorable Alvin K. Hellerstein, of the United States
District Court for the Southern District of New York, sitting by
designation.

70a
INDIVIDUAL RETIREES, William 13-3875(XAP)
A. Niese, on behalf of a putative 13-4178(XAP)
class of Tribune Company retirees,
13-4196(XAP)
Plaintiff-Appellant-CrossAppellees,
Mark S. Kirschner, as Litigation
Trustee for the Tribune Litigation
Trust,
Plaintiff,
Tendering Phones Holders, Citadel
Equity Fund Ltd., Camden Asset
Management LLP and certain of
their affiliates,
Plaintiff-Intervenors,
v.
Large Private Beneficial Owners,
Financial Institution Holders,
Financial
Institution
Conduits,
Merrill Lynch, Pierce, Fenner &
Smith, Inc., on behalf of a putative
class of former Tribune Company
shareholders,
Pension
Funds,
including public, private, and Taft
Hartlet Funds, Individual Beneficial
Owners, Mario J. Gabelli, on behalf
of a putative class of former Tribune
Company
shareholders,
Mutual
Funds, At-Large, Estate of Karen

71a
Babcock, Phillip S. Babcock, Phillip
S. Babcock, Douglas Babcock,
Defendants listed on Exhibit B,
Defendants-Appellee-CrossAppellants,
Current and Former Directors and
Officers,
Betsy
D.
Holden,
Christopher Reyes, Dudley S. Taft,
Enrique Hernandez, Jr., Miles D.
White, Robert S. Morrison, William
A. Osborn, Harry Amsden, Stephen
D. Carver, Dennis J. FitzSimons,
Robert Gremillion, Donald C.
Grenesko, David Dean Hiller,
Timothy J. Landon, Thomas D.
Leach, Luis E. Le, Mark Hianik,
Irving Quimby, Crane Kenney,
Chandler Bigelow, Daniel Kazan,
Timothy Knight, Thomas Finke,
SAM ZELL AND AFFILIATED
ENTITIES, EGI-TRB, LLC, Equity
Group Investments, LLC, SAM
Investment Trust, Samuel Zell,
Tower CH, LLC, Tower DC, LLC,
Tower Dl, LLC, Tower EH, LLC,
Tower Gr, Large Shareholders,
Chandler
Trust
and
their
representatives,
FINANCIAL
ADVISORS, Valuation Research
Corporation, Duff & Phelps, LLC,
Morgan Stanley & Co. Inc. and
Morgan Stanley Capital Services,

72a
Inc., GreatBanc Trust Company,
Citigroup Global Markets, Inc., CA
PUBLIC
EMPLOYEE
RETIREMENT
SYSTEM,
CALPERS, UNIVERSITY OF CA
REGENTS, T. ROWE PRICE
ASSOCIATES,
INC.,
MORGAN
KEEGAN & COMPANY, INC.,
NTCA, DIOCESE OF TRENTONPENSION FUND, FIRST ENERGY
SERVICE COMPANY, MARYLAND
STATE
RETIREMENT
AND
PENSION SYSTEM, T BANK LCV
QP, T BANK-LCV-PT, JAPAN POST
INSURANCE,
CO.,
LTD.,
SERVANTS OF RELIEF FOR
INCURABLE
CANCER
(AKA
DOMINICAN
SISTERS
OF
HAWTHORNE),
NEW
LIFE
INTERNATIONAL,
NEW LIFE
INTERNATIONAL
TRUST,
SALVATION ARMY, SOUTHERN
TERRITORIAL HEADQUARTERS,
CITY
OF
PHILADELPHIA
EMPLOYEES,
OHIO
CARPENTERS’
MIDCAP
(AKA
OHIO CARPENTARS’ PENSION
FUND), TILDEN H. EDWARDS,
JR., MALLOY AND EVANS, INC.,
BEDFORD OAK PARTNERS, LP,
DUFF
AND
PHELPS
LLC,
DURHAM J. MONSMA, CERTAIN
TAG-ALONG
DEFENDANTS,
MICHAEL S. MEADOWS, WIRTZ

73a
CORPORATION,
Defendants.
___________________________________
IT IS HEREBY ORDERED that the mandate in
this case is recalled in anticipation of further panel
review.
For the Court:
Catherine O’Hagan Wolfe,
Clerk of Court

74a
APPENDIX C
Cite as: 584 U. S. ____ (2018)
Statement of KENNEDY, J. and THOMAS, J.
SUPREME COURT OF THE UNITED STATES
DEUTSCHE BANK TRUST COMPANY
AMERICAS, ET AL. v. ROBERT R. MCCORMICK
FOUNDATION, ET AL.
ON PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
No. 16–317. Decided April 3, 2018
Statement of JUSTICE KENNEDY and JUSTICE
THOMAS respecting the petition for certiorari.
The parties are advised that consideration of the
petition for certiorari will be deferred for an
additional period of time. This will allow the Court of
Appeals or the District Court to consider whether to
recall the mandate, entertain a Federal Rule of Civil
Procedure 60(b) motion to vacate the earlier
judgment, or provide any other available relief in
light of this Court’s decision in Merit Management
Group, LP v. FTI Consulting, Inc., 583 U. S. ___
(2018). The petition for certiorari in this case was
pending when the Court decided Merit Management.
The Court of Appeals or the District Court could
decide whether relief from judgment is appropriate
given the possibility that there might not be a
quorum in this Court. See 28 U. S. C. §2109.

75a
APPENDIX D
13-3992-cv (L)
In re: Tribune Company Fraudulent
Conveyance Litigation
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
August Term, 2014
(Argued: November 5, 2014 Decided: March 29, 2016)
Docket Nos. 13-3992-cv; 13-3875-cv; 13-4178-cv; 134196-cv
---------------------------------------IN RE: TRIBUNE COMPANY
CONVEYANCE LITIGATION

FRAUDULENT

NOTE HOLDERS, Deutsche Bank Trust Company
Americas, Law Debenture Trust Company of New
York, Wilmington Trust Company, INDIVIDUAL
RETIREES, William A. Niese, on behalf of a putative
class of Tribune Company retirees,
Plaintiffs-Appellants-Cross-Appellees,
MARK S. KIRSCHNER, as Litigation Trustee for the
Tribune Litigation Trust,
Plaintiff,

76a
TENDERING PHONES HOLDERS, Citadel Equity
Fund Ltd., Camden Asset Management LLP and
certain of their affiliates,
Plaintiffs-Intervenors,
v.
LARGE
PRIVATE
BENEFICIAL
OWNERS,
FINANCIAL
INSTITUTION
HOLDERS,
FINANCIAL INSTITUTION CONDUITS, Merrill
Lynch, Pierce, Fenner & Smith, Inc., on behalf of a
putative class of former Tribune Company
shareholders, PENSION FUNDS, including public,
private, and Taft Hartley Funds, INDIVIDUAL
BENEFICIAL OWNERS, Mario J. Gabelli, on behalf
of a putative class of former Tribune Company
shareholders, MUTUAL FUNDS, AT-LARGE,
ESTATE OF KAREN BABCOCK, PHILLIP S.
BABCOCK, DOUGLAS BABCOCK, DEFENDANTS
LISTED ON EXHIBIT B,
Defendants-Appellees-Cross-Appellants,
CURRENT AND FORMER DIRECTORS AND
OFFICERS, Betsy D. Holden, Christopher Reyes,
Dudley S. Taft, Enrique Hernandez, Jr., Miles D.
White, Robert S. Morrison, William A. Osborn, Harry
Amsden, Stephen D. Carver, Dennis J. FitzSimons,
Robert Gremillion, Donald C. Grenesko, David Dean
Hiller, Timothy J. Landon, Thomas D. Leach, Luis E.
Le, Mark Hianik, Irving Quimby, Crane Kenney,
Chandler Bigelow, Daniel Kazan, Timothy Knight,
Thomas Finke, SAM ZELL AND AFFILIATED
ENTITIES,
EGI-TRB,
LLC,
Equity
Group

77a
Investments, LLC, Sam Investment Trust, Samuel
Zell, Tower CH, LLC, Tower DC, LLC, Tower DL,
LLC, Tower EH, LLC, Tower Gr, LARGE
SHAREHOLDERS, Chandler Trusts and their
representatives, FINANCIAL ADVISORS, Valuation
Research Corporation, Duff & Phelps, LLC, Morgan
Stanley & Co. Inc. and Morgan Stanley Capital
Services, Inc., GreatBanc Trust Company, Citigroup
Global Markets, Inc., CA PUBLIC EMPLOYEE
RETIREMENT SYSTEM, CALPERS, UNIVERSITY
OF CA REGENTS, T. ROWE PRICE ASSOCIATES,
INC., MORGAN KEEGAN & COMPANY, INC.,
NTCA, DIOCESE OF TRENTON-PENSION FUND,
FIRST
ENERGY
SERVICE
COMPANY,
MARYLAND
STATE
RETIREMENT
AND
PENSION SYSTEM, T BANK LCV QP, T BANKLCV-PT, JAPAN POST INSURANCE, CO., LTD.,
SERVANTS OF RELIEF FOR INCURABLE
CANCER (AKA DOMINICAN SISTERS OF
HAWTHORNE), NEW LIFE INTERNATIONAL,
NEW
LIFE
INTERNATIONAL
TRUST,
SALVATION ARMY, SOUTHERN TERRITORIAL
HEADQUARTERS, CITY OF PHILADELPHIA
EMPLOYEES, OHIO CARPENTERS’ MIDCAP
(AKA OHIO CARPENTERS’ PENSION FUND),
TILDEN H. EDWARDS, JR., MALLOY AND
EVANS, INC., BEDFORD OAK PARTNERS, LP,
DUFF AND PHELPS LLC, DURHAM J. MONSMA,
CERTAIN TAG-ALONG DEFENDANTS, MICHAEL
S. MEADOWS, WIRTZ CORPORATION,

78a
Defendants.*
- - - - - - - - - - - - - - - -- - - - - - - - - - - - - - - - - - - - - - - - Before: WINTER, DRONEY, Circuit Judges, and
HELLERSTEIN, District Judge.**
Appeal from a dismissal by the United States
District Court for the Southern District of New York
(Richard J. Sullivan, Judge), of state law,
constructive fraudulent conveyance claims brought
by creditors’ representatives against the Chapter 11
debtor’s former shareholders, who were cashed out in
an LBO. The district court held that plaintiffs
lacked statutory standing under the Bankruptcy
Code.
We hold that appellants have statutory
standing but affirm on the ground that appellants’
claims are preempted by Section 546(e) of that Code.
ROY
T.
ENGLERT,
JR.
(Lawrence S. Robbins, Ariel N.
Lavinbuk, Daniel N. Lerman,
Shai D. Bronshtein, Robbins,
Russell,
Englert,
Orseck,
Untereiner & Sauber LLP,
Washington, DC, Pratik A. Shah,
James E. Tysse, Z.W. Julius
Chen, Akin Gump Strauss Hauer
& Feld LLP, Washington, DC,
David M. Zensky, Mitchell
Hurley, Deborah J. Newman,
The Clerk of the Court is instructed to conform the caption in
accordance with this opinion.
*

The Honorable Alvin K. Hellerstein, of the Southern District
of New York, sitting by designation.

**

79a
Akin Gump Strauss Hauer &
Feld LLP, New York, NY, Robert
J. Lack & Hal Neier, Friedman
Kaplan Seiler & Adelman LLP,
New York, NY, Daniel M. Scott &
Kevin M. Magnuson, Kelley,
Wolter
&
Scott,
P.A.,
Minneapolis, MN, David S.
Rosner
&
Sheron
Korpus,
Kasowitz Benson Torres &
Friedman LLP, New York, NY,
Joseph Aronauer, Aronauer Re &
Yudell, LLP, New York, NY, on
the brief), Robbins, Russell,
Englert, Orseck, Untereiner &
Sauber LLP, Washington, DC, for
Plaintiffs-Appellants-CrossAppellees Note Holders.
Jay Teitelbaum, Teitelbaum &
Baskin LLP, White Plains, NY,
for
Plaintiffs-Appellants-CrossAppellees Individual Retirees.
Joel A. Feuer & Oscar Garza,
Gibson, Dunn & Crutcher LLP,
Los Angeles, CA, David C. Bohan
& John P. Sieger, Katten Muchin
Rosenman LLP, Chicago, IL, for
Defendants-Appellees-CrossAppellants
Large
Private
Beneficial Owners.

80a
PHILIP D. ANKER (Alan E.
Schoenfeld, Adriel I. Cepeda
Derieux, Pablo G. Kapusta,
Wilmer Cutler Pickering Hale
and Dorr LLP, New York, NY,
Sabin Willett & Michael C.
D’Agnostino,
Bingham
McCutchen LLP, Boston, MA,
Joel W. Millar, Washington, DC,
on the brief), Wilmer Cutler
Pickering Hale and Dorr LLP,
New York, NY, for DefendantsAppellees-Cross-Appellants
Financial Institution Holders.
Elliot Moskowitz, Davis Polk &
Wardwell LLP, New York, NY,
Daniel L. Cantor, O’Melveny &
Myers LLP, New York, NY,
Gregg M. Mashberg & Stephen L.
Ratner, Proskauer Rose LLP,
New York, NY, for DefendantsAppellees-Cross-Appellants
Financial Institution Conduits.
DOUGLAS
HALLWARDDRIEMEIER, Ropes & Gray LLP,
Washington, DC, D. Ross Martin,
Ropes & Gray LLP, New York,
NY, Matthew L. Fornshell, Ice
Miller LLP, Columbus, OH, for
Defendants-Appellees-CrossAppellants Pension Funds.

81a
Andrew J. Entwistle, Entwistle &
Cappucci, LLP, New York, NY,
David N. Dunn, Potter Stewart,
Jr. Law Offices, Brattleboro, VT,
Mark A. Neubauer, Steptoe &
Johnson LLP, Los Angeles, CA,
for Defendants-Appellees-CrossAppellants Individual Beneficial
Owners.
Michael S. Doluisio & Alexander
Bilus, Dechert LLP, Philadelphia
PA,
Steven
R.
Schoenfeld,
Robinson & Cole LLP, New York,
NY, for Defendants-AppelleesCross-Appellants Mutual Funds.
Alan J. Stone & Andrew M.
LeBlanc, Milbank, Tweed, Hadley
& McCloy LLP, New York, NY,
for
Defendant-Appellee-CrossAppellant At-Large.
Gary
Stein,
David
K.
Momborquette,
William
H.
Gussman, Jr., Schulte Roth &
Zabel LLP, New York, NY, for
Defendants-Appellees-CrossAppellants Defendants Listed on
Exhibit B.
Kevin
Carroll,
Securities
Industry and Financial Markets
Association, Washington, DC,

82a
Holly K. Kulka, NYSE Euronext,
New York, NY, Marshall H.
Fishman, Timothy P. Harkness,
David Y. Livshiz, Freshfields
Bruckhaus Deringer US LLP,
New York, NY, for Amici Curiae
Securities Industry and Financial
Markets
Association,
International
Swaps
and
Derivatives Association, Inc., and
the NYSE Euronext.
Michael A. Conley, John W.
Avery,
Tracey
A.
Hardin,
Benjamin M. Vetter, Securities
and
Exchange
Commission,
Washington, DC, for Amicus
Curiae Securities and Exchange
Commission.
WINTER, Circuit Judge:
Representatives of certain unsecured creditors of
the Chapter 11 debtor Tribune Company appeal from
Judge Sullivan’s grant of a motion to dismiss their
state law, constructive fraudulent conveyance claims
brought against Tribune’s former shareholders.
Appellants seek to recover an amount sufficient to
satisfy Tribune’s debts to them by avoiding
(recovering) payments by Tribune to shareholders
that purchased all of its stock. The payments
occurred in a transaction commonly called a

83a
leveraged buyout (“LBO”),1 soon after which Tribune
went into Chapter 11 bankruptcy. Appellants appeal
the district court’s dismissal for lack of statutory
standing, and appellees cross-appeal from the
district court’s rejection of their argument that
appellants’ claims are preempted.2
We address two issues: (i) whether appellants are
barred by the Bankruptcy Code’s automatic stay
provision from bringing state law, constructive
fraudulent conveyance claims while avoidance
proceedings against the same transfers brought by a
party exercising the powers of a bankruptcy trustee
on an intentional fraud theory are ongoing; and (ii) if
not, whether the creditors’ state law, constructive
fraudulent conveyance claims are preempted by
Bankruptcy Code Section 546(e).
On issue (i), we hold that appellants are not
barred by the Code’s automatic stay because they
have been freed from its restrictions by orders of the
bankruptcy court and by the debtors’ confirmed
reorganization plan. On issue (ii), the subject of
appellees’ cross-appeal, we hold that appellants’
claims are preempted by Section 546(e).
That

In a typical LBO, a target company is acquired with a
significant portion of the purchase price being paid through a
loan secured by the target company’s assets.
1

Because the issue has no effect on our disposition of this
matter, we do not pause to consider whether a cross-appeal was
necessary for appellees to raise the preemption issues in this
court, but, for convenience purposes, we sometimes refer to
those issues by the term cross-appeal.
2

84a
Section shields from avoidance proceedings brought
by a bankruptcy trustee transfers by or to financial
intermediaries effectuating settlement payments in
securities transactions or made in connection with a
securities contract, except through an intentional
fraudulent conveyance claim.
We therefore affirm.
BACKGROUND
a) The LBO
Tribune Media Company (formerly known as
“Tribune Company”) is a multimedia corporation
that, in 2007, faced deteriorating financial prospects.
Appellee Samuel Zell, a billionaire investor, proposed
to acquire Tribune through an LBO.
In
consummating the LBO, Tribune borrowed over $11
billion secured by its assets. The $11 billion plus,
combined with Zell’s $315 million equity
contribution, was used to refinance some of Tribune’s
pre-existing bank debt and to cash out Tribune’s
shareholders for over $8 billion at a premium price -above its trading range -- per share. It is undisputed
that Tribune transferred the over $8 billion to a
“securities clearing agency” or other “financial
institution,” as those terms are used in Section
546(e), acting as intermediaries in the LBO
transaction. Those intermediaries in turn paid the
funds to the shareholders in exchange for their
shares that were then returned to Tribune.
Appellants seek to satisfy Tribune’s debts to them by
avoiding Tribune’s payments to the shareholders.

85a
Appellants do not seek money
intermediaries. See Note 8, infra.

from

the

b) Bankruptcy Proceedings
On December 8, 2008, with debt and contingent
liabilities exceeding its assets by more than $3
billion, Tribune and nearly all of its subsidiaries filed
for bankruptcy under Chapter 11 in the District of
Delaware. A trustee was not appointed, and Tribune
and its affiliates continued to operate the businesses
as debtors in possession. See 11 U.S.C. § 1107(a)
(“Subject to any limitations on a trustee . . . a debtor
in possession shall have all the rights . . . , and
powers, and shall perform all the functions and
duties . . . of a trustee . . . .”). In discussing the
powers of a bankruptcy trustee that can be exercised
by a trustee or parties designated by a bankruptcy
court, we shall refer to the trustee or such parties as
the “trustee et al.”
The bankruptcy court appointed an Official
Committee of Unsecured Creditors (the “Committee”)
to represent the interests of unsecured creditors. In
November 2010, alleging that the LBO-related
payments
constituted
intentional
fraudulent
conveyances, the Committee commenced an action
under Code Section 548(a)(1)(A) against the cashed
out Tribune shareholders, various officers, directors,
financial advisors, Zell, and others alleged to have
benefitted from the LBO. An intentional fraudulent
conveyance is defined as one in which there was
“actual intent to hinder, delay, or defraud” a creditor.
11 U.S.C. § 548(a)(1)(A).

86a
In June 2011, two subsets of unsecured creditors
filed state law, constructive fraudulent conveyance
claims in various federal and state courts. The
plaintiffs, the appellants before us, were: (i) the
Retiree Appellants, former Tribune employees who
hold claims for unpaid retirement benefits and (ii)
the Noteholder Appellants, the successor indenture
trustees for Tribune’s pre-LBO senior notes and
subordinated debentures. A constructive fraudulent
conveyance is, generally speaking, a transfer for less
than reasonably equivalent value made when the
debtor was insolvent or was rendered so by the
transfer. See Picard v. Fairfield Greenwich Ltd., 762
F.3d 199, 208-09 (2d Cir.15 2014).
Before bringing these actions, appellants moved
the bankruptcy court for an order stating that: (i)
after the expiration of the two-year statute of
limitations period during which the Committee was
authorized to bring avoidance actions under 11
U.S.C. § 546(a), eligible creditors had regained the
right to prosecute their creditor state law claims; and
(ii) the automatic stay imposed by Code Section
362(a) was lifted solely to permit the immediate
filing of their complaint. In support of that motion,
the Committee argued that, under Section 546(a),
the “state law constructive fraudulent conveyance
transfer claims ha[d] reverted to individual
creditors” and that the “creditors should consider
taking appropriate actions to preserve those claims.”
Statement of the Official Committee of Unsecured
Creditors in Supp. of Mot. 3, In re Tribune Co., No
08-13141 (KJC) (Bankr. D. Del. Mar. 17, 2011).

87a
In April 2011, the bankruptcy court lifted the
Code’s automatic stay with regard to appellants’
actions.
The court reasoned that because the
Committee had elected not to bring the constructive
fraudulent conveyance actions within the two-year
limitations period following the bankruptcy petition
imposed by Section 544, fully discussed infra, the
unsecured creditors “regained the right, if any, to
prosecute [such claims].” J. App’x at 373. Therefore,
the court lifted the Section 362(a) automatic stay “to
permit the filing of any complaint by or on behalf of
creditors on account of such Creditor [state law
fraudulent conveyance] Claims.” Id. The court
clarified, however, that it was not resolving the
issues of whether the individual creditors had
statutory standing to bring such claims or whether
such claims were preempted by Section 546(e).
On March 15, 2012, the bankruptcy court set an
expiration date of June 1, 2012 for the remaining
limited stay on the state law, fraudulent conveyance
claims. In July 2012, the bankruptcy court ordered
confirmation of the proposed Tribune reorganization
plan. The plan terminated the Committee and
transferred responsibility for prosecuting the
intentional fraudulent conveyance action to an entity
called the Litigation Trust. The confirmed plan also
provided that the Retiree and Noteholder Appellants
could pursue “any and all LBO-Related Causes of
Action arising under state fraudulent conveyance
law,” except for the federal intentional fraudulent
conveyance and other LBO-related claims pursued
by the Litigation Trust. J. App’x at 643. Under the
plan, the Retiree and Noteholder Appellants

88a
recovered approximately 33 cents on each dollar of
debt. The plan was scheduled to take effect on
December 31, 2012, the date on which Tribune
emerged from bankruptcy.
c) District Court Proceedings
Appellants’ various state law, fraudulent
conveyance complaints alleged that the LBO
payments, made through financial intermediaries as
noted above, were for more than the reasonable
value of the shares and made when Tribune was in
distressed financial condition.
Therefore, the
complaints concluded, the payments were avoidable
by creditors under the laws of various states. These
actions were later consolidated with the Litigation
Trust’s ongoing federal intentional fraud claims in a
multi-district litigation proceeding that was
transferred to the Southern District of New York. In
re: Tribune Co. Fraudulent Conveyance Litig., 831 F.
Supp. 2d 1371 (J.P.M.L. 2011).
After consolidation, the Tribune shareholders
moved to dismiss appellants’ claims. The district
court granted the motion on the ground that the
Bankruptcy Code’s automatic stay provision deprived
appellants of statutory standing to pursue their
claims so long as the Litigation Trustee was
pursuing the avoidance of the same transfers, albeit
under a different legal theory. In re Tribune Co.
Fraudulent Conveyance Litig., 499 B.R. 310, 325
(S.D.N.Y. 2013). The court held that the bankruptcy
court had only “conditionally lifted the stay.” Id. at
314.

89a
The district court rejected appellees’ preemption
argument based on Section 546(e). That Section bars
a trustee et al. from exercising its avoidance powers
under Section 544 to avoid transfers by the debtor to
specified financial intermediaries, e.g. a “securities
clearing agency” or “financial institution,” that is a
“settlement payment” in a securities transaction or is
a transfer “in connection with a securities contract.”
The district court held that Section 546(e) did not bar
appellants’ actions because: (i) Section 546(e)’s
prohibition on avoiding the designated transfers
applied only to a bankruptcy trustee et al., id. at
315-16; and (ii) Congress had declined to extend
Section 546(e) to state law, fraudulent conveyance
claims brought by creditors, id. at 318.
DISCUSSION
We review de novo the district court’s grant of
appellees’ motion to dismiss. See Mary Jo C. v. N.Y.
State & Local Ret. Sys., 707 F.3d 144, 151 (2d Cir.
2013). The relevant facts being undisputed for
purposes of this proceeding, only issues of law are
before us.
a) Statutory Standing to Bring the Claims
We first address the district court’s dismissal of
appellants’ claims on the ground that they lacked
standing to bring them because of Section 362(a)(1).3
The term “standing” has been used to describe issues arising
in bankruptcy proceedings when individual creditors sue to
recover funds from third parties to satisfy amounts owed to
them by the debtor, and that action is defended on the ground
3

90a
In re Tribune, 499 B.R. at 325. When a bankruptcy
action is filed, any “action or proceeding against the
debtor” is automatically stayed by Section 362(a).
The purpose of the stay is “to protect creditors as
well as the debtor,” Ostano Commerzanstalt v.
Telewide Sys., Inc., 790 F.2d 206, 207 (2d Cir. 1986)
(per curiam), by avoiding wasteful, duplicative,
individual actions by creditors seeking individual
recoveries from the debtor’s estate, and by ensuring
an equitable distribution of the debtor’s estate. See
In re McMullen, 386 F.3d 320, 324 (1st Cir. 2004)
(noting that Section 362(a)(1), among other things,
“safeguard[s] the debtor estate from piecemeal
dissipation . . . ensur[ing] that the assets remain
within the exclusive jurisdiction of the bankruptcy
court pending their orderly and equitable
distribution among the creditors”).
Although
fraudulent conveyance actions are against third
parties rather than a debtor, there is caselaw,
discussed infra, stating that the automatic stay
applies to such actions.4 See In re Colonial Realty
Co., 980 F.2d 125, 131 (2d Cir. 1992).

that the recovery seeks funds that are recoverable under the
Code only by a representative of all creditors. St. Paul Fire &
Marine Ins. Co. v. PepsiCo, Inc.,884 F.2d 688, 696-97 (2d Cir.
1989), disapproved of on other grounds by In re Miller,197 B.R.
810 (W.D.N.C. 1996). The use of the term “standing” is based
on the suing creditors’ need to demonstrate an injury other
than one redressable under the Code only by the trustee et al.
Id. at 704.
The implications of applying the automatic stay to fraudulent
conveyance actions are discussed infra.
4

91a
The district court ruled that Section 362’s
automatic stay provision deprived appellants of
statutory standing to bring their claims because the
Litigation Trustee was still pursuing an intentional
fraudulent conveyance action challenging the same
transfers under Section 548(a)(1)(A). In re Tribune,
499 B.R. at 322-23. We disagree. The Bankruptcy
Code empowers a bankruptcy court to release parties
from the automatic stay “for cause” shown. In re
Bogdanovich, 292 F.3d 104, 110 (2d Cir. 2002)
(quoting 11 U.S.C. § 362(d)(1)). Once a creditor
obtains “a grant of relief from the automatic stay”
under Section 362(d), it may “press its claims outside
of the bankruptcy proceeding.” St. Paul Fire &
Marine Ins. Co. v. PepsiCo, Inc., 884 F.2d 688, 702
(2d Cir. 1989), disapproved of on other grounds by In
re Miller, 197 B.R. 810 (W.D.N.C. 1996).
In the present matter, the bankruptcy court
granted appellants relief from the automatic stay on
three occasions. On April 25, 2011, the bankruptcy
court granted appellants relief “to permit the filing of
any complaint by or on behalf of creditors on account
of such Creditor [state law fraudulent conveyance]
Claims.” J. App’x at 373. A second order, entered on
June 28, 2011, clarified that “neither the automatic
stay of [Section 362] nor the provisions of the
[original lift-stay order]” barred the parties in the
state law actions from consolidating and
coordinating these actions. J. App’x at 376. And the
bankruptcy court’s third order, entered on March 15,
2012, set an expiration date of June 1, 2012, for the
“stay imposed on the state law constructive
fraudulent conveyance actions.” J. App’x at 521.

92a
None of the Tribune shareholders filed objections to
these orders.
Finally, the reorganization plan, confirmed by the
bankruptcy court and in all pertinent respects an
order of that court, expressly allowed appellants to
pursue “any and all LBO-Related Causes of Action
arising under state fraudulent conveyance law.” J.
App’x at 643. Section 5.8.2 of the plan provided that
“nothing in this Plan shall or is intended to impair”
the rights of creditors to attempt to pursue
disclaimed state law avoidance claims. J. App’x at
695.
Thus, under both the bankruptcy court’s orders
and the confirmed reorganization plan, if appellants
had actionable state law, constructive fraudulent
conveyance claims, assertion of those claims was no
longer subject to Section 362’s automatic stay. See,
e.g., In re Heating Oil Partners, LP, 422 F. App’x 15,
18 (2d Cir. 2011) (holding that the automatic stay
terminates at discharge); United States v. White, 466
F.3d 1241, 1244 (11th Cir. 2006) (similarly
recognizing that the automatic stay terminates when
“a discharge is granted”).
For the foregoing reasons, we hold that
appellants’ claims are not barred by Section 362.
b) Section 546(e) and Preemption
We turn now to the issue raised by the crossappeal: whether appellants’ claims are preempted
because they conflict with Code Section 546(e).

93a
1. Conflict-Preemption Law
Under the Supremacy Clause, Article VI, Clause
2 of the Constitution, federal law prevails when it
conflicts with state law. Arizona v. United States,
132 S. Ct. 2492, 2500 (2012).
As discussed throughout this opinion, Section
546(e)’s reference to limiting avoidance by a trustee
provides appellants with a plain language argument
that only a trustee et al., and not creditors acting on
their own behalf, are barred from bringing state law,
constructive fraudulent avoidance claims. However,
as discussed infra, we believe that the language of
Section 546(e) does not necessarily have the meaning
appellants ascribe to it. Even if that meaning is one
of multiple reasonable constructions of the statutory
scheme, it would not necessarily preclude
preemption because a preemptive effect may be
inferred where it is not expressly provided.
Under the implied preemption doctrine,5 state
laws are “pre-empted to the extent of any conflict

We see no need for a full discussion of various modes of
analysis used to determine federal preemption, i.e., “express”
preemption, Chamber of Commerce v. Whiting, 131 S. Ct. 1968,
1977 (2011), “field” preemption, Arizona v. United States, 132
S. Ct. 2492, 2502 (2012), or even that branch of “implied”
preemption that requires a showing of “impossibility” of
complying with both state and federal law, id. at 2501. The
only relevant analysis in the present matter is preemption
inferred from a conflict between state law and the purposes of
federal law, as discussed in the text.
5

94a
with a federal statute. Such a conflict occurs . . .
when [ ] state law stands as an obstacle to the
accomplishment and execution of the full purposes
and objectives of Congress.” Hillman v. Maretta, 133
S. Ct. 1943, 1949-50 (2013) (citations and internal
quotation marks omitted); accord In re Methyl
Tertiary Butyl Ether (MTBE) Prods. Liab. Litig., 725
F.3d 65, 97 (2d Cir. 2013) cert. denied sub nom.
Exxon Mobil Corp. v. City of New York, 134 S. Ct.
1877 (2014) (courts will find implied preemption
when “state law directly conflicts with the structure
and purpose of a federal statute”) (citation and
internal quotation marks omitted).
Appellants argue that a recognized presumption
against preemption limits the implied preemption
doctrine. They argue that Section 546(e) preempts
creditors’ state law, fraudulent conveyance claims
only if the claims would do “‘major damage’ to ‘clear
and substantial’ federal interests.” Resp. & Reply
Br. of Pls.-Appellants-Cross-Appellees 45 (quoting
Hillman, 133 S. Ct. 1943, 1950 (2013) (citation
omitted)).
The presumption against inferring
preemption is premised on federalism grounds and,
therefore, weighs most heavily where the particular
regulatory area is “traditionally the domain of state
law.” Hillman, 133 S. Ct. at 1950; see also Madeira
v. Affordable Hous. Found., Inc., 469 F.3d 219, 241
(2d Cir. 2006) (“The mere fact of ‘tension’ between
federal and state law is generally not enough to
establish an obstacle supporting preemption,
particularly when the state law involves the exercise
of traditional police power.”).
According to
appellants, the presumption against preemption

95a
fully applies in the present context because
fraudulent conveyance claims are “among ‘the oldest
[purposes] within the ambit of the police power.’”
Resp. & Reply Br. of Pls.-Appellants-Cross-Appellees
36 (quoting California v. Zook, 336 U.S. 725, 734
(1949)).
Preemption is always a matter of congressional
intent, even where that intent must be inferred. See
Cipollone v. Liggett Grp., Inc., 505 U.S. 504, 516
(1992) (congressional intent is the “ultimate
touchstone of pre-emption analysis”) (quoting Malone
v. White Motor Corp., 435 U.S. 497, 504 (1978))
(internal quotation marks omitted); N.Y. SMSA Ltd.
P’ship v. Town of Clarkstown, 612 F.3d 97, 104 (2d
Cir. 2010) (“The key to the preemption inquiry is the
intent of Congress.”). As in the present matter, the
presumption against preemption usually goes to the
weight to be given to the lack of an express
statement overriding state law.
The presumption is strongest when Congress is
legislating in an area recognized as traditionally one
of state law alone. See Hillman, 133 S. Ct. at 1950
(stating that because “[t]he regulation of domestic
relations is traditionally the domain of state law . . .
[t]here is [ ] a presumption against pre-emption”)
(internal quotation marks and citation omitted).
However, the present context is not such an area. To
understate the proposition, the regulation of
creditors’ rights has “a history of significant federal
presence.” United States v. Locke, 529 U.S. 89, 90
(2000).

96a
Congress’s power to enact bankruptcy laws was
made explicit in the Constitution as originally
enacted, Art. 1, § 8, cl. 4, and detailed, preemptive
federal regulation of creditors’ rights has, therefore,
existed for over two centuries. Charles Jordan Tabb,
The History of the Bankruptcy Laws in the United
States, 3 Am. Bankr. Inst. L. Rev. 5, 7 (1995). Once
a party enters bankruptcy, the Bankruptcy Code
constitutes a wholesale preemption of state laws
regarding creditors’ rights. See Eastern Equip. and
Servs. Corp. v. Factory Point Nat. Bank, Bennington,
236 F.3d 117, 120 (2d Cir. 2001) (“The United States
Bankruptcy Code provides a comprehensive federal
system of penalties and protections to govern the
orderly conduct of debtors’ affairs and creditors’
rights.”); In re Miles, 430 F.3d 1083, 1091 (9th Cir.
2005) (“Congress intended the Bankruptcy Code to
create a whole scheme under federal control that
would adjust all of the rights and duties of creditors
and debtors alike . . . .”).
Consider, for example, the present proceeding.
While the issue before us is often described as
whether Section 546(e) preempts state fraudulent
conveyance laws, Resp. & Reply Br. of Pls.Appellants-Cross-Appellees
33,
that
is
a
mischaracterization. Appellants’ state law claims
were preempted when the Chapter 11 proceedings
commenced and were not dismissed. Appellants’ own
arguments posit that those claims were, at the very
least, stayed by Code Section 362. Whether, as
appellants argue, they were restored in full after two
years, see 11 U.S.C. § 546(a)(1)(A), or by order of the
bankruptcy court, see 11 U.S.C. § 349(b)(3), is hotly

97a
disputed. But if they were restored, it was by force of
federal law.
Once Tribune entered bankruptcy, the creditors’
avoidance claims were vested in the federally
appointed trustee et al. 11 U.S.C. § 544(b)(1). A
constructive fraudulent conveyance action brought
by a trustee et al. under Section 544 is a claim
arising under federal law. See In re Intelligent
Direct Mktg., 518 B.R. 579, 587 (E.D. Cal. 2014); In
re Trinsum Grp., Inc., 460 B.R. 379, 387-88 (S.D.N.Y.
2011); In re Sunbridge Capital, Inc., 454 B.R. 166,
169 n.16 (Bankr. D. Kan. 2011); In re Charys
Holding Co., Inc., 443 B.R. 628, 635-36 (Bankr. D.
Del. 2010).
Although such a claim borrows
applicable state law standards regarding avoiding
the transfer in question, see Universal Church v.
Geltzer, 463 F.3d 218, 222 n.1 (2d Cir. 2006), the
claim has its own statute of limitations, 11 U.S.C. §
546(a)(1)(A), measure of damages, see 11 U.S.C. §
550, and standards for distribution, 11 U.S.C. § 726.
A disposition of this federal law claim extinguishes
the right of creditors to bring state law, fraudulent
conveyance claims. See St. Paul Fire, 884 F.2d at
701 disapproved of on other grounds by In re Miller,
197 B.R. 810 (W.D.N.C. 1996) (noting that “creditors
are bound by the outcome of the trustee’s action”);
see also In re PWS Holding Corp., 303 F.3d 308, 31415 (3d Cir. 2002) (barring creditor’s state law,
fraudulent transfer claims after trustee released §
544 claims). And, if creditors are allowed by a
bankruptcy court, trustee, or, as appellants argue, by
the Bankruptcy Code, to bring state law actions in
their own name, that permission is a matter of grace

98a
granted under federal authority. The standards for
granting that permission, moreover, have everything
to do with the Bankruptcy Code’s balancing of
debtors’ and creditors’ rights, In re Coltex Loop Cent.
Three Partners, L.P., 138 F.3d 39, 44 (2d Cir. 1998),
or rights among creditors, United States v. Ron Pair
Enters, Inc., 489 U.S. 235, 248 (1989), and nothing to
do with the vindication of state police powers.
We also note here, and discuss further infra, that
the policies reflected in Section 546(e) relate to
securities markets, which are subject to extensive
federal regulation. The regulation of these markets
has existed and grown for over eighty years and
reflects very important federal concerns.
In the present matter, therefore, there is no
measurable concern about federal intrusion into
traditional state domains. Our bottom line is that
the issue before us is one of inferring congressional
intent from the Code, without significant
countervailing pressures of state law concerns.
2. The Language of Section 546(e)
Section 544(b) empowers a trustee et al. to avoid
a “transfer . . . [by] the debtor . . . voidable under
applicable law by a[n] [unsecured] creditor.” Section
548(a) also provides the trustee et al. with
independent federal intentional, 11 U.S.C. §
548(a)(1)(A), and constructive fraudulent conveyance
claims, 11 U.S.C. § 548(a)(1)(B).
Section 546(e) provides in pertinent part:

99a
Notwithstanding sections 544, . . . 548(a)(1)(B) . . .
of this title, the trustee may not avoid a transfer
that is a . . . settlement payment . . . made by or
to (or for the benefit of) a . . . stockbroker,
financial institution, financial participant, or
securities clearing agency, or that is a transfer
made by or to (or for the benefit of) a . . .
stockbroker, financial institution, financial
participant, or securities clearing agency, in
connection with a securities contract . . . except
under section 548(a)(1)(A). . . .
Id. § 546(e). Section 546(e) thus expressly prohibits
trustees et al. from using their Section 544(b)
avoidance powers and (generally) Section 548
against the transfers specified in Section 546(e).
However, Section 546(e) creates an exception to that
prohibition for claims brought by trustee et al. under
Section 548(a)(1)(A) that, as noted, establishes a
federal avoidance claim to be brought by a trustee et
al. based on an intentional fraud theory.
As
discussed supra, the Litigation Trust has brought a
Section 548(a)(1)(A) claim against the same transfers
challenged by appellants’ actions before us on this
appeal. That claim is still pending.
The language of Section 546(e) covers all
transfers by or to financial intermediaries that are
“settlement payment[s]” or “in connection with a
securities contract.” Transfers in which either the
transferor or transferee is not such an intermediary
are clearly included in the language. The Section
does not distinguish between kinds of transfers, e.g.,
settlements of ordinary day-to-day trading, LBOs, or

100a
mergers in which shareholders of one company are
involuntarily cashed out. So long as the transfer
sought to be avoided is within the language quoted
above, the Section includes avoidance proceedings in
which the intermediary would escape a damages
judgment. But see In re Lyondell Chem. Co., 503
B.R. 348, 372-73 (Bankr. S.D.N.Y. 2014), as corrected
(Jan. 16, 2014), that Section 546(e) does not include
“LBO payments to stockholders at the very end of
the asset transfer chain, where the stockholders are
the ultimate beneficiaries of the constructively
fraudulent transfers, and can give the money back to
injured creditors with no damage to anyone but
themselves.”
3. Appellants’ Legal Theory
Appellants’ state law, constructive fraudulent
conveyance claims purport to be brought under
mainstream
bankruptcy
procedures
directly
mandated by the Code. However, an examination of
the Code as a whole, in contrast with an isolated
focus on the word “trustee” in Section 546(e), reveals
that appellants’ theory relies upon adhering to
statutory language only when opportune and
resolving various ambiguities in a way convenient to
that theory. Even then, their legal theory results in
anomalies and inconsistencies with parts of the
Code.
The consequence of those ambiguities,
anomalies, and conflicts is that a reader of Section
546(e), at the time of enactment, would not have
necessarily concluded that the reference only to a
trustee et al. meant that creditors may at some point
bring state law claims seeking the very relief barred

101a
to the trustee et al. by Section 546(e). Its meaning,
therefore, is not plain.
(i) Appellants’ Theory of Fraudulent
Conveyance Avoidance Proceedings
Appellants’ theory goes as follows. When a debtor
enters bankruptcy, all “legal or equitable interests of
the debtor in property,” 11 U.S.C. § 541(a)(1), vest in
the debtor’s bankruptcy estate. This property
includes legal claims that could have been brought
by the debtor. See U.S. ex rel. Spicer v. Westbrook,
751 F.3d 354, 361-62 (5th Cir. 2014) (“The phrase ‘all
legal or equitable interests’ includes legal claims whether based on state or federal law.”). Therefore,
“the Trustee is conferred with the authority to
represent all creditors and the Debtor’s estate and
with the sole responsibility of bringing actions on
behalf of the Debtor’s estate to marshal assets for the
estate’s creditors.” In re Stein, 314 B.R. 306, 311
(D.N.J. 2004).
However, fraudulent conveyance
claims proceed on a theory that an insolvent debtor
may not make what are essentially gifts that deprive
creditors of assets available to pay debts. See Grupo
Mexicano de Desarrollo S.A. v. Alliance Bond Fund,
Inc., 527 U.S. 308, 322 (1999). Therefore, before a
bankruptcy takes place, fraudulent conveyance
claims belong to creditors rather than to the debtor.
As a consequence, Section 544(b)(1) provides that a
bankruptcy trustee may avoid “any transfer of an
interest of the debtor . . . that is voidable under
applicable law by a creditor holding an unsecured
claim.” 11 U.S.C. § 544(b)(1). The responsibility of
the trustee et al. is to “step into the shoes of a
creditor under state law and avoid any transfers

102a
such a creditor could have avoided.” Univ. Church v.
Geltzer, 463 F.3d 218, 222 n.1 (2d Cir. 2006).
The trustee et al., however, is subject to a statute
of limitations that requires such claims to be brought
within two years of the commencement of the
bankruptcy proceeding. See 11 U.S.C. § 546(a)(1)(A).
Appellants infer from this statute of limitations that
if the trustee et al. fails to act to enforce such claims
during that two-year period, the claims revert to
creditors who may then pursue their own state law,
fraudulent conveyance actions. Resp. & Reply Br. of
Pls.-Appellants-Cross-Appellees 1.
This position
assumes that, although the power to bring such
actions is clearly vested in the trustee et al. when the
bankruptcy proceeding begins, if the power is not
exercised, it returns in full flower to the creditors
after the bankruptcy ends or after two years.
Appellants’ theory also is that their fraudulent
conveyance claims were only stayed under Section
362(a), rather than extinguished when assumed by
the trustee on behalf of the bankrupt estate by the
trustee et al. under Section 544, and could be
asserted by them as creditors when the Section
362(a) stay was lifted.
Accordingly, appellants
argue, when the Committee did not bring
constructive fraudulent conveyance actions against
the LBO transfers by December 8, 2010, appellants
regained the right to bring their own state law
actions. See Resp. & Reply Br. of Pls.-AppellantsCross Appellees 6. Moreover, they correctly note
that Section 362’s automatic stay was, as discussed
supra, lifted. In either case -- automatically after

103a
two years or by the bankruptcy court’s lifting of the
stay -- appellants assert that the right to bring state
law actions has reverted to them.
(ii) Ambiguities, Anomalies, and Conflicts
When appellants’ arguments and their relation to
the Code are viewed, as we must view them, in their
entirety, In re Boodrow, 126 F.3d 43, 49 (2d Cir.
1997) (“The Supreme Court has thus explained . . .
‘we must not be guided by a single sentence or [part]
of a sentence [of the Code], but look to the provisions
of the whole law, and to its object and policy.’”)
(quoting Kelly v. Robinson, 479 U.S. 36, 43 (1986)),
they reveal material ambiguities, anomalies, and
outright conflicts with the purposes of Code Sections
544, 362, and 548, not to mention the outright
conflict with Section 546(e) discussed infra.
A critical step in the logic of appellants’ theory
finds no support in the language of the Code. In
particular, the inference that fraudulent conveyance
actions revert to creditors if either the two-year
statute of limitations passes without an exercise of
the trustees’ et al. powers under Section 544 or the
Section 362(a) stay is lifted by the bankruptcy court
has no basis in the Code’s language. To begin, the
language of the automatic stay provision applies only
to actions against “the debtor.” 11 U.S.C. § 362. To
be sure, there are cases barring fraudulent
conveyance actions brought by creditors before the
passing of the limitations period or lifting of the stay.
See, e.g., In re Crysen/Montenay Energy Co., 902
F.2d 1098, 1101 (2d Cir. 1990). The rationales of
these cases vary. Some rely on Section 362(a) on the

104a
theory that the fraudulent conveyance claims are the
property of the debtors’ estate.
See In re
MortgageAmerica Corp., 714 F.2d 1266, 1275-76 (5th
Cir. 1983); Matter of Fletcher, 176 B.R. 445, 452
(Bankr. W.D. Mich. 1995), rev’d and remanded on
other grounds sub nom. In re Van Orden, No. 1:95CV-79, 1995 WL 17903731 (W.D. Mich. Sept. 5,
1995). Some do not mention Section 362(a) and rely
on the need to protect trustees’ et al. powers to bring
Section 544 avoidance actions.
See In re Van
Diepen, P.A., 236 F. App’x. 498, 502-03 (11th Cir.
2007); In re Clark, 374 B.R. 874, 876 (Bankr. M.D.
Ala. 2007); In re Tessmer, 329 B.R. 776, 780 (Bankr.
M.D. Ga. 2005). All the caselaw agrees that the
trustee et al.’s powers under Section 544 are
exclusive, at least until the stay is lifted or the twoyear period expires.
Equally important is the fact that the inference of
a reversion of fraudulent conveyance claims to
creditors drawn from Section 544’s statute of
limitations is not based on the language of the Code,
which says nothing about the reversion of claims
vested in the trustee et al. by Section 544. Statutes
of limitation usually are intended to limit the
assertion of stale claims and to provide peace to
possible defendants, Converse v. Gen. Motors Corp.,
893 F.2d 513, 516 (2d Cir. 1990), and not to change
the identity of the authorized plaintiffs without some
express language to that effect. A decisive part of
appellants’ legal theory thus has no support in the
language of the Code.

105a
Even if this gap is assumed not to exist, or can be
otherwise traversed, appellants’ theory encounters
other serious problems.
Section 544, vesting
avoidance powers in the trustee et al., is intended to
simplify proceedings, reduce the costs of marshalling
the debtor’s assets, and assure an equitable
distribution among the creditors.
See In re
MortgageAmerica Corp., 714 F.2d 1266, 1275-76 (5th
Cir. 1983) (noting that “[t]he ‘strong arm’ provision of
the [Bankruptcy] Code, 11 U.S.C. § 544, allows the
bankruptcy trustee to step into the shoes of a
creditor for the purpose of asserting causes of action
under state fraudulent conveyance acts for the
benefit of all creditors, not just those who win a race
to judgment” and Section 362 helps prevent
“[a]ctions for the recovery of the debtor’s property by
individual creditors under state fraudulent
conveyance laws [that] would interfere with [the
bankruptcy] estate and with the equitable
distribution scheme dependent upon it”). However,
these purposes are hardly consistent with the
process hypothesized by appellants.
Accepting for purposes of argument appellants’
view of the applicable process, Section 362, at the
very least, prevented appellants (for a time) from
bringing their state law, fraudulent conveyance
claims, while Section 546(e) barred the Committee
from seeking to enforce or, necessarily, to settle
them. Appellants’ argument thus seems to posit that
their claims are on hold until the trustees et al.
decide whether to bring an action they are powerless
to bring or to pass on to creditors a power they do not
have. In short, it assumes that, when creditors’

106a
avoidance claims are lodged in the trustee et al. and
are diminished in that hand by the Code, they
reemerge in undiminished form in the hands of
creditors after the statute of limitations governing
actions by the trustee et al. has run or the
bankruptcy court lifts the automatic stay.
In the context of the Code, however, any such
process is a glaring anomaly. Section 548(a)(1)(A)
vests trustees with a federal claim to avoid the very
transfers attacked by appellants’ state law claims -but only on an intentional fraud theory. There is
little apparent reason to limit trustees et al. to
intentional fraud claims while not extinguishing
constructive fraud claims but rather leaving them to
be brought later by individual creditors.
In
particular, enforcement of the intentional fraud
claim is undermined if creditors can later bring state
law, constructive fraudulent conveyance claims
involving the same transfers. Any trustee would
have grave difficulty negotiating more than a
nominal settlement in the federal action if it cannot
preclude state claims attacking the same transfers
but not requiring a showing of actual fraudulent
intent. Unable to settle, a trustee et al. will be
reluctant to expend the estate’s resources on
vigorously pursuing the federal claim while awaiting
the stayed state claims to revert and to be litigated
by creditors. As happened in the present matter, the
result is that the trustee et al.’s action awaits the
pursuit of piecemeal actions by creditors. This is
precisely opposite of the intent of the Code’s
procedures. While a bankruptcy court can reduce
the delay by an early lifting of the automatic stay

107a
with regard to constructive fraudulent conveyance
actions, that action would underline the anomaly of
applying the stay to the bringing of claims that are
barred to trustees et al.
Staying ordinary state law, constructive
fraudulent conveyance claims by individual creditors
while the trustee deliberates is a rational method of
avoiding piecemeal litigation and ensuring an
equitable distribution of assets among creditors. See
MBNA Am. Bank, N.A. v. Hill, 436 F.3d 104, 108 (2d
Cir. 2006) (“The objectives of the Bankruptcy Code
. . . include . . . ‘the need to protect creditors and
reorganiz[e] debtors from piecemeal litigation . . . .’”)
(quoting Ins. Co. of N. Am. v. NGC Settlement Trust
& Asbestos Claims Mgmt. Corp., 118 F.3d 1056, 1069
(5th Cir. 1997)). However, the scheme described by
appellants does not resemble this method either in
simplicity or in the equitable treatment of creditors.
To rationalize these anomalies, appellants
speculate as to -- more accurately, imagine -- a
deliberate balancing of interests by Congress. They
argue that Congress wanted to balance the need for
certainty and finality in securities markets,
recognized in Section 546(e), against the need to
maximize creditors’ recoveries, recognized in various
other provisions. Congress did so, they argue, by
limiting only the avoidance powers of trustees et al.,
not those of individual creditors (save for the stay),
in Section 546(e) because actions by trustees et al.
are a greater threat to securities markets than are
actions by individual creditors. Resp. & Reply Br. of
Pls.-Appellants-Cross-Appellees 71. That greater

108a
threat results from the fact that a trustee’s power of
avoidance is funded by the debtor’s estate, see 11
U.S.C. §§ 327, 330, supported by national long-arm
jurisdiction, see Fed. R. Bankr. P. 7004(d),(f), and
can be used to avoid the entirety of a transfer,
Tronox Inc. v. Anadarko Petroleum Corp. (In re
Tronox Inc.), 464 B.R. 606, 615-17 (Bankr. S.D.N.Y.
2012) (citing Moore v. Bay, 284 U.S. 4 (1931)).
Creditors, in turn, have no such funding, are limited
by state jurisdictional rules, and can sue only for
their individual losses. See In re Integrated Agri,
Inc., 313 B.R. 419, 428 (Bankr. C.D. Ill. 2004).
Therefore, appellants argue that a deliberate
“balance” was struck by protecting securities
markets from trustees’ et al. actions while subjecting
them to the lesser disruption individual creditors’
actions might cause after a two-year stay. Resp. &
Reply Br. of Pls.-Appellants-Cross-Appellees 83-85.
For a court to upset this delicate balance would
constitute judicial intrusion on policy decisions
rightfully left to the Congress.
However, the balance described above is an ex
post explanation of a legal scheme that appellants
must first construct, and then justify as rational,
because it is essential to their claims. Although they
argue that the scheme was deliberately constructed
by Congress, that argument lacks any support
whatsoever in the legislative deliberations that led to
Section 546(e)’s enactment.
Moreover, appellants’ arguments understate the
number of creditors who would sue, if allowed, and
the corresponding extent of the danger to securities

109a
markets. Creditors may assign their claims and
various methods of aggregation can lead to billions of
dollars of claims, as here.
(iii)No Plain Meaning
These issues reflect ambiguities as to exactly
what is transferred to trustees et al. by Section
544(b)(1). It is clear that trustees et al. own the
debtors’ estates, which include the debtors’ property
and legal claims. See 11 U.S.C. § 541(a)(1) (Among
other things, the “estate is comprised of . . . all legal
or equitable interests of the debtor in property as of
the commencement of the case”); U.S. ex rel. Spicer
v. Westbrook, 751 F.3d 354, 361-62 (5th Cir. 2014)
(“The phrase ‘all legal or equitable interests’ includes
legal claims -- whether based on state or federal
law.”).
Avoidance claims belong to creditors,
however, and whether they become the property of
the debtors’ estates is a debated, and somewhat
metaphysical, issue. See Note 7, infra. The issue
does have a limited practical bearing on the present
matter, however.
If the claims asserted by
appellants became the property of the debtor’s estate
upon Tribune’s bankruptcy and were thereby limited
in the hands of the Committee, their reversion in an
unaltered form, whether occurring automatically or
by act of the Committee or bankruptcy court, might
seem counterintuitive.
Appellants’ reliance on the applicability of the
automatic stay to their claims would arguably
support the “property” view. The stay is intended in
part to protect the property rights of the trustee et
al. in the debtor’s estate. Subjecting avoidance

110a
actions by creditors to the stay has been supported
by various courts on the ground that such claims are
either the property of the debtor’s estate or have an
equivalent legal status. See In re MortgageAmerica
Corp., 714 F.2d 1266, 1275-76 (5th Cir. 1983); In re
Swallen’s, Inc., 205 B.R. 879, 882 (Bankr. S.D. Ohio
1997); Matter of Fletcher, 176 B.R. 445, 452 (Bankr.
W.D. Mich. 1995).
Whether, and to what degree, fraudulent
conveyance claims become the property of a
bankrupt estate was, at the time of Section 546(e)’s
enactment, and now, anything but clear.
The
principal Supreme Court precedent held that such
claims are the property of the debtor’s estate.
Trimble v. Woodhead, 102 U.S. 647, 649 (1880). It is
a very old decision but has not been expressly
overruled. Subsequent court of appeals decisions are
bountiful in contradictory statements regarding the
property issue. Compare In re Cybergenics Corp.,
226 F.3d 237, 241, 246 (3d Cir. 2000) (stating that
“fraudulent transfer claims have long belonged to a
transferor’s creditors, whose efforts to collect their
debts have essentially been thwarted as a
consequence of the transferor’s actions” but also
noting that the debtor’s “‘assets’ and ‘property of the
estate’ have different meanings, evidenced in part by
the numerous provisions in the Bankruptcy Code
that distinguish between property of the estate and
property of the debtor, or refer to one but not the
other”), and Picard v. Fairfield Greenwich Ltd., 762
F.3d 199, 212 (2d Cir. 2014) (“Our case law is clear
that assets targeted by a fraudulent conveyance
action do not become property of the debtor’s estate

111a
under the Bankruptcy Code until the Trustee obtains
a favorable judgment.”), with Cumberland Oil Corp.
v. Thropp, 791 F.2d 1037, 1042 (2d Cir. 1986) (noting
that causes of action alleging violation of fraudulent
conveyance laws would be property of the estate),
and Nat’l Tax Credit Partners v. Havlik, 20 F.3d 705,
708-09 (7th Cir. 1994) (“[T]he right to recoup a
fraudulent conveyance, which outside of bankruptcy
may be invoked by a creditor, is property of the
estate that only a trustee or debtor in possession
may pursue once a bankruptcy is underway.”).
Use of the term “property” as a short-hand way of
suggesting exclusivity has merit, Henry E. Smith,
Property and Property Rules, 79 N.Y.U. L. Rev.
1719, 1770-74 (2004), but Section 544(b)(1) does not
expressly state whether the bundle of rights
transferred can revert.
However, we need not
resolve either the “property” or the reversion issues.
Whether the statutory language has a plain meaning
turns on whether a consensus would have existed
among reasonable, contemporaneous readers as to
meaning of that language in the particular statutory
context. See Pettus v. Morgenthau, 554 F.3d 293,
297 (2d Cir. 2009) (“[W]e attempt to ascertain how a
reasonable reader would understand the statutory
text, considered as a whole.”); Engine Mfrs. Ass’n v.
S. Coast Air Quality Mgmt. Dist., 541 U.S. 246, 25253 (2004) (noting that “[s]tatutory construction must
begin with the language employed by Congress and
the assumption that the ordinary meaning of that
language accurately expresses the legislative
purpose”) (quoting Park ‘N Fly, Inc. v. Dollar Park &
Fly, Inc., 469 U.S. 189, 194 (1985)). If differing views

112a
as to meaning were reasonable at the time of Section
546(e)’s enactment, its meaning is less than plain.
See, e.g., Rodriguez v. Cuomo, 953 F.2d 33, 39-40 (2d
Cir. 1992).
Appellants’ arguments on meaning rely not only
on the reference to a trustee’s et al. powers but
equally, or more so, on a claim of settled law at the
time of Section 546(e)’s enactment that creditors’
avoidance rights not only revert to creditors but also
revert in their original breadth. However, whether
fraudulent conveyance claims revert as a matter of
law upon a trustee’s failure to act was, both at the
time Section 546(e) was passed as well as now,
unclear, as discussed supra. A contemporaneous
reader would not, therefore, necessarily have
believed it plain that Section 546(e)’s reference only
to a trustee’s et al. avoidance claim meant that
creditors could bring their own claims.6
A contemporaneous reader would also notice that
the language of the automatic stay provision does not
literally apply to appellants’ actions and that no
provision for the reversion of claims vested in the
trustee et al. by Section 544 exists. As explained
supra, having to draw an inference of reversion of
rights from that provision’s statute of limitations
might well have appeared as a leap several bridges
too far to such a reader. Indeed, the vesting of
avoidance claims in the trustee et al., the lack of
Our task of determining how a contemporaneous reader would
have read Section 546(e) does not depend on the caselaw of one
particular circuit.
6

113a
applicable language in the automatic stay provision,
and the lack of a statutory basis for reversion might
well have suggested to such a reader that Section
544’s vesting of avoidance proceedings in the trustee
et al. cut off creditors from any avoidance rights
other than a share of the proceeds in bankruptcy.
Even passing these obstacles, the structure of the
Code and the relationship of its pertinent sections
might have suggested to a contemporaneous reader
that altered rights do not revert to creditors
unaltered, or to put it another way, a trustee et al.
cannot pass on, or “allow” to revert through
passivity, a right the trustee et al. does not have. To
be sure, contemporaneous readers might have taken
other views, including those of appellants, but that is
the very definition of ambiguity.
(iv)Conclusion
We need not resolve these issues or even hold
that the lack of statutory support, ambiguities,
anomalies, or conflicts with purposes of the Code are
sufficient to support a preemption holding. They are
sufficient, however, to dispel the suggestions found
in some discussions of these issues of a clear textual
basis for appellants’ theory in the Code and an
overall consistency with congressional purpose. See
In re Lyondell Chem. Co., 503 B.R. 348, 358-59
(Bankr. S.D.N.Y. 2014) as corrected (Jan. 16, 2014);
In re: Tribune Co. Fraudulent Conveyance Litig., 499
B.R. at 315. We also need not issue a decision that
affects fraudulent conveyance actions brought by
creditors whose claims are not subject to Section
546(e). Our ensuing discussion concludes that the

114a
purposes and history of that Section necessarily
reflect an intent to preempt the claims before us. We
turn now to the conflict between those claims and
Section 546(e).
4. Conflict with Section 546(e)
As discussed supra, the meaning of Section 546(e)
with regard to appellants’ rights to bring the actions
before us is ambiguous. We must, therefore, look to
its language, legislative history, and purposes to
determine its effect. Marvel Characters, Inc. v.
Simon, 310 F.3d 280, 290 (2d Cir. 2002). Every
congressional purpose reflected in Section 546(e),
however narrow or broad, is in conflict with
appellants’ legal theory. Their claims are, therefore,
preempted.
Section 546(e) was intended to protect from
avoidance proceedings payments by and to financial
intermediaries in the settlement of securities
transactions or the execution of securities contracts.
The method of settlement through intermediaries is
essential to securities markets. Payments by and to
such intermediaries provide certainty as to each
transaction’s consummation, speed to allow parties
to adjust the transaction to market conditions,
finality with regard to investors’ stakes in firms, and
thus stability to financial markets. See H.R. Rep.
No. 97-420 (1982); H.R. Rep. No. 95-595 (1977).
Unwinding settled securities transactions by claims
such as appellants’ would seriously undermine -- a
substantial understatement -- markets in which
certainty, speed, finality, and stability are necessary
to attract capital. To allow appellants’ claims to

115a
proceed, we would have to construe Section 546(e) as
achieving the opposite of what it was intended to
achieve.
Allowing creditors to bring claims barred by
Section 546(e) to the trustee et al. only after the
trustee et al. fails to exercise powers it does not have
would increase the disruptive effect of an unwinding
by lengthening the period of uncertainty for
intermediaries and investors. Indeed, the idea of
preventing a trustee from unwinding specified
transactions while allowing creditors to do so, but
only later, is a policy in a fruitless search of a logical
rationale.
The narrowest purpose of Section 546(e) was to
protect other intermediaries from avoidance claims
seeking to unwind a bankrupt intermediary’s
transactions that consummated transfers between
customers. See H.R. Rep. No. 97-420 (1982). It must
be emphasized that appellants’ legal theory would
clearly allow such claims to be brought (later) by
creditors of the bankrupt intermediary. Even the
narrowest purpose of Section 546(e) is thus at risk.
Some judicial and other discussions of these
issues avoid addressing the full effects of adopting
appellants’ arguments. See In re Lyondell Chem.
Co., 503 B.R. 348, 359-78 (Bankr. S.D.N.Y. 2014) as
corrected (Jan. 16, 2014). Such analysis always
begins by reliance on the “trustee” language, id. at
358, but then narrows the scope of the transfers
covered by Section 546(e)’s language. For example,
appellants argue that the concerns of the amicus

116a
curiae Securities and Exchange Commission
regarding the effect of the district court’s decision on
the securities markets are misplaced, because
appellants are not seeking money from the
intermediaries.7
Resp. & Reply Br. of Pls.Appellants Cross-Appellees 78-82. In doing so, they
rely upon the Lyondell opinion, which, after relying
on the “trustee” language, held that Section 546(e) is
not preemptive of state law, fraudulent conveyance
actions involving LBOs because such actions do not
implicate the purposes of Section 546(e). 503 B.R. at
372-73.
There is no little irony in putting lynchpin
reliance on the word “trustee” while ignoring the
language that follows. In any event, Section 546(e)’s
language clearly covers payments, such as those at
issue here, by commercial firms to financial
intermediaries to purchase shares from the firm’s
shareholders. 11 U.S.C. § 546(e) (limitations on
avoidance of transfers made to a financial
intermediary “in connection with a securities
contract”). A search for legislative purpose is heavily
informed by language, and analyzing all the
language of a provision and its relationship to the

7 Under the “Collapsing Doctrine,” “[c]ourts analyzing the effect
of LBOs have routinely analyzed them by reference to their
economic substance, ‘collapsing’ them, in many cases, to
consider the overall effect of multi-step transactions.” In re
Lyondell Chem. Co., 503 B.R. 348, 354, 379 (Bankr. S.D.N.Y.
2014) as corrected (Jan. 16, 2014). Monies passed through
intermediaries are deemed to be the property only of the
ultimate recipients, here the cashed out shareholders.

117a
Code as a whole is preferable to using literalness
here and perceived legislative purpose (without
regard to language) there as needed to reach
particular results. See King v. Burwell, 135 S. Ct.
2480, 2489 (2015) (“[O]ftentimes the meaning -- or
ambiguity -- of certain words or phrases may only
become evident when placed in context. So when
deciding whether the language is plain, we must
read the words in their context and with a view to
their place in the overall statutory scheme. Our
duty, after all, is to construe statutes, not isolated
provisions.”) (internal quotation marks and citations
omitted).
We do not dwell on this because we perceive no
conflict between Section 546(e)’s language and its
purpose. Section 546(e) is simply a case of Congress
perceiving a need to address a particular problem
within an important process or market and using
statutory language broader than necessary to resolve
the immediate problem. Such broad language is
intended to protect the process or market from the
entire genre of harms of which the particular
problem was only one symptom. The legislative
history of Section 546(e) clearly reveals such a
purpose. That history (confirmed by the broad
language adopted) reflects a concern over the use of
avoidance powers not only after the bankruptcy of an
intermediary, but also after a “customer” or “other
participant” in the securities markets enters
bankruptcy. See H.R. Rep. No. 97-420 (1982). To be
sure, the examples used by the Section’s proponents
focused on the immediate concern of creditors of
bankrupt brokers seeking to unwind payments by

118a
the bankrupt firm to other intermediaries. Id. Such
actions were perceived as creating a danger of “a
ripple effect,” id., a chain of bankruptcies among
intermediaries disrupting the securities market
generally. From these examples, appellants, and
others, have argued that when monetary damages
are sought only from shareholders, or an LBO is
involved, the purposes of Section 546(e) are not
implicated. See Resp. & Reply Br. of Pls.-AppellantsCross-Appellees 79; In re Lyondell, 503 B.R. at 35859. Even apart from using the oil and water mixture
of applying a narrow literalness to the word “trustee”
and disregarding the rest of the Section’s language,
we disagree.
As courts have recognized, Congress’s intent to
“minimiz[e] the displacement caused in the
commodities and securities markets in the event of a
major bankruptcy affecting those industries,” In re
Quebecor World (USA) Inc., 719 F.3d 94, 100 (2d Cir.
2013) (quoting Enron Creditors Recovery Corp. v.
Alfa, S.A.B. de C.V., 651 F.3d 329, 333 (2d Cir.
2011)), reflected a larger purpose memorialized in
the legislative history’s mention of bankrupt
“customers” or “other participant[s]” and in the broad
statutory language defining the transactions covered.
That larger purpose was to “promot[e] finality . . .
and certainty” for investors, by limiting the
circumstances, e.g., to cases of intentional fraud,
under which securities transactions could be
unwound. In re Kaiser Steel Corp., 952 F.2d 1230,
1240 n.10 (10th Cir. 1991) (quoting H. Rep. No. 484,
101st Cong. 2d Sess. 2 (1990), reprinted in 1990
U.S.C.C.A.N. 223, 224).

119a
The broad language used in Section 546(e)
protects transactions rather than firms, reflecting a
purpose of enhancing the efficiency of securities
markets in order to reduce the cost of capital to the
American economy. See Bankruptcy of Commodity
and Securities Brokers: Hearings Before the
Subcomm. on Monopolies and Commercial Law of
the Comm. on the Judiciary, 47th Cong. 239 (1981)
(statement of Bevis Longstreth, Commissioner, SEC)
(explaining that, without 546(e), the Bankruptcy
Code’s “preference, fraudulent transfer and stay
provisions can be interpreted to apply in harmful
and costly ways to customary methods of operation
essential to the securities industry”). As noted,
central to a highly efficient securities market are
methods
of
trading
securities
through
intermediaries. Section 546(e)’s protection of the
transactions
consummated
through
these
intermediaries was not intended as protection of
politically favored special interests. Rather, it was
sought by the SEC -- and corresponding provisions
by the CFTC, see Bankruptcy Act Revision: Hearings
on H.R. 31 and H.R. 32 Before the Subcomm. on Civil
& Constitutional Rights of the H. Comm. on the
Judiciary, 94th Cong., Supp. App. Pt., 2406 (1976) -in order to protect investors from the disruptive
effect of after-the-fact unwinding of securities
transactions.
A lack of protection against the unwinding of
securities transactions would create substantial
deterrents, limited only by the copious imaginations
of able lawyers, to investing in the securities market.
The effect of appellants’ legal theory would be akin to

120a
the effect of eliminating the limited liability of
investors for the debts of a corporation: a reduction of
capital available to American securities markets.
For example, all investors in public companies
would face new and substantial risks, if appellants’
theory is adopted. At the very least, each would have
to confront a higher degree of uncertainty even as to
the consummation of securities transfers. The risks
are not confined to the consummation of securities
transactions. Pension plans, mutual funds, and
similar institutional investors would find securities
markets far more risky if exposed to substantial
liabilities derived from investments in securities sold
long ago. If appellants were to prevail, a pension
plan whose position in a firm was cashed out in a
merger would have to set aside reserves in case the
surviving firm went bankrupt and triggered
avoidance actions based on a claim that the cash out
price exceeded the value of the shares. Every
economic downturn would expose such institutional
investors not only to a decline in the value of their
current portfolios but also to claims for substantial
monies received from mergers during good times.
Given the occasional volatility of economic events,
any transaction buying out shareholders would risk
being attacked as a fraudulent conveyance avoidable
by creditors if the firm faltered. Appellants’ legal
theory would even reach investors who, after voting
against a merger approved by other shareholders,
were involuntarily cashed out. Tender offers, which
almost always involve a premium above trading
price, Lynn A. Stout, Are Takeover Premiums Really

121a
Premiums? Market Price, Fair Value, and Corporate
Law, 99 Yale L.J. 1235, 1235 (1990), would imperil
cashed out shareholders if the surviving entity
encountered financial difficulties.
If appellants’ theory was adopted, individual
investors following a conservative buy-and-hold
strategy with a diversified portfolio designed to
reduce risk might well decide that such a strategy
would actually increase the risk of crushing
liabilities. Such a strategy is adopted because it
involves low costs of monitoring the prospects of
individual companies and emphasizes the offsetting
of unsystematic risks by investing in multiple firms.
See Leigh v. Engle, 858 F.2d 361, 368 (7th Cir. 1988).
Appellants’ legal theory might well require costly
and constant monitoring by investors to rid their
portfolios of investments in firms that might, under
then-current circumstances, be subject to mergers,
stock buy-backs, or tender offers (and would
otherwise be good investments).
Investing in
multiple companies, the essence of diversification,
would increase the danger of avoidance liability.
The threat to investors is not simply losing a
lawsuit. Given the costliness of defending such legal
actions and the long delay in learning their outcome,
exposing investors to even very weak lawsuits
involving millions of dollars would be a substantial
deterrent to investing in securities. The need to set
aside reserves to meet the costs of litigation -- not to
mention costs of losing -- would suck money from
capital markets.

122a
As noted, concern has been expressed that LBOs
are different from other transactions in ways
pertinent to the Bankruptcy Code. In re Lyondell
Chem. Co., 503 B.R. 348, 354, 358-59 (Bankr.
S.D.N.Y. 2014), as corrected (Jan. 16, 2014).
However, the language of Section 546(e) does not
exempt from its protection payments by firms to
intermediaries to fund ensuing payments to
shareholders for stock.
Moreover, securities markets are heavily
regulated by state and federal governments. The
statutory supplements used in law school securities
regulation courses are thick enough to rival Kevlar
in stopping bullets. Mergers and tender offers are
among the most regulated transactions. See, e.g.,
Williams Act, 15 U.S.C.A. §§ 78m(d)-(e), 78n(d).
Much of the content of state and federal regulation is
designed to protect investors in such transactions.
Much of that content is also designed to maximize
the payout to shareholders cashed out in a merger,
see, e.g., Revlon, Inc. v. MacAndrews & Forbes
Holdings, Inc., 506 A.2d 173, 182 (Del. 1986); Unocal
Corp. v. Mesa Petroleum Co., 493 A.2d 946, 955-56
(Del. 1985), or accepting a tender offer, see Williams
Act, 15 U.S.C.A. §§ 78m(d)-(e), 78n(d). Appellants’
legal theory would allow creditors to seek to portray
that maximization as evidence supporting a crushing
liability. A legal rule substantially undermining
those goals of state and federal regulation -- again,
one akin to eliminating limited liability -- is a
systemic risk.

123a
It is also argued that the Bankruptcy Code has
many different purposes and that Section 546(e) does
not clearly “trump [ ] all [the] other[s].” In re
Tribune Co. Fraudulent Conveyance Litig., 499 B.R.
310, 317 (S.D.N.Y. 2013). The pertinent -- and
“trumping” -- “other” purpose of the Code is said to
be the maximization of assets available to creditors.
Id. Courts customarily accommodate statutory
provisions in tension with one another where the
principal purpose of each is attainable by limiting
each in achieving secondary goals. See, e.g., In re
Colonial Realty Co., 980 F.2d 125, 132 (2d Cir. 1992).
However, Section 546(e) is in full conflict with the
goal of maximizing the assets available to creditors.
Its purpose is to protect a national, heavily regulated
market by limiting creditors’ rights. Conflicting
goals are not accommodated by giving value with the
right hand and taking it away with the left. Section
546(e) cannot be trumped by the Code’s goal of
maximizing the return to creditors without
thwarting the Section’s purposes.
5. Additional Considerations Regarding
Congressional Intent
We therefore conclude that Congress intended to
protect from constructive fraudulent conveyance
avoidance proceedings transfers by a debtor in
bankruptcy that fall within Section 546(e)’s terms.
As discussed supra, appellants’ theory hangs on the
ambiguous use of the word “trustee,” has no basis in
the language of the Code, leads to substantial
anomalies, ambiguities and conflicts with the Code’s
procedures,
and,
most
importantly,
is
in
irreconcilable conflict with the purposes of Section

124a
546(e). In this regard, we do not ignore Section
544(b)(2), which prohibits avoidance of a transfer to a
charitable contribution by a trustee but also
expressly preempts state law claims by creditors. It
states: “Any claim by any person to recover a
transferred contribution described in the preceding
sentence under Federal or State law in a Federal or
StateMarch 14, 2016 court shall be preempted by the
commencement of the case.” 11 U.S.C. § 544(b)(2).
Appellants rely heavily upon this provision to argue
that, while Congress knew how to explicitly preempt
state law in the Bankruptcy Code, it chose not to do
so in the context of Section 546(e).
Appellants’ argument suffers from a fatal flaw,
however. In Arizona v. United States, the Supreme
Court made clear that “the existence of an express
pre-emption provisio[n] does not bar the ordinary
working of conflict pre-emption principles or impose
a special burden that would make it more difficult to
establish the preemption of laws falling outside the
clause.” 132 S. Ct. 2492, 2504-05 (2012) (quotation
marks and citations omitted); see also Hillman, 133
S. Ct. at 1954 (“[W]e have made clear that the
existence of a separate pre-emption provision does
not bar the ordinary working of conflict pre-emption
principles.”) (internal quotation marks and citations
omitted).
Section 544(b)(2) does not, therefore,
undermine our conclusion as to Congress’s intent.
Next, appellants argue that Congress’s failure to
amend Section 546(e) over the years that it has
existed in pertinent form reflects a congressional
intent to allow their actions to proceed. In support,

125a
they point only to requests for an amendment by the
Chair of the CFTC and by Comex, see Bankruptcy
Act Revision: Hearings on H.R. 31 and H.R. 32
Before the Subcomm. on Civil & Constitutional
Rights of the H. Comm. on the Judiciary, 94th Cong.,
Supp. App. Pt. 4, 2406 (1976); Bankruptcy Reform
Act: Hearings on S. 2266 and H.R. 8000 Before the
Subcomm. on Improvements in Judicial Machinery of
the S. Comm. on the Judiciary, 95th Cong. 1297
(1978), the enactment of Section 544(b)(2) with an
express preemption provision, and a decision in the
District of Delaware, PHP Liquidating, LLC v.
Robbins, 291 B.R. 603, 607 (D. Del. 2003), aff’d sub
nom. In re PHP Healthcare Corp., 128 F. App’x 839
(3d Cir. 2005).
To be sure, a history of relevant practice may
support an inference of congressional acquiescence.
See, e.g., Fiero v. Fin. Indus. Regulatory Auth., 660
F.3d 569, 577 (2d Cir. 2011) (noting that FINRA’s
“longstanding reliance” on enforcement mechanisms
other than fines -- and Congress’s failure to alter
FINRA’s enforcement powers -- “indicates that
FINRA is not authorized to enforce the collection of
its fines through the courts”); Am. Tel. & Tel. Co. v.
M/V Cape Fear, 967 F.2d 864, 872 (3d Cir. 1992)
(“The Supreme Court in the past has implied private
causes of action where Congress, after a ‘consensus
of opinion concerning the existence of a private cause
of action’ had developed in the federal courts, has
amended a statute without mentioning a private
remedy.”) (quoting Merrill Lynch, Pierce, Fenner &
Smith, Inc. v. Curran, 456 U.S. 353, 380 (1982)).
However, the effect or meaning of legislation is not to

126a
be gleaned from isolated requests for more
protective, but possibly redundant, legislation. The
impact of Section 544(b)(2) is discussed immediately
above and need not be repeated here.
Finally, the failure of Congress to respond to
court decisions is of interpretive significance only
when the decisions are large in number and
universally, or almost so, followed. See Merrill
Lynch, 456 U.S. at 379 (holding that congressional
amendment of the Commodity Exchange Act that
was silent on the subject of private judicial remedies
did not overturn federal court decisions routinely and
consistently [ ] recogniz[ing] an implied private cause
of action”) (emphasis added); see also Touche Ross &
Co. v. Redington, 442 U.S. 560, 577 n.19 (1979)
(holding that the Supreme Court’s implication of a
private right of action under § 10(b) of the Securities
and Exchange Act of 1934 was simply acquiescence
in “the 25-year-old acceptance by the lower federal
courts of an implied action”). The present decision is
far from a departure from a generally accepted
understanding. The district court decision in this
very case and the bankruptcy court decision in
Lyondell are in fact the sole extensive judicial
discussions of the issue. Indeed, our present decision
does not even constitute a split among the circuits.
As or more telling with regard to the existence of a
general understanding or a need for action, we find
no history of the use of state law, constructive
fraudulent conveyance actions to unwind settled
securities transactions, either after a bankruptcy or
in its absence.

127a
The Constitution’s establishment of two
legislative branches that must act jointly and with
the executive’s approval was designed to render
hasty action possible only in circumstances of widely
perceived need. Congress’s failure to act must be
viewed in that context, and reliance upon an
inference of satisfaction with the status quo must at
least be based on evidence of a long standing and
recognized status quo. In the present matter, we
cannot draw the suggested inference on the basis of
the skimpy evidence submitted while the inference of
a preemptive intent is easily drawn.
CONCLUSION
For the reasons stated, we affirm the dismissal of
the complaint, on preemption rather than standing
grounds. We resolve no issues regarding the rights
of creditors to bring state law, fraudulent conveyance
claims not limited in the hands of a trustee et al. by
Code Section 546(e) or by similar provisions such as
Section 546(g) which is at issue in an appeal heard in
tandem with the present matter, see Whyte v.
Barclays Bank.

128a
APPENDIX E

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
–––––––––––––––––––––––––––––––
Multidistrict Litigation No. 11 MD 2296 (RJS)
Master Case File No. 12 MC 2296 (RJS)
–––––––––––––––––––––––––––––––
IN RE TRIBUNE COMPANY
FRAUDULENT CONVEYANCE LITIGATION
___________________
MEMORANDUM AND ORDER
September 23, 2013
___________________
RICHARD J. SULLIVAN, District Judge:
This multidistrict litigation (“MDL”), which
consolidates state and federal cases from across the
country, arises out of the leveraged buyout (“LBO”)
of the Tribune Company (“Tribune”) in 2007 and its
subsequent bankruptcy in 2008. Plaintiffs in these
cases – the Official Committee of Unsecured
Creditors (the “Committee”), which represents
Tribune’s bankruptcy estate, and hundreds of

129a
individual creditors of Tribune (the “Individual
Creditors” or “Creditors”1) – seek to claw back funds
that were distributed to individuals and entities
bought out in the course of the LBO (“Defendants”).
The Creditors’ suits (the “Individual Creditor
Actions”) target transactions that the Committee’s
suits (the “Committee Actions”) are already seeking
to unwind; however, the Creditors and the
Committee assert different claims in pursuit of their
shared end.
Now before the Court is Defendants’ consolidated
motion to dismiss the Individual Creditor Actions
pursuant to Federal Rule of Civil Procedure 12(b)(6).
The narrow questions raised by the motion are
whether Section 546(e) of the Bankruptcy Code
prohibits the Creditors’ state law constructive
fraudulent conveyance claims now that Tribune has
filed for bankruptcy, and, if not, whether the
Creditors are deprived of standing to proceed with
their constructive fraudulent conveyance claims
outside of bankruptcy while the Committee
simultaneously
asserts
different
fraudulent
conveyance claims to unwind the same transactions2.
For the reasons set forth below, the Court concludes
The Individual Creditors are comprised of both the “Note
Holders” and the “Retirees” as defined in Master Case Order
No. 3. (11 MD 2296, Doc. No. 1395.)
1

At the outset, to avoid confusion, the Court notes that
“standing” here denotes a creditor’s power to bring suit in light
of the stay on creditor litigation while a bankruptcy trustee
litigates estate claims. See, e.g., St. Paul Fire and Marine Ins.
Co. v. PepsiCo, Inc., 884 F.2d 688, 700–01 (2d Cir. 1989).
2

130a
that Section 546(e) does not prohibit the Individual
Creditors’ fraudulent conveyance claims, but that
Section 362(a)(1) nonetheless deprives the Individual
Creditors of standing to avoid the same transactions
that the Committee is simultaneously suing to avoid.
I. BACKGROUND3
Tribune is a 166-year-old media corporation that
publishes the Chicago Tribune and the Los Angeles
Times and also operates business units in radio,
television, and the Internet. In the mid-2000s, this
storied
company’s
financial
condition
was
deteriorating, so on April 1, 2007, Tribune’s board of
directors approved a buyout plan proposed by private
equity investor Sam Zell (“Zell”). (NH Compl. ¶¶ 2–
3; see Retiree Compl. ¶ 34.) The LBO paid out more
than $8.2 billion to thousands of public shareholders
3 The following facts are drawn from the Third Amended
Complaint in Deutsche Bank Trust Co. Ams. v. Adaly
Opportunity Fund TD Sec., Inc., No. 11 Civ. 4784 (RJS)
(S.D.N.Y. Oct. 9, 2012), Doc. No. 704 (“NH Compl.”) and the
Second Amended Complaint in Niese v. Alliance Bernstein L.P.,
No. 11 Civ. 4538 (S.D.N.Y. Dec. 20, 2011), Doc. No. 203
(“Retiree Compl.”) – which, for the purposes of factual
allegations, are substantively identical to the complaints filed,
respectively, in the other Note Holder and Retiree Actions.
(Def.’s Mem. of Law (“Mem.”) at 3 n.3.) In deciding the motion,
the Court also considered Defendants’ memorandum of law in
support of their motion, the Individual Creditors’ brief in
opposition (“Opp.”), Defendants’ reply (“Reply”), and the
transcript of the May 23, 2013 oral argument on the motion
(“Arg. Tr.”). After the motion was fully briefed, the parties also
submitted several letters with supplemental authority, which
the Court also considered. (See Doc. Nos. 2358, 2393, 2420,
2476, 2490, 2498, 2499, 2515, 2523, 2526, 2576, 2580.)

131a
in exchange for their Tribune shares. (NH Compl.
¶¶ 62, 66; Retiree Compl. ¶¶ 37, 40.) Although the
company operated for a year after it was taken
private, when the economy and the publishing
industry entered a steep decline in 2008, Tribune
commenced bankruptcy proceedings pursuant to
Chapter 11 of the Bankruptcy Code, 11 U.S.C. §
1101, et seq. (NH Compl. ¶ 112; Retiree Compl. ¶ 13.)
After Tribune filed for bankruptcy, the United
States Bankruptcy Court for the District of Delaware
(the “Bankruptcy Court”) created the Committee to
stand in the shoes of the bankruptcy trustee and to
file adversary proceedings for the benefit of Tribune’s
creditors. (In re Tribune Co., 08-13141 (Bankr. D.
Del.), Docket (“Bankr. Doc.”) Nos. 5668 and 6150.)4
In this capacity, the Committee filed suit against
cashed-out Tribune shareholders, Tribune’s officers
and directors, financial advisors, Zell, and others
who benefited from the buyout. (Official Comm. of
Unsecured Creditors of Tribune Co. v. Fitzsimons,
No. 10-ap-54010 (KJC) (Bankr. D. Del.), Doc.
(“Committee SH Action Doc.”) No. 1; Official Comm.
of Unsecured Creditors of Tribune Co. v. Citigroup
Global Mkts., Inc., No. 12-ap-50446 (KJC) (Bankr. D.
Del.), Doc. No. 1.)
Among other claims, the
Committee sought to unwind the LBO by asserting
that the shareholder buyouts constituted intentional
The Bankruptcy Court confirmed a plan for Tribune’s
reorganization (the “Plan”) on July 23, 2012. (Bankr. Doc. No.
12074.) The Plan transferred the Committee Actions to a
litigation trust administered by trustee Marc Kirschner (the
“Litigation Trustee”). (Id.)
4

132a
fraudulent conveyances. (Committee SH Action Doc.
No. 1 ¶¶ 317-320.)
However, for reasons that will be made apparent
below, the Committee did not assert a claim for
constructive fraudulent conveyance. Consequently,
on March 1, 2011, the Individual Creditors moved
the Bankruptcy Court to permit them to file statelaw constructive fraudulent conveyance (“SLCFC”)
claims outside of bankruptcy.5 (Bankr. Doc. No.
8201.) The Bankruptcy Court conditionally lifted the
stay because it found that, although the estate had
filed intentional fraudulent conveyance claims, it had
not asserted SLCFC claims within the applicable
time period under 11 U.S.C. § 546(a) for trustee-filed
fraudulent conveyance actions. (Bankr. Doc. No.
8740 (“Bankr. Decision”) ¶ 2.) The Bankruptcy
Court expressly limited its decision, however, stating
that it “made no finding and issue[d] no ruling
determining the standing of [creditors] to assert
SLCFC Claims or whether such claims are
preempted or otherwise impacted by 11 U.S.C. §
546(e),” thus leaving those determinations for this
Court. (Bankr. Decision ¶ 8 n.2.)
Based on the Bankruptcy Court’s decision to
conditionally lift the stay on the SLCFC claims,
starting on June 2, 2011, Individual Creditors across
the country initiated SLCFC actions in more than
Intentional fraudulent conveyance claims require a showing of
actual fraud by the transferor, whereas constructive claims
impute fraudulent intent to transfers that, among other things,
render the transferor insolvent.
5

133a
twenty state and federal courts to unwind the
buyouts of Tribune shareholders. (See e.g., NH
Compl. ¶¶ 115–160; Retiree Compl. ¶¶ 314–329; see
also Mem. at 7.) By December 19, 2011, the filings
related to the LBO had become sufficiently
voluminous that the Judicial Panel on Multidistrict
Litigation consolidated the Individual Creditor
Actions and the Committee Actions here in the
Southern District of New York. In re Tribune Co.
Fraudulent Conveyance Litig., 831 F. Supp. 2d 1371,
1371 (J.P.M.L. 2011).
Defendants filed their motion to dismiss and
memorandum of law on November 6, 2012 (Doc. Nos.
1670, 16716), and the Individual Creditors responded
on December 21, 2012 (Doc. No. 2086). The motion
was fully briefed as of February 4, 2013. (Doc. No.
2293.)
On March 27, 2013, this MDL was
transferred to my docket (Doc. No. 2419), and on
May 23, the Court heard oral argument on the
motion (Doc. No. 2560).
I.

DISCUSSION

In order to survive a motion to dismiss pursuant
to Rule 12(b)(6), a plaintiff must “provide the
grounds upon which his claim rests.”
ATSI
Commc’ns, Inc. v. Shaar Fund, Ltd., 493 F.3d 87, 98
(2d Cir. 2007). He must also allege “enough facts to
state a claim to relief that is plausible on its face.”
Bell Atl. Corp. v. Twombly, 550 U.S. 544, 570 (2007).

Unless otherwise noted, docket citations refer to the
consolidated MDL docket sheet, 11 MD 2296.
6

134a
Defendants assert two reasons why the
Individual Creditor Actions are barred as a matter of
law. First, Defendants argue that creditors’ claims
under state law are prohibited by 11 U.S.C. § 546(e),
which bars a bankruptcy trustee from asserting
constructive fraudulent conveyance claims to unwind
“settlement payments” such as shareholder buyouts
in an LBO. (Mem. at 9–21.) Second, Defendants
argue that, because of Tribune’s ongoing bankruptcy
and the Committee’s pursuit of intentional
fraudulent conveyance claims, the Individual
Creditors lack standing to assert constructive
fraudulent conveyance claims that duplicate the
Committee’s claims. (Id. at 22–35.) The Court will
address each argument in turn.
A. The Effect of Section 546(e) on
State-Law Claims
Defendants contend that 11 U.S.C. § 546(e) bars
not only the Committee from asserting constructive
fraudulent conveyance claims, but the Individual
Creditors as well. (Mem. at 9–21.) Before turning to
that provision, a brief overview of trustee avoidance
powers may be helpful.
A bankruptcy trustee is empowered to assert
various fraudulent conveyance claims under the
Bankruptcy Code. Section 544(b)(1) gives a trustee
power to “avoid any transfer of an interest of the
debtor in property . . . that is voidable under
applicable law by a creditor.”
This provision
empowers the trustee to utilize, on behalf of the
estate, any legal theory of recovery that a creditor
could assert under state law. Section 548(a)(1) also

135a
permits a trustee to avoid fraudulent transfers by
the debtor, but this Section creates a federal cause of
action in the trustee’s own name. Under Section
548(a)(1), there are two different avenues by which a
trustee may avoid a transaction. Subsection (A)
permits a trustee to:
avoid any transfer . . . of an interest of the
[bankrupt] debtor in property . . . that was
made . . . on or within 2 years before the date
of the filing of the [bankruptcy], if the debtor
voluntarily or involuntarily made such
transfer . . . with actual intent to hinder, delay,
or defraud any entity . . .
11 U.S.C. § 548(a)(1)(A) (emphasis added).
In
contrast to Subsection (A)’s avoidance power for
intentional fraudulent transfers, Subsection (B)
permits a trustee to avoid transactions that were
constructively fraudulent due to the debtor’s
insolvency and the adequacy of the consideration the
debtor received in exchange for the transfer. 11
U.S.C. § 548(a)(1)(B).
In this way, the Bankruptcy Code girds a trustee
with broad avoidance powers; however, it also strips
away those powers in certain circumstances. In
particular, Section 546(e) dictates that “[t]he trustee
[in bankruptcy] may not avoid a transfer that is a . . .
settlement payment.” 11 U.S.C. § 546(e). The term
“settlement payment” refers to any kind of payment
that “complete[s] a transaction in securities,” Enron
Creditors Recovery Corp. v. Alfa, S.A.B. de C.V. 651
F.3d 329, 336 (2d Cir. 2011), including a “payment

136a
for shares during an LBO,” In re Resorts Int’l, 181
F.3d 505, 515-16 (3d Cir. 1999); see Enron Creditors,
651 F.3d at 336. Section 546(e) makes one exception,
however: a trustee may utilize Section 548(a)(1)(A) to
avoid actually fraudulent transfers. Therefore, in
conjunction, Sections 546(e) and 548(a)(1)(A) prohibit
a bankruptcy trustee from asserting a constructive
fraudulent conveyance claim to unwind LBO
payouts.
Defendants argue that the Individual
Creditors’ claims are similarly barred.
1. Construing Section 546(e)
To determine whether Section 546(e) also applies
to the Individual Creditors, the Court “must begin
with the language employed by Congress and the
assumption that the ordinary meaning of that
language accurately expresses the legislative
purpose.” United States v. Kozeny, 541 F.3d 166, 171
(2d Cir. 2008) (quoting United States v. Albertini, 472
U.S. 675, 680 (1985)). As discussed above, Section
546(e) addresses its prohibition on avoiding
settlement payments only to the bankruptcy trustee,
and the Court works from the premise “that
Congress says in a statute what it means and means
in a statute what it says there.”
Hartford
Underwriters Ins. Co. v. Union Planters Bank, N.A.,
530 U.S. 1, 6 (2000) (quoting Conn. Nat’l Bank v.
Germain, 503 U.S. 249, 254 (1992)). “[H]ad Congress
intended [Section 546(e)] to be broadly [applicable], it
could simply have said so, as it did in describing the
parties who [may] act under other sections of the
Code.” See Hartford Underwriters, 530 U.S. at 7
(analyzing whether Section 506(c) of the Bankruptcy
Code applies only to the bankruptcy trustee or also

137a
to an administrative claimant). And where, as here,
“a statute [prohibits] specific action and designates a
particular party [as barred from] tak[ing] it[, that] is
surely among the least appropriate [moments] in
which to presume nonexclusivity.”
Id. at 6.
Moreover, “the fact that the sole party named – the
trustee – has a unique role in bankruptcy
proceedings makes it entirely plausible that
Congress would [apply a limitation] to him and not
to others.” Id. at 7. Because Congress has spoken so
clearly with respect to the object of the limitation in
Section 546(e), the Court discerns no basis in the text
for barring SLCFC claims brought by Individual
Creditors who have no relation to the bankruptcy
trustee. See PHP Liquidating, LLC v. Robbins, 291
B.R. 603, 607 (Bankr. D. Del. 2003) (concluding that
Section 546(e), by its own terms, does not apply to
unsecured creditors seeking to unwind a fraudulent
conveyance); see also Burlington N. R.R. Co. v. Okla.
Tax Comm’n, 481 U.S. 454, 461 (1987) (“Unless
exceptional circumstances dictate otherwise, when
we find the terms of a statute unambiguous, judicial
inquiry is complete.” (quotation marks, punctuation,
and citations omitted)).
2. Implied Preemption
Notwithstanding the straightforward language of
the statute, Defendants urge the Court to find that
Congress
impliedly
preempted
constructive
fraudulent conveyance claims brought by state-law
creditors when it enacted Section 546(e). (Mem. at
14-21.) Although “[i]mplied preemption analysis
does not justify ‘a freewheeling judicial inquiry . . . ,’”
Chamber of Commerce of U.S. v. Whiting, 131 S. Ct.

138a
1968, 1985 (2011) (quoting Gade v. Nat’l Solid
Wastes Mgmt. Assn., 505 U.S. 88, 111 (1992)), there
are circumstances in which a court may infer that
Congress clearly intended to preempt state law, even
without expressly saying so, see Crosby v. Nat’l
Foreign Trade Council, 530 U.S. 363, 372 (2000);
Pac. Capital Bank, N.A. v. Connecticut, 542 F.3d 341,
351 (2d Cir. 2008). These include situations (1)
“where Congress has legislated so comprehensively
that federal law occupies an entire field of regulation
and leaves no room for state law,” N.Y. SMSA Ltd.
P’ship v. Town of Clarkstown, 612 F.3d 97, 104 (2d
Cir. 2010); (2) “where local law conflicts with federal
law such that it is impossible for a party to comply
with both . . . ,” id.; and (3) where “state law . . .
stands as an obstacle to the accomplishment and
execution of the full purposes and objectives of
Congress,’” Arizona v. United States, 132 S. Ct. 2492,
2505 (2012) (quoting Hines v. Davidowitz, 312 U.S.
52, 67 (1941)); see also In re Methyl Tertiary Butyl
Ether (MTBE) Prods. Liab. Litig., Nos. 10-4135-cv
(L), 10-4329-cv (XAP), 2013 WL 3863890, at *23 (2d
Cir. July 26, 2013) (distinguishing “conflict
preemption” from “obstacle preemption” but
conceding that the latter may be “only an
intermediate step down the road to impossibility
preemption”).
Here, Defendants focus on the third type of
implied preemption – obstacle preemption – arguing
that the Individual Creditors’ claims “would
assuredly frustrate the purposes of the federal
statute and stand as an obstacle to its
accomplishment.” (Mem. at 13 (internal citations

139a
and quotation marks omitted).) “The burden of
establishing obstacle preemption . . . is heavy . . . .
Indeed, federal law does not preempt state law under
obstacle preemption analysis unless ‘the repugnance
or conflict is so direct and positive that the two acts
cannot be reconciled or consistently stand together.’”
MTBE Prods. Liab., 2013 WL 3863890, at *23
(quoting Madeira v. Affordable Hous. Found., Inc.,
469 F.3d 219, 241 (2d Cir. 2006)).
In every pre-emption case, “the purpose of
Congress is the ultimate touchstone . . . ,” Wyeth v.
Levine, 555 U.S. 555, 565 (2009), and the first place
to look for Congress’s purpose is in the language it
used, see O&G Indus., Inc. v. Nat’l R.R. Passenger
Corp., 537 F.3d 153, 161 (2d Cir. 2008) (declining to
infer preemption by “‘supply[ing] that which [was]
omitted by the legislature’” when a federal statute
“contain[ed] no limitation on its face” and utilized
“unambiguous” language (quoting Spielman v.
Merrill Lynch, Pierce, Fenner & Smith, Inc., 332 F.3d
116, 127 (2d Cir. 2003))). As already discussed, it is
not evident from the language of Section 546(e) that
Congress intended to block creditors from filing
SLCFC claims. Moreover, Congress has repeatedly
issued reports discussing Section 546(e), and these
reports refer only to the provision’s effect on the
trustee.7 Therefore, Congress’s language counsels
against Defendants’ argument.

See H.R. Rep. No. 95-595, at 391 (1977) (referring only to the
trustee in the context of § 546(e)); S. Rep. No. 95-989, at 8, 106
(1978) (same); H.R. Rep. No. 96-1195, at 6, 17 (1980) (same);
7

140a
Nevertheless, Defendants urge the Court to
consider the policy goals that spurred congressional
action. (Mem. at 14–16.) By its own accounts,
Congress enacted Section 546(e) in order to provide
certainty to securities transactions and, in so doing,
to enhance the stability of the nation’s financial
markets. See, e.g., H.R. Rep. No. 95-595, at 391
(1977); Kaiser Steel Corp. v. Charles Schwab & Co.,
913 F.2d 846, 848 (10th Cir. 1990) (finding that
Congress enacted Section 546(e) to “protect the
nation’s financial markets from the instability
caused by the reversal of settled securities
transactions” (citing S. Rep. No. 989, 95th Cong., 2d
Sess. 8 (1978))). However, Congress pursues a host
of other aims through the Bankruptcy Code, not least
making whole the creditors of a bankruptcy estate.
See, e.g., Elizabeth Warren, The New Property, 92
Mich. L. Rev. 336, 344–61 (1993). It is not at all
clear that Section 546(e)’s purpose with respect to
securities transactions trumps all of bankruptcy’s
other purposes. See Freeman v. Quicken Loans, Inc.,
132 S. Ct. 2034, 2044 (2012) (acknowledging that “no
legislation pursues its purposes at all costs, and
every statute purposes, not only to achieve certain
ends, but also to achieve them by particular means”);
cf. Rice v. Norman Williams Co., 458 U.S. 654, 659
(1982) (determining that, although the purpose of
federal antitrust law is to prohibit anticompetitive
conduct, a “state statute is not preempted . . . simply

H.R. Rep. No. 97- 420, at 1–2 (1982) (same); H.R. Rep. No. 109648, at 6 (2006) (same).

141a
because [it] might have an anticompetitive effect”
(citations omitted)).
To the contrary, Congress has repeatedly
indicated that it did not enact Section 546(e) to
protect market stability to the exclusion of all other
policies. For example, the Commodities Futures
Trading Commission and Commodity Exchange, Inc.
petitioned Congress to amend Section 546(e) to
expressly preempt SLCFC claims. See Bankruptcy
Act Revision: Hearings on H.R. 31 and H.R. 32 Before
the Subcomm. on Civil & Constitutional Rights of the
Comm. on the Judiciary, 94th Cong., at 2406 (1976);
Bankruptcy Reform Act: Hearings Before the
Subcomm. on Improvements in Judicial Machinery of
the Comm. on the Judiciary, 95th Cong., at 1296–97
(1977). Nevertheless, Congress declined to do so
when it enacted Section 546(e) in 1977.8 Moreover,
on each of the eight occasions when it has amended
Section 546(e),9 Congress has never added an express
8 The Supreme Court has used Congress’s decision not to
explicitly implement the recommendations of interest groups as
evidence that Congress rejected those proposals. See Amgen
Inc. v. Conn. Ret. Plans & Trust Funds, 133 S. Ct. 1184, 1201
(2013) (citing a hearing witness’s support for a bill eliminating
the fraud-on-the-market theory from private securities
litigation as evidence that Congress was aware of that option
and chose not to pursue it); see also Capitol Records, LLC, v.
ReDIGI Inc., No. 12 Civ. 95 (RJS), 2013 WL 1286134, at *15
(S.D.N.Y. Mar. 30, 2013) (“[T]he Court cannot of its own accord
condone wholesale [statutory revision], particularly when
Congress itself has declined to take that step.”).

See Pub. L. No. 109-390, § 5(b)(1) (2006); Pub. L. No. 109-8, §
907(o)(3) (2005); Pub. L. No. 105-183, § 3(c)(1) (1998); Pub. L.
No. 103-394, § 501(b)(4)(A) (1994); Pub. L. No. 101-311, § 203
9

142a
preemption provision, even after the Bankruptcy
Court for the District of Delaware held that Section
546(e) permits creditors to assert SLCFC claims
under the right circumstances. See PHP, 291 B.R. at
607. And tellingly, Congress chose not to extend
Section 546(e) to SLCFC claims filed before
bankruptcy or to intentional fraudulent conveyance
claims brought after a bankruptcy filing, even though
these types of claims pose the very same threat to
the stability of securities markets.
Obviously,
Congress has struck some balance between various
policy priorities, which means that it has determined
that fraudulent conveyance actions are not
necessarily and in all cases “repugnant” to the
interest of market stability. See MTBE Prods. Liab.,
2013 WL 3863890, at *23.
The Court is not
authorized to upend Congress’s balance between the
operation of state and federal law, even if doing so
would clearly benefit investors and markets. See
O&G Indus., 537 F.3d at 161.
Furthermore,
Congress
has
demonstrated
elsewhere in the Bankruptcy Code that it knows how
to – and is willing to – preempt an individual
creditor’s state law claims. See 11 U.S.C. § 544(b)(2).
This is powerful evidence that Congress did not
intend for Section 546(e) to preempt state law. See
MTBE Prods. Liab., 2013 WL 3863890, at *23 (citing
Wyeth v. Levine, 555 U.S. 555 (2009)); see also Wyeth,
555 U.S. at 575 (“The case for federal pre-emption is

(1990); Pub. L. No. 99-554, § 283(l) (1986); Pub. L. No. 98-353, §
351(3) (1984); Pub. L. No. 97-222, § 4 (1982).

143a
particularly weak where Congress has indicated its
awareness of the operation of state law in a field of
federal interest, and has nonetheless decided to
stand by both concepts . . . .”)).
Specifically, in
Section 544(b)(1), Congress empowered the trustee to
avoid any fraudulent conveyances that a creditor
could avoid under state law.
Then in Section
544(b)(2), Congress withdrew this power in the case
of certain charitable contributions, much in the way
that Congress limited a trustee’s power to avoid
certain “settlement payments” under Section 546(e).
However, Section 544(b)(2) goes further: it states
that “any claim by any person to recover a
transferred contribution . . . under Federal or State
law in a Federal or State court shall be preempted by
the commencement of the [bankruptcy] case.” 11
U.S.C. § 544(b)(2) (emphasis added). Section 546(e),
as we have seen, names only the trustee. Congress’s
explicit preemption of all creditors’ state-law claims
in one section of the Code undermines the suggestion
that Congress intended to implicitly preempt statelaw claims only two sections later. See MTBE Prods.
Liab., 2013 WL 3863890, at *23; Integrated
Solutions, Inc. v. Svc. Support Specialties, Inc., 124
F.3d 487, 493 (3d Cir. 1997) (“The clear lack of
Congressional intent to preempt state law . . . is even
more telling given the explicit language the Congress
uses when it intends to displace state nonbankruptcy
law in other provisions of the Code.” (citing 11
U.S.C. §§ 541(c)(1), 1123(a))).
Defendants also make much out of a recent
decision in which Judge Rakoff held that a
Bankruptcy Code provision very similar to Section

144a
546(e) prohibits an avoidance action by creditors, not
just the bankruptcy trustee. (See Doc. No. 2293 at 5
(citing Whyte v. Barclays Bank PLC, 494 B.R. 196
(S.D.N.Y. 2013)).) However, that case is readily
distinguishable. In Whyte, a bankruptcy plan under
Chapter 11 designated one entity, the SemGroup
Litigation Trust (“SemGroup”), to serve in the
capacity of both the bankruptcy trustee and the
representative of outside creditors. SemGroup sued
to avoid several “swap transactions,” and the parties
disputed the application of 11 U.S.C. § 546(g) to
SemGroup’s claim.
Section 546(g) prohibits a
bankruptcy trustee from avoiding certain “swap
transactions” in much the same way that Section
546(e) bars a trustee from avoiding settlement
payments. Therefore, in its role as bankruptcy
trustee, SemGroup was clearly prohibited from
avoiding swap transactions.
In light of that
prohibition and because 11 U.S.C. § 546(a)(1)(A)
gives a bankruptcy trustee only two years after the
initiation of bankruptcy proceedings to file an
avoidance claim, SemGroup waited for two years and
then sought to avoid several swap transactions in its
role as the representative of outside creditors. Judge
Rakoff concluded that this was impermissible. He
reasoned that, because Section 546(g) barred
SemGroup-as-trustee
from
avoiding
these
transactions, to allow SemGroup-as-creditor – itself a
“creature of a Chapter 11 plan” – to avoid the
transaction “by way of a state fraudulent conveyance
action would stand as a major obstacle to the
purpose and objectives of” the prohibition in Section
546(g). Whyte, 494 B.R. at 200.
In essence,
SemGroup could not simply take off its trustee hat,

145a
put on its creditor hat, and file an avoidance claim
that Section 546(g) prohibited the trustee from filing.
By contrast, the Individual Creditors here, unlike
SemGroup, are not creatures of a Chapter 11 plan,
and they are in no way identical with the bankruptcy
trustee; as a result, there is no reason why Section
546(e) should apply to them in the same way that
Section 546(g) applied to SemGroup.10
Finally, Defendants contend that, if the Court
does not find that Section 546(e) preempts all
SLCFC claims, then bankruptcy trustees will simply
assign these claims to creditors any time Section
546(e) bars the trustee from acting. (Mem. at 21;
Arg. Tr. 13:23–14:4.) These concerns are overstated.
For the reasons discussed below in Section II.B.3, the
Court concludes that a trustee may not relinquish
constructive fraudulent conveyance claims while
10 Defendants cite three other cases in which federal courts
blocked state causes of action because of Section 546(e).
However, each of the cases likewise involved a successor to the
bankruptcy trustee – which is explicitly bound by Section 546(e)
– so none of them addresses whether Section 546(e) should
apply to individuals or entities other than the trustee. See
Contemporary Indus. Corp. v. Frost, 564 F.3d 981, 988 (8th Cir.
2009) (blocking state law claims by the committee-successor to
the trustee for unjust enrichment and impermissible
shareholder distributions because they were effectively restyled
constructive fraudulent conveyance claims); U.S. Bank N.A. v.
Verizon Commc’ns Inc., 892 F. Supp. 2d 805, 812, 815 (N.D.
Tex. 2012) (barring similar claims by the litigation trust that
was the assignee of the bankruptcy trustee’s claims); Hechinger
Inv. Co. v. Fleet Retail Fin. Grp., 274 B.R. 71, 74, 95–96 (D. Del.
2002) (prohibiting similar claims by the committee-successor to
the bankruptcy trustee).

146a
retaining intentional claims, so there is some limit to
the collusion between trustee and creditors that
Defendants fear. In any event, as discussed above,
Congress is not ignorant of the implications of its
phrasing in Section 546(e), and despite multiple
opportunities and invitations to amend the provision,
Congress has left it untouched. Defendants do not
explain why the Court should act where Congress
has repeatedly declined to do so. See Wyeth, 555 U.S.
at 574 (“If Congress thought state law suits posed an
obstacle to its objectives, it surely would have
enacted an express pre-emption provision at some
point.”).
Accordingly, the Court concludes that Congress
said what it meant and meant what it said, see
Underwriters Ins. Co., 530 U.S. at 6; as such, Section
546(e) applies only to the trustee and does not
preempt the Individual Creditors’ SLCFC claims.
B. Standing
Defendants alternatively move to dismiss the
Individual Creditor Actions based on three different
standing arguments.
First, they argue that
“[b]ankruptcy . . . eliminates the individual creditor
rights in favor of collective bankrutptcy-estate
rights,” so the Individual Creditors were
permanently divested of the right to sue on their own
behalf when Tribune commenced bankruptcy
proceedings. (Mem. at 1, 22–24.) Defendants next
argue that, even if the SLCFC claims could revert to
the Individual Creditors, the claims would need to be
formally disclaimed by the trustee first, which
Defendants contend did not happen here. (Id. 29–

147a
32.) Finally, Defendants argue that, even if the
SLCFC claims could automatically revert to the
Individual Creditors, the Creditors nevertheless lack
standing because the Committee is suing to avoid the
same transactions under an intentional fraudulent
conveyance theory.11 (Id. at 24–29.) The Court
addresses each of these arguments in turn.
1. SLCFC Claims Are Not Permanently
Stayed by Bankruptcy
Defendants argue that, when Tribune filed for
bankruptcy, the “trustee (or creditors’ committee)
acquire[d] complete dominion and control over any
creditor’s state law claims,” meaning that the
Individual Creditors were permanently divested of
their fraudulent conveyance claims. (Mem. at 22.)
The Court disagrees.
Filing for bankruptcy is
powerful magic, but the mere filing does not operate
as a permanent stay against the Individual
Creditors’ SLCFC Claims.
Section 362(a) of the Bankruptcy Code provides
that the filing of a bankruptcy petition operates as a
stay of, among other things, “the commencement or
continuation . . . of a judicial, administrative, or
other action or proceeding against the debtor . . . or
to recover a claim against the debtor that arose
Defendants raise a fourth related argument – that even if
Plaintiffs have standing they are subject to the same
limitations that Section 546(e) imposes on a trustee. (Mem. at
32–35.)
This argument simply rehashes their primary
argument with regard to Section 546(e), and that argument
fails for the reasons discussed in Section II.A.

11

148a
before the commencement of the case.” 11 U.S.C. §
362(a)(1). This stay applies to fraudulent conveyance
claims, even though fraudulent conveyance claims
are asserted against the debtor’s transferee rather
than against the debtor. In re Colonial Realty Co.,
980 F.2d 125, 131-32 (2d Cir. 1992) (“[T]hird-party
action[s] to recover fraudulently transferred property
[are] properly regarded as undertaken to recover a
claim against the debtor and [are] subject to the
automatic stay pursuant to § 362(a)(1).” (citation
and internal quotations omitted)). Significantly,
however, the stay does not last forever; it remains
only until the bankruptcy proceedings are closed,
dismissed, or discharged. 11 U.S.C. § 362(c)(2).
For some claims, the stay may lift even earlier.
For example, under Section 546(a)(1)(A), the trustee
has only two years to commence avoidance actions
after a debtor files for bankruptcy, see 11 U.S.C. §§
301(b), 546(a)(1)(A), and if that prerogative expires, a
“creditor regains standing to pursue a state law
fraudulent conveyance action, in its own name and
for its own benefit,” In re Integrated Agri, Inc., 313
B.R. 419, 427–28 (Bankr. N.D. Ill. 2004); see
Klingman v. Levinson, 158 B.R. 109, 113 (N.D. Ill.
1993) (“[T]he trustee does not retain this exclusive
right in perpetuity. The trustee’s exclusive right to
maintain a fraudulent conveyance action expires and
creditors may step in (or resume actions) when the
trustee no longer has a viable cause of action.”
(citing Kathy B. Enterprises, Inc. v. United States,
779 F.2d 1413, 1415 (9th Cir. 1986); Federal Deposit
Ins. Corp. v. Davis, 733 F.2d 1083, 1085 (4th Cir.
1984))). Therefore, the automatic stay on the

149a
Individual Creditors’ SLCFC claims expired in 2010
unless the Committee exercised its own avoidance
powers. The stay does not, of its own operation,
continue to bar the Creditors’ claims.
2. SLCFC Claims Revert to Creditors
Automatically
Defendants next argue that, even if the
Individual Creditors’ claims are no longer inexorably
barred by the stay, the claims do not revert to the
Individual Creditors automatically.
Instead,
Defendants assert, the bankruptcy court must take
some affirmative action before SLCFC claims may
revert to the Individual Creditors. (Mem. at 30.)
Defendants’ argument is premised on the
language of 11 U.S.C. § 349(b)(3), which states that,
“[u]nless the court, for cause, orders otherwise, a
dismissal of a case . . . revests the property of the
estate in the entity in which such property was
vested immediately before the commencement of the
case . . . .” Because Tribune’s bankruptcy has not
been dismissed, Defendants contend that the SLCFC
claims could not have reverted.
However,
Defendants clearly misconstrue the bankruptcy
estate’s relationship with fraudulent conveyance
claims. A fraudulent conveyance claim is not treated
as property of the bankruptcy estate because the
debtor has no personal recourse against the
transferee in a fraudulent conveyance. See Colonial
Realty, 980 F.2d at 131 (“In accordance with 11
U.S.C. § 541(a)(1) (1988), the property of a
bankruptcy estate includes . . . ‘all legal or equitable
interests of the debtor in property as of the

150a
commencement of the case. . . . [T]he inclusion of
property recovered by the trustee pursuant to his
avoidance powers in a separate definitional
subparagraph clearly reflects the congressional
intent that such property is not to be considered
property of the estate until it is recovered.” (internal
quotation marks omitted)).
Because creditors’
avoidance claims are not property of the estate, the
trustee has a limited time in which to bring them,
and the bankruptcy court need not discharge the
debtor from bankruptcy in order for the avoidance
claims to revert.
Instead, when the two-year
limitation on trustee avoidance claims expires, the
claims automatically revert.
See 11 U.S.C. §
546(a)(1)(A); Integrated Agri, 313 B.R. at 427-28 (“A
creditor regains standing to pursue a state law
fraudulent conveyance action, in its own name and
for its own benefit, once the statute of limitations
expires on the bankruptcy trustee’s right to bring the
claim.”); Klingman, 158 B.R. at 113 (“The trustee’s
exclusive right to maintain a fraudulent conveyance
action expires and creditors may step in (or resume
actions) when the trustee no longer has a viable
cause of action.”); see also In re Tessmer, 329 B.R.
776, 779 (Bankr. M.D. Ga. 2005) (“[C]reditors do not
regain the right to sue unless the trustee abandons
the claim or he no longer has a viable cause of action
because, for example, the statute of limitations has
run.” (internal quotation marks omitted)).12

In support of their contention that fraudulent conveyance
claims did not revert to the Individual Creditors, Defendants
cite the Bankruptcy Act of 1867 and the Supreme Court’s
12

151a
3. The Committee’s Intentional Fraudulent
Conveyance Action Deprives the Individual
Creditors of Standing to Pursue SLCFC
Claims
Finally, Defendants argue that, because the
Committee is still pursuing its own avoidance action
against the LBO beneficiaries, the Individual
Creditors’ co-extensive claims are held in abeyance
by the automatic stay in Section 362 of the Code.
(Mem. at 24–29.) In essence, Defendants claim that
the Committee’s effort to avoid the LBO payouts on a
theory of intentional fraudulent conveyance deprives
the Individual Creditors of standing to avoid the
same payouts under a constructive theory.
Therefore, the question is whether the Individual
Creditors may attempt to unwind the shareholder
payouts
even
though
the
Committee
is
simultaneously targeting the same shareholder
payouts by different means. This is ultimately a
question of statutory interpretation, which of course
turns on the language of the Bankruptcy Code.

interpretation of that statute in Trimble v. Woodhead, 102 U.S.
647, 649 (1880). Although the Court in Trimble barred a
creditor from pursuing a state-law avoidance claim after the
trustee had failed to act, that holding does not apply to this
case. Critically, unlike the modern Code, the Bankruptcy Act of
1867 explicitly treated fraudulent conveyance claims as
property of the trustee once bankruptcy proceedings
commenced. See Act of March 2, 1867, ch. 176, 14 Stat. 517,
523 (repealed 1878) (vesting “all the property conveyed by the
[debtor] in fraud of his creditors . . . at once . . . in such
[trustee]” as is appointed). Therefore, the Supreme Court’s
jurisprudence interpreting the 1867 law is inapposite here.

152a
The Court sees nothing in the language of the
Bankruptcy Code to suggest that Congress intended
for Section 362(a)(1)’s automatic stay to apply
differently based on the theory under which a trustee
brings a fraudulent conveyance claim or the
particular Code provision on which the trustee relies.
Section 362(a)(1) does not differentiate between
constructive and intentional fraudulent conveyance
actions: it stays any action “to recover a claim
against the debtor” from a third party. 11 U.S.C. §
362(a)(1); see In re Colonial Realty Co., 980 F.2d at
132. Other sections reinforce that Congress did not
conceive of the trustee’s avoidance power as a
severable commodity that could be sliced up by
theory and distributed between the trustee and
creditors. Section 546(a), which creates the time
limitation on a bankruptcy trustee’s avoidance
power, recognizes no distinction between trustee
avoidance actions brought under Section 544(b)(1)
and those brought under Section 548(a)(1), nor does
it distinguish between avoidance actions based on
theories of actual fraud versus those based on
constructive fraud. 11 U.S.C. § 546(a). Similarly,
Section 544(b)(1) states that “the trustee may avoid
any transfer of an interest in property . . . that is
voidable under applicable [state] law by a creditor.”
11 U.S.C. § 544(b)(1). It refers only to the trustee’s
power to avoid a transfer and makes no reference to
the particular theory that the trustee employs.
Ultimately, it is irrelevant whether the Committee
styles its claim as intentional or constructive or as
one under Section 548(a)(1)(A) or Section 544(b)(1).13
13

In its original Complaint, the Committee brought its

153a
Section 362(a)(1) stays fraudulent conveyance claims
by creditors for as long as the trustee is exercising its
avoidance powers, so the stay deprives the Individual
Creditors’ of standing to bring SLCFC claims against
the same transactions that the Committee is
currently targeting.
Other courts have reached the same conclusion.
In a leading example, the Fourth Circuit confronted
a situation in which a trustee and a creditor both
sought to unwind the same transactions using
different theories of recovery. Nat’l Am. Ins. Co. v.
Ruppert Landscaping Co. Inc., 187 F.3d 439, 441 (4th
Cir. 1999).
The court held that the creditors
“lack[ed] standing to pursue these claims in district
court. Until the trustee . . . abandoned his potential
fraudulent conveyance action, the [creditors could
]not proceed with their claims in district court.” Id.14

fraudulent conveyance claim pursuant to both Section 544(b)(1)
and Section 548(a)(1)(A). (See Committee SH Action Doc. No. 1
¶¶ 317–320.) In the Fifth Amended Complaint, the Committee
relies exclusively on Section 548(a)(1)(A) as the statutory basis
for its claim. (See Doc. No. 2565, Ex. 1 ¶¶ 376–381.) This
amendment, which caused no substantive change whatsoever to
the nature of the Committee’s claim, illustrates the irrelevance
of the distinction the Committee seeks to draw between Section
544(b)(1) and Section 548(a)(1)(A), and it does not alter the
Court’s analysis.
Defendants assert that Ruppert is not applicable because it
arose during the two-year period within which only the trustee
may bring fraudulent conveyance claims. (Opp. at 34–35; Arg.
Tr. at 40:8–41:2, 48:20–49:6.) While the Court appreciates this
distinction, the thrust of Ruppert – that a creditor is stayed
from asserting a claim to unwind the same transaction that a
14

154a
Other courts within and outside the Fourth Circuit
have echoed this rule, and the Individual Creditors
fail to identify any authority that holds otherwise.
See, e.g., Poth v. Russey, 99 F. App’x 446, 457 (4th
Cir. 2004) (“When a creditor brings a state-law
challenge to a transaction that a bankruptcy trustee
could avoid as a fraudulent conveyance, the . . .
creditor lacks standing to assert it.”); N. Trust Bank,
FSB v. Wells Fargo Bank, N.A., 464 B.R. 269, 269
(E.D. Va. 2012) (holding that where both the trustee
and a creditor challenge the same transfer, the
trustee’s “ongoing prosecution of its fraudulent
conveyance action ‘on behalf of all creditors’
deprive[d the creditor] of standing to pursue its
individual claims”); In re Teleservices Group, Inc.,
463 B.R. 28, 36 (Bankr. W.D. Mich. 2012)
(determining that, where the trustee and a creditor
choose different remedies to “rectify . . . the same
injustice,” the “automatic stay prohibits” the creditor
from prosecuting its claim); In re Bridge Info. Sys.,
Inc., 325 B.R. 825, 836 (Bankr. M.D. Mo. 2005)
(recognizing that only the trustee’s successor “has
the statutory right to assert” fraudulent conveyance
claims, to the exclusion of state law claimants
seeking to recover for the same transactions); In re
Tessmer, 329 B.R. 776, 780 (Bankr. M.D. Ga. 2005)
(“Once the Trustee acts under § 544(b), the rights of
all other parties to bring a suit based on the same
transaction are fully and permanently cut off unless
the Trustee later abandons the claim.”); Integrated

bankruptcy trustee is already suing to unwind – is equally
applicable in this context.

155a
Agri, 313 B.R. at 427 (“A creditor who had the right
to bring, outside of bankruptcy, a UFTA claim to
recover prepetition transfers fraudulently made by
the debtor, has no standing to commence or continue
the suit during the bankruptcy case, until and unless
the trustee relinquishes the Section 544(b) claim or
the trustee no longer has a viable cause of action.”);
cf. In re MortgageAmerica Corp., 714 F.2d 1266,
1275–76 (5th Cir. 1983) (concluding that actions “by
individual creditors under state fraudulent
conveyance laws would interfere with [the] estate
and with the equitable distribution scheme
dependent on it, and are therefore appropriately
stayed . . . . Any other result would produce near
anarchy . . . .”).15
The Individual Creditors seek refuge in the fact
that the Committee supports their effort to bring
15 The cases that the Individual Creditors cite as
counterexamples are distinguishable. (Opp. at 36-37; Arg. Tr.
at 49:7-18.) In Lumbard v. Maglia, the bankruptcy trustee for
an individual creditor and the bankruptcy trustee for that
creditor’s debtor stipulated that they would “jointly prosecute,”
under the same complaint, a fraudulent conveyance by the
debtor, “dividing the eventual proceeds.” 621 F. Supp. 1529,
1532-33 (S.D.N.Y. 1985). Here, of course, only one of the
parties is a bankruptcy trustee, and the parties are proceeding
separately.
In Baron Fin. Corp. v. Natanzon, the court
determined that a creditor could bring suit for different
misconduct than that which the bankruptcy trustee was
litigating. 509 F. Supp. 2d 501, 520-21, 521 n.34 (D. Md. 2007).
In Integrated Agri, the trustee’s time to bring a fraudulent
conveyance action had expired, and it had filed no fraudulent
conveyance claims, so the court permitted creditor fraudulent
conveyance claims. 313 B.R. at 428-29.

156a
SLCFC claims and that the Bankruptcy Court
released the Individual Creditors to pursue those
claims. (Opp. at 35–36.) Whether the Committee
supports the Individual Creditors’ SLCFC claims is
of no moment. The Individual Creditors cite no
authority for the proposition that a bankruptcy
trustee’s druthers may trump Section 362(a)(1), nor
is the Court aware of any authority to that effect.
With respect to the Bankruptcy Court, its decision is
wholly inapposite to the question of standing, since
the Bankruptcy Court expressly declined to decide
that issue, leaving it to this Court.16
Bankruptcy is intended to consolidate multiple,
potentially wasteful claims in one entity – the
trustee. See Ruppert, 187 F.3d at 441–42; St. Paul
Fire, 884 F.2d at 701. While the trustee acts, it cuts
off the claims of creditors in order to seek a fair,
orderly, and comprehensive resolution of the debtor’s
financial affairs so that, as much as it is possible,
creditors are made whole. See St. Paul Fire, 884
F.2d at 701 (“If a claim is a general one, with no
particularized injury arising from it, and if that
claim could be brought by any creditor of the debtor,
16 The Bankruptcy Court took great pains to emphasize that it
made “no finding and issue[d] no ruling determining the
standing of the [Individual Creditors] to assert the Creditor
SLCFC Claims . . . .” (Bankr. Decision ¶ 8 n.2.) Its decision to
conditionally lift the stay against the Individual Creditors did
not determine whether they “regained the right . . . to prosecute
their respective [SLCFC] claims” simply because the two-year
window on trustee fraudulent conveyance claims closed without
the Committee filing a constructive fraud claim on behalf of the
estate. (Bankr. Decision ¶ 2.)

157a
the trustee is the proper person to assert the claim,
and the creditors are bound by the outcome of the
trustee’s action.”). Here, the Committee has not
completely abandoned its avoidance powers and is
actively seeking to reverse the payouts made to the
LBO beneficiaries. (See Committee SH Action Doc.
No. 1 ¶¶ 317–320; Doc. No. 2565, Ex. 1 ¶¶ 376–381.)
Unless and until the Committee actually and
completely abandons those claims, the Individual
Creditors lack standing to bring their own fraudulent
conveyance claims targeting the very same
transactions.
IV.

CONCLUSION

Accordingly, for the reasons set forth above, the
Court concludes that Section 546(e) does not preempt
the Individual Creditors’ SLCFC claims, but that
Section 362(a)(1) nonetheless deprives the Individual
Creditors of standing to avoid the same transactions
that the Committee is simultaneously suing to avoid.
Defendants’ motion to dismiss is therefore
GRANTED. The Clerk of the Court is respectfully
directed to terminate the motions pending at Doc.
No. 1670 of 11 MD 2296 and Doc. No. 61 of 12 MC
2296 and to close the cases listed in Exhibit A of this
Memorandum and Order.
IT IS FURTHER ORDERED THAT Liaison
Counsel in the Committee Actions shall confer with
the parties remaining in this MDL and shall submit
a joint letter to the Court no later than October 8,
2013, regarding the next steps in this litigation. In
particular, the letter shall address whether the
Litigation Trustee intends to proceed with its

158a
fraudulent conveyance claims or amend its Fifth
Amended Complaint in order to abandon those
claims. If the Litigation Trustee intends to seek
leave to amend, the letter shall also set forth the
parties’ views as to the permissibility of such an
amendment in light of, among other things, the
Litigation Trustee’s duties to Tribune’s creditors.
See In re Lehal Realty Assocs., 101 F.3d 272,276 (2d
Cir. 1996).
SO ORDERED.
__________________________
RICHARD J. SULLIVAN
United States District Judge
Dated: September 23, 2013
New York, New York

159a
APPENDIX F
UNITED STATES COURT OF APPEALS
FOR THE
SECOND CIRCUIT
_____________________________________________
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 6th day of
February, two thousand twenty.
__________________________________
IN RE: TRIBUNE COMPANY ORDER
FRAUDULENT
CONVEYANCE Docket
Nos:
LITIGATION
13-3992 (L)
13-3875 (XAP)
13-4178 (XAP)
13-4196 (XAP)
__________________________________
Appellants, Note Holders, filed a petition for
panel rehearing, or, in the alternative, for rehearing
en banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:

160a
Catherine O’Hagan Wolfe, Clerk

161a
APPENDIX G
11 U.S.C. § 544
§ 544. Trustee as lien creditor and as successor to
certain creditors and purchasers
(a) The trustee shall have, as of the commencement
of the case, and without regard to any knowledge of
the trustee or of any creditor, the rights and powers
of, or may avoid any transfer of property of the
debtor or any obligation incurred by the debtor that
is voidable by-(1) a creditor that extends credit to the debtor at
the time of the commencement of the case, and that
obtains, at such time and with respect to such
credit, a judicial lien on all property on which a
creditor on a simple contract could have obtained
such a judicial lien, whether or not such a creditor
exists;
(2) a creditor that extends credit to the debtor at
the time of the commencement of the case, and
obtains, at such time and with respect to such
credit, an execution against the debtor that is
returned unsatisfied at such time, whether or not
such a creditor exists; or
(3) a bona fide purchaser of real property, other
than fixtures, from the debtor, against whom
applicable law permits such transfer to be
perfected, that obtains the status of a bona fide
purchaser and has perfected such transfer at the

162a
time of the commencement of the case, whether or
not such a purchaser exists.
(b)(1) Except as provided in paragraph (2), the
trustee may avoid any transfer of an interest of the
debtor in property or any obligation incurred by the
debtor that is voidable under applicable law by a
creditor holding an unsecured claim that is allowable
under section 502 of this title or that is not allowable
only under section 502(e) of this title.
(2) Paragraph (1) shall not apply to a transfer of a
charitable contribution (as that term is defined in
section 548(d)(3)) that is not covered under section
548(a)(1)(B), by reason of section 548(a)(2). Any
claim by any person to recover a transferred
contribution described in the preceding sentence
under Federal or State law in a Federal or State
court shall be preempted by the commencement of
the case.

163a
APPENDIX H
11 U.S.C. § 548
§ 548. Fraudulent transfers and obligations
(a)(1) The trustee may avoid any transfer (including
any transfer to or for the benefit of an insider under
an employment contract) of an interest of the debtor
in property, or any obligation (including any
obligation to or for the benefit of an insider under an
employment contract) incurred by the debtor, that
was made or incurred on or within 2 years before the
date of the filing of the petition, if the debtor
voluntarily or involuntarily-(A) made such transfer or incurred such obligation
with actual intent to hinder, delay, or defraud any
entity to which the debtor was or became, on or
after the date that such transfer was made or such
obligation was incurred, indebted; or
(B)(i) received less than a reasonably equivalent
value in exchange for such transfer or obligation;
and
(ii)(I) was insolvent on the date that such transfer
was made or such obligation was incurred, or
became insolvent as a result of such transfer or
obligation;
(II) was engaged in business or a transaction, or
was about to engage in business or a transaction,
for which any property remaining with the debtor
was an unreasonably small capital;

164a
(III) intended to incur, or believed that the debtor
would incur, debts that would be beyond the
debtor’s ability to pay as such debts matured; or
(IV) made such transfer to or for the benefit of an
insider, or incurred such obligation to or for the
benefit of an insider, under an employment
contract and not in the ordinary course of business.
(2) A transfer of a charitable contribution to a
qualified religious or charitable entity or
organization shall not be considered to be a transfer
covered under paragraph (1)(B) in any case in
which—
(A) the amount of that contribution does not exceed
15 percent of the gross annual income of the debtor
for the year in which the transfer of the
contribution is made; or
(B) the contribution made by a debtor exceeded the
percentage amount of gross annual income
specified in subparagraph (A), if the transfer was
consistent with the practices of the debtor in
making charitable contributions.
(b) The trustee of a partnership debtor may avoid
any transfer of an interest of the debtor in property,
or any obligation incurred by the debtor, that was
made or incurred on or within 2 years before the date
of the filing of the petition, to a general partner in
the debtor, if the debtor was insolvent on the date
such transfer was made or such obligation was
incurred, or became insolvent as a result of such
transfer or obligation.
(c) Except to the extent that a transfer or obligation

165a
voidable under this section is voidable under section
544, 545, or 547 of this title, a transferee or obligee of
such a transfer or obligation that takes for value and
in good faith has a lien on or may retain any interest
transferred or may enforce any obligation incurred,
as the case may be, to the extent that such transferee
or obligee gave value to the debtor in exchange for
such transfer or obligation.
(d)(1) For the purposes of this section, a transfer is
made when such transfer is so perfected that a bona
fide purchaser from the debtor against whom
applicable law permits such transfer to be perfected
cannot acquire an interest in the property
transferred that is superior to the interest in such
property of the transferee, but if such transfer is not
so perfected before the commencement of the case,
such transfer is made immediately before the date of
the filing of the petition.
(2) In this section-(A) “value” means property, or satisfaction or
securing of a present or antecedent debt of the
debtor, but does not include an unperformed
promise to furnish support to the debtor or to a
relative of the debtor;
(B) a commodity broker, forward contract
merchant, stockbroker, financial institution,
financial participant, or securities clearing agency
that receives a margin payment, as defined in
section 101, 741, or 761 of this title, or settlement
payment, as defined in section 101 or 741 of this
title, takes for value to the extent of such payment;
(C) a repo participant or financial participant that

166a
receives a margin payment, as defined in section
741 or 761 of this title, or settlement payment, as
defined in section 741 of this title, in connection
with a repurchase agreement, takes for value to
the extent of such payment;
(D) a swap participant or financial participant that
receives a transfer in connection with a swap
agreement takes for value to the extent of such
transfer; and
(E) a master netting agreement participant that
receives a transfer in connection with a master
netting agreement or any individual contract
covered thereby takes for value to the extent of
such transfer, except that, with respect to a
transfer under any individual contract covered
thereby, to the extent that such master netting
agreement participant otherwise did not take (or is
otherwise not deemed to have taken) such transfer
for value.
(3) In this section, the term “charitable contribution”
means a charitable contribution, as that term is
defined in section 170(c) of the Internal Revenue
Code of 1986, if that contribution-(A) is made by a natural person; and
(B) consists of-(i) a financial instrument (as that term is defined
in section 731(c)(2)(C) of the Internal Revenue
Code of 1986); or
(ii) cash.
(4) In this section, the term “qualified religious or

167a
charitable entity or organization” means-(A) an entity described in section 170(c)(1) of the
Internal Revenue Code of 1986; or
(B) an entity or organization described in section
170(c)(2) of the Internal Revenue Code of 1986.
(e)(1) In addition to any transfer that the trustee
may otherwise avoid, the trustee may avoid any
transfer of an interest of the debtor in property that
was made on or within 10 years before the date of
the filing of the petition, if-(A) such transfer was made to a self-settled trust
or similar device;
(B) such transfer was by the debtor;
(C) the debtor is a beneficiary of such trust or
similar device; and
(D) the debtor made such transfer with actual
intent to hinder, delay, or defraud any entity to
which the debtor was or became, on or after the
date that such transfer was made, indebted.
(2) For the purposes of this subsection, a transfer
includes a transfer made in anticipation of any
money judgment, settlement, civil penalty, equitable
order, or criminal fine incurred by, or which the
debtor believed would be incurred by-(A) any violation of the securities laws (as defined
in section 3(a)(47) of the Securities Exchange Act of
1934 (15 U.S.C. 78c(a)(47))), any State securities
laws, or any regulation or order issued under
Federal securities laws or State securities laws; or
(B) fraud, deceit, or manipulation in a fiduciary

168a
capacity or in connection with the purchase or sale
of any security registered under section 12 or 15(d)
of the Securities Exchange Act of 1934 (15 U.S.C.
78l and 78o(d)) or under section 6 of the Securities
Act of 1933 (15 U.S.C. 77f).

169a
APPENDIX I
LIST OF PETITIONERS
Noteholder Petitioners
Deutsche Bank Trust Company Americas
Delaware Trust Company
Wilmington Trust Company
Retiree Petitioners
Abatemarco, Fred A.
Alcantar, Gerald J.
Alfano, Richard S.
Armstrong, C. Michael
Arnold, Gary M.
Arthur, John M.
Barlow, William H.
Barrett, David S.
Barwick, Bruce E.
Becker, Todd A.
Bell, George
Bell, Susan P.
Bergmann, Horst A.
Blood, Edward L.
Brandt, Robert F.
Brauer, Alan L.
Brennan, Leo
Brief, Kenneth H.
Brisco, Robert N.
Campbell, Patricia G.

Carpenter, Dian S.
(widow of Dow C.
Carpenter)
Carroll, John S., estate
of c/o Lee Carroll,
executor
Casey, Kathleen M.
Chandhok, Rajender K.
Charles, Randolph R.
Clayton, Janet T.
Clifford, Patrick A.
Clurman, Andrew W.
Coffey, C. Shelby, III
Coppens, Stuart K.
Cotliar, George J.
Crawford, William D.
DeYoung, Barbara R.
Dill, John F.
Dilworth, Ann E.
Downing, Kathryn M.
Dreher, Beverly A.

170a
Drewry, Elizabeth V.
Dubester, Michael S.
Dyer, John M.
Erburu, Robert F.,
estate of c/o Lois Erburu
Esgro, David A.
Falk, Joanne K.
(survivor of Eugene
Falk)
Fitzgerald, James E.
Forgione, Michael J.
Forst, Donald H., estate
of Fox, Douglas B.
Furukawa, Vance I.
Goldstein, Gary P.
Gottsman, Edward J.,
beneficiary of estate of
Edward Gottsman
Graham, Edward
Kenneth, estate of
Graham, Kenneth,
estate of c/o Marian
Lewis, executor &
trustee
Grant, Robert T.
Guerrero, Richard
Guittar, Lee J.
Guthrie, James F.
Guttry, Delynn T.
(widow of Harvey V.
Guttry)
Halajian, Kenneth L.
Hall, Charlotte H.
Halle, Jean

Haugh, Michael J.
Heaphy Durham, Janis
Helin, James D.
Hessler, Curtis A.
Higby, James H.
Higby, Lawrence M.
Holton, Raymond
Horn, Karen Laukka
Howard, Leslie M.
Howe, Mark E.
Hughes, Joseph M.
Ibarguen, Alberto
Imbriaco, James
Isenberg, Steven L.
Isinger, William R.
Jansen, Raymond A., Jr.
Johnson, Edward E.
Johnson, Robert M.
Johnson, W. Thomas, Jr.
Junck, Mary E.
Kabak, Scott W.
Kallet, Judith S.
Keller, William F.
Kellermann, Donald S.,
estate of c/o Joan B.
Kellermann, Executor &
Trustee
King, Victoria
Klein, Jason E.
Klein, Jeffrey S.
Klutnick, Susan K.
Kopper, James L.

171a
Kuekes, Sally, estate of
c/o Kurt Kuekes,
Executor
Kurtich, Mark H.
LaFrance, Kimberly
McCleary
Lankey, Jeffrey W.
Laventhol, David A.,
estate of
Lee Schneider, R.
Marilyn
Levin, Martin P.
Levine, Jesse E.
Magnuson, Robert G.
Maxwell, Donald S,
estate of c/o Brad
Maxwell
McGuinness, Kathleen
G.
McKeon, John C.
Meadows, Jack E.
Meier, Stephen C.
Molvar, Janie (alternate
payee of Roger Molvar)
Molvar, Roger H.
Nash, John T.
Niese, William A.
Niles, Nicholas H.
Norris, James H.
Nuckols, James H.
O’Neill, Nancy W.
O’Sullivan, Robert T.
Pandolfi, Francis P.
Parks, Michael C.

Paro, Jeffrey N.
Payne, Janette O.
Perruso, Carol
Perry, Victor A.
Peterson, Maureen G.
(widow of Larry W.
Peterson)
Petty, Martha A.
Plank, Jack L.
Redmond, Elizabeth F,
estate of
Rhoads, S. Keating
Riley, Michael R., estate
of c/o Sue Riley
Rose, Michael G.
Rowe, William J.
Rubin, Jerome S., estate
of c/o David Kahn
Sann, Alexander
Scally, Geraldine
Schlosberg, Richard T.,
III
Schnall, Herbert K.
Schneider, Charles I.,
estate of
Schneider, Hilary A.
Schneider, Howard S.
Sellstrom, Brian J.
Shaw, James D.
Shirley, Dennis A.
Shorts, Gary K.
Simpson, James R.
Sito, Louis
Stanton, Richard W.

172a
Sweeney, Judith L.
Sweeney, Stender E.
Toedtman, James S.
Tunstall, Sharon S.
Udovic, Michael S.
Valenti, Michael J.
Wada, Karen J.
Wade, Claudia A.
Wallace, James W.
Waller, Michael E.
Wangberg, Larry W.
Weinstein, Howard
Wiegand, William D.
Wild, Mary A.
Willes, Mark H.
Williams, Phillip L.,
estate of c/o Diane
Williams, Executor
Wilson, Hazel E.
Wilson, Julia C.
Woldt, Harold F., Jr
Wolinsky, Leo
Wright, Donald F.
Young, John W., estate
of c/o Kathleen Young
Zakarian, John J., estate
of c/o Paul Zakarian
Zapanta, Norene
(trustee for Dr. Edward
Zapanta Trust)
Zimbalist, Efrem, III

173a
APPENDIX J
LIST OF RESPONDENTS
Noteholder Respondents
#502 U/W/O Minnette R.
Eckhouse Trust
1199SEIU Greater New
York Pension Fund, by
and through its Board
of Trustees
1199SEIU Health Care
Employees Pension
Fund, by and through
its Board of Trustees
1199SEIU Home Care
Employees Pension
Fund, by and through
its Board of Trustees
1IA SPX1
1st Source Bank
1st Source Bank, as an
entity and as Trustee
of the Robert Dishon
Family Trust
3M Employees Welfare
Benefits Association
Trust I
A & P Associates
A. Erickson Shuster
A. Hoyer

Abbey National
Securities, Inc.
Abigail Wallach
ABP
Absolute Value Fund LP
Abu Dhabi Investment
Authority
Account BOS05-0702,
John Doe, as Owner of
Account PNC 4455065
P&PNPF LSV, John
Doe, as Owner of
[Plumbers &
Pipefitters National
Pension Fund]
Adage Capital Advisors
Long
Adage Capital Partners
LP
Adaly Investment
Management Co.
Administrator of Ohio
Bureau of Workers’
Compensation

174a
Administrator of Ohio
Carpenters’ Pension
Fund
Administrator of Ohio
Public Employees
Retirement System
Advanced Series Trust
Advantus Capital
Management, Inc.
Advantus Series Fund,
Inc.
Advantus Series Fund,
Inc. Index 500 Portfolio
Advantus Series Fund,
Inc., as Owner of
Advantus Series Fund,
Inc. Index 500 Portfolio
Advisory Research, Inc.
Advisory Research, Inc.
S&P 500 Index Equal
Weight
Aetna Inc.
Affiliated Private
Investors U.S. Core
Value Fund LLC
AG Edwards & Sons,
Inc.
Agoralogos LLC
Alan Devaney
Alan Devaney and Jill
Devaney
Alaska Large-Cap Trust
Alberta Finance

Alberta W. Chandler
Marital Trust No. 2
Alberta W. Chandler
Marital Trust UAD
06/26/35
Alcatel-Lucent USA Inc.,
as Trustee of Lucent
Technologies, Inc.
Master Pension Trust
Alexander D. and Paula
Solon JTWROS
Alexander D. Solon
Alexander Solon
Alexander Solon IRRA
FBO Alexander Solon
c/o MLPF&S Cust FPO
Alexandra Global
Master Fund Ltd.
Alfred C. Glassell III,
acting Trustee and
Beneficiary of the
Alfred C. Glassell Jr.
Children’s Trust for
Alfred C. Glassell, III
Alfred C. Glassell III,
acting Trustee of the
Clare Attwell Glassell
Continuing Marital
Trust
Alfred C. Glassell Jr.
Alfred V. Tjarks Jr., as
Trustee of the Alfred
V. Tjarks Retirement
Plan DTD 02/18/85

175a
Alfred W. Merkel, as
Trustee of the Alfred
W. Merkel Marlowe G.
Merkel Trust UA 11
Sep 85
Alicia Patterson
Guggenheim Trust
Alison Ford Duncan,
acting Trustee and
Beneficiary of the
Alfred C. Glassell Jr.
Children’s Trust for
Alison Ford Duncan
Alison S. Andrews, as
Trustee of the Hannah
Smith Trust
Allan H. Willard, as
Trustee of the Allan H
Willard Trust U/A
DTD 9/7/93
Allegro Associates
Allen C. Tanner, Jr.
Allen C. Tanner, Jr.,
CGM IRA Custodian
Allen Putterman MD SC
Money Purchase
Pension Plan
Alliance Capital Group
Trust
Alliance Capital
Management LLC
AllianceBernstein LP

AllianceBernstein LP, in
its individual and
custodial Capacities
Alliancebernstein Trust
(AllianceBernstein
Value Fund)
Aloysius J. Franz
Alphadyne Asset
Management LLC
Alphadyne International
Master Fund Ltd.
Alpheus L. Ellis 1993
Grandchildren’s Trust
FBO Lynn Ann Sharpe
Alpine Associates II, LP
Alpine Associates
Offshore Fund II Ltd.
Alpine Associates
Offshore Fund Ltd.
Alpine Associates, a
Limited Partnership
Alpine Institutional LP
Alpine Partners LP
Alvin Baum Jr. 1966
Trust
Alyce Tuttle Fuller, as a
Trustee of the Trust by
Alyce Tuttle Fuller
U/A DTD 10/03/2003
AM International E Mac
63 Limited
AM Master Fund III, LP
Amalgamated Bank
Amelita M. Neiburger

176a
American Electric Power
American Electric Power
Defined Benefit
American Enterprise
Investment Services
Inc.
Ameriprise Advisor
Services, Inc. (f/k/a
H&R Block Financial
Advisors, Inc.)
Ameriprise Advisor
Services, Inc. (f/k/a
H&R Block Financial
Advisors, Inc.), as
Custodian for Edwin R
Labuz
Ameriprise Enterprise
Investment Services
Inc.
Ameriprise Trust Co.
Ameriprise Trust
Company
Ameriprise Trust
Company, as
Custodian of Jerry
Lower IRA R/O
Ametek, Inc. Employees
Master Retirement
Trust
Ametek, Inc., as
Administrator of the
Ametek, Inc.
Employees Master
Retirement Trust

Amida Capital
Management LLC
Amida Partners Master
Fund Ltd.
Amida Partners Master
Fund Ltd. / Non-Flip
Account c/o Amida
Capital Management
LLC
Amundi Investments
Advisors USA, Inc.
Amy W. Fong, as
Trustee of the Amy W.
Fong Living Trust
Anadarko Petroleum
Corporation Master
Trust
Andrew Absler
Andrew Absler and
Lauren F. Absler
Andrew Boehm
Andrew Boehm and Rita
A. Boehm
Andrew J. McKenna
Trust
Andrew Letts
Aneice R. Lassiter
Angelo D. Giancarlo
Anna B. Schroer, acting
Trustee of the
Raymond & Anna
Schroer Trust U/A
DTD 09/28/2006
Anna Livingstone

177a
Anne G. Taylor
Anne G. Taylor, as
Trustee of the Trust by
Walter E. Graham U/A
DTD 10-16-2000
Anne S. Scheiermann
Reilly
Anne Scheiermann, as
Trustee of the
Scheiermann Living
Trust U/A DTD
08/28/1997
Anne-Marie S.
Greenberg
Annika De Goldmith, as
Trustee of the Marital
Trust of the De
Goldsmith Family
Trust
Anthony Y. Lin
Antoinette B.
Brumbaugh,
individually and as a
Trustee of the Trust by
Antoinette B.
Brumbaugh U/A Dated
10/05/94
Aon Corporation
APG Asset Management
US, Inc. (f/k/a ABP
Investments US, Inc.)
AQR Absolute Return
Master Account, LP

AQR Global Stock
Selection HV Master
Account Ltd.
AQR Global Stock
Selection Master
Account, LP
Aqua America, Inc.
Archdiocesan Pension
Plan of the Archdiocese
of New York
Archdiocese of
Cincinnati
Archdiocese of New York
Master Trust
Argyll Research LLC
Arlene L. Posner
Arline Doblin, as
Trustee of the Nathan
H. Perlman Trust B
DTD 12/17/68
Armen J Adajian Trust
U/A 9/15/80
Armen J Adajian, as a
Trustee of the Armen J
Adajian Trust U/A
9/15/80
Armstrong World
Industries, Inc.
Armstrong World
Industries, Inc.
Retirement Master
Trust

178a
Arnold D. Fong, as
Trustee of the Amy W.
Fong Living Trust
Arnold R. Weber
Arrow Distressed
Securities Fund
Arthur Blauzda
Arthur E. Goldberg
Arthur P. Heinz, as
Trustee of the Nancy
B. Heinz Family Trust
Arthur S. Casey SB
Advisor
Arthur Shawn Casey
Artis Aggressive Growth
LP
Artis Aggressive Growth
Master Fund LP
Artis Capital
Management LP
Artis Partners
(Institutional) LP
Artis Partners 2x
(Institutional) LP
Artis Partners 2x LP
Artis Partners 2x Ltd.
Artis Partners LP
Artis Partners Ltd.
Arturo Quinones
ASB Advisors LLC
Asbestos Workers Local
No. 32 Pension Trust
Fund

AST QMA U.S. Equity
Alpha Portfolio
Audrey Moran, as
Trustee of the Jessie
Ball Dupont Fund
Austin Trust Company
Automobile Club of
Southern California
Automotive Machinists
Pension Trust Fund
Avery Dennison
Corporation Master
Retirement Trust
Aviv Nevo
AXA Equitable Funds
Management Group,
LLC
AXA Equitable Life
Insurance Co.
AXA Premier VIP Trust,
Multimanager Large
Cap Core Equity
Portfolio
AXA Premier VIP Trust,
Multimanager Large
Cap Value Portfolio
Axelson Family Lmtd
Partnership
BACAP Equity Fund
XXI
BAE Systems Land &
Armaments, Inc. f/k/a
United Defense LP

179a
Bakery Conf Tob Wrks
Local 102
Bakery, Confectionery,
Tobacco Workers &
Grain Millers
International Pension
Fund
Bakery, Confectionery,
Tobacco Workers &
Grain Millers Union
Local 102
Baldwin Enterprises,
Inc.
Banc of America
Securities LLC
Bank of America
Bank of America and
Adolphus Busch
Orthwein, Trustees,
Clara Busch Orthwein
IR Trust
Bank of America and
Pierce Atwood,
Trustees, Brumbaugh
A B IRRY Trust
Bank of America and
Pierce Atwood,
Trustees, Polly H.
Werthman IRRA Trust
UA
Bank of America as
Trustee UA E L
Sanford FAM FBO
ADA

Bank of America as
Trustee UA Earl W.
Huntley FBO Melinda
Bank of America as
Trustee UA Earl W.
Huntley FBO Pamela
Bank of America as
Trustee UA George W.
Thoms Trust B
Bank of America as
Trustee UA Joseph L.
Molder
Bank of America
Structured Research
Bank of America, N.A.
(Equity Index Trust)
Bank of America, N.A.
(Large Cap Value
Index Trust of QA
Collective Trust Series)
Bank of America, N.A.,
as Trustee of its
Sponsored and
Administered
Collective Investment
Funds
Bank of America,
National Association
Bank of America,
National Association
as Trustee
Bank of America,
National Association

180a
as Trustee of Lucy A.
O’Connor Trust
Bank of America,
National Association
as Trustee of Stephen
L. O’Connor Trust
Bank of America,
National Association
as Trustee of Trust
under Agreement
Carrington M. Lloyd,
Jr. PLD
Bank of America,
National Association
as Trustee of Trust
under Agreement E L
Sanford by
Children/Mason
Bank of America,
National Association
as Trustee of Trust
under Agreement E L
Sanford
Children/William
Bank of America,
National Association
as Trustee of Trust
under Agreement E L
Sanford FAM FBO
Mason
Bank of America,
National Association
as Trustee of Trust
under Agreement E L

Sanford FAM FBO
William
Bank of America,
National Association
as Trustee of Trust
under Agreement FBO
Craig P Emmons
Bank of America,
National Association
as Trustee of Trust
under Agreement J
Sanford Children/ADA
Bank of America,
National Association
as Trustee of Trust
under Agreement J
Sanford
Children/Mason
Bank of America,
National Association
as Trustee of Trust
under Agreement J
Sanford
Children/William
Bank of America,
Trustee, and Judith E.
Neisser, Beneficiary,
Judith E Neisser IRA
Bank of America,
Trustee, BOA PensionBacap Largecap Index
Bank of America,
Trustee, BOA PensionCmg Largecap Index

181a
Bank of America,
Trustee, Lee U.
Gillespie Revocable
Trust
Bank of America,
Trustee, Marian C.
Falk for Alexandra
Bank of America,
Trustee, Mini TR U/A
Edward H. Lindsay
Bank of America,
Trustee, UW EW
Maske for Ruth M.
Bennett
Bank of New York
Mellon as Custodian
for Barclays Capital
Securities Limited
Bank of New York
Mellon as Custodian
for Coutts US Equity
Index Programme
Bank of New York
Mellon as Custodian
for Oddo & Cie (as
Successor to Banque
d’Orsay)
Bank of New York
Mellon Corporation
Retirement Plans
Master Trust
Baptist Foundation of
Texas
Barbara Baugh

Barbara H. Alter 2002
Declaration of Trust
Dated 12/12/2002
Barbara H. Alter, as
Trustee of the Barbara
H. Alter 2002
Declaration of Trust
Dated 12/12/2002
Barbara J. Kneeland
Barbara M. J. Wood
Living Trust UA Dated
9/17/81
Barbara Martell
Barbara Murphy
Barbro Osher, as
Trustee of Bernard and
Barbro Osher 2006
Charitable Remainder
Unitrust #2
Barclays Bank PLC
Barclays Capital
Securities Limited
Barclays Capital
Securities Limited as
Successor to BZW
Securities Limited
Barclays Capital, Inc.
Barnet Partners Ltd.
Barrie A. Kass
Barry David Kupferberg
Barry David Kupferberg
& Lori Banner
Kupferberg JT Ten

182a
Barry T. Werblow and
Bari Werblow,
husband and wife
BASF Corp Pension
Master Trust
BATL PN-NTRS S&P
Battelle Memorial
Institute
Baxter International,
Inc.
Bear Stearns Asset
Management, Inc.
Bear Stearns Equity
Strategies RT LLC
Bechtel Corp.
Bell Atlantic Master
Trust
Bellsouth Corp. NonRepresentable Health
Care Trust
Bellsouth Healthcare
S&P 500
Bellsouth/Alliance
Bernadette Cooley
Bernadette Fingleton
Bernard and Barbro
Osher 2006 Charitable
Remainder Unitrust #2
Bernard E. Waterman
Bernard E. Waterman
and Edith B.
Waterman

Bernard Osher 2006
Charitable Remainder
Unitrust #2
Bernard Osher Trust
Dated 03/08/88
Discretionary Account
Bernard Osher, as
Trustee of Bernard and
Barbro Osher 2006
Charitable Remainder
Unitrust #2
Bernard Osher, as
Trustee of Bernard
Osher 2006 Charitable
Remainder Unitrust #2
Bernard Osher, as
Trustee of Bernard
Osher Trust Dated
03/08/88 Discretionary
Account
Bernard Rabinowitz, as
Trustee of the Trust
FBO Bernard
Rabinowitz, U/A/D 0911-2006
Bernard Rabinowitz, as
Trustee of the Trust
for the Benefit of
Bernard Rabinowitz
U/A/D 09-11-2006
Bernard W. Lincicome
Bernice K. Wattman as
a Trustee of the
Bernice K. Wattman

183a
Trust U/A DTD
11/01/2002
Bernice K. Wattman
Trust U/A DTD
11/01/2002
Beth Leslie Ertel
Bethesda Hospital
Master Trust
Bethesda NonRetirement Assets
Master Trust
Bethesda, Inc.
Bette Wendt Jore
Betty Ann Altman, as
Trustee FBO the John
& Betty Altman
Family Trust UAD
05/16/86
Betty Beaird, as Trustee
of Betty Beaird Living
Trust U/A DTD 4/10/87
Betty Beaird, as Trustee
of the Betty Beaird
Living Trust UA 10Apr-87
Betty H. Roeland, as
Trustee of the
Survivors’ Trust
Betty K. Zlatchin
Betty Roeland, as
Trustee of the Betty H.
Roeland Marital Trust
Betty Roeland, as
Trustee of the Roeland

Family Trust UA
8/19/86
Beverly Mackintosh, as
Trustee of the Trust
U/A DTD 8/22/1989 by
Mary Coniglio
Beverly Mackintosh, as
Trustee of the Trust
U/A DTD 8/22/1989 by
Mary Coniglio GSTT
TE Trust
Beverly Perry
BGC Insurance Trust
PLG
Binhua Mao
Binhua Mao Roth IRA
Binhua Mao, Beneficiary
Biying Zhang
Black Box Corporation
(Penson Financial
Services Bbox)
Black Diamond
Arbitrage Offshore
Ltd. f/k/a Black
Diamond Arbitrage
Offshore LDC
Black Diamond Offshore
Ltd.
Blackport Capital Fund
Ltd.
Blandina Rojek
Blandina Rojek
Charitable Lead Trust

184a
Blue Chip Fund, a
Series of First
Investors Equity
Funds
Blue Chip Fund, a
Series of First
Investors Life Series
Funds
Blue Hills Bank (f/k/a
Hyde Park Savings
Bank)
Bmo Harris Bank N.A.,
as Trustee of the
Scripps Family
Revocable Trust
BMO Harris Bank, N.A.,
as Trustee of the
Henry G. Barkhausen
Trust UAD 12/14/36
BMO Harris Bank, N.A.,
as Trustee of the Janet
U. Embury Chln TR
Grace FD
BMO Harris Bank, N.A.,
as Trustee of the Janet
U. Embury, Chln TR J
Ley FD
BMO Harris Bank, N.A.,
as Trustee of the S. G.
Harris Charity Trust
UAD 6/13/45
BMO Harris Bank, N.A.,
as Trustee of the S. G.
Harris Mar TR 6/17/65

BMO Harris Bank, N.A.,
as Trustee of the
Stanley G. Harris
Trust UAD 6/10/46
BMO Harris Bank, N.A.,
as Trustee of the T.
Stanton Armour Trust
dated 2/10/66
BMO Nesbitt Burns
Trading Corp., S.A.
BMO Nesbitt Burns, Inc.
BMO Nesbitt Burns,
Inc./CDS
BMR 2 LLC
BNA Employees’
Retirement Plan
BNP Paribas Prime
Brokerage, Inc.
BNP Paribas Securities
Corp.
BNY Mellon Trust of
Delaware
BNY Mellon, in its
custodial capacity
BNY Mellon, N.A., as
Successor-In-Interest
to Mellon Trust of New
England, National
Association
Board of Administration
of the Los Angeles City
Employees’ Retirement
System, as
Administrator of the

185a
Los Angeles City
Employees’ Retirement
System
Board of Administration
of the Water and
Power Employees’
Retirement Plan
Board of Education
Retirement System of
the City of New York
Board of Trustees of
Leland Stanford Junior
University
Board of Trustees of the
Carpenters Pension
Trust Fund for
Northern California, as
Administrator of the
Carpenters Pension
Trust Fund for
Northern California
Board of Trustees of the
Colleges of Applied
Arts and Technology
Pension Plan, as
Administrator of
Colleges of Applied
Arts and Technology
Pension Plan
Board of Trustees of the
Cook County Pension
Fund, as
Administrator of the
County Employees’

and Officers’ Annuity
and Benefit Fund of
Cook County
Board of Trustees of the
United Food and
Commercial Workers
Unions and Employers
Midwest Pension
Fund, as
Administrator of the
United Food and
Commercial Workers
Unions and Employers
Midwest Pension Fund
Bob Fushimi
Bodmas Capital
Partners LP
Bonnie Gonzalez
Borden, Dillard R. Jr.
and Salvatore J.
Chilia, Trustees,
National Electrical
Benefit Fund
BP America
BP Pension Services
Limited
Bracebridge Capital
LLC
Bradley A. Long
Brandes Investment
Partners L.P.
Brent V. Woods

186a
Brent Woods, as Trustee
of the Woods/Mitchell
Family Trust
Bresler Family Investors
LLC
Brian McGovern
Bricklayers & Trowel
Trades Intl Pension
Fund
Bristol-Myers Squibb
Company Master
Retirement Trust
Broadridge Business
Process Outsourcing,
LLC f/k/a Ridge
Clearing &
Outsourcing Solutions
f/k/a Penson Financial
Services, Inc./Ridge
Brookline Avenue
Partners LP
Brophy Properties Inc.
Bruce G. Murphy
Bruce Kirkpatrick
Brumback Family LLC
Building Trades United
Pension Trust Fund
Byrd Trading LLC
C. Boynton Index 500
Portfolio
C. Phelps
California Ironworkers
Field Pension Trust

California Public
Employees Retirement
System (CalPERS)
California Public
Employees Retirement
System (CalPERS) DC
California Public
Employees Retirement
System (CalPERS)
Dynamic Completion
Fund
California Public
Employees Retirement
System (CalPERS)
Judges Retirement
System II Trust
CERBT Fund Trust
Legislators Retirement
System Trust Long TE
California Public
Employees Retirement
System (CalPERS)
Perf
California Public
Employees Retirement
System (CalPERS)
Pooled S+P 500 Index
Fund ACCT SK80
California Public
Employees Retirement
System (CalPERS)
SW5J A/C Domestic
Enhanced Index ST

187a
California State
Teachers Retirement
System
Camilla Chandler
Family Foundation
Camilla Frost Chandler,
as Trustee of Chandler
Trust No. 1
Camilla Frost Chandler,
as Trustee of Chandler
Trust No. 2
Canadian Imperial
Holdings Inc
Cantigny Foundation
Cantor Fitzgerald & Co.
Canyon Asset
Management
Canyon Balanced Equity
Master Fund Ltd.
Canyon Balanced
Master Fund Ltd.
(f/k/a Canyon Balanced
Equity Master Fund
Ltd.)
Canyon Capital Advisors
LLC
Canyon Value
Realization Fund LP
Canyon Value
Realization Mac 18
Ltd.
Capital One Bank
(USA), National
Association

Cara Leigh GillespieWilson
Carl Zlatchin
Carl Zlatchin Profit
Sharing Plan
Carlson Capital L.P.
Carlyle Hedrick
Carlyle Multi-Strategy
Master Fund Ltd.
Carlyle Paff Hedrick Tic
Carmine Macchiaroli, as
Trustee of the Carmine
Macchiaroli Living
Trust U/A 07/01/88
Carol Askin, as Trustee
of the Askin Family
Trust U/A DTD
09/27/1990
Carol E. Jansson, as
Trustee of the Trust by
Carol E. Jansson U/A
DTD 06/17/1998
Carol E. Martin, as
Trustee of the Alpheus
L. Ellis 1993
Grandchildren’s Trust
FBO Lynn Ann Sharpe
Carol E. Newman
Revocable Trust UA
02-10-2006
Carol E. Newman, as
Trustee of the Carol E.
Newman Revocable
Trust UA 02-10-2006

188a
Carol Forace
Carol S. Rowe
Caroline D. Bradley
Trust dated 11/30/51
FBO Sarah Doll
Barder
Carpenters Pension
Trust Fund for
Northern California
Carr Total Return Fund
Carr Total Return Fund
Limited Partnership
Carret Asset
Management
Caryl Pucci Rettaliata
Caryl W. Basoco
Casey and Associates,
LLP
Cassandra Trading
Group LLC
Caterpillar Investment
Trust
Caterpillar, Inc. Group
Insurance Master
Trust
Caterpillar, Inc.
Retirement Master
Trust
Catherine A. Verdusco,
as Trustee of the
Benjamin J. Verdusco
Trust U/A DTD
12/13/1989

Catherine A. Verdusco,
as Trustee of the
Francesca J. Verdusco
Trust
Catherine A. Verdusco,
as Trustee of the
Francesca J. Verdusco
Trust U/A DTD
12/13/1989
Catholic Health West
CHW
Catholic Healthcare
West
Catholic United
Investment Trust
Caxton Associates LP
Caxton International
Limited
CBS Master Trust
CD Investment Partners
Ltd.
Cecil C. Smith
Cedar Grove Cemetery
Association
Cedar Grove Cemetery
Association Perpetual
Care Reserve Fund
Central Pension Fund
Central States
Teamsters
Central States,
Southeast and
Southwest Areas
Pension Fund

189a
Centurylink, Inc.
Chandis Securities
Company
Chandler Trust No. 1
Chandler Trust No. 2
Charles Bresler
Charles Friedman
Charles Jasa, as
Personal
Representative of the
Estate of Robert D.
Nelson
Charles Joseph De
Sieyes, as Trustee of
the Trust under an
Agreement dated
December 13, 1976
Between Virginia S.
Risley, as Settlor, and
William H. Risley,
Charles Joseph De
Sieyes and United
States Trust Company
of New York, as
Trustees
Charles Keates
Charles L. Edwards
Charles R. Baugh
Charles R. Baugh Jr and
Barbara Baugh Jtwros
Charles R. Baugh, Jr.
Charles Schwab & Co.,
Inc., as Custodian for

Brent V. Woods IRA
Rollover
Charles Schwab & Co.,
Inc., as Custodian of
the Cindy L. Schreuder
IRA Rollover
Charles Schwab & Co.,
Inc., as Custodian of
the George William
Buck Sep-IRA Dtd
04/08/93
Charles Schwab & Co.,
Inc., as Custodian of
the Lawrence F. Klima
IRA Rollover
Charles Schwab & Co.,
Inc., as Custodian of
the Linnet F. Myers
IRA Rollover
Charles Schwab & Co.,
Inc., as Custodian of
the Peter R. Marino
IRA Rollover
Charles Schwab & Co.,
Inc., as Custodian of
the Robert D. Bosau
IRA
Charles Schwab & Co.,
Inc., as Custodian of
the Rose T Bosau IRA
Charles Schwab & Co.,
Inc., as Custodian of
the William Effron
Katzin IRA Rollover

190a
Charles Schwab & Co.,
Inc., as Trustee of the
Francis Nessinger IRA
UTA DTD 10/14/86
Charles T. and Mary
Howe Brumback
Descendants Trust
Charles T. Brumback,
Jr.
Charles T. Martin
Charles Thurman
Charley Chunyu Lu
Charley Chunyu Lu &
Biying Zhang
Commercial Property
Charlotte O’Brien
Charter Partners LP
Chase L. Leavitt, as
Trustee of the Philip B.
Chase Revocable Trust
dated 07/28/94
Chemtura Corporation
Master Retirement
Trust
Cheuk W. Yung
Chevy Chase Trust
Company
Chicago Tribune
Foundation
Christopher Lindblad, as
a Trustee of the
Revocable Trust for the
Benefit of Christopher

Lindblad U/A/D 04-202000
Christopher Reilly
Christus Health
Christus Health Cash
Balance Plan
CIBC World Markets
Corp.
CIBC World Markets,
Inc./CDS
Cigna Corporation
CIM XVI LLC
Cindy L. Schreuder
Ciri Gillespie
Citadel Derivatives
Group LLC
Citadel Equity Fund
Ltd.
Citadel Limited
Partnership
Citadel LLC (f/k/a
Citadel Investment
Group LLC)
Citibank, N.A. as
Custodian for Prism
Partners Offshore
Citibank, National
Association, in its
Individual and
Custodial Capacities
Citigroup Global
Markets, Inc.
Citigroup Pension Plan
Trust, and its Trustee,

191a
the Bank of New York
Mellon, in its Capacity
as Trustee thereof
Citigroup Securities
Services, Inc.
City Employees’
Retirement System of
the City of Los Angeles
City National Bank
City of Daytona Police
and Fire Pension
City of Gainesville Police
Officers’ and
Firefighters’
Retirement Plan
City of Los Angeles Fire
and Police Pension
Plan
Clare Attwell Glassell,
Individually and as the
Beneficiary of the
Clare Attwell Glassell
Continuing Marital
Trust
Claude Rosenberg, as
Trustee of the
Rosenberg Revocable
Trust
Clear Cove Capital LP
Clearwater Growth
Fund
Clearwater Investment
Clearwater Investment
Trust

Clovia L. Fushimi
CMCJL LLC
CNH Master Account,
LP
CNH Partners, LLC
Coastview Equity
Partners LP
Cobalt Trading LLC
Cogent Investment
Strategies LLC
Cogent Investment
Strategies Master
Fund, SPC - Class D
Cogent Management,
Inc.
Colleges of Applied Arts
and Technology
Pension Plan
Colorado Public
Employees’ Retirement
Association
Columbia Management
Group [n/k/a Bofa
Global Capital
Management Group,
LLC]
Comerica Bank & Trust,
N.A., in its Corporate
Capacity and as
Sponsor of its
Collective Investment
Funds
Commercial Banking
Client Rang

192a
Commerzbank AG
Commonwealth of
Pennsylvania Tuition
Account Program Fund
Conair Corporation
Connecticut General
Life Insurance
Company
Connecticut Health
Foundation
Conservative Balanced
Portfolio a Series of
Prudential Series Fnd
Inc
Consolidated Edison of
NY K801
Constance Tolbert Yeso
Cooper Neff Advisors,
Inc.
CooperNeff Alternative
Managements
Cougar Trading LLC
County Employees’ and
Officers’ Annuity and
Benefit Fund of Cook
County
Coutts Us Equity Index
Programme
Cox Family Educational
Trust Dated
08/02/2004
Craig W. Dougherty
Crane Co. Master Trust

Credit Agricole
Securities (USA), Inc.
Credit Suisse Securities
(Europe) Limited
Credit Suisse Securities
(USA) LLC F/K/A
Credit Suisse First
Boston LLC
Creighton, Neal and
Joan H. Creighton Jt
TEN
CSS LLC
CTC Fund Management
LLC
Custodial Trust Co.
Cutler Group LP
D. E. Shaw Valence
Portfolio LLC
D. O’Donnell, as Trustee
of the Dorothy P.
O’Donnell Revocable
Trust U/A DTD
04/25/1983
D.E. Shaw & Co. LP
D.E. Shaw & Company
LLC
D.E. Shaw Oculus
Portfolios LLC
D.E. Shaw Valence
Portfolios LLC
D.E. Shaw Valence
Portfolios LLC - Broad
Core

193a
D.E. Shaw Valence
Portfolios LLC - Long
Dain Rauscher
Dain Rauscher, as a
Custodian of the
Patrick J. McGlinn
Individual Retirement
Account RBC
Daiwa Securities Trust
Co.
Dan Eric Miller, as
Trustee of the Miller
Family Trust
Danica F. Hughes
Daniel and Tracy Opat,
as Individuals and as
Trustees of a Certain
Trust Document dated
August 31, 2006
Daniel Braidwood
Daniel Cohen
Daniel Cohen and Barrie
A. Kass
Daniel D. Pecaro, as
Trustee of the Pecaro
Family Trust DTD
4/12/02
Daniel R. Zuckerman
Daniel S. Gregory
Daniel S. Jursa
Darrell F. Kuenzel
Darrick O. Ross
Daryl V. Dichek
Davenport & Co. LLC

Davenport, William L,
Trustee, William M
Davenport Trust
Under Will of Thomas
Carrter Lupton
David A. Dichek
David A. Dichek and
Jane Doe Dichek, a
Washington Marital
Community
David C. De Sieyes
David C. De Sieyes, as
Trustee of the Trust
under an Agreement
dated December 13,
1976 between Virginia
S. Risley, as Settlor,
and William H. Risley,
David C. De Sieyes,
and United States
Trust Company of New
York, as Trustees
David D. Grumhaus
1990 Trust
David D. Grumhaus, as
a Trustee of the David
D. Grumhaus 1990
Trust
David E. Neisser
Irrevocable Trust
Dated 8-14-83
David Ertel
David Greenspahn
David Hochberg

194a
David L. Riley
David P. Slesur
David T.K. Lu
DBSO Securities Ltd.
Deann K. Riley
Declaration of Bell
Family Trust
Meadowbrook Equity
Fund UA 12/1/86
Declaration of Bell
Family Trust UA
12/1/86
Deepak Agarwal
Deere & Company
Welfare Benefit Trust
#1
Deere & Company, as
Administrator of the
John Deere Pension
Trust
Del Mar Master Fund,
Ltd.
Delaware Charter G&T
TTEE
Delaware Charter
Guarantee & Trust
Delaware Charter
Guarantee & Trust Co.
Delaware Charter
Guarantee & Trust
Co., as Custodian of
the Lisa M. Featherer
IRA R/O

Delaware Charter
Guarantee & Trust, as
Custodian of Carl
Zlatchin Profit Sharing
Plan
Delaware Charter
Guarantee & Trust, as
Custodian of the Betty
Zlatchin IRA
Delaware Charter
Guarantee & Trust, as
Custodian of the Kevin
Stone IRA R/O
Delaware Charter
Guarantee & Trust, as
Custodian of the
Sherry P. Broder IRA
Delaware Charter
Guarantee & Trust, as
Trustee of the Herbert
G. Lau Profit Sharing
QRP Participation
Deld Family Foundation
Trust UAD 9/30/02
Denise A. Meck
Denise E. Palmer, as
Trustee of the Denise
Palmer Revocable
Trust U/A/D 10-281991
Dennis Eugene De Haas
Dennis J. Layne
Dennis S. Bunder
DEPFA Bank, PLC

195a
DEPFA Bank, PLC
(Hypo Real Estate
Bank Int’l)
Derek M. Dalton, as
Trustee of the
10/03/2007 Dalton
Trust
Despina Haigler, as
Trustee of the Richard
Haigler & Despina
Haigler Living Trust
U/A 11/04/91
Deutsche Bank AG,
Filiale Amsterdam
Deutsche Bank AG,
Frankfurt
Deutsche Bank AG, in
its custodial capacity
Deutsche Bank
Securities Inc. – DB
AG Equity Swaps
Offshore Consolidated
Account I
Deutsche Lufthansa AG
DIA Mid Cap Value
Portfolio
Diamond Consolidated
L.P.
Diamond, John B., as
Trustee of the John B.
Diamond Declaration
of Trust dated April
15, 2010

Diamond, Marilyn R., as
Trustee, Marilyn R.
Diamond Trust dated
11-11-88
Diamond, Terry and
Muriel Diamond as
Trustees U/W of Sol
Diamond dated 12/4/72
Diamond, Terry,
Trustee, Terry D.
Diamond Trust DTD
5/7/86
Diamondback Cap Mgt/
Diamondback Master
Fund Ltd Century
Yard
Diamondback MA FD
LTED QAES/TMS/ITS
SETT A/C
Diamondback Master
Fund/TMS/ITS SETT
A/C for Queensgate
House
Diamondback Master
Fund Ltd Century
Yard
Diamondback Master
Fund Ltd.
Diane A. Kucera,
Individually and as
Trustee of the Trust by
Richard A. Kucera &
Diane A. Kucera U/A/D

196a
03-23-07 FBO Richard
& Diane Kucera
Diane Buchanan Wilsey
Dictaphone Corporation
Direxion Funds
Direxion Insurance
Trust
District 1199J New
Jersey Health Care
Employers Pension
Plan a/k/a District
1199J New Jersey
Health Care
Employers Pension
Fund
Doheny Eye Institute
Dolores C. Mierkiewicz
Dolores Locascio
Dominion Resources,
Inc.
Dominion Resources,
Inc. Defined Benefit
Master Trust
Donald Baron
Donald Baron, as a
Trustee of the Don &
Irene Baron Family
Trust 7B-251
Donald F. Ray
Donald H. Rumsfeld
Donald M. Hinman Jr.
Donald Rooney
Donavon Virgil Schuler,
as Trustee UTD

01/18/88 of the Schuler
Trust
Donna C. Lies
Doris Duke Charitable
Foundation
Doris Keats Frank
Doris Keats Frank, as
Trustee of the Doris
Keats Frank Revocable
Trust UA 03/07/00
Dorothy A. Levenson
Dorothy B. Chandler
Marital Trust No. 2
UAD 06/26/35
Dorothy B. Chandler
Residuary Trust
Dorothy B. Chandler
Residuary Trust No. 2
Dorothy C. Patterson
Irrevocable Trust #2
Dated 12-21-93
Dorothy D. Park
Dorothy E. Hinze
Dorothy Flibbert, as a
Trustee of the 12/09/90
Tommie L. Cordero
Trust
Dorothy L. Drummey, as
Trustee of the Deld
Family Foundation
Trust UAD 9/30/02
Dorothy P. O’Donnell
Revocable Trust U/A
DTD 04/25/1983

197a
Double Black Diamond
Offshore Ltd. f/k/a
Double Black
Diamond/Offshore
LDC
Douglas B. Stewart
Douglas E. Knee and
Barbara J. Kneeland
Joint Tenants with
Rights of Survivorship
Douglas E. Kneeland
Douglas H. Dittrick
Dr. Charles J. De Sieyes
Dr. David L. Hoexter
Dr. Peter Fairweather
Draper and Kramer Inc.
(a/k/a DK/Equity LLC)
Drawbridge Global
Macro Master Fund
Ltd.
Dresdner Bank, AG
DT Broad Market Stock
Index Fund
Duane Shelton Tydings,
as Trustee of the Grace
Trust
Duke Energy
Corporation
Duke Power Company
Non-Qualified Equity
Nuclear
Decommissioning
Trust

Dundee Leeds
Management Services
(Cayman) Ltd.
Dynamic Domestic Fund
LP
E*Trade Capital
Markets LLC
E*Trade Securities LLC
E*Trade Securities LLC,
as Custodian of Joe
Youssry Kelada SEP
IRA
E*Trade Securities LLC,
as Custodian of the
Enzo S. Ricciardelli
SEP IRA
E*Trade Securities LLC,
as Custodian of the
Karl Putnam IRA
E. Donald Heymann, as
Trustee of the E.
Donald Heymann
Trust
E. Gallagher
EAC Management LP
EAC Partners Master
Fund Ltd.
Eagle New Media
Investments LLC
Earl E. Crowe Trust No.
2 UAD 06/26/35
Echotrade LLC

198a
Eddie Jones Jr., as
Trustee of the Jessie
Ball Dupont Fund
Edgar D. Gifford, as
Trustee of the Edgar D
Gifford Trust UA
7/15/98
Edith A. Ehrlich
Edith B. Waterman
Edmund D. Haigler Jr.
Edna F. Weber
Edward A. Cox, Jr.
Revocable Trust DTD
5/21/2004
Edward A. Cox, Jr., as
Trustee of the Edward
A. Cox, Jr. Revocable
Trust DTD 5/21/2004
Edward E. Neisser
Marital Trust
Edward T. McGowan
Edwards, W L Jack,
Trustee
Edwin J. Hayes Jr.
Edwin J. Hayes, as
Trustee of the Trust by
Edwin J. Hayes Jr.
U/A DTD 5/26/2006
Edwin R. Labuz
EFH Retirement Plan
Master Trust
Eileen C. Norris
Eileen Marie Wirth
Eitner, Paul G

Elaine T. Bovaird, as
Trustee of the Trust by
Elaine T. Bovaird U/A
DTD 2/18/1993
Elaine W. Getz, as
Trustee of the Elaine
W. Getz Trust UA
2/5/86
Elaine W. Pettijohn, as
Trustee of the Elaine
W. Pettijohn Trust U/A
12/20/89
Eleanor A. Kenyon
Eleanor Jackson Stern
Trust Dated
01/06/1971
Electrolux Home
Products, Inc. Master
Trust
Eliza Haskins
Elizabeth Dahan
Elizabeth De Cuevas
Elizabeth H.
Vanmerkensteijn
Elizabeth L. Levin, as
Trustee of the
Elizabeth L. Levin
2006 Sz-2 Year
Grantor Retained
Annuity Trust under
Agreement dated
07/31/06
Elizabeth Siegel, Acting
Trustee of the Barbara

199a
M. Osborne Trust
U/I/T DTD 2/7/05
Elkhorn LLC
Ellen Johnson Twaddell
Ellen P. Caputo
Ellen Warren
Elmer H. Wavering
Family Trust dated
06/24/1977 as
Amended
Emanuel E. Geduld
2005 Family Trust
Embarq Corporation
Emily Evans Embrey,
Beneficiary of the
Alfred C. Glassell Jr.
Children’s Trust for
Emily Evans Embrey
Emily G. Plumb
Charitable Trust dated
1/8/80 as Amended
Employee Retirement
Income Plan Trust of
Minnesota Mining &
Manufacturing Co.
Employees Retirement
System of Texas
Employers’ Fire
Insurance Company
Enhanced Rafi U.S.
Large LP
Enzo S. Ricciardelli

EQ Advisors Trust EQ/Equity 500 Index
Portfolio
EQ Advisors Trust EQ/Gamco Mergers
and Acquisitions
Portfolio
EQ Advisors Trust EQ/Mid Cap Value
Plus Portfolio
EQ Advisors Trust
(EQAT Equity 500
Index)
Equitec Specialists LLC
Equity Investment Fund
Pooled Trust
Eric D. Werthman
Eric I. Chang
Eric Morris
Estate of Barbara
Hammond
Estate of Charles Pratt
Twichell UW HT
Clement for SP BC
QTIP Trust
Estate of Karen Babcock
Estate of Robert C.
Gilkison
Esther G. Fox
Eugene Taylor
Eugene Taylor and Rose
Marie Taylor JT Ten
Eugene Tillman, as
Trustee of the Tillman

200a
Family Trust U/A
07/29/1980
Eureka Options LLC
Evangelical Lutheran
Church in America
Board of Pensions
Everest Re Group Ltd.
Everest Reinsurance
(Bermuda) Ltd.
Evergreen Asset
Management c/o
Prentice-Hall
Corporation System,
Inc.
Evergreen Asset
Management Corp.
Everything Medical, Inc.
Evol Capital
Management, LLC
Evolution All-Cap
Equity Fund
Excel Realty Fund LP
ExxonMobil Investment
Fund
ExxonMobil Investment
Management Inc.
F. Audrye Woller
F. Tong
Fair Oaks LLC, as
Trustee of the John N.
Robson Trust B dated
9/11/1970
Fairweather Family LP

Fairweather Limited
Partnership
Fairweather Ltd Ptrshp
R1F3154C, Custodian
Farmers Group, Inc.
Fasken Ltd.
Federal Reserve System
Employee Retirement
Fund
Felix Wen Guang Tong
Ferris Trading Fund
LLC
Ferris, Baker Watts, Inc.
Fidelity Management
Trust Co. as Trustee
for Verizon Master
Savings Trust
Fidelity Management
Trust Company,
Custodian, and
Michael Muskal,
Beneficiary, Michael
Muskal IRA Rollover
Fidelity Management
Trust Company,
Custodian, and
Timothy L. O’Rourke,
Beneficiary, Timothy
L. O’Rourke IRA
Fidelity Management
Trust Company,
Custodian, Bashar A.
Mubashir IRA Rollover

201a
Fideuram Bank
Luxembourg S.A.
Fideuram Bank
Luxembourg S.A. c/o
Intesa Sanpaolo
Fiduciary Company
Incorporated
Fiduciary Mgt. Assoc.
LLC 401k FBO Robert
Wesley Thornburgh
Fiduciary Trust Co.
Fiduciary Trust
Company
International
Fiduciary Trust
Company
International, as
Trustee of a Trust
under an Agreement
dated December 13,
1976 between Virginia
S. Risley, as settlor,
and William H. Risley,
Charles Joseph De
Sieyes and United
States Trust Company
of New York, as
Trustees
Fiduciary Trust
Company
International, as
Trustee of a Trust
under an Agreement
dated December 13,

1976 between Virginia
S. Risley, as settlor,
and William H. Risley,
David C. De Sieyes,
and United States
Trust Company of New
York, as Trustees
Fiduciary Trust
Company
International, as
Trustee of a Trust
under an agreement
dated December 19,
1977 between Virginia
S. Risley, as settlor,
and William H. Risley
and United States
Trust Company of New
York, as Trustees
Fifth Third Bank
Financial Management
Concepts Corporation
First American Equity
Index Fund
First American
Investment Funds, Inc.
– Equity Index Fund
First Capital Alliance
LP
First Data Incentive
Savings Plan FBO
John G. Kologi

202a
First Investors Life
Series Fund Blue Chip
Series
First Investors Life
Series Fund Utilities
Series
First Investors Utilities
Income
First Midwest Bancorp
First New York
Securities LLC
First Republic Bank
Firstar Equity Index
Fund
First-Citizens Bank &
Trust Company
Fit Collective
Investment Plan
Flexible US Equity
Managers
Flexible US Equity
Managers Portfolio 1
LLC
Florida Power Corp NonQual
Floyd C. Sanger Jr., as
Trustee of the Floyd C.
Sanger Jr. Trust U/A
3/11/86
FM Global
Folksamerica
Reinsurance Company
Fontaine, John T.,
Trustee, John T.

Fontaine Trust under
Will of Thomas Carrter
Lupton
Fordham University
Foundation for
Anesthesia Education
& Research
Frances L. Cey,
individually and as a
Trustee of the Cey
Living Trust 5/14/87
Francis G. Duggan
Francis L. Coolidge
Francis Nessinger
Frank Callea
Frank J. Bouzek, as
Trustee of the Billie J.
Bouzek Trust U/A
1/28/00
Frank Maloney
Frank Maloney and
Kathleen Maloney
Frank Russell
Investments
Frank Russell Trust
Company
Frank W. Considine
Frank W. Denius
Fred J. Eychaner
Fred Martell
Frederick Goldstein
Fredericka Paff
Fredric Levenson

203a
Fredric Levenson and
Dorothy A. Levenson
Frost National Bank
Full Value Partners LP
Gabelli & Company, Inc.
Gabelli 787 Fund Inc. Gabelli Enterprise
Mergers and
Acquisitions Fund f/k/a
the 787 Fund Inc AXA Enterprise
Mergers and
Acquisitions FundMC
Gabelli ABC Fund
Gabelli Asset
Management Company
Gabelli Associates Fund
Gabelli Average Price 2
Gabelli Equity Trust,
Inc.
Gabelli Foundation, Inc.
Gabelli Funds LLC
Gabelli Funds, Inc.
(Gabelli ABCFund)
Gabelli Funds, Inc.
(Gabelli Funds, Inc.)
Bruce M. Alpert
Gabelli Funds, Inc.
(Gabelli) Bruce M.
Alpert
Gabelli Funds, Inc. (the
Gabelli Asset Fund)
Bruce M. Alpert

Gabelli Funds, Inc. (the
Gabelli Equity Inc FD)
Bruce M. Alpert
Gabelli Funds, Inc. (the
Gabelli Global
Multimed TR) Bruce
M. Alpert
Gabelli Investor Funds,
Inc.
Gabelli Multimedia
Partners, L.P.
Gabelli Performance
Partnership, L.P.
Gabelli Securities, Inc.
Gabelli Value Fund, Inc.
Gail C. Schlang
Gail D. Scripps, as
Trustee of the Barry H.
Scripps Trust
Gail Samos Johnson
GAMCO Asset
Management, Inc.
GAMCO Investors, Inc.
Garland Foundation
Trust No. 2
Gary E. Pekala
Gaspare Locascio
Gaspare Locascio and
Dolores Locascio
G‐Bar Limited
Partnership
GCW Capital LLC
GDK, Inc.

204a
GDK, Inc. c/o Caxton
Associates LP
Gene C. McCaffery
General Board of the
Global Ministries of
the United Methodist
Church’s Collins
Pension Plan
General Motors HourlyRate Employee
Pension Trust
(GMHREP Trust)
General Motors
Investment
Management Corp.
Genworth Financial
Wealth Management
George E. Keeler
George J. Peckham, as
Trustee of U/A/D 0714-2000 FBO the 2000
Peckham Family Trust
George M. Moss
George William Buck
Georgette Pettijohn
Geraldo Rivera
Gertrude K. Chisholm,
as Trustee of the Trust
U/W Charlene Frost
GGCP, Inc. (f/k/a Gabelli
Funds, Inc.)
Gidwitz Art Ventures
GJD Partners L.P.

Glassell Family
Foundation, Inc.
Glaxosmithkline LLC
Glen W. Bell Jr., as
Trustee of Declaration
of Bell Family Trust
UA 12/1/86
Glen W. Bell, as Trustee
of Declaration of Bell
Family Trust
Meadowbrook Equity
Fund UA 12/1/86
Glenmede Trust Co.
Glenview State Bank
GMIMCo TRUST
(General Motors
Investment
Management Corp.)
GMIMCo Trust (General
Motors) Bruce
Marquand
Goldentree Asset
Management LP
Goldentree Master Fund
II Ltd.
Goldentree Master Fund
Ltd.
Goldentree
Multistrategy Ltd.
Goldentree
Multistrategy Offshore
Fund

205a
Goldman Sachs 1997
Exchange Place Fund,
L.P.
Goldman Sachs 1999
Exchange Place Fund,
L.P.
Goldman Sachs 2005
Exchange Place Fund,
L.P.
Goldman Sachs
Execution & Clearing,
L.P., in its individual
and custodial
capacities
Goldman Sachs
Investment Strategies,
LLC, in its custodial
and investment
managerial capacities
Goldman, Sachs & Co.,
in its individual and
custodial capacities
Goldsher Investment
Co., Inc.
Governing Council of the
University of Toronto
Government of
Singapore Investment
Corporation PTE Ltd.
GPS Funds I
Graham Capital
Management, Limited
Partnership

Graham Event Driven
Ltd.
Great-West Life
Assurance Co.
Greenock Multi-Strategy
Master Fund Ltd.
Greenwich Capital d/b/a
RBS Greenwich
Capital
Greg Guma, as Trustee
of the Jesse Lloyd
Guma Irrevocable
Trust U/A DTD 7-5-96
Gregory J. Caputo
Gregory J. Caputo and
Ellen P. Caputo
Gregory Reyftmann
Griffith E. Madigan, as
custodian of Griffith
Patrick Madigan Utma
Wi
Gryphon Hidden Values
VIII L.P.
Gryphon Hidden Values
VIII Ltd.
Guarantee & Trust Co.
Guarantee & Trust Co.,
as Custodian of the
Charles L. Edwards
IRA Rollover Account
Guardian
Guardian Investors
Services LLC [RS S&P
500 Index VIP Series]

206a
Guardian VC 500 Index
Fund, John Doe as
Owner of
Guggenheim Advisors
LLC
Guggenheim Portfolio
LIX, LLC
Guidemark Large Cap
Value Fund (f/k/a
Assetmark Large Cap
Value Fund)
Guidestone Equity Index
Fund
Guidestone Funds
Gulco Corp.
Gwedolyn Garland
Babcock
Gwendolyn G. Babcock
Hach Scientific
Foundation
Halcyon Asset
Management LLC f/k/a
Halcyon Management
Co. LLC
Halcyon Diversified
Fund L.P.
Halcyon Fund LP
Halcyon Offshore
Enhanced Master
Fund LP
Halcyon Special
Situations, L.P.
Halliburton Co.
Hanna Jonas Miller

Hannah Smith Trust
Harbor Capital
Advisors, Inc.
Harbor Capital Group
Trust
Harbor Mid Cap Value
Fund
Harold R. Lifvendahl
Trust dated 9/7/1988
Harold R. Lifvendahl, as
Trustee of the Harold
R. Lifvendahl Trust
Dated 9/7/1988
Harriet H. Glasspiegel,
as Trustee of the
Harriet H. Glasspiegel
Dl Trust U/A 6/21/89
Harrington Bischof, as
Trustee of the
Harrington Bischof
Trust UAD 9/15/97
Harris Corp. Retirement
Trust
Harry F. Byrd, Jr.
Harry F. Byrd, Jr., as
Trustee of the Harry F.
Byrd Jr Revocable
Trust
Harry F. Byrd, Jr., as
Trustee of the Thomas
T. Byrd Trust UA
01/25/82
Harry F. Byrd, Jr., as
Trustee of Thomas T

207a
Byrd TR UA 01/25/82
Harry F. Byrd Jr
Revocable Trust
Harry Glasspiegel, as
Trustee of the Harriet
H. Glasspiegel Dl
Trust U/A 6/21/89
Hartford Investment
Management Company
Hartford Life Insurance
Company
Harvard Management
Co.
Harvard University
Harvest AA Capital LP
Harvest Capital LP
Harvey B. Plotnick, as
Trustee of the Harvey
B. Plotnick Declaration
of Trust u/a/d March
16, 1988
Harvey Bookman
Harvey Mudd College
Harvey R. Heller
Havens Advisors LLC
Havens Partners
Enhanced Fund LP
Havens Partners LP
Headwaters Holdings
LLC
Hearst Equity
Appreciation Plan
Hedgehog Capital LLC
Hedonic Capital LLC

Helen Brown
Helen Brown, Jean
Samos and Gail Samos
Helen Buttenwieser
Trust 7/28/38
Helen Garland Trust No.
2 FBO Gwedolyn
Garland Babcock UAD
06/26/35
Helen Garland Trust No.
2 FBO Hillary Duque
Garland
Helen Garland Trust No.
2 FBO William M.
Garland III UAD
06/26/35
Helen Grossman, as
Trustee of the Helen
Grossman Trust Dated
09/08/99
Helen K. Dohm
Helena Pai
Henry G. Barkhausen
Trust UAD 12/14/36
Henry P. Albrecht, as
Trustee of the Henry
P. Albrecht Revocable
Trust U/A 1/21/74
Herbert Anthony Clark
Jr.
Herbert G. Lau Profit
Sharing QRP
Participation
HFF I LLC

208a
HFR Asset Mgmt LLC
HFR RVA Whitebox
Master Trust (f/k/a
HFR RVA Combined
Master Trust)
HHS Partnership
Highmark, Inc.
Hilda Flynn
Hillary Duque Garland
Himan Brown Revocable
Trust
Himan Brown, TR UA
11/20/02 Himan Brown
Revocable Trust
HOC GST Exempt Trust
No. 2 FBO John
Haskins
HOC GST Exempt Trust
No. 2 FBO Scott
Haskins
HOC GST Exempt Trust
No. 2. FBO Eliza
Haskins UAD 06/26/35
HOC Trust No. 2 FBO
Eliza Haskins UAD
06/26/35
HOC Trust No. 2 FBO
John Haskins UAD
06/26/35
HOC Trust No. 2 FBO
Scott Haskins UAD
06/26/35
Homeland Insurance
Company of New York

Hon. Harry F. Byrd
Revocable Trust U/A
DTD 1/25/82
Honeywell International
Inc. Master Retirement
Trust
Horizon Golden Partners
LP
Horwitz, Donald
Horwitz, Lola L
Howard Berkowitz
Howard E. Mazur
Howard F. Ahmanson
Jr. Revocable Trust
Howard F. Ahmanson
Jr., as Trustee of the
Howard F. Ahmanson
Jr. Revocable Trust
Howard J. Trienens, as
Trustee of the Paula
Miller Trienens Trust
Dated 9-18-91
Howard J. Trienens, as
Trustee under SelfDeclaration of Trust
dated 9-18-91
Howard Resnick
Howard Wong
Hoyer/Lemts
Hudson Bay Fund LP
Hudson Bay Master
Fund Ltd.
Hugh F. Fagan
Huntington

209a
Huntington National
Bank
Hussman Econometrics
Advisors, Inc.
Hussman Investment
Trust
Hussman Strategic
Growth Fund
Hypo Real Estate Bank
Int’l
I.B.E.W. 103
IBEW Local 103 Trust
Fund
IBEW Local 25
Mastertrust Plans
IBEW Local 25
Retirement Funds
Master Trust
IBEW Local 98 Pension
Plan Mv
IBEW–NECA Equity
Index Fund
IBM Netherlands Msci
Us [Stichting
Pensioenfonds IBM
Nederland]
IBM Personal Pension
Plan Trust
ICAP Corporates LLC
Ice Bear Incorporated,
an Alaska Corporation
Iglesia Metodista Del
Peru

Illinois Municipal
Retirement Fund
Illinois State Board of
Investment
Illinois Student
Assistance
Commission
IM Margaret K Crane
Trust
Imogene S. Peckham, as
Trustee of U/A/D 0714-2000 FBO the 2000
Peckham Family Trust
Imperium Insurance
Company (f/k/a Delos
Insurance Company)
Ina Tillman, as Trustee
of the Tillman Family
Trust U/A 07/29/1980
ING Investment Trust
Co.
Intech Investment
Management LLC
Intel Corporation
Interactive Brokers
Group
International
Brotherhood of
Electrical Workers
Pension Benefit Fund
International
Brotherhood of
Painters and Allied

210a
Trades Union &
Industry Pension Fund
International Business
Machines Corporation
International Monetary
Fund Staff Retirement
Plan
International Union of
Operating Engineers
International Union of
Operating Engineers
Local 14-14B Pension
Fund, by and through
its Board of Trustees
Intersil Equity Income
Fund
Intersil Equity, Inc.
Fund
Intl. Union Painters &
Allied Trades Industry
Pension Fund
Invenio Partners LP
Investors Bank & Trust
Invoc [Investment
Operating Company
LLC]
Ipac Asset Management
Ira Willis Baker Jr.
Irene Baron, as a
Trustee of the Don &
Irene Baron Family
Trust 7b-251
Irene M. McNulty

Iris B. Mahoney, as a
Trustee of the Iris B.
Mahoney Revocable
Trust U/A/D 04/10/98
Iris Elston, as Trustee of
the Iris Elston Trust
UAD 5/30/95
Ironworker Employees’
Benefit Corporation, as
Administrator of the
California Ironworkers
Field Pension Trust
Irving & Varda Rabin
1992 Revocable Trust
Irving Rabin, as Trustee
of the Irving & Varda
Rabin 1992 Revocable
Trust
J. McWethy and Jane
Doe McWethy,
husband and wife
J. Oldendorf, as Trustee
of the Dorothy P
O’Donnell Revocable
Trust U/A DTD
04/25/1983
J.M. Smucker Company
J.P. Morgan Whitefriars
Inc.
J.P. Morgan Whitefriars,
Inc.
Jack D. McManus
Jack D. McManus and
John R. McManus

211a
Jack R. McDonald
Jack R. McDonald, as a
Custodian of the CGM
IRA
Jackson Capital Ptrs, LP
Main LP
Jackson Capital Ptrs,
LP-Main-Pl
Jacksonville Police &
Fire Pension Board of
Trustees Trust
Jacqueline E. Autry, as
Trustee of the Autry
Community Property
Trust dated 03/15/1985
Jacuzzi Brands, Inc.
Jacuzzi Brands, Inc.
Defined Benefit (a/k/a
Jacuzzi Brands, Inc.
Master Pension Plan,
Jacuzzi Brands, Inc.
Master Trust, and/or
Jacuzzi Brands, Inc.
Retirement Savings &
Investment Plan)
James A. Crumley
James A. Friedberg, as
Trustee of the Herman
R. Friedberg Revocable
Trust
James B. Kerr III Trust
U/W Agnes R Kerr
DTD 7/2/1977

James B. Kerr, III, as
Trustee of James B.
Kerr III Trust U/W
Agnes R Kerr DTD
7/2/1977
James C. Warren
James Dietz
James E. Pearson
James F. Hoge Jr.
James F. Kerr Jr.
James F. Kerr Jr. and
Nancy E. Kerr
James H. Eckhouse, as
Trustee of #502 U/W/O
Minnette R. Eckhouse
Trust
James King
James King and Judie
King
James L. Lockwood, Jr.
James M. Lachey
James Mateja
James Rothermel
James Rothermel and
Mary Rothermel
James T. Smith, as a
Trustee of the Trust by
James T. Smith U/A
DTD 10/09/1995
James Thomas Wirth
James Thomas Wirth
and Eileen Marie
Wirth
James Zerwekh

212a
Jamie A. Simins
Jane B. White Trust UA
10/17/02
Jane B. White, as
Trustee of the Jane B.
White Trust UA
10/17/02
Janet U. Embury Chln
Tr Grace FD
Janet U. Embury, Chln
Tr J Ley FD
Janice Williams
Barnard, as Trustee of
the Trust for the
Benefit of John F.
Barnard UAD 4/4/03
Janna L. Gadden
Janney Montgomery
Scott LLC
Janus Capital Group
Jason P. Smith
Javad Rassouli
Jay Goldman & Co., LP
Jay Goldman Master LP
Jean Cheloni
Jean Curry Glassell,
Acting Trustee and
Beneficiary of the
Alfred C. Glassell Jr.
Children’s Trust for
Jean Curry Glassell
Jean F. Bell
Jean Samos

Jean Shaulis Black, as
Trustee of the Jean S.
Black Trust
Jeanette M. Duggan
Jeanne Caplice, as a
Trustee of the William
Caplice Revocable
Trust
Jefferies & Company,
Inc.
Jefferson R. Solender
Jeffrey C. Neal
Jeffrey Chandler, as
Trustee of Chandler
Trust No. 1
Jeffrey Chandler, as
Trustee of Chandler
Trust No. 2
Jeffrey J. Appleby, as
Trustee of the
Christopher J. Appleby
Trust U/A DTD
12/13/89
Jeffrey J. Appleby, as
Trustee of the Felicity
J. Appleby Trust U/A
DTD 12/13/89
Jeffrey J. Appleby, as
Trustee of the James
F. Polk Trust U/A DTD
12/13/89
Jeffrey Risley
Jeffrey Schatz
Jenifer B. McIntosh

213a
Jennifer G. Hines
Jennifer Gross, as
Trustee of the Martha
Gross Living Trust
U/A/D 04/14/1996
Jerome & Maria
Markowitz JTWROS
Jerome Blank, as
Trustee of the Jerome
Blank Declaration of
Trust
Jerome Kahn, as
Trustee of the Jerome
Kahn Jr. Revocable
Trust DTD 10/16/87
Jerome M. Wells
Jerome Markowitz
Jerome P. and Melanie
M. Martin
Jerome P. Martin
Jerry J. Wolfe
Jerry Lower
Jesse Lloyd Guma
Irrevocable Trust U/A
DTD 7-5-96
Jesse Werthman
Jessie Ball Dupont Fund
Jessnick Partners LP
JHF II Equity-Income
Fund
JHF II Spectrum Income
Fund
JHT 500 Index Trust B,
John Doe, as Owner of

JHT 500 Index Trust,
John Doe as Owner of
JHT Equity Income
Trust, John Doe, as
Owner of
JHT Mid Value Trust,
John Doe, as Owner of
JHT New Income Trust
JHT Total Stock Market
Index Trust, John Doe,
as Owner of
Jianshi Mao
Jill Devaney
Jill E. Berube, as
Trustee of #502 U/W/O
Minnette R. Eckhouse
Trust
Jill E. Eckhouse, as
Trustee of #502 U/W/O
Minnette R. Eckhouse
Trust
Jim Hicks & Co.
Employee ProfitSharing Plan
Jim Hicks, as Trustee of
the Jim Hicks & Co.
Employee ProfitSharing Plan
Jim Roche
Joan E. Clark
Joan Ellis Van Loan
Joan H. Creighton
Joan L. Gilkison,
Administrator CTA

214a
Estate of Robert C.
Gilkison
Joan S. Freehling, as
Trustee of the Ruth
Stein Discretionary
Trust for Joan UAD
1/2/80
Joanna Sturm
Joanne Desherow
Sanger, as Trustee of
the U/A DTA 03/29/04
Joanne Desherow
Sanger Living Trust
Joe Frank
Joe Youssry Kelada
John B. Diamond
Declaration of Trust
dated April 15, 2010
John B. Lloyd Jr., as
Trustee of the John B.
Lloyd Jr. Revocable
Trust
John Bird Lloyd Jr., as
Trustee of the Madge
A.L. Macneil 1988
Family Trust
John Cheloni
John Cheloni and Jean
Cheloni
John D. & Catherine T.
Macarthur Foundation
John D. Lane Revocable
Trust U/A DTD 9/19/96

John Deere Pension
Trust
John Doe, as
Administrator of
Bakery, Confectionery,
Tobacco Workers &
Grain Millers
International Pension
Fund
John Doe, as
Administrator of
Central Pension Fund
John Doe, as
Administrator of
Evangelical Lutheran
Church in America
Board of Pensions
John Doe, as
Administrator of
Hearst Equity
Appreciation Plan
John Doe, as
Administrator of IBEW
Local 25 Retirement
Funds Master Trust
John Doe, as
Administrator of
Laborers District
Council & Contractors
Pension FD of Ohio
John Doe, as
Administrator of MidAtlantic Regional

215a
Council of Carpenters
Pension Plan
John Doe, as
Administrator of New
York City District
Council of Carpenters
Pension Fund
John Doe, as
Administrator of New
York City District
Council of Carpenters
Welfare Fund
John Doe, as
Administrator of
OneBeacon Insurance
Savings Plan
John Doe, as
Administrator of
OneBeacon Insurance
Savings Plan – Equity
401k
John Doe, as
Administrator of
OneBeacon Insurance
Savings Plan – Fully
Managed
John Doe, as
Administrator of
Ontario Pension Board
John Doe, as
Administrator of the
Building Trades
United Pension Trust
Fund

John Doe, as
Administrator of the
City of Daytona Police
and Fire Pension
John Doe, as
Administrator of the
IBEW Local 98
Pension Plan Mv
John Doe, as
Administrator of the
International
Brotherhood of
Electrical Workers
Pension Benefit Fund
John Doe, as
Administrator of the
Teamsters Joint
Council No. 83 of
Virginia Pension Fund
John Doe, as
Administrator of the
Virginia College
Savings Plan
John Doe, as
Administrator of the
Virginia Retirement
System
John Doe, as
Administrator of the
Waterman
Broadcasting Corp
Employee Profit
Sharing Plan U/A
01/01/1974

216a
John Doe, as
Administrator of Tre
Pension EFT Account
Pension Payment
System
John Doe, as
Administrator of
Waterman
Broadcasting Corp.
Employee Profit
Sharing Plan U/A
01/01/1974
John Doe, as Beneficiary
and/or Distributee of
Kurt Adler Estate
John Doe, as custodian
of the Bradley A. Long
Traditional IRA
John Doe, as custodian
of the Darrell F.
Kuenzel IRA
John Doe, as custodian
of the Dennis J. Layne
Rollover IRA
John Doe, as custodian
of the Helen K. Dohm
IRA
John Doe, as custodian
of the Howard Resnick
IRA
John Doe, as custodian
of the Jerome M. Wells
IRA

John Doe, as custodian
of the John R. Loftus
IRA
John Doe, as owner of C.
Boynton Index 500
Portfolio
John Doe, as owner of
Dennis Eugene De
Haas Tod
John Doe, as owner of
Imperial U.S. Equity
Pool
John Doe, as owner of
Margaret T.M. Jones
Cp & Co. AC
John Doe, as Owner of
Ohio National
Strategic Value
Portfolio
John Doe, as Owner of
Ohio Natl Fund, Inc.
Strategic Value
Portfolio
John Doe, as Owner of
SSBT Omnibus
Account
John Doe, as Owner of
SSGA Russell 1000
Value SL Fund
John Doe, as Owner of
SSGA S&P 500
Flagship Fund
John Doe, as Owner of
State Street Bank &

217a
Trust Co./IBT–Account
#2
John Doe, as Owner of
State Street Bank &
Trust Company - S&P
500 Tobacco Free
Index CTF
John Doe, as Owner of
State Street Global
Advisors, Inc.
Confidential Client
Account
John Doe, as Owner of
State Street Global
Advisors, Inc. S&P 500
Index CTF
John Doe, as Owner of
the Northwestern
Mutual Series Fund
Inc. Equity Income
Portfolio
John Doe, as Owner of
the Northwestern
Mutual Series Fund
Inc. Index 500 Portfolio
John Doe, as Owner of
the Northwestern
Mutual Series Fund
Inc. Small Cap Value
Portfolio
John Doe, as Owner of
TMS/ITS SETT A/C for
05602646

John Doe, as Owner of
TMS/ITS Settlement
Account for Agoralogos
John Doe, as Owner of
TMS/ITS Settlement
Account for HFF I LLC
John Doe, as Successor
Trustee of Himan
Brown Revocable Trust
John Doe, as Trustee for
R.E. Ginna Nuclear
Power Plant LLC
Master
Decommissioning
Trust
John Doe, as Trustee for
R.E. Ginna Qualified
Decommissioning
Trust
John Doe, as Trustee of
3M Employees Welfare
Benefits Association
Trust I
John Doe, as Trustee of
Archdiocese of New
York Master Trust
John Doe, as Trustee of
Armstrong World
Industries, Inc.
Retirement Master
Trust
John Doe, as Trustee of
Avery Dennison

218a
Corporation Master
Retirement Trust
John Doe, as Trustee of
Bethesda
Nonretirement Assets
Master Trust
John Doe, as Trustee of
BNY Mellon Trust of
Delaware
John Doe, as Trustee of
CBS Master Trust
John Doe, as Trustee of
EFH Retirement Plan
Master Trust
John Doe, as Trustee of
Emanuel E. Geduld
2005 Family Trust
John Doe, as Trustee of
Employee Retirement
Income Plan Trust of
Minnesota Mining &
Manufacturing Co
John Doe, as Trustee of
General Motors
Hourly-Rate Employee
Pension Trust
(Gmhrep Trust)
John Doe, as Trustee of
IBEW Local 103 Trust
Fund
John Doe, as Trustee of
IM Margaret K. Crane
Trust

John Doe, as Trustee of
JHT New Income
Trust
John Doe, as Trustee of
Kaman Corp. Mas
Trust-LSV
John Doe, as Trustee of
L3 Communications
Corporation Master
Trust
John Doe, as Trustee of
Marshfield Clinic
Master Trust
John Doe, as Trustee of
National Railroad
Investment Trust
John Doe, as Trustee of
National Railroad
Retirement Investment
Trust
John Doe, as Trustee of
NSP-Monticello
Minnesota Retail
Qualified Trust
John Doe, as Trustee of
SEI Institutional
Investments Trust
John Doe, as Trustee of
SEI Institutional
Managed Trust
John Doe, as Trustee of
TD Emerald Hedged
U.S. Equity Pooled
Fund Trust

219a
John Doe, as Trustee of
the Alaska Large-Cap
Trust
John Doe, as Trustee of
the Alberta W.
Chandler Marital
Trust No. 2
John Doe, as Trustee of
the Alberta W.
Chandler Marital
Trust UAD 06/26/35
John Doe, as Trustee of
the Alvin Baum Jr.
1966 Trust
John Doe, as Trustee of
the Andrew J.
McKenna Trust
John Doe, as Trustee of
the Barbara Clements
Heller Revocable Trust
DTD 3/22/01
John Doe, as Trustee of
the Barbara M.
Osborne Interim Trust
DTD 2/7/02
John Doe, as Trustee of
the Bethesda Hospital
Master Trust
John Doe, as Trustee of
the Blackburn Trust
John Doe, as Trustee of
the Blandina Rojek
Charitable Lead Trust

John Doe, as Trustee of
the Caterpillar
Investment Trust
John Doe, as Trustee of
the Caterpillar, Inc.
Group Insurance
Master Trust
John Doe, as Trustee of
the Caterpillar, Inc.
Retirement Master
Trust
John Doe, as Trustee of
the Catholic United
Investment Trust
John Doe, as Trustee of
the Chemtura
Corporation Master
Retirement Trust
John Doe, as Trustee of
the Deere & Company
Welfare Benefit Trust
#1
John Doe, as Trustee of
the Dominion
Resources, Inc. Defined
Benefit Master Trust
John Doe, as Trustee of
the Dorothy B.
Chandler Marital
Trust No. 2 UAD
06/26/35
John Doe, as Trustee of
the Dorothy B.

220a
Chandler Residuary
Trust
John Doe, as Trustee of
the Dorothy B.
Chandler Residuary
Trust No. 2
John Doe, as Trustee of
the Duke Energy
Corporation Master
Decommissioning
Trust
John Doe, as Trustee of
the Duke Power
Company NonQualified Equity
Nuclear
Decommissioning
Trust
John Doe, as Trustee of
the Earl E. Crowe
Trust No. 2 UAD
06/26/35
John Doe, as Trustee of
the Electrolux Home
Products, Inc. Master
Trust
John Doe, as Trustee of
the Equity Investment
Fund Pooled Trust
John Doe, as Trustee of
the Garland
Foundation Trust No.
2

John Doe, as Trustee of
the Helen Garland
Trust No. 2 FBO
Gwedolyn Garland
Babcock UAD 06/26/35
John Doe, as Trustee of
the Helen Garland
Trust No. 2 FBO
Hillary Duque Garland
John Doe, as Trustee of
the Helen Garland
Trust No. 2 FBO
William M. Garland III
UAD 06/26/35
John Doe, as Trustee of
the HFR RVA
Whitebox Master Trust
(f/k/a HFR RVA
Combined Master
Trust)
John Doe, as Trustee of
the HOC GST Exempt
Trust No. 2 FBO Eliza
Haskins UAD 06/26/35
John Doe, as Trustee of
the HOC GST Exempt
Trust No. 2 FBO John
Haskins
John Doe, as Trustee of
the HOC GST Exempt
Trust No. 2 FBO Scott
Haskins
John Doe, as Trustee of
the HOC Trust No. 2

221a
FBO Eliza Haskins
UAD 06/26/35
John Doe, as Trustee of
the HOC Trust No. 2
FBO John Haskins
UAD 06/26/35
John Doe, as Trustee of
the HOC Trust No. 2
FBO Scott Haskins
UAD 06/26/35
John Doe, as Trustee of
the Hon. Harry F.
Byrd Revocable Trust
U/A DTD 1/25/82
John Doe, as Trustee of
the J. McWethy Trust
John Doe, as Trustee of
the Jacksonville Police
& Fire Pension Board
of Trustees Trust
John Doe, as Trustee of
the John D. Lane
Revocable Trust U/A
DTD 9/19/96
John Doe, as Trustee of
the John W. Stewart
1966 Trust FBO C.
Phelps
John Doe, as Trustee of
the Kaiser Permanente
Rabbi Trust
John Doe, as Trustee of
the Lee U. Gillespie
Revocable Trust

John Doe, as Trustee of
the Lsv Enhanced
Index Core Equity
Trust
John Doe, as Trustee of
the Marian Otis
Chandler Trust No. 2
John Doe, as Trustee of
the Mary Sue Gatzert
Trust dated 9-29-95
John Doe, as Trustee of
the May C. Goodan
Trust No. 2
John Doe, as Trustee of
the MOC Chandler
Trust No. 1
John Doe, as Trustee of
the Nancy R. Spiegel
Rev Trust UAD
10/14/89
John Doe, as Trustee of
the NSP-Minnesota
Prairie I Retail
Qualified Trust
John Doe, as Trustee of
the NSP-Minnesota
Prairie II Retail
Qualified Trust
John Doe, as Trustee of
the Otto J. Koch Trust
U/A DTD Nov 18, 1992
John Doe, as Trustee of
the Patricia Crowe
Warren Residuary

222a
Trust No. 2 UAD
06/26/35
John Doe, as Trustee of
the Philip Chandler
Residuary Trust No. 2
UAD 06/26/35
John Doe, as Trustee of
the Pleasant T.
Rowland Revocable
Trust
John Doe, as Trustee of
the Qualified CPUC
Decom Master Trust
John Doe, as Trustee of
the Robert & Mildred
Harris Trust
John Doe, as Trustee of
the Ruth C. Von Platen
Trust No. 2
John Doe, as Trustee of
the Scripps Family
Revocable Trust
John Doe, as Trustee of
the SDG&E Qualified
Nuclear
Decommissioning
Trust
John Doe, as Trustee of
the Stanton R. Cook
Charitable Remainder
Trust
John Doe, as Trustee of
the State Farm
Insurance Companies

Employee Retirement
Trust
John Doe, as Trustee of
the State Farm
Variable Product Trust
(Large Cap Equity
Index Fund)
John Doe, as Trustee of
the Terrill F. Cox &
Lorraine M. Cox Trust
U/A DTD 3/31/98
John Doe, as Trustee of
the Trust by Walter K.
Graham for the Benefit
of Anne G. Taylor U/A
DTD 10/16/2000
John Doe, as Trustee of
the Victor Grossi Trust
UA DTD 05/08/98 FBO
Victor Grossi
John Doe, as Trustee of
the Wellspan Health
Master Trust
John Doe, as Trustee of
the Ziegler Family
Trust A
John Doe, as Trustee of
Umwa 1974 Pension
Trust
John Does 1-10, as
Trustees of National
Automatic Sprinkler
Industry Pension Fund

223a
John E. Mayasich, as
Trustee of John E
Mayasich Trust U/A
DTD 04/23/2007
John F. Barnard,
individually and as
Trustee of the Trust
for the benefit of John
F. Barnard UAD 4/4/03
John F. Llewellyn Living
Trust
John F. Llewellyn, as
Trustee of the John F.
Llewellyn Living Trust
John F. Mangan, Jr.
John F. Splain, as
Trustee of the
Hussman Investment
Trust
John G. Kologi
John Hancock Financial
Services, Inc.
John Hancock Funds II
John Hancock Funds II
(Equity-Income Fund)
John Hancock Funds II
(Spectrum Income
Fund)
John Hancock Variable
Insurance Trust
John Hancock Variable
Insurance Trust (f/k/a
John Hancock Trust
(New Income Trust))

John Haskins
John Healey, as Trustee
of the Grace Trust
John J. and Rosemary
Wagner JTWROS
John J. McDermott
John M. Altman, as
Trustee FBO the John
& Betty Altman
Family Trust UAD
05/16/86
John Mason Sanford
John Mullooly
John Nesbit Rees and
Sarah Henne Rees
Charitable Foundation
John Pritzker
John R. Black
John R. Flanagan
John R. Flanagan, as an
individual and as a
CGM IRA custodian
John R. Loftus
John R. McManus
John R. Staib
John Spears
John T. O’Loughlin
John T. Risley
John T. Risley, as
Trustee of the Trust
Under an Agreement
Dated December 19,
1977 Between Virginia
S. Risley, as Settlor,

224a
and William H. Risley
and United States
Trust Company of New
York, as Trustees
John W. Madigan, as a
Trustee of the John W.
Madigan Trust U/A
DTD 05/15/1998
John W. Stewart 1966
Trust FBO C. Phelps
John W. Stewart II, as
Trustee of the John
Stewart Property
Trust
Joint Board of Trustees
of the Southwest
Carpenters Pension
Trust, as
Administrator of the
Southwest Carpenters
Pension Trust
Jon R. Lind
Jonathan A. Knee
Jonathan Gary Keith
Jonathan Kovler
Jonathan Osborne,
Acting Trustee of the
Barbara M. Osborne
Trust U/I/T DTD 2/7/05
Jonathan Tillman, as
Trustee of the Tillman
Family Trust U/A
07/29/1980
Joseph A. Young

Joseph B. Mohn, as
Trustee of the J&M
Trust UA dated
07/23/1992
Joseph C. Linnen
Joseph M. Fee, as
Trustee of the Joseph
M. Fee & Elizabeth
Fee Revocable Living
Trust
Joshua Tree Capital
Management LP
Joy Leichenger, as
Trustee of the Joy
Leichenger Trust
JP Morgan Chase Bank,
N.A., Trustee, the
Boeing Company
Employee Retirement
Plan
JPMorgan Chase Bank,
National Association
as Trustee of the
Jpmorgan Chase
401(k) Savings Plan
JPMorgan Chase
Funding Inc. f/k/a J. P.
Morgan Ventures
Corp.
Judd S Alexander
Foundation Inc.
Judie King
Judith Blazer, as
Trustee of the Judith

225a
E. Blazer Living Trust
U/A/D 10/21/96
Judith E. Blazer Living
Trust U/A/D 10/21/96
Judith E. Neisser, as
Trustee of the David E.
Neisser Irrevocable
Trust dated 8-14-83
Judy C. Webb, as
Trustee of Chandler
Trust No. 1
Judy C. Webb, as
Trustee of Chandler
Trust No. 2
Julia K. Rosenwald
Julia Neitzert Trust
Julia Neitzert, as
Trustee of the Julia
Neitzert Trust
Julio Arriaga
Jung E. Lee
Jupiter Capital Partners
LLC
Jupiter Medical Center
Foundation Permanent
Endowment General
Fund
Jupiter Medical Center
Foundation, as
Administrator of the
Jupiter Medical Center
Foundation Permanent
Endowment General
Fund

JYG Limited
Partnership #2 G‐Bar
Kaiser Foundation
Health Plan, Inc.
Kaiser Foundation
Health Plans and
Hospital
Kaiser Permanente
Rabbi Trust
Kaman Corporation
Kaman Corporation Mas
Trust-LSV
Karen Babcock and
Phillip S. Babcock
Karen E. Dalton, as
Trustee of the
10/03/2007 Dalton
Trust
Karen Hammond, as
Trustee of the
Hammond Family
Trust U/A/D 02/11/88
Karl Putnam
Katherine T. Goldberg
Kathleen B. Flynn, as
Trustee of Declaration
of Bell Family Trust
Meadowbrook Equity
Fund UA 12/1/86
Kathleen B. Flynn, as
Trustee of Declaration
of Bell Family Trust
UA 12/1/86
Kathleen M. Ringel

226a
Kathleen Maloney
Kathryn Vorisek, as a
Trustee of Fiduciary
Mgt. Assoc. LLC 401k
FBO Robert Wesley
Thornburgh
Kathy Kuzmich
Kathy Rex Hundley
Kathy Rex Hundley and
Thomas W. Hundley
Kathy Spinato
Kay Walsh, as Trustee
of #502 U/W/O
Minnette R. Eckhouse
Trust
KBR Employee Benefit
Master Trust
Keith Matthews
Kellogg Brown & Root,
Inc.
Kellogg Capital Markets
LLC
Kenneth Cahn
Kenneth Cahn, as
Trustee of the Dorothy
Cahn Trust UA
07/03/1981
Kenneth E. Nichols
Kenneth J. Vydra, as a
Trustee of the Kenneth
J. Vydra Trust No. 101
U/A/D 03-10-2006
Kenneth Puglisi
Kenneth R. Posner

Kenneth R. Posner and
Arlene L. Posner
Kenneth Weiss
Kevin D O’Brien Trust
DTD 8-18-03
Kevin D. O’Brien, as
Trustee of the Kevin D
O’Brien Trust DTD 818-03
Kevin D. O’Brien, as
Trustee of the Sarah A.
O’Brien Trust DTD 818-03
Kevin L. Ringel
Kevin L. Ringel and
Kathleeen M. Ringel
Kevin Stone
Kiener LP
Kimberly Brumback
Kimberly Rizzo
Kimberly Schatz
Kirsten Konrad
Krystyna Jurzykowski
Kurt Adler Estate
L. Dean Davenport
L. Michael Schmitt
L.D.C.C.
L3 Communications
Corporation Master
Trust
Laborers District
Council & Contractors
Pension FD of Ohio

227a
Laborers National
Pension Fund
Labranche & Co. LLC
Labranche Structured
Products LLC
Lacera
Lakonishok Corp
Langdon Street Capital,
L.P.
Large Cap Equity Index
Fund
Larry L. Bloom, as a
Trustee of the Larry L.
Bloom Trust 11-21-95
Lasers
Latigo Master Fund Ltd.
Latigo Partners LP
Lauren F. Absler
Laurie H. Weaver, as
Trustee of the Helen
Grossman Trust dated
09/08/99
Laurie Mitchell, as
Trustee of the
Woods/Mitchell Family
Trust
Lawrence B.
Buttenwieser, Esq., as
Trustee of the Helen
Buttenwieser Trust
7/28/38
Lawrence F. Klima
Lawrence M. Pucci
Lawrence Smith

Lee U. Gillespie
Revocable Trust
Legacy Trust Company,
N.A., Acting Trustee of
the Alfred C. Glassell
Jr. Children’s Trust for
Emily Evans Embrey
Legg Mason
Batterymarch
Financial Management
S&P 500 Index Fund, a
Series of the Legg
Mason Partners Equity
Trust
Legg Mason Partners
Lenox Hill Hospital
Leonard F. Hill, as
Trustee of the Hill
Revocable Living Trust
DTD 12/24/91
Leroy Davis, as Trustee
of the Jessie Ball
Dupont Fund
LFT Partnership
Liberty Financial
Services, Inc.
Liberty Harbor Master
Fund I, LP
Liberty Mutual Life
Insurance Company
Lidia Horvath
Lightning Trading LLC
Linda Axelson
Linda Eigner

228a
Linda Molenda
Linnet F. Myers
Lisa A. Schuster, as
Executor of the
Beverly A. Perry
Estate
Lisa M. Featherer
Lisa M. Featherer Trust
U/A/D June 12, 1992
Lisa M. Featherer, as
Trustee of the Lisa M.
Featherer Trust U/A/D
June 12, 1992
Lisa Pritzker
Lloyd Wendt
Local 102 Pension/No
TR Val Im
Local 134 Pension Plan
No. 5 S&P 500 Fund
Local 134 S&P 500
Index Fund
Locals 302 and 612 of
the International
Union of Operating
Engineers–Employers
Construction Industry
and Michael Parmalee
Welfare and Pension
Administration
Locals 302 of the
International Union of
Operating Engineers
Construction Industry
Retirement Fund

Locals 612 of the
International Union of
Operating Engineers
Construction Industry
Retirement Fund
Lockheed Martin
Corporation
Lockwood Brothers, Inc.
Loeb Arbitrage B Fund
LP
Loeb Arbitrage Fund
Loeb Arbitrage
Management LP
Loeb Offshore B Fund,
Ltd.
Loeb Offshore Fund,
Ltd.
Loeb Partners
Corporation
Lois D. Kaliebe, as a
Trustee of the Trust by
Mrs. Lois D. Kaliebe
U/A DTD 03/05/1993
Loisanne R. Flaherty, as
Trustee of the
Loisanne R. Flaherty
Trust U/A DTD
09/23/2004
Lola Lloyd Horwitz, as
Trustee of the Marni
Horwitz Trust Dated
January 22, 1998
Lombardi & Co., Inc.

229a
Loomis Sayles Credit
Alpha Fund
Loretta C. Finlay, as a
Trustee of the Loretta
C. Finlay Trust
Lori Ann Talarico
Lori Banner Kupferberg
Los Angeles City
Employees’ Retirement
System
Lou Ann Murphy
Louis G. Gilbert
Louise Rosenberg, as
Trustee of the
Rosenberg Revocable
Trust
LP MA1 Ltd.
LPL Financial LLC
LSV Enhanced Index
Core Equity Trust
LSV US Large Cap
Long/Short Fund LP
LSV Value Equity Fund
Luanne G. Joys, as
Trustee of the
Sargeant & Luann
Joys Living Trust
Lucent Technologies,
Inc. Master Pension
Trust
Lucile M. Dunn, as
Trustee of the Lucile
McVey Dunn Trust
U/A DTD 12/19/91

Lutheran Brotherhood
Lynda M. Freedman
Lynn Ann Sharpe,
individually and as
Trustee of the Alpheus
L. Ellis 1993
Grandchildren’s Trust
FBO Lynn Ann Sharpe
Lynn R. Wolfson Trust
Lynn R. Wolfson, as
Trustee of the Lynn R.
Wolfson Trust
Lynne Shotwell, as
Trustee of the Elmer
H. Wavering Family
Trust dated 06/24/1977
as Amended
Lyondell Petrochemical
Corporation Defined
Benefit
Lyra Capital LLC
Lyxor Alphadyne, SPC
(f/k/a Lyxor Starway,
SPC f/k/a Sgam AI
Starway, SPC)
Lyxor/Black Diamond
Arbitrage Fund
Limited
Lyxor/Canyon Value
Realization Fund
Limited
M&J Investment Group
L.P.

230a
M&T Bank (f/k/a
Manufacturers &
Traders Trust Co.)
M&T Bank Vision Mid
Cap Stock Fund
M&T Bank, as Trustee
of the W. Milton Jr.
Trust under Will for
the Benefit of Anna
Livingstone
M. Joyce as Trustee of
the Sara Joyce Trust
U/A DTD 12/7/2005
M. Safra & Co., Inc.
Madge A. L. Macneil
Trust
Madge A. L. Macneil, as
Trustee of the Madge
A. L. Macneil Trust
Madge A.L. Macneil
Madison Proprietary
Trading Group LLC
Madison Square
Investors US LargeCap Core 130/30
Collective Fund f/k/a
NYLIM US Large-Cap
Core 130/30 Collective
Fund
Madison Square LargeCap Enhanced Index
Fund LP (f/k/a NYLIM
Large-Cap Enhanced
Index Fund LP a/k/a

NYLIM–QS Large Cap
Enhanced Fund LP)
Madison Street Fund LP
Magnetar Capital LLC
Magnetar Financial LLC
Malcolm McConnell
Managed Pension Funds
Limited (MFS Funds
(UK))
Manulife Asset
Management (US) LLC
Manulife Invst Ex Fds
Corp.–Mix
Manulife Mutual Funds
Manulife U.S. Equity
Fund
Margaret Durkin
Margaret K. Crane
Margaret L. Sindelar
Margaret Mangano, as
Trustee of the Frank J.
Mangano GST NonTax Exempt Trust U/A
Dated 6/22/94
Margaret Meister
Margaret Meister and
John Doe Meister, a
Washington Marital
Community
Margaret R. Coniglio, as
Trustee of the Trust by
Margaret R. Coniglio
U/A DTD 08/22/1989
Margaret T.M. Jones

231a
Margaret T.M. Jones CP
& Co. AC
Margaret U. Miller, as
Trustee of the Miller
Family Trust
Marguerite Payne Trust
Dated 6/7/61 FBO
Virginia K. Townley
Maria Markowitz
Marian Otis Chandler
Trust No. 2
Marie Macchiaroli, as
Trustee of the Carmine
Macchiaroli Living
Trust U/A 07/01/88
Marilyn M. Matheson,
as Trustee of the
Faulkner Family Trust
UA DTD 8/29/1989
Marilyn R. Diamond
Trust dated 11-11-88
Marilyn Rapkin
Mario J. Gabelli
Marissa Rudman
Marjorie B. David
Marjorie B. David, as an
individual and as a
CGM IRA Rollover
Custodian
Marjorie Rozman and
Nanette Rosenberg,
Trustees U/A Dated
10/08/82 by Aliza Leah
Rozman

Marjorie Rozman, as
Trustee of the
Rappaport Family
Trust U/A DTD
06/04/1992
Marjorie Rozman, as
Trustee of the Trust
U/A DTD 02/23/1981
by Michael Rosenberg
Marjorie Rozman, as
Trustee of the Trust
U/A DTD 11/02/1977
by Robert Rosenberg
Mark A. Hughes
Mark Allen Itkin, as
Trustee of the Mark A.
Itkin Trust
Mark C. Landry
Mark Domas
Mark I. Seiden
Mark J. Metzner
Mark J. Metzner, as a
custodian of the
Metzner Family
Foundation 1M-579
Mark R. Pattis, as
Trustee of the Mark R.
Pattis Revocable Trust
Mark R. Pattis, as
Trustee of the Next
Chapter Holdings
Mark R. Pattis
Revocable Trust UAD
07/30/04

232a
Mark S. Lies
Mark Stranahan
Mark W. Madigan
Mark W. Madigan and
Stephanie Madigan
Market Street Securities
Marlowe G. Merkel, as
Trustee of the Alfred
W. Merkel Marlowe G.
Merkel Trust UA 11
Sep 85
Marni Horwitz Trust
Dated January 22,
1998
Marni Norris Lloyd
Horwitz, as Trustee of
the Marni Horwitz
Trust Dated January
22, 1998
Marshall & Ilsley Trust
Co.
Marshfield Clinic
Master Trust
Martha A. Bell, as
Trustee of Declaration
of Bell Family Trust
UA 12/1/86
Martha Bell, as Trustee
of Declaration of Bell
Family Trust
Meadowbrook Equity
Fund UA 12/1/86
Martha D. Donahue

Martha Gross, as
Trustee of the Martha
Gross Living Trust
U/A/D 04/14/1996
Mary Anne Vydra, as a
Trustee of the Trust
for the Benefit of Mary
Anne Vydra U/A/D 0310-2006
Mary B. Schwab, as
Trustee of the Schwab
Trust A Charitable
U/A DTD 05/23/1995
Mary E. Day
Mary F. Brown
Mary H. Cooper
Mary Huntley, as
Trustee of the Jessie
Ball Dupont Fund
Mary J. Bloom, as a
Trustee of the Mary J
Bloom Trust 11-21-95
Mary Jo Osterman,
individually and as
Trustee of the Trust by
Mary Jo Osterman
U/A/D 04/04/91 FBO
Mary Jo Osterman
Mary K. Lawler, as a
Trustee of the Trust by
Mary K. Lawler U/A
DTD 06/18/1996
Mary K. Monopoli

233a
Mary Kathleen
McNulty, individually
and as personal
representative of the
Estate of Wayne F.
McNulty
Mary Lou Ricotta
Mary Neville Hankey
Mary Phillips, as
Trustee of the Jessie
Ball Dupont Fund
Mary R. McDermott
Mary Rothermel
Mary Sue Gatzert Trust
dated 9-29-95
Mary Therese Murphy
MassMutual Premier
Enhanced Index Value
Fund
MassMutual Premier
Funds
MassMutual Premier
Main Street Small/Mid
Cap Fund
MassMutual Premier
Small Company
Opportunities Fund
MassMutual Select
Diversified Value Fund
MassMutual Select
Funds
MassMutual Select
Indexed Equity Fund

Master Fund, SPC –
Madison Street
Master Investment
Portfolio (S&P 500
Stock Master Portfolio)
Mathodam Ranjit
Matthew Bender IV
Matthew Halbower
Matthews, Rondra and
Keith Matthews
JTWROS
Max S. Bell
Max S. Bell and Jean F.
Bell
Maxim Foreign Equity
Portfolio
Maxim Series Fund Inc.
May C. Goodan Trust
No. 2
MB Financial Bank,
National Association
M-B Paul Harvey
Aurandt Trust UA
11/13/90
MC Investment Partners
LLC
McConnell Foundation
Medisend International
Mel L. Shultz and Beth
Jane Shultz, husband
and wife
Melissa Monson
Mellon Bank N.A.
Employee Benefit Plan

234a
Mellon Bank N.A.
Employees Benefit
Collective Investment
Plan
Mercer Funds f/k/a MGI
Funds (MGI Us
Small/Mid Cap Value
Equity Fund)
Merrill Lynch Financial
Markets, Inc.
Merrill Lynch Pierce
Fenner & Smith
Merrill Lynch Pierce
Fenner & Smith, as
Custodian of the
James Mateja IRA
Merrill Lynch Trust
Company, a Division of
Bank of America, N.A.
Merrill Lynch Trust
Company, Trustee of
Mine Scribante Crut
Sanibel Captiva
Merrill Lynch, in its
individual and
custodial capacities
Merrill Lynch, Pierce,
Fenner & Smith Inc.
Merrill Lynch, Pierce,
Fenner & Smith Inc.,
as custodian of the
Anne S. Scheiermann
IRA

Merrill Lynch, Pierce,
Fenner & Smith Inc.,
as custodian of the
Charles R. Baugh IRA
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated as
Successor to Banc of
America Securities
LLC
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated, as
Custodian of the
Alexander Solon IRRA
FBO Alexander Solon
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated,
Custodian, and Milan
E. Chilla, Beneficiary,
Milan E. Chilla IRA
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated,
Custodian, and
Richard Moy,
Beneficiary, Richard
Moy IRA
Merrill Lynch, Pierce,
Fenner & Smith

235a
Incorporated,
Custodian, and Robert
D. Sparr, Beneficiary,
Robert D. Sparr IRRA
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated, in its
Individual and
Custodial Capacities
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated, in its
Individual and
Custodial Capacities
[Incl. Merrill Lynch
Professional Clearing
Corp.]
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated, Trustee,
and Stephen E Quast,
Beneficiary, Stephen E
Quast IRA 12/31/1995
Metropolitan Life
Insurance Co.
Metzner Family
Foundation 1M–579
Michael A. Silver
Michael Argirion, as
Trustee of the Michael
Argirion Revocable
Trust U/A DTD
11/13/96
Michael C. Donahue

Michael D. Schwaiger,
as Custodian of the
Batl Pn-Ntrs S&P
Michael E. Bee, as
Trustee of the Michael
E. Bee Trust UAD
10/20/2003
Michael Eigner
Michael G. Murphy
Michael G. Murphy and
Mary Therese Murphy
Michael Graff, as
Trustee of the Graff
Value & Fittings
Company Employees
Profit Sharing Plan &
Trust 2 UAD 6/30/85
Michael Hendrickson as
Administrator of the
Automotive Machinists
Pension Trust Fund
Michael J. Palumbo, as
Trustee of the Michael
J. Palumbo Revocable
Li Trust U/A DTD
11/29/1999
Michael K. Reilly, as
Trustee of the Michael
K. Reilly Trust U/A
DTD 09/25/1995
Michael Keiser
Michael Keiser, as
Trustee of the Michael
& Rosalind Keiser

236a
Charitable Trust U/A
DTD 12/30/90
Michael Loeb
Michael Plonski
Michael R. Quinlan, as a
Trustee of the Trust by
Michael R. Quinlan
U/A DTD 09/04/1979
Michael W. Dunaway, as
a Trustee of the FBO
Dunaway Family Trust
U/A/D 07-05-1991
Mid Atlantic Capital
Corp.
Mid-Atlantic Regional
Council of Carpenters
Pension Plan
Mike Eugene Abernethy
Miliken Stock Fund (7R)
Mill Shares Holdings
(Bermuda) Ltd.
Millenco LLC
Milton Partners LLC
Minnesota Life
Insurance Company
Minnesota State Board
of Investment
Miriam A. Pawel
Miriam Novick, as
Trustee of the Nathan
H. Perlman Trust B
DTD 12/17/68
Miriam Susan Zach

Mitchell Wolfson, Sr.
Foundation
ML Equity Index Trust
ML Index 500 V.I. Fund
ML Large Capitalization
IN
MML Blend Fund
MML Series Investment
Fund
MML Series Investment
Fund II
MOC Chandler Trust
No. 1
Monica K. Hinman
Monserrate Ramirez
Montpelier Reinsurance
Ltd
Monumental Life
Insurance Company
Monumental Life
Insurance Company
f/k/a Peoples Benefit
Life Insurance
Company
Monumental Life
Insurance Company,
as Owner of Teamsters
Separate Account
Morgan Stanley & Co.
International Plc f/k/a
Morgan Stanley & Co.
International Limited
Morgan Stanley & Co.
LLC f/k/a Morgan

237a
Stanley & Co. Inc., in
its individual and
custodial capacities
Morgan Stanley & Co.,
Inc. [LLC] as custodian
for Caxton Associates
LLC [n/k/a Caxton
Associates, LP]
Morgan Stanley & Co.,
Inc. [LLC] as custodian
for Tribeca
Investments LLC
Morgan Stanley d/b/a
Morgan Stanley Prime
Brokerage, in Its
custodial capacity
Morgan Stanley
Equally-Weighted S&P
500 Fund f/k/a Morgan
Stanley Value Added
Market Series
Morgan Stanley S&P
500 Index Fund
Morgan Stanley Smith
Barney LLC
Morgan, Keegan &
Company, Inc.
Mount Ararat Cemetery,
Inc.
Mr Violet and Mrs Leslie
Payne JTWROS
MTB Mid Cap Stock
Fund

Mubashir, Bashar A,
Individually and as
Beneficiary, Bashar A
Mubashir IRA Rollover
Multi-Strategy Greenock
Master Fund Ltd.
Museum of Fine Arts
Mutual of America
Investment Corp.
Myra Shulkes, as
Trustee of the Howard
Shulkes Residuary
Credit Trust U/A DTD
09/20/1991
Myrna Ramirez
Myrna Ramirez and
Monserrate Ramirez
Jtwros
Myron L. Hendrix
Nancy Crossman
Nancy E. Kerr
Nancy Fay Johnson
Nancy Kallenberger
Nancy L. Mac Donald, as
Trustee of the William
D. Mac Donald &
Nancy L. Mac Donald
Trust UA 7 21
Nancy R. Spiegel Rev
Trust UAD 10/14/89
Nancy Trohan Dollar
Nanette Rosenberg, as
Trustee of the
Rappaport Family

238a
Trust U/A DTD
06/04/1992
Nanette Rosenberg, as
Trustee of the Trust
U/A DTD 02/23/1981
by Michael Rosenberg
Nanette Rosenberg, as
Trustee of the Trust
U/A DTD 11/02/1977
by Robert Rosenberg
National Asbestos
Workers Pension Fund
National Automatic
Sprinkler Industry
Pension Fund
National Financial
Services LLC/Fidelity
Management Trust
Company, Custodian,
and Marlene F Slade,
Beneficiary, Marlene F
Slade Rollover IRA
National Railroad
Investment Trust
National Railroad
Retirement Investment
Trust
National Roofing
Industry Pension Fund
Nationwide Funds
Nationwide S&P 500
Index Fund
Natixis Financial
Products LLC f/k/a

Natixis Financial
Products Inc.
Natixis Funds Trust Ii
Natixis Securities
Americas LLC
(Successor-In-Interest
to Natixis Bleichroeder
LLC)
Neal Creighton
NECA-IBEW Pension
Trust Fund
Neckar Holdings LLC
Nedra Plonski
Neil J. Rowe
Neil J. Rowe and Carol
S. Rowe
Neisser Investment LP
Neuberger Berman, Inc.
New Americans LLC
New England Health
Care Employees
Pension Fund
New Jersey Health
Foundation
New York City Deferred
Compensation Plan
New York City District
Council of Carpenters
Pension Fund
New York City District
Council of Carpenters
Welfare Fund

239a
New York City
Employees Retirement
System
New York City Fire
Pension Fund
New York City
Firefighters’ Variable
Supplements Fund
New York City Police
Officers’ Variable
Supplements Fund
New York City Police
Pension Fund
New York Life
Insurance Co.
New York State
Insurance Fund
New York State
Teachers’ Retirement
System
Newedge USA LLC
Newedge USA LLC
Equity Clearing
Division
Next Chapter Holdings
LP
Nicholas G. Chantiles
Nicholas H. Werthman
Nicholas Hallack
Ninth Street Partners
Ltd.
Nomura International
Trust Co.

Nomura Securities
International, Inc.
Nondima Chicago Comm
Foundation FitzSimons
Norma B. Webb
Normandy Hill Master
Fund LP
Northern Assurance Co.
of America
Northern Funds
Northern Funds –
Enhanced Large Cap
Fund
Northern Funds – Large
Cap Value Fund
Northern Illinois Benefit
Funds
Northern Institutional
Fund Equity Index
Portfolio
Northern Institutional
Funds
Northern MultiManager Mid Cap
Fund
Northern States Power
Company–Minnesota
Northern Stock Index
Fund
Northern Trust CC
AFGT
Northern Trust CC EBT

240a
Northern Trust
Company
Northern Trust
Company, as
Custodian of Jon R.
Lind IRA Rollover
Northern Trust
Enhanced Large Cap
Fund
Northern Trust Global
Investment
Northern Trust
Investments, Inc. (f/k/a
Northern Trust
Investments, N.A.)
Northern Trust
Investments, Inc. f/k/a
Northern Trust
Investments, N.A.
Northern Trust Large
Cap Value Fund
Northern Trust Value
Investors, a Division of
Northern Trust
Investments, Inc. (f/k/a
Northern Trust
Investments, N.A.)
Northern Trust Value
Investors, a Division of
Northern Trust
Investments, Inc. f/k/a
Northern Trust
Investments, N.A.

Northshore University
Health System, as
Owner of the
Northshore University
Healthsystem Second
Century Fund
Northshore University
Healthsystem Second
Century Fund
Northwestern Mutual
Life Insurance
Company
Northwestern Mutual
Series Fund Inc.
Equity Income
Portfolio
Northwestern Mutual
Series Fund Inc. Index
500 Portfolio
Northwestern Mutual
Series Fund Inc. Small
Cap Value Portfolio
Northwestern Mutual
Series Fund, Inc.
NSP-Minnesota Prairie I
Retail Qualified Trust
NSP-Minnesota Prairie
II Retail Qualified
Trust
NSP-Monticello
Minnesota Retail
Qualified Trust

241a
NT Collective Russell
1000 Value Index Fund
– Lending
NT Collective S&P 500
Index Fund Lending
NT Collective S&P 500
Index Fund Non
Lending
NT Collective US
Marketcap Equity
Index Fund – Lending
NTCC Advisors Funds
for Employee Benefit
Trust
NTCC Channing Mid
Cap Value Afebt
NTCC Channing Mid
Cap Value Sudan Free
Fund Afebt
NTCC Lsv Mid Cap
Value Fund Afgt
NTGI-QM Collective
Daily Quant Index
Plus S&P500 Equity
Fund – Lending
NTGI-QM Collective
Daily S&P500
Citigroup/Value Equity
Index, Fund – Lending
NTGI-QM Collective
Daily S&P500 Special
Purpose Equity Index
Fund – Lending

NTGI-QM Collective
Daily Us Marketcap
Equity Special Purpose
Index Fund – Lending
NTGI-QM Common
Daily Labor Select
Russell 3000 Equity
Index Fund – Lending
NTGI-QM Common
Daily Russell 1000
Value Equity Index
Fund – Lending
NTGI-QM Common
Daily S&P 500 Equity
Index Fund – Lending
NTGI-QM Common
Daily S&P500 Equity
Index Fund – Non
Lending
NTGI-QM Common
Daily Us Marketcap
Equity Index Fund –
Lending
NTGI-QM Labor Select
Collective Daily
Russell 3000 Equity
Index Fund – Lending
Nuclear Electric
Insurance Limited
Nuveen Equity Index
Fund
Nuveen Equity Index
Fund (f/k/a First

242a
American Equity Index
Fund)
Nuveen Equity Index
Fund, Inc.
Nuveen Investment
Funds, Inc.
Nuveen Investments
LLC
NVIT S&P 500 Index
Fund
NYC District Council
Carpenters Pension
NYC District Council
Carpenters Welfare
Oakmont Management
Oddo & Cie as Successor
to Banque d’Orsay
Ofelia R Pecaro, as
Trustee of the Pecaro
Family Trust DTD
4/12/02
OFI Private
Investments, Inc.
OFIPI Main Street
Select Strategy
Ohio Carpenters’
Pension Fund
Ohio National Financial
Services
Ohio National Fund, Inc.
Ohio National Strategic
Value Portfolio

Ohio Natl Fund, Inc.
Strategic Value
Portfolio
Ohio Public Employees
Retirement System
Ohlson Enterprises
Olifant Fund Ltd.
Olivia Jean Williams,
Individually and as
Beneficiary of Olivia
Jean Williams IRA
Rollover and Olivia
Jean Williams IRA
Rollover DTD 12/19/97
Oma & Opa LLC
Omar F. Johnson Jr.
Omers Pension Fund
Omers/AACP Investors
II, L.P.
Omimex Investments
LLC
OneBeacon America
Insurance Co.
OneBeacon Insurance
Co.
OneBeacon Insurance
Company, as
Administrator of
OneBeacon Insurance
Pension Plan
OneBeacon Insurance
Pension Plan
OneBeacon Insurance
Savings Plan

243a
OneBeacon Insurance
Savings Plan – Equity
401k
OneBeacon Insurance
Savings Plan – Fully
Managed
Ontario Pension Board
Oppenheimer & Co., Inc.
Oppenheimer Main
Street Select Fund
(f/k/a Oppenheimer
Main Street
Opportunity Fund)
Oppenheimer Main
Street Small- & MidCap Fund (f/k/a
Oppenheimer Main
Street Small Cap
Fund)
Oppenheimer Variable
Account Funds (d/b/a
Oppenheimer Main
Street Small- & MidCap Fund/Va, f/k/a
Oppenheimer Main
Street Small Cap
Fund/Va)
OppenheimerFunds, Inc.
Opportunity Partners
LP
Option Opportunities
Company
OptionsXpress, Inc.

Otto J. Koch Trust U/A
DTD Nov 18, 1992
Palisades Partners LP
Pam Lindberg
Pandora Select Partners
LP
Paris Trading
Patience Humphrey
Patricia Crowe Warren
Residuary Trust No. 2
UAD 06/26/35
Patricia Goldenberg
Patricia H. Yeomans, as
Trustee of the
Yeomans Family Trust
U/A 2/22/92
Patricia I. Walsh
Patricia J. Fendley, as a
Trustee of the John P.
Fendley Trust U/A
DTD 11/27/1995
Patricia J. Shand
Patricia Kaszton, as
Trustee of the Kaszton
Family Trust UAD
10/23/97
Patricia L. Pierce
Patricia L. Pierce, as
Trustee of the O.C.
Smith & P.L. Pierce
Joint Revocable Living
Trust DTD 7/18/2005
Patricia Stern Ross, as
Trustee of the Eleanor

244a
Jackson Stern Trust
Dated 01/06/1971
Patricia Stern Ross, as
Trustee of the Russell
T. Stern Trust B
Patrick J. McGlinn
Paul C. Konrad
Paul C. Konrad and
Kirsten Konrad
Paul D. Goddard
Paul Harvey Aurandt, as
Trustee of the M-B
Paul Harvey Aurandt
Trust UA 11/13/90
Paul M. Mahoney, as a
Trustee of the Iris B.
Mahoney Revocable
Trust U/A/D 04/10/98
Paul M. Mahoney, as
Trustee of the Trust
for the Benefit of Paul
P. Mahoney DTD
12/28/1978
Paul P. Mahoney
Paul Pai
Paul Pai & Helena Pai
Joint Tenant
Paul R. Gerken
Paul Theodore
Hammond, as Trustee
of the Hammond
Family Trust U/A/D
02/11/88

Paul W. Dillon
Grandchildren’s Trust
Dated 12/6/41 FBO
Paul D. Goddard
Paula Miller Trienens
Trust Dated 9-18-91
Paula Solon
Pavers and Road
Builders District
Council Pension Fund,
by and Through Its
Board of Trustees
PCRG Fund I LLC
PCRG Fund II LLC
PCRG Fund III LLC
PCRG, Inc.
Pecaro, Timothy S. and
Susan S. Pecaro Jtwros
Pennsylvania General
Insurance Co.
Pennsylvania Municipal
Retirement System
Pension Benefit
Guaranty Corporation,
as Trustee of the
Hartmarx Retirement
Income Plan
Pension Commingle
Fund
Pension Fund
Association for Local
Government officials
Pension Fund of the
Christian Church

245a
(Disciples of Christ),
Inc.
Pension Reserves
Investment
Management Board
Pension Reserves
Investment
Management Board, as
Trustee of Pension
Reserves Investment
Trust Fund
Pension Reserves
Investment Trust
Fund
Pension Trust Fund
Local Union #27
Penson Financial
Services Centurion
115179192
Penson Financial
Services Centurion
115180082
Penson Financial
Services Crawford
Penson Financial
Services Mushin Tra
Penson Financial
Services Opus Bbx
Penson Financial
Services Sano Inves
Penson Financial
Services Spectrum T
Penson Financial
Services Track Data

Penson Financial
Services, Inc.
Pentwater Credit
Partners Fund Ltd.
Pepperdine University
Pequot Capital
Management, Inc.
[Pequot Diversified
Master Fund, Ltd.]
Pequot Credit
Opportunities Fund,
L.P.
Perceval Investment
Partners-P LP
Perry Corp.
Perry Partners L.P.
Pershing LLC
Pershing LLC, as
custodian of the Cecil
C. Smith IRA
Pershing LLC, as
custodian of the Daniel
S Jursa IRA Rollover
Pershing LLC, as
custodian of the Robert
Farrington IRA
Rollover
Pershing LLC, as
custodian of the
Sherwin A. Zuckerman
IRA
Peter A. Nielsen
Peter A. Young
Peter G. Lagen

246a
Peter Perugini
Peter R. Marino
Peter Rizzo
Peter Rizzo and
Kimberly Rizzo
Peter W. King
Peter W. King and Jane
Doe King, Husband
and Wife
PFPC, Inc.
PG&E Postretirement
Medical Plan Trust
PG&E Qual CPUC NDT
Partnership
Philip B Doherty, as a
Trustee of the Trust by
Philip B. Doherty U/A
DTD 04/28/2000
Philip B. Chase
Revocable Trust dated
07/28/94
Philip Chandler
Residuary Trust No. 2
UAD 06/26/35
Philip Graff, as Trustee
of the Graff Valve &
Fittings Company
Employees Profit
Sharing Plan & Trust
2 UAD 6/30/85
Philip H. Slesur
Philip H. Slesur and
David P. Slesur

Philip S. Babcock and
Jane Doe Babcock, a
Washington Marital
Community
Phonovisual Products
Inc.
Pipefitters Local 274
Pension
Pleasant T. Rowland
Revocable Trust
Pleiades Investment
Partners G LP
Plumbers & Pipefitters
National Pension Fund
Plumbers and
Pipefitters Local 501
(f/k/a Plumbers and
Pipefitters Local 507)
Plumbers Local Union
No 519 Pension Fund
PNC Bank, National
Association, as
Successor to
Mercantile Safe
Deposit & Trust Co.
Policemen’s Annuity and
Benefit Fund of
Chicago
Polly H. Howells
Portfolio 1 Offshore
Master LP Lsv
Posen Family Limited
Partnership
Potter, Adam F. [W.]

247a
PowerShares Buyback
Achievers Portfolio
PowerShares ExchangeTraded Fund Trust
PowerShares FTSE
RAFI US 1000
Portfolio
Priac Funds
Princeton Theological
Seminary
Prism Partners I [L.P.]
Prism Partners II
Offshore Fund
Prism Partners III
Leveraged LP
Prism Partners IV
Leveraged Offshore
Fund
Private Bank and Trust
Company
Pro Shares Ultra S&P
500
Progress Energy Service
Co.
Progressive Casualty
Insurance Company
Prospector Partners
LLC
Prospector Summit
Fund LP
Prudential Bache
Securities, LLC
[Jefferies Bache
Securities, LLC f/k/a

Prudential Bache
Securities, LLC]
Prudential Insurance
Co. of America (PDI)
Prudential Insurance
Co. of America
(PMFIM) [PICA Prudential Insurance
Company Separate
Account]
Prudential Insurance
Company of America
Prudential Investment
Management Inc.
Prudential Investment
Portfolio 3 - Prudential
Strategic Value Fund
Prudential Investment
Portfolios 8 Prudential Stock Index
Fund
Prudential Investments,
Inc.
Prudential NonQualified Benefits
Funding (TOLI)
Prudential Retirement
Insurance and Annuity
Co
Prudential Retirement
SA LV5
Public School Teachers’
Pension and
Retirement Fund of

248a
Chicago a/k/a Chicago
Teachers’ Pension
Fund
Putnam Fiduciary Trust
Company, as Trustee
of the Local 134
Pension Plan No. 5
S&P 500 Fund
Putnam Lovell NBF
Securities, Inc.
Q4 Partners LP
QC & CO.
QCM Absolute Return
Fund
Qualified Cpuc Decom
Master Trust
Quantitative Master
Series LLC f/k/a
Quantitative Master
Series Trust (Master
S&P 500 Index Series)
Quixote Capital
Management
Quixote Partners LLC
QVT Fund LP
R. J. Brookes
R.E. Ginna Nuclear
Power Plant LLC
R.E. Ginna Nuclear
Power Plant LLC
Master
Decommissioning
Trust

R.E. Ginna Qualified
Decommissioning
Trust
R.F. Foundation
Rabin Worldwide, Inc.
Rae F Patterson Self
Trust
Rae F. Patterson
Rae F. Patterson, as
Trustee of the Rae F.
Patterson Self Trust
Ramius Securities LLC
Raymond John Frank,
as a Trustee of the
Raymond John Frank
Revocable Trust UA
03/07/00
Raytheon Master
Pension Trust Large
Cap/Long/Short
RB&W/GAMCO
RBC Capital Markets,
LLC d/b/a Rbc Wealth
Management F/K/A
Ferris Baker Watts,
Inc.
RBC Capital Markets,
LLC f/k/a RBC Capital
Markets Corporation
RBC Global Asset
Management Inc.
RBC O’Shaughnessy
Canadian Equity Fund

249a
RBC O’Shaughnessy
U.S. Value Fund
RBS Holdings, N.V.
formerly Known as
ABN AMRO Holding
N.V. (ABN AMRO
Equities)
RBS Securities, Inc.
RE Ginna Qualified
Decommissioning
Trust
Reckford, Samuel P
Redbourn Partners Ltd.
Redwood Master Fund
Ltd
Reed Elsevier Inc.
Reed Elsevier Inc., as
Administrator of Reed
Elsevier US
Retirement Plan
Reed Elsevier US
Retirement Plan
Reinhold Weege, as
Trustee of the Weege
Family Trust U/A
6/21/89
Rempel Brothers
Renaissance
Technologies LLC
Renee Gilbert
Renee H. Miller, as
Trustee of the Renee
H. Miller Living Trust

Research Affiliates
Fundamental Index LP
Retirement Board of the
San Francisco
Employees’ Retirement
System, as
Administrator of the
San Francisco
Employees’ Retirement
System
Rex L. Sturm
Rex L. Sturm Trust
Rex L. Sturm, as
Trustee of the Rex L.
Sturm Trust
Rex Logan Sturm, Jr
Rhen, Alan R.,
Individually and as
Beneficiary of Alan R.
Rhen IRA R/O U/A
DTD 8/13/98
Rhumbline Advisers
Rhumbline S.A. Free
S&P Index
Richard A. Kucera,
Individually and as
Trustee of the Trust by
Richard A. Kucera &
Diane A. Kucera U/A/D
03-23-07 FBO Richard
& Diane Kucera
Richard Askin, as
Trustee of the Askin

250a
Family Trust U/A DTD
09/27/1990
Richard C. Freedman
Richard C. Freedman
and Lynda M.
Freedman Jtwros
Richard Cooley
Richard Cooley and
Bernadette Cooley
Richard D. Dudley
Richard Engberg and
Dorothy Engberg,
husband and wife
Richard Haigler, as
Trustee of the Richard
Haigler & Despina
Haigler Living Trust
U/A 11/04/91
Richard Kallenberger
Richard Kallenberger
and Nancy
Kallenberger, a
Washington Marital
Community
Richard M. Ader
Richard M. Basoco
Richard M. Vander Meer
Richard Morabito
Richard O. Kearns
Revocable Trust
Richard O. Kearns, as
Trustee of the Richard
O. Kearns Revocable
Trust

Richard Paniagua
Richard Rott
Richard W. McIntosh
Richard W. McIntosh
and Jenifer B.
McIntosh
Richmond Capital
Master Fund Ltd
Richmond Enhanced
Capital LP
RIEF RMP LLC
RIEF RMP LLC c/o
Renaissance
Technologies LLC
RIEF Trading LLC
RIEF Trading LLC c/o
Renaissance
Technologies LLC
Risk Facil 99: Close/Risk
Rita A. Boehm
Riversource Absolute
Return Fund LLC
Robbins & Associates
Robeco Institutional
Asset Management Bv
Robeco Investment
Management, Inc.
Robert & Mildred Harris
Trust
Robert A. and Jamie A.
Simins JTWROS
Robert A. Fox
Robert A. Habermann,
as Trustee of the

251a
Robert A. Habermann
Revocable Trust U/A
DTD 4/20/99
Robert A. Simins
Robert B. Dold
Robert B. Dold and
Eileen C. Norris
Robert D. Bosau
Robert D. Campbell, as
Trustee of the
Catherine A. Campbell
Trust, dated 9/21/1995
Robert D. Nelson
Robert Dishon Family
Trust, and 1st Source
Bank as Trustee
Robert E. LaBlanc
Robert F. Farrington, as
Trustee of the Robert
H. Farrington Marital
Trust UAD 09/05/05
Robert Farrington
Robert Friedman, as
Trustee of the
Friedman Living Trust
U/A 08/04/99
Robert H. Farrington, as
Trustee of the Robert
H. Farrington Marital
Trust UAD 09/05/05
Robert J Brooks, as
Trustee of the R. J.
Brooks Community
Property Trust

Robert J. Brookes, as
Trustee of the 3/10/87
Trust for the Benefit of
R. J. Brookes & V. M.
Brookes
Robert J. Kuhn
Declaration of Trust
Dated 4-6-92
Robert J. White, as
Trustee of the Trust
FBO Robert Joseph
White U/A/D 06/16/99
Robert Joseph White
Robert L. Oakum
Robert L. Oakum and
Susann Oakum
Robert M Steiner
Robert M. Treboux
Robert Mosberg
Robert Parrillo, as a
Trustee of the Trust by
Robert Parrillo U/A
DTD 12/27/1990
Robert Passaneau
Robert R. Cull, as
Trustee of the Robert
R. Cull Trust U/A
1/14/98
Robert R. McCormick
Foundation
Robert Ramsey
Robert S. Splithoff, as a
Trustee of the Robert

252a
S. Splithoff Trust
U/A/D 05-27-1992
Robert W. Young
Robert Wesley
Thornburgh
Robertson Five, Inc.
Robin Lloyd
Robyn L. Motley
Rocca Limited Liability
Co.
Rodolfo V. Gil
Roger Goodan, as
Trustee of Chandler
Trust No. 1
Roger Goodan, as
Trustee of Chandler
Trust No. 2
Romano Brothers & Co.
Ronald C. Cey,
individually and as a
Trustee of the Cey
Living Trust 5/14/87
Ronald E. Cann, as
Trustee of the Ronald
Cann Trust UAD 1122-04
Rondra Matthews
Ronin Capital LLC
Rosalind Keiser, as
Trustee of the Michael
& Rosalind Keiser
Charitable Trust U/A
DTD 12/30/90
Rose Marie Taylor

Rose T. Bosau
Rosemary T. Cox
Revocable Trust DTD
5/21/2004
Rosemary T. Cox, as
Trustee of the Cox
Family Educational
Trust dated 08/02/2004
Rosemary T. Cox, as
Trustee of the
Rosemary T. Cox
Revocable Trust DTD
5/21/2004
Rosemary Wagner
Rothschild Investment
Corporation Employee
Profit Sharing Plan
Designated Investment
Account FBO Robert M
Steiner
Royal Bank of Canada
Royal Trust Corporation
of Canada
Royal Trust Corporation
of Canada c.o Royal
Bank of Canada
Ruanwil LLC
Russell Equity I Fund
Russell F. Stephens Jr.,
as Trustee of the
Russell F. Stephens Jr.
Trust U/A DTD
02/10/1992

253a
Russell Investment
Company
Russell Investment
Company Diversified
Equity Fund
Russell Investment
Group
Russell Investments
Russell T. Stern Jr., as
Trustee of the Eleanor
Jackson Stern Trust
Dated 01/06/1971
Russell T. Stern Jr., as
Trustee of the Russell
T. Stern Trust B
Russell T. Stern Trust B
Russell US Core –
Equity Fund
Ruth C. Von Platen
Trust No. 2
Ruth McCormick
Tankersley, as Trustee
of the 10/06/92 Ruth
McCormick Tankersley
Revocable Trust
Ruth Wottge
RWB
Ryan Enterprises Group
LLC
Ryan, Patrick G
Rydex ETF Trust (Rydex
S&P 500 Pure Value
ETF)

Rydex ETF Trust (Rydex
S&P Equal Weight
Consumer
Discretionary ETF)
Rydex ETF Trust (Rydex
S&P Equal Weight
ETF)
Rydex Investments
Rydex Series Funds
Rydex Series Funds
Multi-Hedge Strategies
Fund
Rydex Series Funds S&P
500 Pure Value Fund
Rydex Variable S&P 500
Pure Value Fund
Rydex Variable Trust
Rydex Variable Trust
Multi-Hedge Strategies
Fund
S&P 500 Equity Index
Weighted Fund LP
S. G. Harris Charity
Trust UAD 6/13/45
S. G. Harris Mar TR
6/17/65
S. Joyce as Trustee of
the Sara Joyce Trust
U/A DTD 12/7/2005
SA Funds - Investment
Trust
SA U.S. Core Market
Fund
SA U.S. Value Fund

254a
Sacramento County
Employees Retirement
System
Safeco Life Insurance
Co.
Safeco Life Insurance–
Master Tr Pl
Salisbury Bank & Trust
Co.
Sally H. Contant, as
Trustee of the Sally H.
Contant Trust U/A
DTD 10/13/1983
Salvation Army –
Southern Territory
Salvation Army Central
Territorial
Samuel H. Frankel, as a
Trustee of the Trust
for the Benefit of
Samuel H Frankel
U/A/D 01/28/80
Samuel Moore, as
Trustee of the Samuel
S. Moore Trust U/A
DTD 10/11/1988
San Francisco
Employees’ Retirement
System
Sandelman Partners
Multi-Strategy Master
Fund Ltd.
Sander Morris Harris,
Inc.

Sandra L. Young
Sanford C. Bernstein &
Co., Inc., in its
Individual and
Custodial Capacities
Sanford C. Bernstein
Fund, Inc.
Sanibel Captiva Trust
Co.
Sara A. Young
Lightbourn
Sara Rooney
Sarah A O’Brien Trust
DTD 8-18-03
Sarah A. O’Brien, as
Trustee of the Kevin D
O’Brien Trust DTD 818-03
Sarah A. O’Brien, as
Trustee of the Sarah A
O’Brien Trust DTD 818-03
Sarah Doll Barder
Sargeant E. Joys and
Luanne G. Joys, as
Trustees of the
Sargeant & Luann
Joys Living Trust
Sargeant E. Joys, as
Trustee of the
Sargeant & Luann
Joys Living Trust
SBC Master Pension
Trust

255a
SBL Fund
SBL Fund Series H
SBL Fund Series O
SC Edison Nuclear
Facilities
Schaefer–Nevada Inc.
School Employees
Retirement System of
Ohio
Schultze Asset
Management LLC
Schwab Trust A
Charitable U/A DTD
05/23/1995
Scotia Capital Inc.
Scott Haskins
Scott R. Cook
Scott R. Klarquist
Scottrade, Inc., as
Custodian for Dennis
J. Britt Rollover IRA
Scottrade, Inc., as
Custodian of A. Hoyer
R/O
Scottrade, Inc., as
Custodian of E.
Gallagher
Scottrade, Inc., as
Custodian of F. Tong
Tod
Scottrade, Inc.,
Custodian for
Hoyer/Lemts

Scottrade, Inc.,
Custodian for Mak/Tu
SDG&E Qualified
Nuclear
Decommissioning
Trust
Security Global
Investors–Rydex/Sgi
SEI Institutional
Investment Trust –
Large Cap Fund
SEI Institutional
Investment Trust –
Large Cap Index Fund
SEI Institutional
Investments Trust
SEI Institutional
Managed Trust
SEI Institutional
Managed Trust – S&P
500 Index Fund
SEI Institutional
Managed Trust Large
Cap Value Fund
SEI Institutional
Managed Trust TaxManaged Large Cap
Fund
SEI Investment
Management
SEI Investments
Company
SEI Investments
Distribution Co., as

256a
Administrator of the
Lsv Value Equity Fund
SEI Investments, as
Administrator of the
SGIF Large Cap Value
Fund (R1v Enhanced)
SEI SIIT
SEI SIMT
SEIU Local 36 BOLR
Pension Fund
Sempra Energy Pension
Mstr Trust
Seth A. Thayer
SG Americas Securities
LLC
SGIF Large Cap Value
Fund (R1V Enhanced)
Shannon Morris
Sharon B. Christhilf
Sharon H.
Boultinghouse, as
Trustee of the Sharon
L. Boultinghouse Trust
Sharon L. Boultinghouse
Trust
Sharon Rosenhause
Sharron R. Beard
Sheldon Cooper, as
Trustee of the Ins.
Trust U/A 4/25/67
Sheldon Gray
Shelley Weege, as
Trustee of the Weege

Family Trust U/A
6/21/89
Sherrie M. Argirion, as
Trustee of the Sherrie
M. Argirion Revocable
Trust U/A DTD
11/13/96
Sherry Broder,
individually and as
Trustee of the Trust
for the Benefit of
Sherry P. Broder U/A
DTD 1/1/94
Sherry P. Broder
Sherwin A. Zuckerman
Sherwin A. Zuckerman,
as Trustee of the
Edward E. Neisser
Marital Trust
Sherwin Zuckerman
Shirley C. Beal
Gegenheimer
Shirley Dichek, as
Trustee of the Dichek
Family Trust Dated
12/11/74
Shirley H. Dean, as
Trustee of the Paul H.
Dean Marital Trust A
Shirley J Sperling and
Susan J Martin Jt Ten
Shirley J. Sperling
SI Trust Servicing

257a
SICAV State Street
Banq, Paris
SIG-SS CBOE Joint
Account
Siragusa Enterprises LP
SMH Capital, Inc.
Smoke Rise Foundation,
Inc.
Sophie McConnell
Sophie McConnell and
Malcolm McConnell
South Shore Hospital
Corporation
Southwest Carpenters
Pension Trust
Southwest Securities,
Inc.
Spencer W. Beard
Sprint Corporation
SPX Principal Strategy
U.S. Shares Programs
SS&C Technologies
Holdings, Inc.
SS&C Technologies, Inc.
SSB Exchange Fund
SSBT Omnibus Account
SSB–Trust Custody
SSGA Funds
SSGA Russell 1000
Value Sl Fund
SSGA S&P 500 Equal
Weight CTF
SSGA S&P 500 Flagship
Fund

SSGA S&P 500 Index
Fund Ctf
SSGA S&P 500 Tobacco
Free Index Ctf
St. Francis Friends of
the Poor, Inc.
St. Gregory College
Preparatory School
Stacie Elizabeth ford,
Acting Trustee and
Beneficiary of the
Alfred C. Glassell Jr.
Children’s Trust for
Stacie Elizabeth ford
Stacy Dean Yochum, as
Trustee of the Paul H.
Dean Marital Trust A
Stanford Management
Company
Stanley G. Harris Trust
UAD 6/10/46
Stanley Weiss, as
Trustee of the Erwin
Shakin Delta Trust
U/A 10/5/00
Stanton R. Cook
Charitable Remainder
Trust
Starbuck, Tisdale &
Associates
Stark Global
Opportunities Master
Fund Ltd
Stark Investments

258a
Stark Master Fund Ltd
State Farm Fire &
Casualty Insurance
Company
State Farm Insurance
Companies Employee
Retirement Trust
State Farm Life
Insurance Company
State Farm Mutual
Automobile Insurance
Company
State Farm Variable
Product Trust (Large
Cap Equity Index
Fund)
State of California – Mid
Cap Value
State of California,
Department of
Personnel
Administration,
Savings Plus Plan
State Retirement &
Pension System of
Maryland–Srs
State St. Bank & Trust
Co.
State Street Amr
State Street Bank &
Trust
State Street Bank &
Trust Co. / Ibt–Account
#2

State Street Bank &
Trust Co., as Owner of
IBT–Account # 2
State Street Bank &
Trust Co., as Successor
to Investors Bank
Trust Company
State Street Bank &
Trust Co., as Successor
to Investors Bank
Trust Company /
Institutional Custody
State Street Bank &
Trust Company
State Street Bank &
Trust Company, as
Custodian of Thomas
J. Majorana CGM IRA
State Street Bank &
Trust Company, as
Trustee for First Data
Incentive Savings Plan
FBO John G. Kologi
State Street Bank and
Trust Company
State Street Bank and
Trust Company, as
Custodian of the Allen
C.Tanner Jr., CGM
IRA
State Street Bank and
Trust Company, as
Custodian of the Jack
R. McDonald CGM IRA

259a
State Street Bank and
Trust Company, as
Custodian of the John
R. Flanagan CGM IRA
State Street Bank and
Trust Company, as
Custodian of the Larry
Townsend CGM IRA
Rollover
State Street Bank and
Trust Company, as
Custodian of the
Majorie B. David CGM
IRA Rollover
State Street Bank and
Trust Company, as
Custodian of the
Richard Morabito
CGM IRA Rollover
State Street Bank and
Trust Company, as
Custodian, of the Lloyd
Ferguson CGM IRA
Rollover
State Street Bank
Luxembourg, S.A.
State Street Equity 500
Index Portfolio
State Street Trust and
Banking Co. Ltd.
State Universities
Retirement System
Steamfitters Local 420

Stephanie B. Flynn, as
Trustee of the
Stephanie B Flynn
Trust U/A DTD
11/14/62
Stephanie B. Flynn, as
Trustee of the William
J. Byrnes Trust U/A
DTD 11/14/62
Stephanie Madigan
Stephanie Murray, as
Trustee of the
Stephanie Murray
Living Trust
Stephen Axelson
Sterne Agee & Leach,
Inc., as Custodian of
Geraldo Rivera R/O
IRA
Steven U. Lee
Steven Y. Goldberg
Stevens Capital
Management LP
Stichting Pensioenfonds
Abp
Stichting Pensioenfonds
Campina
Stichting Pensioenfonds
Hoogovens
Stichting Pensioenfonds
Medische Specialisten
Stichting Pensioenfonds
Oce

260a
Stichting Pensioenfonds
Van De Abn Amro N.V.
Stichting Pensioenfonds
Zorg En Welzijn
Stichting Shell
Pensioenfonds
Stifel, Nicolaus &
Company,
Incorporated
Stock Index Portfolio, a
Series of the
Prudential Series
Fund, Inc.
Strategic Funds, Inc.
Strategic Opportunities
Fund Ltd.
Strategic Opportunity
Strategic Opportunity
Bmo Nesbitt Burns
C/O Adaly Investment
Management Co.
Strategy Master Fund
(Tradeworx)
Strongbow Fund Ltd.
Sumitomo Mitsui Trust
Bank, Limited (F/K/A
Sumitomo Trust &
Banking Co. Ltd.), as
Trustee of Pension
Commingle Fund
Summit Mutual Funds
Sun Creative
Investments LP

Sunamerica Asset Mgmt
Corp. (Variable Ann
Life Ins Co)
[Sunamerica Series,
Inc. - Sunamerica
Strategic Value
Portfolio F/K/A
Focused Value
Portfolio]
Susan Babcock, as
Trustee of Chandler
Trust No. 1
Susan Babcock, as
Trustee of Chandler
Trust No. 2
Susan F. Frederick,
Acting Trustee of the
Raymond & Anna
Schroer Trust U/A
DTD 09/28/2006
Susan H. Shane,
Individually and as
Trustee U/A DTD
08/09/1991 of the Trust
for the Benefit of
Susan H. Shane
Susan J. Cellmer
Susan J. Martin
Susan K. Cunningham
Susan M. Kennedy
Susan S. Pecaro
Susann Oakum
Susquehanna Capital
Group

261a
Susquehanna
Investment Group
Susquehanna
Investment Group, as
Custodian of the Sig-Ss
Cboe Joint Account
Swaps, Sbi
Swiss American
Securities, Inc.
Swiss Re Financial
Products Corp.
Sybil Jinx Robinson, as
Trustee U/A DTD
07/03/07 of the Sybil
Jinx Robinson
Separate Property
Trust
Sylvia Gates Schuler, as
Trustee Utd 01/18/88
of the Schuler Trust
Symetra Financial
Corporation
Symetra Life Insurance
Co. (f/k/a Safeco Life
Insurance Company)
Synergy Capital
Management LLC
Systeia Capital
Management
Systeia Capital
Management C/O
Amundi Investments
Advisors USA, Inc.

T. Rowe Price Trust Co,
TRPTC TTEE Intersil
Equity Inc Fund
T. Rowe Price
Associates, Inc., as
Custodian of State of
California – Mid Cap
Value
T. Rowe Price
Associates, Inc., as
Custodian of the Los
Angeles Department of
Water and Power
Employees Retirement
Plan LCV
T. Rowe Price
Associates, Inc., as
Custodian of the
Southern California
UFCWU & FE Joint
Pension Trust Fund
T. Rowe Price
Associates, Inc., as
Custodian of the State
of California,
Department of
Personnel
Administration,
Savings Plus Plan
T. Rowe Price
Associates, Inc., as
Custodian of the Water
and Power Employees’
Retirement Plan

262a
T. Stanton Armour
Trust Dated 2/10/66
Taliesin Capital
Partners LP
Talon Opportunity
Partners
Talon Opportunity
Partners LP
Tamar Securities Inc
Tax Managed
Opportunity Fund LLC
TD Emerald Hedged
U.S. Equity
TD Emerald Hedged
U.S. Equity c/o TD
Asset Management
USA, Inc.
TD Emerald Hedged
U.S. Equity Pooled
Fund Trust
TD Emerald Pooled U.S.
Fund
TD Emerald Pooled U.S.
Fund c/o TD Asset
Management USA, Inc.
TD Emerald U.S.
Market Index Fund
TD Emerald U.S.
Market Index Fund c/o
TD Asset Management
USA, Inc.
TD U.S. Index Fund

TD U.S. Index Fund c/o
TD Asset Management
USA Inc.
TD U.S. Large Cap
Value Fund
TD U.S. Large Cap
Value Fund c/o TD
Asset Management
USA Inc.
TE Calel Portfolio, Ltd
Teachers Retirement
System of the State of
Illinois
Teamsters Joint Council
No. 83 of Virginia
Pension Fund
Teamsters Separate
Account
Telluride Asset
Management LLC, as
Owner of the Telluride
Capital Master Fund
Telluride Capital Master
Fund
Tensor Opportunity
Limited
Terence Rhoden
Terra Nova Financial
Terrence R. McGovern
and Barbara T.
McGovern JtTen
Terry D. Diamond Trust
Dated 5/7/86

263a
Tewksbury Investment
Fund Ltd.
Texas Education Agency
Texas Permanent School
Fund
Texas Presbyterian
Foundation
Texas Scottish Rite
Hospital Endowment
Texas Scottish Rite
Hospital Retirement
The 10/03/2007 Dalton
Trust
The 10/06/92 Ruth
McCormick Tankersley
Revocable Trust
The 12/09/90 Tommie L.
Cordero Trust
The 3/10/87 Trust for the
Benefit of R. J.
Brookes & V. M.
Brookes
The Advisors Inner
Circle Fund
The Advisors’ Inner
Circle Fund
The Advisors Inner
Circle Fund – Value
Equity Fund
The Alfred V. Tjarks
Retirement Plan DTD
02/18/85

The Alfred W. Merkel
Marlowe G. Merkel
Trust
The Allan H. Willard
Trust U/A DTD 9/7/93
The Alliancebernstein
Portfolios
(Alliancebernstein
Tax-Managed Funds)
The Alternative Fund
The Amy W. Fong Living
Trust
The Askin Family Trust
U/A DTD 09/27/1990
The Autry Community
Property Trust Dated
03/15/1985
The Bank of New York
Mellon as Trustee of
the Bank of New York
Mellon Employee
Benefit Collective
Investment Fund Plan
The Bank of New York
Mellon as Trustee of
the Collective Trust of
the Bank of New York
The Bank of New York
Mellon, as Trustee of
PG&E Postretirement
Medical Plan Trust
The Bank of New York
Mellon, as Trustee of
the Bank of New York

264a
Mellon
Decommissioning
Collective Trust
Investment Plan – DT
Broad Market Stock
Index Fund
The Bank of New York
Mellon, in Its
Individual and
Custodial Capacities
The Barbara Clements
Heller Revocable Trust
DTD 3/22/01
The Barbara M. Osborne
Interim Trust DTD
2/7/02
The Barbara M. Osborne
Trust U/I/T DTD 2/7/05
The Barry H. Scripps
Trust
The Benjamin J.
Verdusco Trust U/A
DTD 12/13/1989
The Betty Beaird Living
Trust U/A DTD 4/10/87
The Betty Beaird Living
Trust UA 10-Apr-87
The Betty H. Roeland
Marital Trust
The Billie J. Bouzek
Trust U/A 1/28/00
The Blackburn Trust
The Burroughs
Wellcome Fund

The Caldwell
Foundation
The Canyon Value
Realization Fund
(Cayman) Ltd.
The Canyon Value
Realization Master
Fund, L.P. (as assignee
of the Canyon Value
Realization Fund
(Cayman) Ltd.)
The Carmine
Macchiaroli Living
Trust U/A 07/01/88
The Catherine A.
Campbell Trust, dated
9/21/1995
The Cey Living Trust
5/14/87
The Christopher J.
Appleby Trust U/A
DTD 12/13/89
The Church Pension
Fund, in Its Individual
and Trustee Capacities
The Clare Attwell
Glassell Continuing
Marital Trust
The Consolidated Edison
Retirement Plan, and
Its Trustee, State
Street Bank and Trust
Company, in its

265a
Capacity as Trustee
Thereof
The Denise Palmer
Revocable Trust U/A/D
10-28-1991
The Diamond Family
Foundation
The Dichek Family
Trust dated 12/11/74
The Don & Irene Baron
Family Trust 7b-251
The Doris Keats Frank
Revocable Trust UA
03/07/00
The Dorothy Cahn Trust
UA 07/03/1981
The E. Donald Heymann
Trust
The Edgar D. Gifford
Trust UA 7/15/98
The Elaine W. Getz
Trust UA 2/5/86
The Elaine W. Pettijohn
Trust U/A 12/20/89
The Elizabeth L. Levin
2006 Sz-2 Year
Grantor Retained
Annuity Trust under
Agreement dated
07/31/06
The Erwin Shakin Delta
Trust U/A 10/5/00
The Estate of Dorothy
Patterson

The Faulkner Family
Trust UA DTD
8/29/1989
The FBO Dunaway
Family Trust U/A/D
07-05-1991
The Felicity J. Appleby
Trust U/A DTD
12/13/89
The Floyd C. Sanger Jr.
Trust U/A 3/11/86
The Francesca J.
Verdusco Trust
The Francesca J.
Verdusco Trust U/A
DTD 12/13/1989
The Frank J. Mangano
GST Non-Tax Exempt
Trust U/A dated
6/22/94
The Friedman Living
Trust U/A 08/04/99
The Gabelli Asset Fund
The Gabelli Equity, Inc.
Fund
The Gabelli Global
Multimedia Trust, Inc.
The GDL Fund (f/k/a
Gabelli Global Deal
Fund)
The Glenmede Trust
Company, National
Association
The Grace Trust

266a
The Graff Valve &
Fittings Company
Employees Profit
Sharing Plan & Trust
2 UAD 6/30/85
The Hammond Family
Trust U/A/D 02/11/88
The Harriet H.
Glasspiegel Dl Trust
U/A 6/21/89
The Harrington Bischof
Trust UAD 9/15/97
The Harry F. Byrd Jr
Revocable Trust
The Hartford Financial
Services Group, Inc.
d/b/a the Hartford
The Hartmarx
Retirement Income
Plan
The Harvey B. Plotnick
Declaration of Trust
U/A/D March 16, 1988
The Helen Grossman
Trust dated 09/08/99
The Henry Francis
Dupont Winterthur
Museum, Inc.
The Henry P. Albrecht
Revocable Trust U/A
1/21/74
The Herman R.
Friedberg Revocable
Trust

The Hill Revocable
Living Trust DTD
12/24/91
The Howard Shulkes
Residuary Credit Trust
U/A DTD 09/20/1991
The Ins. Trust U/A
4/25/67
The Iris B. Mahoney
Revocable Trust U/A/D
04/10/98
The Iris Elston Trust
UAD 5/30/95
The J&M Trust UA
Dated 07/23/1992
The J. McWethy Trust
The James F. Polk Trust
U/A DTD 12/13/89
The Jean S. Black Trust
The Jerome Blank
Declaration of Trust
The Jerome Kahn Jr.
Revocable Trust DTD
10/16/87
The John & Betty
Altman Family Trust
UAD 05/16/86
The John B. Lloyd Jr.
Revocable Trust
The John E Mayasich
Trust U/A DTD
04/23/2007

267a
The John N. Robson
Trust B dated
9/11/1970
The John P. Fendley
Trust U/A DTD
11/27/1995
The John Stewart
Property Trust
The John W. Madigan
Trust U/A DTD
05/15/1998
The Joseph M. Fee &
Elizabeth Fee
Revocable Living Trust
The Joy Leichenger
Trust
The Kaszton Family
Trust UAD 10/23/97
The Kenneth J. Vydra
Trust No. 101 U/A/D
03-10-2006
The Kraft Group
The Larry L. Bloom
Trust 11-21-95
The Loisanne R.
Flaherty Trust U/A
DTD 09/23/2004
The Loretta C. Finlay
Trust
The Los Angeles
Department of Water
and Power Employees
Retirement Plan Lcv

The Lucile McVey Dunn
Trust U/A DTD
12/19/91
The Madge A.L. Macneil
1988 Family Trust
The Marital Trust of the
De Goldsmith Family
Trust
The Mark A. Itkin Trust
The Mark R. Pattis
Revocable Trust
The Martha Gross
Living Trust U/A/D
04/14/1996
The Mary J. Bloom
Trust 11-21-95
The Maryland State
Retirement and
Pension System
The Merger Fund
The Michael & Rosalind
Keiser Charitable
Trust U/A DTD
12/30/90
The Michael Argirion
Revocable Trust U/A
DTD 11/13/96
The Michael E. Bee
Trust UAD 10/20/2003
The Michael J. Palumbo
Revocable Li Trust U/A
DTD 11/29/1999

268a
The Michael K. Reilly
Trust U/A DTD
09/25/1995
The Miller Family Trust
The Nancy B. Heinz
Family Trust
The Nathan H. Perlman
Trust B DTD 12/17/68
The New Church
Investment Fund
The New York Province
of the Society of Jesus
The Next Chapter
Holdings Mark R.
Pattis Revocable Trust
UAD 07/30/04
The Northern Trust
Company
The Northern Trust
Company (as Successor
by Merger to Northern
Trust Bank, FSB), as
Trustee of the
Marguerite Payne
Trust Dated 6/7/61
FBO Virginia K.
Townley
The Northern Trust
Company (as Successor
by Merger to Northern
Trust, NA) as Trustee
of the John N. Robson
Trust B Dated
9/11/1970

The Northern Trust
Company (as Successor
by Merger to Northern
Trust, NA), as
Guardian of the Estate
of Dorothy Patterson
The Northern Trust
Company (as Successor
by Merger to Northern
Trust, NA), as Trustee
of the Alpheus L. Ellis
1993 Grandchildren’s
Trust FBO Lynn Ann
Sharpe
The Northern Trust
Company (as Successor
by Merger to Northern
Trust, NA), as Trustee
of the Dorothy C.
Patterson Irrevocable
Trust #2 dated 12-2193
The Northern Trust
Company (as Successor
by Merger to Northern
Trust, NA), as Trustee
of the R. J. Brooks
Community Property
Trust
The Northern Trust
Company (as Successor
by Merger to Northern
Trust, NA), as Trustee
of the Richard O.

269a
Kearns Revocable
Trust
The Northern Trust
Company of
Connecticut, as
Trustee of the Ntcc
Advisors Funds for
Employee Benefit
Trust
The Northern Trust
Company Pension
Trust
The Northern Trust
Company, as
Custodian of the
Theodore D Novak IRA
Rollover
The Northern Trust
Company, as Trustee
of the Barbara M. J.
Wood Living Trust UA
Dated 9/17/81
The Northern Trust
Company, as Trustee
of the Caroline D
Bradley Trust dated
11/30/51 FBO Sarah
Doll Barder
The Northern Trust
Company, as Trustee
of the Charles T. and
Mary Howe Brumback
Descendants Trust

The Northern Trust
Company, as Trustee
of the Eleanor Jackson
Stern Trust dated
01/06/1971
The Northern Trust
Company, as Trustee
of the Elmer H.
Wavering Family
Trust dated 06/24/1977
as Amended
The Northern Trust
Company, as Trustee
of the Emily G. Plumb
Charitable Trust dated
1/8/80 as Amended
The Northern Trust
Company, as Trustee
of the Harold R.
Lifvendahl Trust dated
9/7/1988
The Northern Trust
Company, as Trustee
of the Howard F.
Ahmanson Jr.
Revocable Trust
The Northern Trust
Company, as Trustee
of the Jessie Ball
Dupont Fund
The Northern Trust
Company, as Trustee
of the Julia Neitzert
Trust

270a
The Northern Trust
Company, as Trustee
of the Lynn R. Wolfson
Trust
The Northern Trust
Company, as Trustee
of the Marni Horwitz
Trust dated January
22, 1998
The Northern Trust
Company, as Trustee
of the Master Trust
Between Pfizer Inc.
and the Northern
Trust Company (as
Successor to Wyeth
Master Trust)
The Northern Trust
Company, as Trustee
of the Northern Trust
Company Pension
Trust
The Northern Trust
Company, as Trustee
of the Paul W. Dillon
Grandchildren’s Trust
dated 12/6/41 FBO
Paul D. Goddard
The Northern Trust
Company, as Trustee
of the Paula Miller
Trienens Trust dated
9-18-91

The Northern Trust
Company, as Trustee
of the Russell T. Stern
Trust B
The Northern Trust
Company, as Trustee
of the Tribune
Company Master
Retirement Savings
Trust
The Northern Trust
Company, as Trustee
of the Virginia Kearns
Revocable Trust
The Northern Trust
Company, as Trustee
of the Vivian B.
Larsson Trust
The Northern Trust
Company, as Trustee
of the William Bross
Lloyd Jr. New York
Trust dated July 18,
1968
The Northern Trust
Company, as Trustee
of the William Bross
Lloyd Jr. Vermont
Trust dated July 18,
1968
The Northern Trust
Company, Trustee, and
Terry Diamond,

271a
Beneficiary, Terry
Diamond IRA
The O.C. Smith & P.L.
Pierce Joint Revocable
Living Trust DTD
7/18/2005
The Paul H. Dean
Marital Trust A
The Pecaro Family Trust
DTD 4/12/02
The Pension Boards –
United Church of
Christ, Inc.
The President and
Fellows of Harvard
College
The R. J. Brooks
Community Property
Trust
The Rappaport Family
Trust U/A DTD
06/04/1992
The Raymond & Anna
Schroer Trust U/A
DTD 09/28/2006
The Raymond John
Frank Revocable Trust
UA 03/07/00
The Reader’s Digest
Association, Inc.
Retirement Plan, and
Its Trustee, the
Northern Trust
Company, in Its

Capacity as Trustee
Thereof
The Renee H. Miller
Living Trust
The Revocable Trust for
the Benefit of
Christopher Lindblad
U/A/D 04-20-2000
The Richard Haigler &
Despina Haigler Living
Trust U/A 11/04/91
The Robert A.
Habermann Revocable
Trust U/A DTD 4/20/99
The Robert H.
Farrington Marital
Trust UAD 09/05/05
The Robert R. Cull Trust
U/A 1/14/98
The Robert S. Splithoff
Trust U/A/D 05-271992
The Roeland Family
Trust UA 8/19/86
The Ronald Cann Trust
UAD 11-22-04
The Rosenberg
Revocable Trust
The Royal Bank of
Scotland N.V. f/k/a
ABN AMRO Bank N.V.
The Royal Bank of
Scotland Plc

272a
The Royal Bank of
Scotland Plc (Royal
Bank of Scotland
Financial Markets)
The Royal Bank of
Scotland PLC, as
Holder of the Accounts
of Abbey Equity Fund
Icvc Sub
The Royal Bank of
Scotland Plc, as Holder
of the Accounts of US
Equity Fund
The Russell F. Stephens
Jr. Trust U/A DTD
02/10/1992
The Ruth Stein
Discretionary Trust for
Joan UAD 1/2/80
The Sally H. Contant
Trust U/A DTD
10/13/1983
The Samuel S. Moore
Trust U/A DTD
10/11/1988
The Sara Joyce Trust
U/A DTD 12/7/2005
The Sargeant & Luann
Joys Living Trust
The Scheiermann Living
Trust U/A DTD
08/28/1997
The Schuler Trust

The Scripps Family
Revocable Trust
The Sherrie M. Argirion
Revocable Trust U/A
DTD 11/13/96
The Siragusa
Foundation
The Stephanie B Flynn
Trust U/A DTD
11/14/62
The Stephanie Murray
Living Trust
The Strategic
Opportunities Master
Fund LP
The Survivors’ Trust
The Sybil Jinx Robinson
Separate Property
Trust
The Teachers’
Retirement System of
the City of New York,
by and Through the
Teachers’ Retirement
Board
The Terrill F. Cox &
Lorraine M. Cox Trust
U/A DTD 3/31/98
The Thomas T. Byrd
Trust UA 01/25/82
The Tillman Family
Trust U/A 07/29/1980

273a
The Trust by Antoinette
B. Brumbaugh U/A
Dated 10/05/94
The Trust by Carol E.
Jansson U/A DTD
06/17/1998
The Trust by Edwin J.
Hayes Jr. U/A DTD
5/26/2006
The Trust by Elaine T.
Bovaird U/A DTD
02/18/1993
The Trust by James T
Smith U/A DTD
10/09/1995
The Trust by Margaret
R. Coniglio U/A DTD
08/22/1989
The Trust by Mary Jo
Osterman U/A/D
04/04/91 FBO Mary Jo
Osterman
The Trust by Mary K.
Lawler U/A DTD
06/18/1996
The Trust by Michael R.
Quinlan U/A DTD
09/04/1979
The Trust by Mrs. Lois
D. Kaliebe U/A DTD
03/05/1993
The Trust by Philip B.
Doherty U/A DTD
04/28/2000

The Trust by Richard A.
Kucera & Diane A.
Kucera U/A/D 03-23-07
FBO Richard & Diane
Kucera
The Trust by Robert
Parrillo U/A DTD
12/27/1990
The Trust by Thomas J.
Osterman U/A/D
04/04/91 FBO Thomas
J. Osterman
The Trust by Walter E.
Graham U/A DTD 1016-2000
The Trust by Walter K.
Graham for the Benefit
of Anne G. Taylor U/A
DTD 10/16/2000
The Trust FBO Robert
Joseph White U/A/D
06/16/99
The Trust for the
Benefit of Bernard
Rabinowitz U/A/D 0911-2006
The Trust for the
Benefit of John F.
Barnard U/A/D 4/4/03
The Trust for the
Benefit of Paul P.
Mahoney DTD
12/28/1978

274a
The Trust for the
Benefit of Samuel H
Frankel U/A/D
01/28/80
The Trust for the
Benefit of Sherry P.
Broder U/A DTD 1/1/94
The Trust for the
Benefit of Susan H.
Shane
The Trust U/A DTD
02/23/1981 by Michael
Rosenberg
The Trust U/A DTD
11/02/1977 by Robert
Rosenberg
The Trust U/A DTD
8/22/1989 by Mary
Coniglio
The Trust U/A DTD
8/22/1989 by Mary
Coniglio GSTT TE
Trust
The Trust U/I Katherine
Pratt Twichell Dated
July 27, 1964 for the
Issue of Harmony T.
Clement
The Trust U/W Charlene
Frost
The Trust under an
Agreement dated
December 13, 1976
between Virginia S.

Risley, as Settlor, and
William H. Risley,
Charles Joseph De
Sieyes and United
States Trust Company
of New York, as
Trustees
The Trust under an
Agreement dated
December 13, 1976
between Virginia S.
Risley, as Settlor, and
William H. Risley,
David C. De Sieyes,
and United States
Trust Company of New
York, as Trustees
The Trust under an
Agreement dated
December 19, 1977
between Virginia S.
Risley, as Settlor, and
William H. Risley and
United States Trust
Company of New York,
as Trustees
The U/A Dta 03/29/04
Joanne Desherow
Sanger Living Trust
The Verna R. Harrah
Trust Special Account
DTD 9/5/86

275a
The Victoria Badali Dec
of Living Family Trust
U/A/D 12/9/98
The Weege Family Trust
U/A 6/21/89
The Whittier Trust
Company
The Will K. Weinstein
Revocable Trust U/A
DTD 2-27-90
The William D. Mac
Donald & Nancy L.
Mac Donald Trust U/A
7 21
The William J. Byrnes
Trust U/A DTD
11/14/62
The William James Bell
1993 Trust U/A 8/23/93
(Cash & Holding
Account)
The Woods/Mitchell
Family Trust
The Workers
Compensation Board Alberta
The Yeomans Family
Trust U/A 2/22/92
Theodore D. Novak
Third Millennium
Trading LLC
Thomas B. O’Keefe
Thomas F. Friedberg, as
Trustee of the Herman

R. Friedberg Revocable
Trust
Thomas G. Hubert
Thomas J. Kuhn, as a
Trustee of the Robert
J. Kuhn Declaration of
Trust dated 4-6-92
Thomas J. Majorana
Thomas J. Majorana,
CGM IRA Custodian
Thomas J. Osterman,
Individually and as
Trustee of the Trust by
Thomas J. Osterman
U/A/D 04/04/91 FBO
Thomas J. Osterman
Thomas Jeavons, as
Trustee of the Jessie
Ball Dupont Fund
Thomas M. Owens
Thomas P. O’Keefe
Thomas W. Hundley
Thomasyne C. Hubert
Thorne, Carl F and
Rosella M Thorne
Thrift Plan for the
Employees of the
Federal Reserve
System
Thrivent Financial for
Lutherans f/k/a
Lutheran Brotherhood
Thrivent Series Fund,
Inc.

276a
Thrivent Series Fund,
Inc., as Owner of the
Thrivent Series Fund
Balanced Portfolio
Thrivent Series Fund,
Inc., as Owner of the
Thrivent Series Fund
Large Cap Index
Portfolio
Tiffany Wolfe
Timber Hill LLC
Time Warner Inc.
Master Pension Trust
Times Mirror Savings
Plus Plan
Timothy R. Kennedy
Timothy S. Pecaro
TLCD List LP
TMI
TMS/ITS Settlement
Account for HFF I LLC
Tocqueville Asset
Management LP
Tommie L. Cordero, as a
Trustee of the 12/09/90
Tommie L. Cordero
Trust
Tompkins Financial
Corporation F/K/A
Tompkins Trustco, Inc.
Toro Trading LLC
Towerview LLC
Tradelink LLC
Traits Omni

Transamerica Asset
Management, as
Owner of the Dia Mid
Cap Value Portfolio
Transamerica Partners
Mid Value Portfolio
(f/k/a Transamerica
Partners Mid-Cap
Value Portfolio F/K/A
Diversified Investors
Mid-Cap Value
Portfolio)
Transamerica Partners
Portfolios (f/k/a
Diversified Investors
Portfolios)
TRE Pension EFT
Account Pension
Payment System
Treasurer of the State of
North Carolina
Treasurer of the State of
North Carolina Index
Tribune Co Com Stk
Tender Exp, Tensor
Opportunity Limited
c/o M. Safra & Co., Inc.
Tribune Company
401(K) Savings Plan
Tribune Company
Master Retirement
Savings Trust
Tribune Employee Stock
Ownership Plan

277a
Trinity Derivatives
Group LLC
Trudy V. Dunaway, as a
Trustee of the FBO
Dunaway Family Trust
U/A/D 07-05-1991
Trust by Alyce Tuttle
Fuller U/A DTD
10/03/2003
Trust D for a Portion of
the Assets of the
Kodak Retirement
Income Fund Plan
Trust for the Benefit of
Mary Anne Vydra
U/A/D 03-10-2006
Trust U/W of Sol
Diamond Dated
12/4/72
Trust U/A E. L. Sanford
Children FBO Ada
Trustees of Boston
College
Trustees of the Central
States, Southeast and
Southwest Areas
Pension Fund, as
Administrator of the
Central States,
Southeast and
Southwest Areas
Pension Fund
Twin Securities, Inc.

U.S. Bank National
Association as Trustee
of the US Bancorp
Pension Plan
U.S. Large Company
Equity Fund
U.S. Shares Programs
U/A/D 07-14-2000 FBO
the 2000 Peckham
Family Trust
UA Local Union office &
Employees [United
Ass’n of Journeymen
and Apprentices of the
Plumbing and Pipe
Fitting Industry]
UBS AG
UBS Financial Services
Inc.
UBS FTC S&P 500
Index Portfolio, John
Doe, as Owner of,
Wilmington Trust
Fiduciary Services
Company
UBS Securities LLC
UBS Securities LLC as
Successor to UBS
Securities Inc.
UD Virginia S. Risley Jt
Risley
UD VS Risley CJ De
Sieyes et al

278a
UD VS Risley DC De
Sieyes et al
UFCW International
Union-Industry
Pension Fund
UFCW Midwest Pension
Fund
UMC Benefit Board, Inc.
UMWA 1974 Pension
Trust
United Church of Christ,
Defined Contribution
United Food &
Commercial Workers
International Union–
Industry Pen Fd
United Food and
Commercial Workers
Unions and Employers
Midwest Pension Fund
United States Trust
Company of New York,
as Trustee of the Trust
U/I Katherine Pratt
Twichell Dated July
27, 1964 for the Issue
of Harmony T.
Clement
United States Trust
Company of New York,
as Trustee of the Trust
under an Agreement
dated December 13,
1976 Between Virginia

S. Risley, as Settlor,
and William H. Risley,
David C. De Sieyes,
and United States
Trust Company of New
York, as Trustees
United Teamsters
Pension Fund “A,” by
and Through Its Board
of Trustees
United Technologies
Corp. Master
Retirement Trust,
John Doe, Trustee for
University of California
Board of Regents
University of Toronto
Master Trust
US Bank N.A. as
Trustee of Andersen
Defined Benefit
US Bank N.A. as
Trustee of Bellin
Hospital
US Bank N.A. as
Trustee of Dorothy R
Moog Family Trust
US Bank N.A. as
Trustee of Lay
Employees of the
Archdiocese of
Cincinnati Defined
Benefit Plan

279a
US Bank N.A. as
Trustee of Thelma
Orshek Testamentary
Trust
US Bank N.A. as
Trustee of William B.
Denhart Nonqualifying
Trust under Will of
William B. Denhart
US Bank N.A. as
Trustee of Wm & Jane
Hays Charitable
Remainder Unitrust
US Trust Co., N.A.
V Trader Pro LLC
V. M. Brookes
Valic Company I [Stock
Index Fund, a Series of
Valic Company I f/k/a
Aig Retirement
Company I]
Value Fund, a Series of
First Investors Equity
Funds
Value Fund, a Series of
First Investors Life
Series Funds
Vanguard Fiduciary
Trust Company,
Custodian, and John
Maher, Beneficiary,
John Maher IRA
Rollover Account

Vanguard Fiduciary
Trust Company,
Custodian, William O.
Howe IRA
Vantagepoint Funds
Varda Rabin, as Trustee
of the Irving & Varda
Rabin 1992 Revocable
Trust
Variable Insurance
Products Fund II [VIP
Index 500 Fund, a
Series of Variable
Insurance Products
Fund II]
Veba Partnership N L.P.
Veba Partnership X L.P.
Veritable Partnership
Holding, Inc.
Verizon Investment
Management
Corporation
Vermont State
Employees Retirement
System
Vern M. Strickler
Verna R. Harrah, as
Trustee of the Verna R.
Harrah Trust Special
Account DTD 9/5/86
Vicesel Group Inc.
Victor Grossi

280a
Victor Grossi Trust UA
DTD 05/08/98 FBO
Victor Grossi
Vikram Parvataneni
Vilma L Chantiles Jt
Ten
Vilma L. Chantiles
Vincent A. Badali, as a
Trustee of the Victoria
Badali Dec of Living
Family Trust UAD
12/9/98
Vincent A. G. Badali, as
a Trustee of the
Victoria Badali Dec of
Living Family Trust
UAD 12/9/98
Virginia A. Kearns, as
Trustee of the Virginia
Kearns Revocable
Trust
Virginia G. Shuster
Virginia K. Townley
Virginia Kearns
Revocable Trust
Virginia Sonnenschein
Trust
Virginia Sonnenschein,
as Trustee of the
Virginia Sonnenschein
Trust
Vivian B. Larsson Trust
Vogel Consulting Group,
S.C.

Vyvian Heath
W. Milton Jr. Trust
under Will for the
Benefit of Anna
Livingstone
W. Rockwell Wirtz
W. Wrigley Jr.
Christmas Trust
W.G. Lassiter Jr.
Wabash/Harvest
Partners LP (f/k/a
Wabash Harvest
Partners LP)
Wachovia Bank f/k/a
Wachovia Bank, N.A.
Walker House Spv Ltd.
Walter E. Graham
Walter E. Graham, as
Trustee of the Trust by
Walter K. Graham for
the Benefit of Anne G.
Taylor U/A DTD
10/16/2000
Walter K. Graham
Walter K. Taylor
Walters Art Gallery,
Inc., d/b/a the Walters
Art Museum
Walters Trustees
Consolidated Fund–
Fixed Income
Warren B. Williamson

281a
Warren B. Williamson,
as Trustee of the
Chandler Trust No. 1
Warren B. Williamson,
as Trustee of the
Chandler Trust No. 2
Warren J. Eide
Washington Area
Carpenters Pension
Fund
Water and Power
Employees’
Retirement, Disability,
and Death Benefit
Insurance Plan
Waterman Broadcasting
Corp Employee Profit
Sharing Plan U/A
01/01/1974
Waterman Broadcasting
Corp. Employee Profit
Sharing Plan U/A
01/01/1974
Waterman Broadcasting
Inc.
Wayne F. McNulty
Wayne F. McNulty and
Irene M. McNulty, a
Washington Marital
Community
Wayne Hummer Trust
Co NA
Wealth Management
Services

Wedbush Morgan
Securities, Inc.
Wedbush Securities, Inc.
Weintraub Capital
Management
Weiss Multi-Strategy
Partners LLC
Welch and Forbes LLC
Welfare & Pension
Administration
Services Inc., as
Administrator of the
Automotive Machinists
Pension Trust Fund
Welfare and Pension
Admin. Service, Inc.,
as Administrator of the
International Union of
Operating Engineers
Construction Industry
Retirement Fund for
Locals 302 and 612
Wellspan Health Master
Trust
Wellspan Health System
Westchester Capital
Management LLC
WG Trading Company
LP
Whi Growth Fund
White Mountains Re
Bermuda Ltd.

282a
White Mountains
Reinsurance Company
of America
Whitebox Diversified
Convertible Arbitrage
Fund LP
Whitebox Hedged High
Yield Fund, L.P.
Will K. Weinstein, as
Trustee of the Will K.
Weinstein Revocable
Trust U/A DTD 2-2790
William Apfelbaum
William Blair & Co.
William Bross Lloyd Jr.
New York Trust Dated
July 18, 1968
William Bross Lloyd Jr.
Vermont Trust Dated
July 18, 1968
William Caplice
Revocable Trust
William D. Mac Donald,
as Trustee of the
William D. Mac Donald
& Nancy L. Mac
Donald Trust U/A 7 21
William F. Warchol
William H. Risley, as
Trustee of the Trust
Under an Agreement
Dated December 13,
1976 Between Virginia

S. Risley, as Settlor,
and William H. Risley,
Charles Joseph De
Sieyes and United
States Trust Company
of New York, as
Trustees
William H. Risley, as
Trustee of the Trust
under an Agreement
dated December 13,
1976 Between Virginia
S. Risley, as settlor,
and William H. Risley,
David C. De Sieyes,
and United States
Trust Company of New
York, as Trustees
William H. Risley, as
Trustee of the Trust
under an Agreement
dated December 19,
1977 Between Virginia
S. Risley, as Settlor,
and William H. Risley
and United States
Trust Company of New
York, as Trustees
William J. Bell, as
Trustee of the William
James Bell 1993 Trust
U/A 8/23/93 (Cash &
Holding Account)
William J. Brown

283a
William J. Byrnes, as
Trustee of the
Stephanie B Flynn
Trust U/A DTD
11/14/62
William J. Byrnes, as
Trustee of the William
J. Byrnes Trust U/A
DTD 11/14/62
William K. McGee Jr.
William Kaszton, as
Trustee of the Kaszton
Family Trust U/A/D
10/23/97
William M. Garland Iii
William Murphy
William O. Howe
William Osborn, as
Trustee of the Herman
R. Friedberg Revocable
Trust
William P. Hammond
Trust
William P. Hammond,
Trustee
William P. Mumma and
Kathleen A. Mumma
William Sanderson
Twaddell
William Stinehart Jr., as
Trustee of Chandler
Trust No. 1

William Stinehart Jr., as
Trustee of Chandler
Trust No. 2
William V. Monopoli
William V. Monopoli and
Mary K. Monopoli
William W. Howells
Willow Creek Capital
Partners
Willow Creek Offshore
Fund
Wilmington Fiduciary
Trust Services Co.
(f/k/a UBS Fiduciary
Trust Co.) Collective
Investment Trust for
Employee Benefit
Plans
Wilshire 5000 Index
Fund
Wilshire Mutual Funds,
Inc., as Owner of the
Wilshire 5000 Index
Fund
Wilshire Variable
Insurance Trust
Wilshire Variable
Insurance Trust
Equity Fund
Wilshire Variable
Insurance Trust
Socially Responsible
Fund

284a
Winchester Evening
Star, Inc.
Wirtz Corporation
Wisconsin Reinsurance
Corp
Wolverine Convertible
Arbitrage Fund LLC
Wolverine Trading LLC
Woodmont Investments
Ltd.
Worldwide Transactions
Limited
Wpg Ericott Merger
Arbitrage Overseas LP
WPML Limited
Partnership
Wrigley, William Jr.,
Trustee, W. Wrigley Jr.
Christmas Trust
Xcel Energy Inc.
Yield Strategies Fund I
LP
Ziegelman Partners LP
Ziegler Family Trust A
Zoltan Horvath
Zoltan Horvath and
Lidia Horvath
Zoological Society of San
Diego

285a
Retiree Respondents
1IA SPX1
A. G. Edwards & Sons,
LLC
A. G. Edwards Private
Equity Partners III,
L.P.
A. G. Edwards, Inc.
A/C CSFB Prop Trading
US
Abbey National
Securities Inc
Aerial Investments, LLC
Alberta - WCB
Alberta W. Chandler
Marital Trust No. 2
Alexandra Global
Master Fund Ltd
Alliancebernstein L.P.
Alpine Associated LLC
Alpine Associates Access
LLC (A/K/A Alpine
Associates LLC)
Alyce Tuttle Fuller Ttee
AM Master Fund III, LP
Amalgamated Bank
American Enterprise
Investment Services
Inc.
Amida Partners Master
Fund Ltd
Antoinette B
Brumbaugh TTEE U/A

DTD 10/05/94 by
Antoinette B
Brumbaugh Pledged to
ML Lender
Ariel Capital
Management
Ariel/Aprf/Ariel
Appreciation Fund
Ariel/Maxmid/Maxim
Midcap Portfolio
Arthur L. Holden
Assent LLC
Attn Intl Program
Trades
Aviv Nevo
B Trade Services LLC
B Woods & L Mitchell
TTEE - Woods/Mitchell
Family Trust U/A DTD
01/25/1999
Banc of America
Securities LLC
Bank of America
Corporation
Bank of America, N.A.
Bank West Trust I
Bank West Trust II
Barclays Capital, Inc.
Barclays GBL Investors
NA
Baxter
Bechtel

286a
BellSouth Corp. NonRepresentable Health
Care Trust
Bernard and Barbro
Osher 2006 Charitable
Rem Unitrust #2
Bernard Osher 2006
Charitable
Bernard Osher Trust
U/A DTD 3/8/88
Beverly Perry
Blackport Capital Fund
Ltd
Blue Chip Fund, a
Series of First
Investors Life Series
Funds
BMO Nesbitt Burns
Corp.
BMO Nesbitt Burns
Employee CoInvestment Fund I
(U.S.) L.P.
BMO Nesbitt Burns
Employee CoInvestment Fund I
Management (U.S.)
Inc.
BMO Nesbitt Burns
Employee CoInvestment
Intermediate (U.S.)
Gp, L.P.

BMO Nesbitt Burns
Employee CoInvestment
Intermediate (U.S.),
L.P.
BMO Nesbitt Burns
Trading Corp. S.A.
BMO Nesbitt Burns U.S.
Blocker Inc.
BMR 2 LLC
BNP Paribas Prime
Brokerage, Inc.
BNP Paribas Securities
Corp.
Bruce Kirkpatrick
BZW Securities, Inc.
CA Public Ee Retrmnt
Sys
California Ironworkers
Field
Calpers (California Pub.
Emp. Retire. Sys.)
Calpers (Dynamic
Completion Fund)
Camilla Chandler
Family Foundation
Canadian Imperial
$55arb
Cantigny Foundation
Cantor Fitzgerald & Co.
Carl Zlatchin Profit
Carlyle Multi-Strategy
Master

287a
Catherine A Verdusco as
Trustee U/A DTD
12/13/1989 Francesca
J. Verdusco Trust
Catherine A Verdusco
Ttee U/A DTD
12/13/1989 Benjamin
J. Verdusco Trust
Catholic Health West
CHW
CBS Master Trust
Cecil Smith
Cedar Grove Cem Assn
Perp Care
Central States SE & SW
Areas
Chandler Trust No. 1
Chandler Trust No. 2
Cheyne Capital
Management, Inc.
Cheyne Capital
Management, LLC
Chicago Tribune
Foundation
CIBC World Markets
Corp.
CIBC World Markets,
Inc.
CIM XVI LLC
Citadel LLC (F/K/A
Citadel Investment
Group, LLC)
Citibank, N.A.

Citigroup Global
Markets, Inc.
City National Bank of
New Jersey Capital
Trust I
CMA Omnibus
Cnty Empl Annty & Ben
Fnd Cook Cnty
Collective Trust of the
Bank of New York
Comerica Bank
Confidential Stock
Transferees
Consolidated Edison of
NY K801
Credit Agricole
Securities (USA) Inc.
Credit Suisse (USA),
Inc.
Credit Suisse First
Boston
Credit Suisse Securities
(USA) LLC
Credit SuisseInvestment Banking
and Security
Investment Division
Cutler Group LP
D E Shaw Valence
Portfolio LLC
D.E. Shaw Investment
Management, L.L.C.
Daryl V Dichek

288a
Davenport & Company
LLC
David D. Grumhaus
1990 Trust
DB AG Equity Swaps
Offshore Consolidated Account I
DBSO Securities Ltd.
DE Shaw Oculus Port
LLC - Us A
Delos Insurance
Company
Deutsche Bank - Private
Banking and
Investment Banking
Investments Division
Donald M. Hinman Jr.
Dorothy B. Chandler
Marital Trust No. 2
Dorothy B. Chandler
Residuary Trust No. 2
Dr. David L. Hoexter Ira
R/O
Drawbridge Global
Macro
Earl E. Crowe Trust No.
2
Echotrade LLC
E-Connectivity Avg Px
Edward D. Jones & Co.,
L.P.
Eric D. Werthman
Erturk Ozbek Ttee
Eureka Options LLC

EWT, LLC
FAO Deephaven
FAO Havens Advisors
LLC
Fifth Third Bank
First Bank & Trust
First Clearing LLC
First Option Consulting,
Inc.
First Option Debt
Solutions Ltd.
First Option Funding
Corp.
First Republic Bank
Firstar Trust Company
Flexible US Equity
Managers
Forestal Funding
Master Trust
Gabelli Asset
Management Company
Gabelli Avg Price 2
Gabelli Equity Trust Inc
Gabelli Funds, Inc.
Gabelli Funds, Inc. Gabelli ABC Fund
Gabelli Funds, Inc. Gabelli Funds Inc.
Gabelli Funds, Inc. - The
Gabelli Asset Fund
Gabelli Funds, Inc. - The
Gabelli Equity Inc. FD

289a
Gabelli Funds, Inc. - The
Gabelli Global
Multimed TR
Gabelli Global Deal
Fund
Gabelli Value Fund, Inc.
Gamco Investors, Inc.
Garland Foundation
Trust No. 2
Gaspare Locascio &
Dolores Locascio Jt
WROS
Gene C Mccaffery
Glass Lewis & Co.
Glenmede Trust
Company, N.A.
GMIMCO Trust
Goldentree Master Fund
II, Ltd.
Goldentree Master Fund
Ltd.
Goldentree
Multistrategy Offshore
Fund
Goldman Sachs
Execution & Clearing,
L.P.
Goldman Sachs
International Holdings
LLC
Goldman, Sachs & Co.
Greenock Mult-Strategy
Greywolf Capital
Management L.P.

Gryphon Hidden Value
VIII LP
Gryphon Hidden Values
Viii Ltd
Gulco Corp
Halcyon Diversified
Fund LP
Harbor Capital Group
Trust
Havens Partners
Enhanced Fund, L.P.
Havens Partners, L.P.
HBK Investments L.P.
Helen Garland Trust No.
2 (for Gwendolyn
Garland Babcock)
Helen Garland Trust No.
2 (for Hillary Duque
Garland)
Helen Garland Trust No.
2 (for William M.
Garland Iii)
Herbert G. Lau Profit
Sharing QRP
Participation
HFR Asset Mgmt. LLC
Himan Brown
HOC GST Exempt Trust
No. 2. FBO Eliza
Haskins
HOC GST Exempt Trust
No. 2. FBO John
Haskins

290a
HOC GST Exempt Trust
No. 2. FBO Scott
Haskins
HOC Trust No. 2 FBO
Eliza Haskins
HOC Trust No. 2 FBO
John Haskins
HOC Trust No. 2 FBO
Scott Haskins
Hudson Bay Fund LP
Hudson Bay Master
Fund Ltd
IBM Personal Pension
Plan Trust
Illinois State Board of
Invest
Instinet Corp NY
Interactive Brokers Inc.
Iolaire Investors LLP
Iris B. Mahoney & Paul
M. Mahoney Ttees for
Iris B. Mahoney
Revocable Trust U/A/D
04/10/98
Irving & Varda Rabin
1992 Revocable Trust
J.J.B. Hilliard, W.L.
Lyons, LLC
James Rothermel
James Thomas Wirth
Janna L Gadden
Jefferies & Company,
Inc.
Jianshi Mao

John W. Madigan TTEE
Joy Leichenger Ttee Joy Leichenger Trust U/A DTD 08/02/1978
Kaiser Fdn Hlth
Plans+Hospital
Kenneth Cahn
Key Bank, N.A.
Labranche Structured
Products LLC
Legent Clearing LLC
Leonard F. Hill, Ttee
Hill Revocable Living
Trust DTD 12/24/91
LFT Partnership
Loeb Arbitrage
Management LP
LPl Financial
Corporation
Lucile M Dunn Ttee U/A
DTD 12/19/1991 Lucile
Mcvey Dunn Trust
M.L. Stern & Co., LLC
Manufacturers and
Traders Trust
Company
Marian Otis Chandler
Trust No. 2
Mary F Brown
Mary Rothermel
Matthew Halbower
Max S Bell and Jean F
Bell

291a
May C. Goodan Trust
No. 2
Mellon Trust of New
England, National
Association
Mergers Invtmt Trd
Merrill Lynch & Co., Inc.
Merrill Lynch Capital
Corporation
Merrill Lynch, Pierce,
Fenner & Smith
Incorporated
Met Life
Metropolitan Life
Insurance Company
Michael J. Liccar & Co.
Millenco LLP
Monica K. Hinman
Monumental Life
Insurance Co
Morgan Stanley & Co.
LLC (f/k/a Morgan
Stanley & Co.
Incorporated)
Morgan Stanley Smith
Barney LLC
Morgan, Keegan &
Company, Inc.
Mrs Lois D Kaliebe Ttee
MS Select-Value Added
Market
Nancy Fay Johnson
Natixis Bleichroeder Inc.

Natixis Securities North
America Inc.
Neuberger Berman Inc.
Neuberger Berman LLC
New York City Deferred
Compensation
New York State
Teachers Retire
Newedge USA, LLC
Nicholas H. Werthman
Nomura Securities
International, Inc.
Northern Trust Global
Advisors, Inc.
NYC District Council
Carpenters
NYC Employees
Retirement System
Oppenheimer & Co. Inc.
Optionsxpress, Inc.
O’Shaughnessy
Paris Trading
Patricia Crowe Warren
Residuary Trust No. 2
Patricia H Yeomans
TTEE - the Yeomans
Family Trust U/A
2/22/92
Paul M Mahoney Ttee
U/W/O Paul P
Mahoney DTD
12/28/1978
PCRG (Fund I, LLC)
PCRG (Fund II, LLC)

292a
PCRG (Fund III, LLC)
Penson Financial
Futures, Inc.
Penson Financial
Services, Inc.
Perry Capital L.L.C.
Pershing LLC
PG&E Qual CPUC NDT
Partnership
Philip B Doherty Ttee
Philip Chandler
Residuary Trust No. 2
Phoenisx Inc
PNC Bank, Delaware
Polly H. Howells
PowerShares FTSE
RAFI US 1000
Prime Broker Cssi Stock
Split
Prism Partners I
Prism Partners II
Offshore Fund
Prism Partners II, L.P.
Prism Partners III
Leverage LP
Prism Partners IV
Leveraged Offshore
Fund
Prism Partners Offshore
Prism Partners Offshore
Fund
PS Buyback Achievers
Port

Putnam Lovell NBF
Securities Inc
Quintessence Fund L.P.
QVT Fund LP
Raymond James
Financial Services, Inc.
Raymond James Ltd.
(USA), Inc.
Raymond James Trust
N.A.
RBC Capital Markets
Arbitrage, LLC
RBC Capital Markets
Corporation
RBC Capital Markets
Holdings (USA) Inc.
RBC Capital Markets,
LLC
RBS Securities Inc.
Re Camden Asset Mgmt
LP
Regions Bank
Regions Financial
Corporation
Reinhold & Shelley
Weege TTEE - Weege
Family Trust - U/A
6/21/89
Relative Value FD LP
(a/k/a Highbridge
Event Drvien
Opportunities Fund,
L.P.)
Reliance Trust Company

293a
Richard & Carol Askin
TTEE U/A DTD
09/27/1990 by Askin
Family Trust
Rief RMP LLC
Rief Trading LLC
Robert D Bosau
Robert D Friedman
TTEE - Friedman
Living Trust -U/A
08/04/99
Robert R. McCormick
Foundation
Romano Brothers
Investors, LLC
Rose T Bosau
Rosenberg Revocable
Trust - Claude and
Louise Rosenberg
Trustees
Ruth C. Von Platen
Trust No. 2
Ruth McCormick
Tankersley
Ruth McCormick
Tankersley Trust
dated 12/3/1990
RWB
Sacramento Cnty Emp
Ret System
Samuel Moore Ttee Samuel S. Moore Trust
- U/A DTD 10/11/1988

San Pasqual Fiduciary
Trust Co.
Sandelman Partners
Sanford C. Bernstein &
Co., LLC
SBI Swaps
SC Edison Nuclear
Facilities
Schultze Asset
Management, LLC
Scotia Capital (USA)
Inc.
Sempra Energy Pension
Mstr Trst
SG Americas Securities,
LLC
Shirley Dichek Ttee Dichek Family Trust U/A 12/11/74 FBO
Shirley Dichek
Southwest Securities,
Inc.
Spear Leeds and Kellogg
Stanford University
LCV
State Street Bank &
Trust Company
State Street
Luxembourg, S.A.
Stephanie B Flynn &
William J. Byrnes
Ttees
Stephens, Inc. (a.k.a.
Stephens Inc.)

294a
Stifel, Nicolaus &
Company Incorporated
Stock Borrowed-NY
Strategic Funds, Inc.
STRS
SunTrust Bank
SuttonBrook Capital
Portfolio LP
Swiss American
Advisors, LLC
Swiss American
Corporation
Synergy Capital
Management LLC
T. Rowe Price Group,
Inc.
Talon Opportunity
Partners LP
Terra Nova Financial,
LLC
The Bank of New York
Mellon Employee
Benefit Collective
Investment Fund Plan
(f/k/a the Mellon Bank,
N.A. Employee Benefit
Collective Investment
Fund Plan)
The Bank of Nova Scotia
The Dorothy Cahn Trust
UAD 07/03/1981
The Northern Trust
Company

The Spurgeon Family
Limited
The Sumitomo Trust &
Banking Co., Ltd., as
Trustee for Pension
Commingle Fund
The Whittier Trust
Company
Time Warner Inc Master
Pension
TMS/ITS Sett A/C for
HFF I LLC
Traits Omni
Transit Employees
Retirement
TRE Pension EFT ACCT
PPS
U.S. Trust Company of
Delaware
UBS Financial Services,
Inc.
UBS Global Asset
Management
(Americas) Inc.
UBS Global Asset
Management (US) Inc.
UBS Securities LLC
Ultra Select LP
UMB Bank, N.A.
UMC Benefit Board, Inc
University of CA
Regents
V Trader Pro LLC

295a
Value Fund, a Series of
First Investors Life
Series Funds
Value Line, Inc
Vanderbilt Partners,
LLC
Verna R. Harrah Trust
Special Account DTD
9/5/86
Wachovia Bank, N.A.
Water and Power
Employees’ Ret
Wedbush Securities, Inc.
Weintraub Capital
Management
WG Trading Co LP

White Mountains
Reinsurance Company
Will K. Weinstein
Revocable Trust U/A
DTD 2-27-90
William Blair &
Company, L.L.C.
William F. Warchol
William J Bell TTEE
William - James Bell
1993 TR U/A 8/23/93
(Cash & Holding
Account)
William J Brown
Wilmington Trust
Company
Wirtz Corporation

296a
APPENDIX K
RELATED CASES
United States Court of Appeals for the
Second Circuit
Case name

Case
Number

In re Tribune
Company
Fraudulent
Conveyance
Litigation
In re Tribune
Company
Fraudulent
Conveyance
Litigation
In re Tribune
Company
Fraudulent
Conveyance
Litigation
In re Tribune
Company
Fraudulent
Conveyance
Litigation

13-3992

Date of
Docket
entry of Number
judgment
Dec. 19,
432
2019

13-3875

Dec. 19,
2019

311

13-4178

Dec. 19,
2019

295

13-4196

Dec. 19,
2019

296

297a
United States District Court for the
Southern District of New York
Noteholder Actions:
Case name

Case
Number

Deutsche Bank
Trust Co.
Americas v. Abu
Dhabi Investment
Authority

1:11-cv04522

Date of
Docket
entry of Number
judgment
Sept. 27,
352
2013

Deutsche Bank
1:11-cvTrust Co.
04784
Americas v. Adaly
Opportunity Fund
TD Securities Inc.
C/O Adaly
Investment
Management Co.

Sept. 27,
2013

828

Deutsche Bank
Trust Co.
Americas v.
Cantor Fitzgerald
& Co.
Deutsche Bank
Trust Co.
Americas v. CIBC
World Markets
Corp.
Deutsche Bank
Trust Co.
Americas v.

1:11-cv04900

Sept. 27,
2013

153

1:11-cv05136

Sept. 27,
2013

90

1:11-cv09319

Sept. 27,
2013

242

298a
Case name
Blackrock
Institutional
Trust Co., N.A.
Deutsche Bank
Trust Co.
Americas v.
Sumitomo Trust
& Banking Co.
(U.S.A.)
Deutsche Bank
Trust Co.
Americas v.
Merrill Lynch
Trust Co.
Deutsche Bank
Trust Co.
Americas v. Eaton
Vance Multi Cap
Growth Portfolio
Deutsche Bank
Trust Co.
Americas v.
Richard Paniagua
Deutsche Bank
Trust Co.
Americas v. King
Deutsche Bank
Trust Co.
Americas v.
Anderson

Case
Number

Date of
Docket
entry of Number
judgment

1:11-cv09406

Sept. 27,
2013

196

1:11-cv09407

Sept. 27,
2013

178

1:11-cv09408

Sept. 27,
2013

111

1:11-cv09409

Sept. 27,
2013

329

1:11-cv09410

Sept. 27,
2013

161

1:11-cv09510

Sept. 27,
2013

180

299a
Case name

Case
Number

Deutsche Bank
Trust Co.
Americas v. The
Burroughs
Wellcome Fund
Deutsche Bank
Trust Co.
Americas v. Aqua
America-Gabelli
Asset Mgt
Deutsche Bank
Trust Co.
Americas v.
Associated Bank
Green Bay, NA
Deutsche Bank
Trust Co.
Americas v.
Mazur, Howard
Deutsche Bank
Trust Co.
Americas v.
Employees
Retirement Fund
of the City of
Dallas
Deutsche Bank
Trust Co.
Americas v. Bank
of America

1:11-cv09511

Date of
Docket
entry of Number
judgment
Sept. 27,
168
2013

1:11-cv09512

Sept. 27,
2013

149

1:11-cv09514

Sept. 27,
2013

185

1:11-cv09515

Sept. 27,
2013

97

1:11-cv09568

Sept. 27,
2013

263

1:11-cv09569

Sept. 27,
2013

156

300a
Case name
NA/Gwim Trust
Operations
Deutsche Bank
Trust Co.
Americas v. Long
Deutsche Bank
Trust Co.
Americas v. Ader
Deutsche Bank
Trust Co.
Americas v. First
Republic Bank
Deutsche Bank
Trust Co.
Americas v.
Robert Dishon
Family Trust
Deutsche Bank
Trust Co.
Americas v. 1st
Source Bank
Deutsche Bank
Trust Co.
Americas v. Sirius
International
Insurance
Corporation
Deutsche Bank
Trust Co.
Americas v.

Case
Number

Date of
Docket
entry of Number
judgment

1:11-cv09570

Sept. 27,
2013

227

1:11-cv09571

Sept. 27,
2013

261

1:11-cv09572

Sept. 27,
2013

620

1:11-cv09581

Sept. 27,
2013

129

1:11-cv09582

Sept. 27,
2013

209

1:11-cv09583

Sept. 27,
2013

286

1:11-cv09584

Sept. 27,
2013

149

301a
Case name
Aetna, Inc.
Deutsche Bank
Trust Co.
Americas v. Wells
Fargo Bank, N.A.
Deutsche Bank
Trust Co.
Americas v.
Sowood Alpha
Fund LP
Deutsche Bank
Trust Co.
Americas v. RBS
Securities Inc.
Deutsche Bank
Trust Co.
Americas v.
Automotive
Machinists
Pension Trust
Fund
Deutsche Bank
Trust Co.
Americas v.
Huntington
National Bank
Deutsche Bank
Trust Co.
Americas v.
Ameriprise Trust

Case
Number

Date of
Docket
entry of Number
judgment

1:11-cv09585

Sept. 27,
2013

109

1:11-cv09586

Sept. 27,
2013

296

1:11-cv09587

Sept. 27,
2013

92

1:11-cv09588

Sept. 27,
2013

186

1:11-cv09589

Sept. 27,
2013

153

1:11-cv09590

Sept. 27,
2013

248

302a
Case name
Co.
Deutsche Bank
Trust Co.
Americas v.
Goodrich Corp
MAS TR QUAL
EMPL BEN
Deutsche Bank
Trust Co.
Americas v.
American Electric
Power
Deutsche Bank
Trust Co.
Americas v. AG
Edwards & Sons
Deutsche Bank
Trust Co.
Americas v.
Verizon
Investment
Management
Corporation
Deutsche Bank
Trust Co.
Americas v.
Alliance Capital
Management LLC
Deutsche Bank
Trust Co.

Case
Number

Date of
Docket
entry of Number
judgment

1:11-cv09591

Sept. 27,
2013

121

1:11-cv09592

Sept. 27,
2013

220

1:11-cv09593

Sept. 27,
2013

176

1:11-cv09594

Sept. 27,
2013

104

1:11-cv09595

Sept. 27,
2013

219

1:11-cv09596

Sept. 27,
2013

89

303a
Case name
Americas v. Wells
Fargo
Investments LLC
Deutsche Bank
Trust Co.
Americas v. ING
Trust Equity Inc.
Port
Deutsche Bank
Trust Co.
Americas v.
Ametek Inc
Employees
Master
Retirement Trust
Deutsche Bank
Trust Co.
Americas v.
Pandora Select
Partners LP
Deutsche Bank
Trust Co.
Americas v. U.S.
Bank, N.A.
Deutsche Bank
Trust Co.
Americas v.
Waterman
Broadcasting
Corporation

Case
Number

Date of
Docket
entry of Number
judgment

1:11-cv09597

Sept. 27,
2013

132

1:11-cv09598

Sept. 27,
2013

252

1:11-cv09599

Sept. 27,
2013

97

1:11-cv09600

Sept. 27,
2013

116

1:12-cv00061

Sept. 27,
2013

359

304a
Case name

Case
Number

Deutsche Bank
Trust Co.
Americas v.
National
Electrical Benefit
Fund
Deutsche Bank
Trust Co.
Americas v.
McGurn
Deutsche Bank
Trust Co.
Americas v.
Ohlson
Enterprises
Deutsche Bank
Trust Co.
Americas v. 1994
Alicia P.
Guggenheim
Deutsche Bank
Trust Co.
Americas v.
Fushimi
Deutsche Bank
Trust Co.
Americas v.
Oppenheimer
Main Street
Select Fund

1:12-cv00062

Date of
Docket
entry of Number
judgment
Sept. 27,
129
2013

1:12-cv00063

Sept. 27,
2013

257

1:12-cv00064

Sept. 27,
2013

778

1:12-cv00065

Sept. 27,
2013

249

1:12-cv00549

Sept. 27,
2013

130

1:12-cv00550

Sept. 27,
2013

124

305a
Case name

Case
Number

Deutsche Bank
1:12-cvTrust Co.
00552
Americas v. AIG
Life Insurance Co.

Date of
Docket
entry of Number
judgment
95

Retiree Actions:
Case name

Case
Number

Niese v.
AllianceBernstein
L.P.
Niese v. A.G.
Edwards, Inc.
Niese v. Chandler
Trust No. 1
Niese v. ABN
AMRO Clearing
Chicago LLC

11-cv04538

Date of
Docket
entry of
Number
judgment
Sept. 27,
419
2013

12-cv00551
12-cv00554
12-cv00555

Sept. 27,
2013
Sept. 27,
2013
Sept. 27,
2013

194
139
212

